NO. 19-255
IN THE

Supreme Court of the United States
_______________________

THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF THE STATE
OF CALIFORNIA,
________________________

Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
JOINT APPENDIX
________________________
JOHN J. BURSCH
Counsel of Record
ALLIANCE DEFENDING
FREEDOM
440 First Street, NW
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

AIMEE FEINBERG
Counsel of Record
CALIFORNIA DEPARTMENT
OF JUSTICE
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel for Respondent

Counsel for Petitioner

Petition for Writ of Certiorari Filed: August 26, 2019
Certiorari Granted: January 8, 2021

i
TABLE OF CONTENTS
Docket Entries from U.S. District Court
for the Central District of California
Case No. 2:15-cv-03048 .............................................. 1
Docket Entries from U.S. Court of Appeals
for the Ninth Circuit
Case No. 15-55911.................................................... 49
Docket Entries from U.S. Court of Appeals
for the Ninth Circuit
Case No. 16-56855.................................................... 62
Excerpts from Trial Transcript,
Day 1, Vol. 1 (ECF No. 155) ..................................... 84
Excerpts from Trial Transcript
Day 1, Vol. 2 (ECF No. 153) ................................... 116
Excerpts from Trial Transcript
Day 2, Vol. 1 (ECF No. 156) ................................... 193
Excerpts from Trial Transcript
Day 2, Vol. 2 (ECF No. 134) ................................... 253
Excerpts from Trial Transcript
Day 3 (ECF No. 157) .............................................. 281
Excerpts from Trial Transcript
Day 4 (ECF No. 158) .............................................. 291
Trial Exhibit No. 8 (Law Center memo re
Schedule B confidentiality) .................................... 297
Trial Exhibit No. 9 (Law Center confidentiality
agreement).............................................................. 299
Trial Exhibit No. 10 (email re communications
the Law Center received) ....................................... 302

ii
Trial Exhibit No. 20 (handwritten note from an
anonymous Law Center donor).............................. 303
Trial Exhibit No. 30 (website form submission to
the Law Center) ..................................................... 304
Excerpts from Trial Exhibit No. 38 (messages
the Law Center received) ....................................... 306
Trial Exhibit No. 65 & 65A (Declaration of
Robert Spencer with Exhibit A)............................. 320
Trial Exhibit No. 89 (communications sent to
Sally Kern) ............................................................. 331
Trial Exhibit No. 101 (letter from the Law
Center’s outside counsel to the Registry) .............. 337
Trial Exhibit No. 120 (messages sent to Melissa
Wood through Facebook) ....................................... 339
Trial Exhibit No. 165 (Washington Post article re
Pamela Geller)........................................................ 341
Trial Exhibit No. 167 (Daily Mail article re
Pamela Geller)........................................................ 345
Trial Exhibit No. 225 (2009 IRS letter re the
Law Center’s 501(c)(3) status) ............................... 352
Trial Exhibit No. 288 (Declaration of Melissa
Wood) ...................................................................... 354
Trial Exhibit No. 292 (SFiST article re AG
Harris) .................................................................... 360
Trial Exhibit No. 296 (press release re amicus
brief filed by AG Harris) ........................................ 362
Trial Exhibit No. 306 (Harris Senate-campaign
petition) .................................................................. 364

iii
Trial Exhibit No. 316 (communications between
counsel for Asian Americans Advancing Justice
and the AG’s Office) ............................................... 365
Trial Exhibit No. 317 (AG Office emails re
Beyond Baroque Foundation’s Schedule B) .......... 385
Trial Exhibit No. 328 (AG Office email re
confidential documents) ......................................... 387
Trial Exhibit No. 365 (sample 2015 IRS Form
990, Schedule B) ..................................................... 389
Trial Exhibit No. 411 (emails between counsel
for Planned Parenthood Affiliates of California
and the AG’s Office) ............................................... 399
Trial Exhibit No. 412 (AG office email re nonpublic documents) .................................................. 405
Trial Exhibit No. 862 (California notice of
approval of regulatory action) ............................... 407
Excerpts from Trial Exhibit No. 905 (James
McClave testimony at the Foundation trial) ........ 414
Excerpts from Trial Exhibit No. 908 (Thomas
Monaghan deposition in the Law Center’s case) .. 437
Excerpts from Trial Exhibit No. 909 (Dr. Paul
Schervish deposition in the Law Center’s case) ... 448
Excerpts from Trial Exhibit No. 913 (transcript
of Foundation trial, day 6) ..................................... 455
Excerpts from Trial Exhibit No. 917 (Belinda
Johns deposition in the Foundation’s case) .......... 469
Excerpts from Trial Exhibit No. 921 (Tania
Ibanez deposition in the Foundation’s case) ......... 475

iv
Excerpts from Trial Exhibit No. 922 (Tania
Ibanez deposition in the Law Center’s case) ......... 477
Excerpts from Trial Exhibit No. 925 (transcript
of Foundation trial, day 5 morning) ...................... 485
Excerpts from Trial Exhibit No. 926 (transcript
of Foundation trial, day 5 afternoon) .................... 496

1
Docket Entries:
United States District Court for the Central
District of California
No. 2:15-cv-03048-R-FFM
Date Filed

#

Docket Text

04/23/2015

1

COMPLAINT Receipt No:
0973-15599989 - Fee: $400,
filed by Plaintiff Thomas More
Law Center. (Attachments: # l
Exhibit
Exhibits
A-I)
(Attorney Sheila Pham added
to party Thomas More Law
Center(pty:pla))(Pham,
Sheila) (Entered: 04/23/2015)

04/23/2015

2

NOTICE
NOTICE
OF
PENDENCY OF OTHER
RELATED ACTIONS OR
PROCEEDINGS
filed
by
Plaintiff Thomas More Law
Center.
(Pham,
Sheila)
(Entered: 04/23/2015)
*****

04/23/2015

10

NOTICE OF MOTION AND
MOTION
for
Temporary
Restraining Order as to
enjoining Defendant Kamala
Harris from demanding or
enforcing demand for list of
organizations’ donors Motion
filed by Plaintiff Thomas More

2
Date Filed

#

Docket Text
Law Center. (Attachments: # l
Memorandum of Points and
Authorities In Support of
Application for Temporary
Restraining Order, # 2
Declaration
of
Richard
Thompson, # 3 Declaration of
Sheila Pham, # 4 Proposed
Order)(Pham,
Sheila)
(Entered: 04/23/2015)

04/23/2015

11

NOTICE of Related Case(s)
filed by Plaintiff Thomas More
Law Center. Related Case(s):
2:14-cv-09448-r-FFM (Pham,
Sheila) (Entered: 04/23/2015)
*****

04/29/2015

13

ORDER GRANTING PLAINTIFFS APPLICATION FOR
TEMPORARY PROTECTIVE
ORDER by Judge Manuel L.
Real: 10. The Court hereby
sets an Order to Show Cause
as to why a preliminary
injunction should not issue on
the same bases on May 11,
2015 at 10:00 a.m. Any
opposition is due on or before
May 4, 2015. Any reply to such
opposition will be due on or
before May 6, 2015. All hard

3
Date Filed

#

Docket Text
copies of papers are to be
delivered to chambers the
following morning no later
than 9:00 AM PST. The
temporary restraining order
will remain in effect until the
hearing on the Preliminary
Injunction. (pj) (Entered:
04/30/2015)
*****

05/04/2015

16

Response
of
Defendant
Attorney General Kamala D.
Harris to Order to Show
Cause Regarding Preliminary
Injunction Opposition re:
MOTION
for
Temporary
Restraining Order as to
enjoining Defendant Kamala
Harris from demanding or
enforcing demand for list of
organizations’ donors Motion
10 filed by Defendant Kamala
Harris. (Attachments: # 1
Declaration of Kim L. Nguyen
ISO Defendant’s Response to
OSC re: Preliminary Injunction, # 2 Exhibit A to Nguyen
Declaration, # 3 Exhibit B to
Nguyen Declaration, # 4
Declaration of Kevis Foley
ISO Defendant’s Response to

4
Date Filed

#

Docket Text
OSC
re:
Preliminary
Injunction, # 5 Declaration of
Steve Bauman ISO Defendant’s Response to OSC re:
Preliminary
Injunction)
(Attorney Kim L Nguyen
added to party Kamala
Harris(pty:dft))
(Nguyen,
Kim) (Entered: 05/04/2015)
*****

05/06/2015

19

REPLY In Support MOTION
for Temporary Restraining
Order
as
to
enjoining
Defendant Kamala Harris
from demanding or enforcing
demand for list of organizations’ donors Motion 10 filed
by Plaintiff Thomas More Law
Center. (Attachments: # 1
Declaration OF LOUIS H.
CASTORIA IN SUPPORT OF
PLAINTIFF THOMAS MORE
LAW CENTERS REPLY IN
SUPPORT
OF
PRELIMINARY INJUNCTION, # 2
Declaration
SUPPLEMENTAL
DECLARATION
OF RICHARD THOMPSON
IN SUPPORT OF PLAINTIFF
THOMAS
MORE
LAW
CENTERS
REPLY
IN

5
Date Filed

#

Docket Text
SUPPORT
OF
PRELIMINARY
INJUNCTION)
(Pham, Sheila) (Entered:
05/06/2015)
*****

05/11/2015

21

NOTICE of Ruling by Ninth
Circuit Court of Appeals filed
by Defendant Kamala Harris.

05/11/2015

22

NOTICE of Ruling by Ninth
Circuit filed by Plaintiff
Thomas More Law Center.
(Pham, Sheila) (Entered:
05/11/2015)

05/19/2015

23

ORDER ISSUING PRELIMINARY INJUNCTION by
Judge Manuel L. Real. IT IS
HEREBY ORDERED that a
preliminary injunction is
ISSUED that Defendant and
those
in
concert
with
Defendant are restrained
from demanding, or taking
any action to implement or
enforce Defendants demand
for, the names and addresses
of
Plaintiffs
donors,
particularly as contained in
Schedule B to IRS Form 990,
and from taking the other

6
Date Filed

#

Docket Text
adverse actions threatened in
Defendants March 24, 2015,
letter.
(shb)
(Entered:
05/19/2015)

05/26/2015

24

ANSWER to Complaint filed
by Defendant Kamala Harris.
(Nguyen,
Kim)
(Entered:
05/26/2015)

06/11/2015

25

FIRST
AMENDED
COMPLAINT
against
DEFENDANT All Defendants
amending
Complaint
(Attorney Civil Case Opening)
1, filed by Attorneys for
Plaintiff Thomas More Law
Center
(Pham,
Sheila)
(Entered: 06/11/2015)

06/11/2015

26

NOTICE OF APPEAL to the
9th CCA filed by Defendant
Kamala Harris. Appeal of
Order, 23 (Appeal fee of $505
receipt
number
097315892053
paid.)
(Attachments: # l Order Granting
Preliminary Injunction, # 2
Proof of Service)(Nguyen,
Kim) (Entered: 06/11/2015)
*****

7
Date Filed

#

Docket Text

06/12/2015

28

NOTIFICATION by Circuit
Court of Appellate Docket
Number 15-55911, 9th Circuit
regarding Notice of Appeal to
9th Circuit Court of Appeals,
26 as to defendant Kamala
Harris.
(mat)
(Entered:
06/12/2015)

06/15/2015

29

DESIGNATION of Record on
Appeal by Defendant Kamala
Harris re 26 (Attachments: # l
ECF Certificate of Service)
(Nguyen,
Kim)(Entered:
06/15/2015)

06/25/2015

30

ANSWER
to
Amended
Complaint/Petition 25 filed by
Defendant Kamala Harris.
(Nguyen,
Kim)
(Entered:
06/25/2015)

07/02/2015

31

NOTICE OF MOTION AND
MOTION to Stay Case
pending Resolution of Related
Appeals filed by Defendant
Kamala Harris. Motion set for
hearing on 8/17/2015 at 10:00
AM before Judge Manuel L.
Real. (Attachments: # 1
Memorandum of Points and
Authorities In Support of

8
Date Filed

#

Docket Text
Motion to Stay, # 2 Certificate
of Service) (Nguyen, Kim)
(Entered: 07/02/2015)

07/28/2015

32

MEMORANDUM in Opposition to NOTICE OF MOTION
AND MOTION to Stay Case
pending Resolution of Related
Appeals 31 filed by Plaintiff
Thomas More Law Center.
(Attachments: # l Declaration
Decl of Louis H Castoria ISO
Plaintiff’s Opposition to Def’s
Motion
to
Stay,
#
2
Supplement
Request
for
Judicial Notice ISO Plt’s
Opposition to Def’s Motion to
Stay)(Pham, Sheila) (Entered:
07/27/2015)

08/03/2015

33

REPLY
In
Support
Of
NOTICE OF MOTION AND
MOTION to Stay Case
pending Resolution of Related
Appeals 31 filed by Defendant
Kamala Harris. (Nguyen,
Kim) (Entered: 08/03/2015)

08/11/2015

34

SCHEDULING
NOTICE
TAKING MOTION UNDER
SUBMISSION
ON
THE
PAPERS WITHOUT NEED
OF ORAL ARGUMENT by

9
Date Filed

#

Docket Text
Judge Manuel L. Real: The
Court has determined that
Defendant Kamala Harris’
Motion to Stay Case Pending
Resolution of Related Appeals
31 set for hearing on August
17, 2015 at 10:00 A.M., is
suitable for a decision on the
papers as filed by all parties,
without the need for oral
argument; therefore, the said
Motion is taken UNDER
SUBMISSION on the papers
as filed, and the hearing date
of August 17, 2015 is
VACATED and TAKEN OFF
CALENDAR. The Court will
issue its ruling on the matter
in due course. THERE IS NO
PDF DOCUMENT ASSOCIATED WITH THIS ENTRY.
(cch) TEXT ONLY ENTRY
(Entered: 08/11/2015)

08/18/2015

35

ORDER DENYING DEFENDANT’S MOTION TO STAY
PROCEEDINGS PENDING
APPEAL 31 by Judge Manuel
L. Real. IT IS HEREBY
ORDERED that Defendant
Kamala Harris’ Motion to
Stay Proceedings Pending

10
Date Filed

#

Docket Text
Appeal is DENIED.
(Entered: 08/18/2015)

(lom)

*****
12/29/2015

38

ORDER from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals, 26 filed by
Kamala Harris. CCA # 1555911 and 15-55446. 1555446, motion to stay the
district court proceedings,
filed October 22, 2015, is
DENIED and motion for
judicial notice, filed June 24,
2015, is GRANTED. 15-55911,
Thomas More Law Centers
motion to supplement the
record, filed September 2,
2015, is DENIED. (mat)
(Entered: 12/30/2015)

12/29/2015

39

OPINION from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals, 26 filed by
Kamala Harris. CCA # 1555911 and 15-55446. We (9th
CCA) vacate the district
court’s
orders
granting
preliminary injunctions and
instruct the district court to

11
Date Filed

#

Docket Text
enter new orders preliminarily enjoining the Attorney
General only from making
Schedule
B
information
public. ORDERS VACATED.
(mat) (Entered: 12/30/2015)

01/05/2016

40

ORDER
ENJOINING
ATTORNEY
GENERAL
FROM
PUBLICLY
DISCLOSING SCHEDULE B
FORMS by Judge Manuel L.
Real:
IT
IS
HEREBY
ORDERED that the Attorney
General shall be permitted to
obtain and use Plaintiff’s
Schedule B forms for its
nonpublic
enforcement
purposes, but is strictly
prohibited from making the
Schedule B information public
in any manner or under any
circumstances. (gk) (Entered:
01/05/2016)

01/11/2016

41

NOTICE filed by Plaintiff
Thomas More Law Center.
NOTICE OF FILING OF
JOINT
PETITION
FOR
PANEL REHEARING AND
EN BANC REHEARING AND
REQUEST FOR STAY OF
ORDER (Attachments: # l

12
Date Filed

#

Docket Text
Declaration Decl of SMP ISO
of TMLC’s Notice of Filing of
Joint Petition for Panel
Rehearing and En Banc
Hearing and Req fo Stay of
Order)(Pham,
Sheila)
(Entered: 01/11/2016)
*****

04/06/2016

45

ORDER from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals, 26 filed by
Kamala Harris. CCA # 1555911. Appellants’ petition for
panel rehearing and rehearing en banc, filed January
11, 2016, is DENIED. (mat)
(Entered: 04/07/2016)
*****

04/18/2016

48

MANDATE of Ninth Circuit
Court of Appeals filed re:
Notice of Appeal 26 CCA # 1555911. The judgment of the
9th Circuit Court, entered
December 29, 2015, takes
effect this date. This constitutes the formal mandate of
the 9th CCA issued pursuant
to Rule 41(a) of the Federal

13
Date Filed

#

Docket Text
Rules of Appellate Procedure.
Each party shall bear its own
costs on appeal. [See USCA
Opinion
39
ORDERS
VACATED] (mat) (Entered:
04/18/2016)
*****

05/09/2016

52

NOTICE OF MOTION AND
MOTION
for
Summary
Judgment filed by Plaintiff
Thomas More Law Center.
Motion set for hearing on
6/6/2016 at 10:00 AM before
Judge Manuel L. Real.
(Attachments: # 1 Supplement
Separate
Statement
of
Uncontroverted Facts and
Conclusions of Law, # 2
Exhibit Request for Judicial
Notice)
(Cruz,
Marion)
(Entered: 05/09/2016)

05/09/2016

53

DECLARATION in support of
NOTICE OF MOTION AND
MOTION for Summary Judgment 52 Declaration of Louis
H. Castoria filed by Plaintiff
Thomas More Law Center.
(Attachments: # 1 Declaration
of Pamela Geller in Support of
Plaintiff’s
Motion
for

14
Date Filed

#

Docket Text
Summary
Judgment)(Cruz,
Marion) (Entered: 05/09/2016)

05/09/2016

54

EXHIBIT to NOTICE OF
MOTION AND MOTION for
Summary
Judgment
52
Declaration of Robert Spencer
filed by Plaintiff Thomas More
Law Center. (Attachments: #
1 Declaration of Francia
Morello)(Cruz,
Marion)
(Entered: 05/09/2016)

05/09/2016

55

DECLARATION in support of
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment 52 Declaration of
Melissa Wood filed by Plaintiff
Thomas More Law Center.
(Attachments: # l Declaration
of Melissa Wood in Support of
Motion
for
Summary
Judgment)(Cruz,
Marion)
(Entered: 05/09/2016)

05/09/2016

56

DECLARATION in support of
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment 52 Declaration of
Sally Kern filed by Plaintiff
Thomas More Law Center.

15
Date Filed

#

Docket Text
(Cruz,
Marion)
05/09/2016)

(Entered:

05/09/2016

57

DECLARATION in support of
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment 52 Declaration of
Richard Thompson filed by
Plaintiff Thomas More Law
Center.
(Cruz,
Marion)
(Entered: 05/09/2016)

05/09/2016

58

DECLARATION in support of
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment 52 Supplemental
Declaration
of
Richard
Thompson filed by Plaintiff
Thomas More Law Center.
(Cruz,
Marion)
(Entered:
05/09/2016)

05/09/2016

59

EXHIBIT to NOTICE OF
MOTION AND MOTION for
Summary
Judgment
52
Expert Report of Dr. James T.
McClave filed by Plaintiff
Thomas More Law Center.
(Cruz,
Marion)
(Entered:
05/09/2016)

05/09/2016

60

EXHIBIT to NOTICE OF
MOTION AND MOTION for

16
Date Filed

#

Docket Text
Summary
Judgment
52
Expert Report of Dr. Paul G.
Schervish filed by Plaintiff
Thomas More Law Center.
(Attachments: # l Exhibit)
(Cruz,
Marion)
(Entered:
05/09/2016)
*****

05/13/2016

65

Amendment to NOTICE OF
MOTION AND MOTION for
Summary Judgment 52 filed
by Plaintiff Thomas More Law
Center.
(Cruz,
Marion)
(Entered: 05/13/2016)
*****

06/20/2016

69

NOTICE OF MOTION AND
MOTION IN LIMINE to
Exclude Trial Testimony of
Ray Madoff filed by Plaintiff
Thomas More Law Center.
Motion set for hearing on
7/18/2016 at 11 :00 AM before
Judge Manuel L. Real.
(Attachments: # 1 Memorandum in Support of Motion in
Limine to Exclude Trial
Testimony of Ray Madoff, # 2
Affidavit of Louis Castoria in
Support of Motion in Limine

17
Date Filed

#

Docket Text
to Exclude Ray Madoff Trial
Testimony, # 3 Exhibit -Exhibits A thru D to Castoria
Declaration, # 4 Proposed
Order Granting Plaintiff’s
Motion in Limine to Exclude
Ray Madoff Trial Testimony)
(Johnston, Ian) (Entered:
06/20/2016)

06/20/2016

70

NOTICE OF MOTION AND
MOTION IN LIMINE to
Exclude Investigative Uses of
Schedule B filed by Plaintiff
Thomas More Law Center.
Motion set for hearing on
7/18/2016 at 11 :00 AM before
Judge Manuel L. Real.
(Attachments: # l Memorandum of Points and Authorities
in Support of Motion in
Limine to Exclude Investigative Uses of Schedule B, # 2
Affidavit of Louis Castoria in
Support of Plaintiff’s Motion
in Limine to Exclude Schedule
B, # 3 Exhibit -- Exhibits A
thru D to Castoria Declaration, # 4 Proposed Order
Grating Plaintiff'’s Motion in
Limine to Exclude Schedule

18
Date Filed

#

Docket Text
B)(Johnston, Ian) (Entered:
06/20/2016)

06/20/2016

71

NOTICE OF MOTION AND
MOTION IN LIMINE to
Exclude Plaintiff’s Expert
Witness Dr. Paul Schervish
filed by Defendant Kamala
Harris. Motion set for hearing
on 7/18/2016 at 11:00 AM
before Judge Manuel L. Real.
(Attachments: # l Declaration
of Jose A. Zelidon-Zepeda in
Supporting
Defendant’s
Motion in Limine Number
One to Exclude Plaintiff’s
Expert Witness Dr. Paul
Schervish, # 2 Exhibit 1, # 3
Exhibit 2, # 4 Proposed Order,
# 5 Certificate of Service)
(Zelidon-Zepeda,
Jose)
(Entered: 06/20/2016)

06/20/2016

72

NOTICE OF MOTION AND
MOTION IN LIMINE (#2) to
Exclude Evidence Regarding
Purported First Amendment
Harm to Donors filed by
Defendant Kamala Harris.
Motion set for hearing on
7/18/2016 at 11:00 AM before
Judge Manuel L. Real.
(Attachments: # l Declaration

19
Date Filed

#

Docket Text
of Alexandra Robert Gordon in
Support of Motion In Limine
#2, # 2 Exhibit 1, # 3 Exhibit
2, # 4 Exhibit 3, # 5 Exhibit 4,
# 6 Exhibit 5, # 7 Exhibit 6, #
8 Proposed Order, # 9
Certificate of Service)(Gordon,
Alexandra)
(Entered:
06/20/2016)

06/20/2016

73

NOTICE OF MOTION AND
MOTION IN LIMINE to
Preclude Motion in Limine for
Issue
Preclusion
to
Collaterally Estop Defendant
From
Denying
or
ReLitigating Issues Previously
Adjudicated in Americans for
Prosperity Foundation v.
Kamala Harris filed by
Plaintiff Thomas More Law
Center. Motion set for hearing
on 7/18/2016 at 11:00 AM
before Judge Manuel L. Real.
(Attachments: # 1 Memorandum -- Memo of Points and
Authorities in Support of
Motion in Limine for Issue
Preclusion, # 2 Memorandum
-- Request for Judicial Notice,
# 3 Exhibit -- Exhibits A thru
C to the Request for Judicial

20
Date Filed

#

Docket Text
Notice, # 4 Affidavit -Declaration of Louis Castoria
in Support of Motion in
Limine, # 5 Exhibit -- Exhibits
A thru D to Castoria
Declaration, # 6 Proposed
Order Granting Plaintiff’s
Motion
in
Limine
for
Preclusion)(Cruz,
Marion)
(Entered: 06/20/2016)

06/20/2016

74

NOTICE OF MOTION AND
MOTION IN LIMINE to
Exclude Rulemaking filed by
Plaintiff Thomas More Law
Center. Motion set for hearing
on 7/18/2016 at 11:00 AM
before Judge Manuel L. Real.
(Attachments: # l Memorandum -- Memo of Points and
Authorities in Support of
Motion, # 2 Appendix Declaration of Louis Castoria and
Exhibit A attached thereto, #
3 Proposed Order Granting
Plaintiff’s Motion in Limine to
Exclude
Proposed
Rulemaking)(Cruz,
Marion)
(Entered: 06/20/2016)

06/20/2016

75

NOTICE OF MOTION AND
MOTION
for
Partial
Summary Judgment as to

21
Date Filed

#

Docket Text
First Amendment Claim filed
by defendant Kamala Harris.
Motion set for hearing on
7/18/2016 at 10:00 AM before
Judge Manuel L. Real.
(Attachments: # l Proposed
Order)
(Calia,
Kevin)
(Entered: 06/20/2016)

06/20/2016

76

DECLARATION of Kevin A.
Calia in support of NOTICE
OF MOTION AND MOTION
for Partial Summary Judgment as to First Amendment
Claim 75 filed by Defendant
Kamala
Harris.
(Attachments: # l Exhibit A, # 2
Exhibit B, # 3 Exhibit C, # 4
Exhibit D, # 5 Exhibit E, # 6
Exhibit F, # 7 Exhibit G, # 8
Exhibit H, # 9 Exhibit I, # 10
Exhibit J, # 11 Exhibit K, # 12
Exhibit L, # 13 Exhibit M, # 14
Exhibit N, # 15 Exhibit 0, # 16
Exhibit P, # 17 Exhibit Q, # 18
Exhibit
R)(Calia,
Kevin)
(Entered: 06/20/2016)

06/20/2016

77

STATEMENT of Uncontroverted Facts and Conclusions
of Law NOTICE OF MOTION
AND MOTION for Partial
Summary Judgment as to

22
Date Filed

#

Docket Text
First Amendment Claim 75
filed by Defendant Kamala
Harris.
(Calia,
Kevin)
(Entered: 06/20/2016)
*****

06/27/2016

79

MEMORANDUM of CONTENTIONS of FACT and
LAW filed by Plaintiff Thomas
More Law Center. (Johnston,
Ian) (Entered: 06/27/2016)

06/27/2016

80

MEMORANDUM
in
Opposition to MOTION IN
LIMINE (#2) to Exclude
Evidence Regarding Purported First Amendment
Harm to Donors 72 filed by
Plaintiff Thomas More Law
Center. (Attachments: # l
Affidavit -- Declaration of
Louis Castoria in Support of
Opposition to Motion in
Limine to Exclude Evidence re
Purported First Amendment
Harm to Donors, # 2 Exhibit A
to Castoria Declaration, # 3
Exhibit
B
to
Castoria
Declaration) (Johnston, Ian)
(Entered: 06/27/2016)

23
Date Filed

#

Docket Text

06/27/2016

81

MEMORANDUM
in
Opposition to MOTION IN
LIMINE to Exclude Plaintiff’s
Expert Witness Dr. Paul
Schervish 71 filed by Plaintiff
Thomas More Law Center.
(Attachments: # 1 Affidavit -Declaration of Louis Castoria
in Support of Plaintiff’s
Opposition to Defendant’s
Motion in Limine to Exclude
Plaintiff’s Expert Witness Dr.
Paul Schervish, # 2 Exhibit A
to Castoria Declaration, # 3
Exhibit B to Castoria Declaration, # 4 Exhibit C to Castoria
Declaration, # 5 Exhibit D to
Castoria Declaration, # 6
Exhibit E to Castoria Declaration, # 7 Exhibit F to Castoria
Declaration)(Johnston, Ian)
(Entered: 06/27/2016)

06/27/2016

82

Opposition
Support
re:
MOTION IN LIMINE to
Exclude Plaintiff’s Expert
Witness Dr. Paul Schervish 71
Opp. to Motion in Limine filed
by Defendant Kamala Harris.
(Zelidon-Zepeda,
Jose)
(Entered: 06/27/2016)

24
Date Filed

#

Docket Text

06/27/2016

83

OPPOSITION of Defendant
Kamala
D.
Harris
to
Plaintiff’s Motion in Limine to
Exclude
Proposed
Rulemaking in Opposition re:
MOTION IN LIMINE to
Exclude Rulemaking 74 filed
by Defendant Kamala Harris.
(Nguyen,
Kim)
(Entered:
06/27/2016)

06/27/2016

84

OPPOSITION of Defendant
Kamala
D.
Harris
to
Plaintiff’s Motion in Limine to
Exclude Investigative Uses of
Schedule B in Opposition re:
MOTION IN LIMINE to
Exclude Investigative Uses of
Schedule B 70 filed by
Defendant Kamala Harris.
(Nguyen,
Kim)
(Entered:
06/27/2016)

85

DECLARATION of Kim L.
Nguyen
in
Support
of
Defendant’s Opposition to
Plaintiff’s Motion in Limine to
Exclude Investigative Uses of
Schedule B 84 MOTION IN
LIMINE to Exclude Investigative Uses of Schedule B 70
filed by Defendant Kamala

25
Date Filed

#

Docket Text
Harris. (Attachments: # 1
Exhibit A, # 2 Exhibit B, # 3
Exhibit C)(Nguyen, Kim)
(Entered: 06/27/2016)

06/27/2016

86

Opposition Opposition re:
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment
52
filed
by
Defendant Kamala Harris.
(Attachments: # 1 Declaration
of Kevin A. Calia in Opposition to Plaintiff’s Motion for
Summary Judgment, # 2
Exhibit A, # 3 Exhibit B, # 4
Exhibit C, # 5 Exhibit D, # 6
Exhibit E, # 7 Exhibit F, # 8
Exhibit G, # 9 Exhibit H, # 10
Exhibit I, # 11 Exhibit J, # 12
Exhibit K, # 13 Exhibit L, # 14
Exhibit M, # 15 Exhibit N, #
16 Exhibit 0, # 17 Exhibit P, #
18 Certificate of Service)
(Calia,
Kevin)
(Entered:
06/27/2016)

06/27/2016

87

Opposition in Opposition re:
NOTICE OF MOTION AND
MOTION
for
Partial
Summary Judgment as to
First Amendment Claim 75
Memorandum of Points and
Authorities in Opposition to

26
Date Filed

#

Docket Text
Defendant’s Cross-Motion for
Partial Summary Judgment,
Plaintiff’s Genuine Disputes of
Material Facts, and Declaration of Louis H. Castoria filed
by Plaintiff Thomas More Law
Center. (Attachments: # 1
Declaration, # 2 Supplement)
(Cruz,
Marion)
(Entered:
06/27/2016)

06/27/2016

88

Opposition Opposition re:
MOTION IN LIMINE to
Preclude Motion in Limine for
Issue Preclusion to Collaterally Estop Defendant From
Denying or Re-Litigating
Issues Previously Adjudicated
in Americans for Prosperity
Foundation v. Kamala Harris
73 filed by Defendant Kamala
Harris. (Attachments: # l
Certificate of Service )(Calia,
Kevin) (Entered: 06/27/2016)

06/27/2016

89

STATEMENT of Genuine
Disputes in Opposition to
NOTICE OF MOTION AND
MOTION
for
Summary
Judgment
52
filed
by
Defendant Kamala Harris.

27
Date Filed

#

Docket Text
(Nguyen,
Kim)
06/27/2016)

(Entered:

06/27/2016

90

MEMORANDUM
of
CONTENTIONS of FACT and
LAW filed by Defendant
Kamala Harris. (Gordon,
Alexandra)
(Entered:
06/27/2016)

06/27/2016

91

Opposition to Request for
Judicial Notice in Support of
re: NOTICE OF MOTION
AND MOTION for Summary
Judgment
52
filed
by
Defendant Kamala Harris.
(Calia,
Kevin)
(Entered:
06/27/2016)

07/05/2016

92

REPLY
NOTICE
OF
MOTION AND MOTION for
Summary Judgment 52 filed
by Plaintiff Thomas More Law
Center. (Attachments: # 1
Declaration of Louis H.
Castoria, # 2 Exhibit A) (Cruz,
Marion) (Entered: 07/05/2016)

07/05/2016

93

REPLY in support of NOTICE
OF MOTION AND MOTION
for Partial Summary Judgment as to First Amendment
Claim 75 filed by Defendant

28
Date Filed

#

Docket Text
Kamala Harris. (Calia, Kevin)
(Entered: 07/05/2016)

07/08/2016

94

Witness
List
filed
by
Defendant Kamala Harris..
(Calia,
Kevin)
(Entered:
07/08/2016)

07/08/2016

95

Exhibit
List
filed
by
Defendant Kamala Harris..
(Calia,
Kevin)
(Entered:
07/08/2016)

07/08/2016

96

Witness List filed by Plaintiff
Thomas More Law Center..
(Cruz,
Marion)
(Entered:
07/08/2016)

07/08/2016

97

Exhibit List filed by Plaintiff
Thomas More Law Center..
(Cruz,
Marion)
(Entered:
07/08/2016)
*****

07/12/2016

102

SCHEDULING
NOTICE
TAKING MOTIONS UNDER
SUBMISSION
ON
THE
PAPERS WITHOUT NEED
OF ORAL ARGUMENT by
Judge Manuel L. Real. The
Court has determined that
Plaintiff Thomas More Law

29
Date Filed

#

Docket Text
Center’s Motion for Summary
Judgment 52; the Parties
Motion’s in Limine 69, 70. 71,
72, 73, 74; and Defendant
Kamala Harris’ Motion for
Partial Summary Judgment
as to First Amendment Claim
75 set for hearing on July 18,
2016 at 10:00 A.M., are
suitable for a decision on the
papers as filed by all parties,
without the need for oral
argument; therefore, the said
Motions are taken UNDER
SUBMISSION on the papers
as filed, and the hearing date
of July 18, 2016 is VACATED
and TAKEN OFF CALENDAR. The Court will issue its
ruling on the matter in due
course. IT IS SO ORDERED.
THERE
IS
NO
PDF
DOCUMENT ASSOCIATED
WITH THIS ENTRY. (iv)
TEXT
ONLY
ENTRY
(Entered: 07/12/2016)

07/12/2016

103

NOTICE OF LODGING filed
re
Order,,,
Set/Reset
Deadlines/Hearings,,
68
(Attachments: # l Proposed
Order - - Plaintiff’s Proposed

30
Date Filed

#

Docket Text
Findings
of
Fact
and
Conclusions
of
Law)
(Johnston, Ian) (Entered:
07/12/2016)
*****

07/12/2016

106

TRIAL BRIEF filed by
Plaintiff Thomas More Law
Center..
(Cruz,
Marion)
(Entered: 07/12/2016)

07/12/2016

107

NOTICE OF LODGING filed
re
Order,,,
Set/Reset
Deadlines/Hearings,,
68
(Attachments: # 1 Proposed
Order Defendant’s Proposed
Findings
of
Fact
and
Conclusions of Law) (Calia,
Kevin) (Entered: 07/12/2016)

07/12/2016

108

TRIAL BRIEF filed by
defendant Kamala Harris..
(Calia,
Kevin)
(Entered:
07/12/2016)
*****

07/15/2016

110

REQUEST FOR JUDICIAL
NOTICE re NOTICE OF
MOTION AND MOTION for
Summary
Judgment
52,
NOTICE OF MOTION AND

31
Date Filed

#

Docket Text
MOTION
for
Partial
Summary Judgment as to
First Amendment Claim 75
filed by Defendant Kamala
Harris.
(Calia,
Kevin)
(Entered: 07/15/2016)
*****

07/18/2016

115

ORDER DENYING PLAINTIFF’S
MOTION
FOR
SUMMARY
JUDGMENT
AND DENYING DEFENDANT’S CROSS MOTION
FOR PARTIAL SUMMARY
JUDGMENT
by
Judge
Manuel L. Real: IT IS
HEREBY ORDERED that
Plaintiff’s
Motion
for
Summary
Judgment
is
DENIED. (Dkt. No. 52). IT IS
FURTHER ORDERED that
Defendant’s Cross Motion for
Partial Summary Judgment is
DENIED. (Dkt. No. 75). (clee)
(Entered: 07/19/2016)
*****

07/26/2016

117

Witness List filed by Plaintiff
Thomas More Law Center..

32
Date Filed

#

Docket Text
(Cruz,
Marion)
07/26/2016)

(Entered:

*****
08/10/2016

123

Joint
STIPULATION
to
Vacate Trial Dates, Stay, and
Administratively Close the
Case Until Final Judgment in
Americans For Prosperity
Foundation v. Harris, No. 2:
14-CV-09448 filed by Plaintiff
Thomas More Law Center.
(Attachments: # 1 Proposed
Order)
(Cruz,
Marion)
(Entered: 08/10/2016)
*****

08/15/2016

125

ORDER REGARDING JOINT
STIPULATION AND REQUEST TO VACATE TRIAL
DATES,
STAY
AND
ADMINISTRATIVELY
CLOSE THE CASE UNTIL
FINAL
JUDGMENT
IN
AMERICANS FOR PROSPERITY FOUNDATION V.
HARRIS, NO. 2:14-CV-09448
by Judge Manuel L. Real. This
matter is before the Court on
the Joint Stipulation of the
Parties 123. IT IS SO

33
Date Filed

#

Docket Text
ORDERED the Stipulation is
DENIED.
(iv)
(Entered:
08/17/2016)

08/26/2016

126

Joint
STIPULATION
for
Order to Permit Testimony by
Robert Spencer in Open Court
by Contemporaneous Transmission from a Different
Location filed by Plaintiff
Thomas More Law Center.
(Attachments: # 1 Proposed
Order)(Cruz,
Marion)
(Entered: 08/26/2016)

08/29/2016

127

ORDER
PERMITTING
TESTIMONY BY ROBERT
SPENCER IN OPEN COURT
BY CONTEMPORANEOUS
TRANSMISSION FROM A
DIFFERENT LOCATION by
Judge Manuel L. Real: Upon
Stipulation
126,
IT
IS
HEREBY ORDERED that
Robert Spencer is permitted to
testify in open court by
contemporaneous
transmission from a different
United States District Court
on 9/13/2016 or 9/14/2016,
contingent to the schedule of

34
Date Filed

#

Docket Text
the trial.
08/30/2016)

(gk)

(Entered:

*****
08/29/2016

129

FINAL PRETRIAL CONFERENCE ORDER approved by
Judge Manuel L. Real. (gk)
(Entered: 08/30/2016)

09/13/2016

130

NOTICE OF LODGING filed
JOINT
NOTICE
OF
LODGING OF DEPOSITION
AND
TRIAL
DESIGNATIONS re Pretrial Conference
Order - Final 129 (Attachments: # 1 Exhibit) (Cruz,
Marion) (Entered: 09/13/2016)

09/13/2016

131

MINUTES
OF
COURT
TRIAL (1st Day) held before
Judge Manuel L. Real:
Opening statements made.
Witnesses called, sworn and
testified. Exhibits identified
and admitted. Stipulated
admitted exhibits (Dckt No.
124-3) read into record.
Witnesses: Richard Thompson; Catherine McMillan;
Sally
Kern;
Dr.
Paul
Schervish.
Bench
Trial
continued to 9/14/2016 10:00

35
Date Filed

#

Docket Text
AM before Judge Manuel L.
Real. Court Reporter: Sheri
Kleeger / Deborah Gackle. (gk)
(Entered: 09/14/2016)

09/14/2016

132

MINUTES OF Court Trial
(2nd day )held before Judge
Manuel L. Real: Opening
statements made. Witnesses
called, sworn and testified.
Exhibits
identified
and
admitted. Plaintiff(s) rest.
Witnesses:
Dr.
Paul
Schervish, Robert Spencer,
Pamela Gellar by video
recorded testimony, Tania
Ibanez, and Joseph Zimring.
Plaintiff’s motion to exclude
testimony of Ray Madoff as an
expert 69 is GRANTED.
Bench Trial continued to
9/15/2016 10:00 AM before
Judge Manuel L. Real. Court
Reporter: Sheri Kleeger /
Deborah
Gackle.
(gk)
(Entered: 09/15/2016)

09/15/2016

133

MINUTES OF Court Trial
(3rd day) held before Judge
Manuel L. Real: Witnesses
called, sworn and testified.
Exhibits
identified
and
admitted. Filed Witness &

36
Date Filed

#

Docket Text
Exhibit Lists. The Court
ORDERS the parties in this
case to submit a proposed
order of what each party
would recommend as an order
in this case, on or before
10/15/2016.
The
Court
continues this matter for
arguments to 10/31/2016 at 10
AM. Bench Trial continued to
10/31/2016 10:00 AM before
Judge Manuel L. Real. Court
Reporter: Sheri Kleeger /
Deborah
Gackle.
(gk)
(Entered: 09/22/2016)
*****

10/15/2016

136

NOTICE OF LODGING filed
with Proposed Order for
Judgment
in
Favor
of
Defendant re Bench Trial Held and Continued,, 133
(Attachments: # 1 Proposed
Order)
(Calia,
Kevin)
(Entered: 10/15/2016)

10/15/2016

137

NOTICE OF LODGING filed
with Proposed Order for
Judgment in Favor of Plaintiff
Thomas More Law Center re
Bench Trial - Held and

37
Date Filed

#

Docket Text
Continued,,
133
(Attachments: # 1 Proposed Order)
(Cruz,
Marion)
(Entered:
10/15/2016)

10/31/2016

138

MINUTES OF Court Trial
(4th
Day)
held
and
completed/submitted to court
before Judge Manuel L. Real:
Closing arguments made.
Court
Reporter:
Sheri
Kleeger.
(gk)
(Entered:
11/01/2016)

11/16/2016

139

ORDER FOR JUDGMENT IN
FAVOR OF PLAINTIFF by
Judge Manuel L. Real: IT IS
HEREBY ORDERED that the
Attorney
General
is
permanently enjoined from
requiring the Thomas More
Law Center to file with the
registry a periodic written
report containing a copy of its
Schedule B to IRS Form 990.
TMLC shall no longer be
considered
deficient
or
delinquent in its reporting
requirement because it does
not file its confidential
Schedule B with the Attorney
General. Each party shall
bear its own costs. See

38
Date Filed

#

Docket Text
document for further details.
(MD JS-6, Case Terminated).
(gk) (Entered: 11/16/2016)

11/29/2016

140

STIPULATION for Order to
Extend Time to File Any
Motion for Attorneys’ Fees
Until After Resolution of All
Appeals from November 16,
2016 Judgment filed by
Plaintiff Thomas More Law
Center. (Attachments: # 1
Proposed
Order)
(Cruz,
Marion) (Entered: 11/29/2016)

11/30/2016

141

ORDER GRANTING STIPULATION TO EXTEND TIME
TO FILE ANY MOTION FOR
ATTORNEYS’ FEES UNTIL
AFTER RESOLUTION OF
ALL
APPEALS
FROM
11/16/2016 JUDGMENT by
Judge Manuel L. Real: The
Stipulation 140 IS HEREBY
GRANTED. Pursuant to Local
Rule 54-10, the time to file any
motion for attorneys’ fees is
extended until 28 days after
the latest date on which (a)
the deadline for filing an
appeal from the 11/16/2016
judgment expires, (b) the
Court of Appeals issues its

39
Date Filed

#

Docket Text
mandate and the deadline for
filing a petition for certiorari
expires, (c) the Supreme Court
of the United States denies
any timely petition for
certiorari, or (d) the Supreme
Court of the United States
issues a certified judgment
that requires no further action
from the Court of Appeals.
(gk) (Entered: 12/01/2016)

12/15/2016

142

NOTICE OF APPEAL to the
9th Circuit Court of Appeals
filed by Defendant Kamala
Harris. Appeal of Judgment,,
139. (Appeal Fee - $505 Fee
Paid, Receipt No. 097319062771.) (Calia, Kevin)
(Entered: 12/15/2016)
*****

12/16/2016

144

NOTIFICATION from Ninth
Circuit Court of Appeals of
case number assigned and
briefing schedule. Appeal
Docket No. 16-56855 assigned
to Notice of Appeal to 9th
Circuit Court of Appeals 142
as to defendant Kamala

40
Date Filed

#

Docket Text
Harris.
(mat)
12/16/2016)

(Entered:

12/28/2016

145

NOTICE OF APPEAL to the
9th Circuit Court of Appeals
Thomas More Law Center.
Appeal of Judgment,, 139 .
(Appeal Fee- $505 Fee Paid,
Receipt No. 0973-19115795.)
(Cruz, Marion). (Entered:
12/28/2016)

12/28/2016

146

NOTIFICATION from Ninth
Circuit Court of Appeals of
case number assigned and
briefing schedule. Appeal
Docket No. 16-56902 cross
appeal assigned to Notice of
Appeal to 9th Circuit Court of
Appeals 145 as to CrossAppellant Thomas More Law
Center.
(mat)
(Entered:
12/29/2016)
*****

12/29/2016

150

DESIGNATION of Record on
Appeal by defendant Kamala
Harris re 142 (Calia, Kevin)
(Entered: 12/29/2016)
*****

41
Date Filed

#

Docket Text

01/05/2017

153

TRANSCRIPT for proceedings
held on 9/13/16 PM Trial.
Court Reporter: Deborah K.
Gackle, phone number (213)
894-8913 deborahgackle.com.
Transcript may be viewed at
the court public terminal or
purchased through the Court
Reporter before the deadline
for Release of Transcript
Restriction. After that date it
may be obtained through
PACER. Notice of Intent to
Redact due within 7 days of
this date. Redaction Request
due 1/26/2017. Redacted Transcript
Deadline set
for
2/6/2017. Release of Transcript Restriction set for
4/5/2017. (Gackle, Deborah)
(Entered: 01/05/2017)

01/10/2017

154

DESIGNATION of Record on
Appeal by Thomas More Law
Center’s Transcript Designation Thomas More Law
Center re 145 (Castoria,
Louis) (Entered: 01/10/2017)

01/10/2017

155

TRANSCRIPT for proceedings
held on 9/13/16 10am. Court
Reporter/Electronic
Court

42
Date Filed

#

Docket Text
Recorder:
Sheri
Kleeger,
phone number 213-894-6604.
Transcript may be viewed at
the court public terminal or
purchased through the Court
Reporter/Electronic
Court
Recorder before the deadline
for Release of Transcript
Restriction. After that date it
may be obtained through
PACER. Notice of Intent to
Redact due within 7 days of
this date. Redaction Request
due
1/31/2017.
Redacted
Transcript Deadline set for
2/10/2017.
Release
of
Transcript Restriction set for
4/10/2017. (Kleeger, Sheri)
(Entered: 01/10/2017)

01/10/2017

156

TRANSCRIPT for proceedings
held on 9/14/16 am. Court
Reporter/Electronic
Court
Recorder:
Sheri
Kleeger,
phone number 213-894-6604.
Transcript may be viewed at
the court public terminal or
purchased through the Court
Reporter/Electronic
Court
Recorder before the deadline
for Release of Transcript
Restriction. After that date it

43
Date Filed

#

Docket Text
may be obtained through
PACER. Notice of Intent to
Redact due within 7 days of
this date. Redaction Request
due
1/31/2017.
Redacted
Transcript Deadline set for
2/10/2017.
Release
of
Transcript Restriction set for
4/10/2017. (Kleeger, Sheri)
(Entered: 01/10/2017)

01/10/2017

157

TRANSCRIPT for proceedings
held on 9/15/16 9am. Court
Reporter/Electronic
Court
Recorder:
Sheri
Kleeger,
phone number 213-894-6604.
Transcript may be viewed at
the court public terminal or
purchased through the Court
Reporter/Electronic
Court
Recorder before the deadline
for Release of Transcript
Restriction. After that date it
may be obtained through
PACER. Notice of Intent to
Redact due within 7 days of
this date. Redaction Request
due
1/31/2017.
Redacted
Transcript Deadline set for
2/10/2017.
Release
of
Transcript Restriction set for

44
Date Filed

#

Docket Text
4/10/2017. (Kleeger,
(Entered: 01/10/2017)

01/10/2017

158

Sheri)

TRANSCRIPT for proceedings
held on 10/31/16. Court
Reporter/Electronic
Court
Recorder:
Sheri
Kleeger,
phone number 213-894-6604.
Transcript may be viewed at
the court public terminal or
purchased through the Court
Reporter/Electronic
Court
Recorder before the deadline
for Release of Transcript
Restriction. After that date it
may be obtained through
PACER. Notice of Intent to
Redact due within 7 days of
this date. Redaction Request
due
1/31/2017.
Redacted
Transcript Deadline set for
2/10/2017.
Release
of
Transcript Restriction set for
4/10/2017. (Kleeger, Sheri)
(Entered: 01/10/2017)
*****

09/11/2018

170

OPINION from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals 142 filed by
Kamala Harris, Notice of

45
Date Filed

#

Docket Text
Appeal to 9th Circuit Court of
Appeals 145 filed by Thomas
More Law Center. CCA # 1656855, 16-56902. The judgments of the district court are
reversed. The permanent
injunctions are vacated. The
case is remanded for entry of
judgments in favor of the
Attorney General. INJUNCTIONS VACATED; JUDGMENTS REVERSED; CASES
REMANDED.
The
Law
Centers motion for judicial
notice, filed February 12, 2018
(Dkt. 45, No. 16-56855) is
DENIED.
The
Attorney
Generals motion to strike,
filed February 13, 2018 (Dkt.
47,
No.
16-56855),
is
DENIED. [LATE DOCKETING DUE TO CLERK’S
OFFICE
ERROR]
(car)
(Entered: 04/10/2019)

03/29/2019

169

ORDER DENYING PETITIONS FOR REHEARING
EN BANC from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals 142 filed by
Kamala Harris, Notice of

46
Date Filed

#

Docket Text
Appeal to 9th Circuit Court of
Appeals 145 filed by Thomas
More Law Center. CCA # 1656855 and 16-56902. (gk)
(Entered: 03/29/2019)

04/08/2019

171

MANDATE of Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals 142 , Notice
of Appeal to 9th Circuit Court
of Appeals 145 , CCA # 1656855,
16-56902.
The
judgment of this Court,
entered September 11, 2018,
takes effect this date. This
constitutes
the
formal
mandate of this Court issued
pursuant to Rule 41(a) of the
Federal Rules of Appellate
Procedure. (car) (Entered:
04/10/2019)

06/10/2019

172

SUPREME COURT NOTICE
re: Notice of Appeal to 9th
Circuit Court of Appeals 142 ,
and Notice of Appeal to 9th
Circuit Court of Appeals 145 .
The
application
for
an
extension of time within to
which to file a petition for a
writ of certiorari in the above
entitled
case
has
been

47
Date Filed

#

Docket Text
presented to JUstice Kagan,
who on June 5, 2019 extended
the time to and including
August 26, 2019. This letter
has been sent to those
designated on the attached
notification
list.
(mat)
(Entered: 06/11/2019)

08/02/2019

173

ORDER from Ninth Circuit
Court of Appeals filed re:
Notice of Appeal to 9th Circuit
Court of Appeals 142 filed by
Kamala Harris, Notice of
Appeal to 9th Circuit Court of
Appeals 145 filed by Thomas
More Law Center. CCA # 1656855 and 16-56902. The
motion of Thomas More Law
Center to recall and stay the
mandate, filed May 28, 2019,
is GRANTED. The mandate is
recalled. [See document for
more further details.](mat)
(Entered: 08/05/2019)

01/08/2021

174

Supreme Court Notice re:
Notice of Appeal to 9th Circuit
Court of Appeals, 142 , Notice
of Appeal to 9th Circuit Court
of Appeals 145 . The Court
today entered the following
order in the above-entitled

48
Date Filed

#

Docket Text
case: The petition for a writ of
certiorari is granted. The
petition for a writof certiorari
in No. 19-255 is granted. The
cases are consolidated, and a
totalof one hour is allotted for
oral argument. VIDED. (mat)
(Entered: 01/21/2021)

49
Docket Entries:
U.S. Court of Appeals for the Ninth Circuit
Case No. 15-55911
Date Filed #

Docket Text
*****

07/09/2015

8

Submitted (ECF) Opening
Brief and excerpts of record for
review.
Submitted
by
Appellant Kamala D. Harris.
Date of service: 07/09/2015.
[9604337] [15-55911) (Nguyen,
Kim) [Entered: 07/09/2015
12:26 PM]

07/10/2015

9

Filed clerk order: The opening
brief [8] submitted by Kamala
D. Harris is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies of
the brief in paper format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted electronically. Cover
color: blue. The paper copies
shall be printed from the PDF
version of the brief created
from the word processing
application, not from PACER
or Appellate ECF. The Court

50
Date Filed #

Docket Text
has reviewed the excerpts of
record [8] submitted by
Kamala D. Harris. Within 7
days of this order, filer is
ordered to file 4 copies of the
excerpts in paper format, with
a white cover. The paper copies
must be in the format
described in 9th Circuit Rule
30-1.6.
[9606383]
(WWP)
[Entered: 07/10/2015 02:42
PM]

07/14/2015

10

Received 7 paper copies of
Opening brief [8] filed by
Kamala D. Harris. [9610312]
(SD) [Entered: 07/14/2015
04:41 PM]

07/14/2015

11

Filed Appellant Kamala D.
Harris paper copies of excerpts
of record [8] in 1 volume.
[9610471] (WWP) [Entered:
07/15/2015 07:52 AM]
*****

08/06/2015

14

Submitted (ECF) Answering
Brief
and
supplemental
excerpts of record for review.
Submitted by Appellee Thomas
More Law Center. Date of
service: 08/06/2015. [9638107]

51
Date Filed #

Docket Text
(15-55911)--[COURT
UPDATE: Attached separate
PDF files of brief and excerpts.
08/11/2015 by RY] (Castoria,
Louis) [Entered: 08/06/2015
07:43 PM]
*****

08/07/2015

16

Filed
clerk
order:
The
answering brief [14] submitted
by Thomas More Law Center is
filed. Within 7 days of the filing
of this order, filer is ordered to
file 7 copies of the brief in
paper format, accompanied by
certification, attached to the
end of each copy of the brief,
that the brief is identical to the
version submitted electronically. Cover color: red. The
paper copies shall be printed
from the PDF version of the
brief created from the word
processing application, not
from PACER or Appellate
ECF. The Court has reviewed
the supplemental excerpts of
record [14] submitted by
Thomas More Law Center.
Within 7 days of this order,
filer is ordered to file 4 copies of
the excerpts in paper format,

52
Date Filed #

Docket Text
with a white cover. The paper
copies must be in the format
described in 9th Circuit Rule
30-1.6.
[9638894]
(WWP)
[Entered: 08/07/2015 01:39
PM]

08/12/2015

17

Received 7 paper copies of
Answering brief [14] filed by
Thomas More Law Center.
[9644453)
(SD)
[Entered:
08/12/2015 01:15 PM]

08/12/2015

18

Filed Appellee Thomas More
Law Center paper copies of
supplemental
excerpts
of
record [14] in 1 volume.
[9646033]
(GV)
[Entered:
08/13/2015 12:29 PM]

08/20/2015

19

Submitted (ECF) Reply Brief
for review. Submitted by
Appellant Kamala D. Harris.
Date of service: 08/20/2015.
[9654528] [15-55911] (Nguyen,
Kim) [Entered: 08/20/2015
03:11 PM]

08/20/2015

20

Filed clerk order: The reply
brief [19] submitted by Kamala
D. Harris is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies of

53
Date Filed #

Docket Text
the brief in paper format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted electronically. Cover
color: gray. The paper copies
shall be printed from the PDF
version of the brief created
from the word processing
application, not from PACER
or Appellate ECF. [9654543]
(WWP) [Entered: 08/20/2015
03:16 PM]

08/24/2015

21

Received 7 paper copies of
Reply brief [19] filed by
Kamala D. Harris. [9657898]
(SD) [Entered: 08/24/2015
02:20 PM]

09/02/2015

22

Filed (ECF) Appellee Thomas
More Law Center Supplemental Motion to supplement
record on appeal. Date of
service: 09/02/2015. [9670145]
[15-55911] (Pham, Sheila)
[Entered: 09/02/2015 03:01
PM]

09/03/2015

23

Filed clerk order (Deputy
Clerk: CAG): The appellee’s

54
Date Filed #

Docket Text
motion for leave to supplemental the record and any
responsive filing shall be
referred for disposition to the
panel that considers the merits
of the case. [9672118] (AF)
[Entered: 09/03/2015 04:43
PM]

09/03/2015

24

Filed (ECF) Appellant Kamala
D. Harris Correspondence:
Opposing Appellee’s Motion to
Supplement Record. Date of
service: 09/03/2015 [9672152]
[15-55911] (Nguyen, Kim)
[Entered: 09/03/2015 04:56
PM]

09/08/2015

25

Filed (ECF) Appellee Thomas
More Law Center Supplemental Motion to supplement
record on appeal. Date of
service: 09/08/2015. [9675070]
[15-55911)--[COURT
UPDATE: Updated docket text
to reflect content of filing.
09/08/2015 by TYL] (Pham,
Sheila) [Entered: 09/08/2015
03:25 PM]
*****

55
Date Filed #

Docket Text

09/30/2015

Filed clerk order (Deputy
Clerk: HL): These appeals have
been assigned to the same
panel because they involve
potentially
related
issues
regarding California Government Code sections 12580 et
seq. The cases are not
consolidated for oral argument.
Counsel may wish to confer in
order
to
enhance
oral
argument. The Clerk shall
serve a copy of the court’s
service list for each case on all
parties.[9701740] [15-55446,
15-55911)
(WL)
[Entered:
09/30/2015 11:07 AM]

27

*****
12/09/2015

30

ARGUED AND SUBMITTED
TO STEPHEN R. REINHARDT,
RAYMOND
C.
FISHER and JACQUELINE
H. NGUYEN. [9785918] (FB)
[Entered: 12/09/2015 01:36
PM]

12/29/2015

31

Filed
order
(STEPHEN
REINHARDT, RAYMOND C.
FISHER and JACQUELINE
H. NGUYEN) We heard these

56
Date Filed #

Docket Text
cases together and now
consolidate
them
for
disposition. See Fed. R. App. P.
3(b)(2); Mattos v. Agarano, 661
F.3d 433, 436 n.1 (9th Cir.
2011) (en banc). In Americans
for Prosperity Foundation v.
Harris, No. 15-55446, the
Attorney General’s pending
motion to stay the district court
proceedings, filed October 22,
2015, is DENIED. Americans
for Prosperity Foundation’s
unopposed motion for judicial
notice, filed June 24, 2015, is
GRANTED. In Thomas More
Law Center v. Harris, No. 1555911, Thomas More Law
Center’s motion to supplement
the record, filed September 2,
2015, is DENIED. [9808552]
[15-55446, 15-55911] (RMM)
[Entered: 12/29/2015 01:12
PM]

12/29/2015

32

FILED
PER
CURIAM
OPINION (STEPHEN REINHARDT,
RAYMOND
C.
FISHER and JACQUELINE
H. NGUYEN) Each party shall
bear its own costs on appeal.
ORDERS VACATED. FILED

57
Date Filed #

Docket Text
AND ENTERED JUDGMENT.
[9808574]
[15-55446,
1555911]
(RMM)
[Entered:
12/29/2015 01:21 PM]
*****

01/11/2016

34

Filed (ECF) Appellee Americans for Prosperity Foundation in 15-55446 petition for
panel rehearing and petition
for rehearing en banc (from
12/29/2015 opinion). Date of
service: 01/11/2016. [9822955]
[15-55446, 15-55911] (Shaffer,
Derek) [Entered: 01/11/2016
03:05 PM]

01/19/2016

35

Filed
order
(STEPHEN
REINHARDT, RAYMOND C.
FISHER and JACQUELINE
H. NGUYEN): The Attorney
General is directed to file a
response to the Petition for
Panel Rehearing and En Banc
Rehearing, filed with this court
on January 11, 2016. The
response shall not exceed 15
pages or 4,200 words and shall
be filed within 21 days of the
date of this order. Parties who
are registered for ECF must
file the response electronically

58
Date Filed #

Docket Text
without submission of paper
copies. Parties who are not
registered ECF filers must file
the original response plus 50
paper copies. [9831062] [1555446,
15-55911]
(AF)
[Entered: 01/19/2016 01:08
PM]

01/21/2016

36

Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).
Submitted by Free Speech Def.
& Education Fund, Free
Speech Coalition, U.S. Justice
Fnd, Downsize DC Fnd, Gun
Owners Fnd, Citizens United
Fnd,
Conservative
Legal
Defense & Education Fund,
Freedom
Alliance,
Law
Enforcement
Alliance
of
America, Public Advocate of
the US. Date of service:
01/21/2016. [9836399] [1555446, 15-55911] (Morgan,
Jeremiah)
[Entered:
01/21/2016 05:42 PM]
*****

01/22/2016

38

Filed clerk order: The amicus
brief [36] submitted by CUF,
Conservative Legal Defense

59
Date Filed #

Docket Text
and Education Fund, Downsize
DC Foundation, Free Speech
Coalition, Free Speech Defense
and Education Fund, Freedom
Alliance, Gun Owners Foundation, LEAA, Public Advocate of
the United States and USJF is
filed. Within 7 days of the filing
of this order, filer is ordered to
file 20 copies of the brief in
paper format, accompanied by
certification, attached to the
end of each copy of the brief,
that the brief is identical to the
version submitted electronically. Cover color: green. The
paper copies shall be printed
from the PDF version of the
brief created from the word
processing application, not
from PACER or Appellate
ECF. [9836635] [15-55446, 1555911]
(KT)
[Entered:
01/22/2016 09:51 AM]

01/29/2016

39

Received 20 paper copies of
Amicus brief [36] filed by CUF,
Conservative Legal Defense
and Education Fund, Downsize
DC Foundation, Free Speech
Coalition, Free Speech Defense
and Education Fund, Freedom

60
Date Filed #

Docket Text
Alliance, Gun Owners Foundation, LEAA, Public Advocate of
the United States and USJF.
[9846725]
[15-55446,
1555911]
(KT)
[Entered:
01/29/2016 11:43AM]

2/09/2016

40

Filed (ECF) Appellant Kamala
D. Harris in 15-55446, 1555911 response to Combo PFR
Panel and En Banc (ECF
Filing), Combo PFR Panel and
En Banc (ECF Filing) for panel
and en banc rehearing, for
panel and en banc rehearing
(statistical entry). Date of
service: 02/09/2016. [9860346].
[15-55446, 15-55911] (Gordon,
Alexandra)
[Entered:
02/09/2016 05:15 PM]

04/06/2016

41

Filed
order
(STEPHEN
REINHARDT, RAYMOND C.
FISHER and JACQUELINE
H. NGUYEN) The panel has
voted to deny the petition for
panel
rehearing.
Judges
Reinhardt and Nguyen have
voted to deny the petition for
rehearing en banc, and Judge
Fisher so recommends. The full
court has been advised of the
petition for rehearing en banc

61
Date Filed #

Docket Text
and no judge has requested a
vote on whether to rehear the
matter en banc. Fed. R. App. P.
35. Appellants’ petition for
panel rehearing and rehearing
en banc, filed January 11,
2016, is DENIED. [9929085]
[15-55446, 15-55911] (WL)
[Entered: 04/06/2016 09:40
AM]

04/18/2016

42

MANDATE ISSUED. Each
party shall bear its own costs
on appeal. (SR, RCF and JHN)
[9944244]
[15-55446,
1555911]
(RR)
[Entered:
04/18/2016 04:05 PM]

62
Docket Entries:
U.S. Court of Appeals for the Ninth Circuit
Case No. 16-56855
Date Filed

#

Docket Text
*****

07/10/2017

16

Submitted (ECF) First Brief
on Cross-Appeal for review.
Submitted
by
Appellant
Xavier Becerra in 16-56855,
Appellee Xavier Becerra in
16-56902. Date of service:
07/10/2017. [10503322] [1656855, 16-56902] (Calia,
Kevin) [Entered: 07/10/2017
03:30 PM]

07/10/2017

17

Submitted (ECF) excerpts of
record.
Submitted
by
Appellant Xavier Becerra in
16-56855, Appellee Xavier
Becerra in 16-56902. Date of
service:
07/10/2017.
[10503340] [16-56855, 1656902] --[COURT UPDATE:
Attached corrected excerpts
of record Vol 5. 7/11/2017 by
TYL] (Calia, Kevin) [Entered:
07/10/2017 03:34 PM]
*****

63
Date Filed

#

Docket Text

07/11/2017

19

Filed clerk order: The first
brief on cross-appeal [16]
submitted by Xavier Becerra
is filed. Within 7 days of the
filing of this order, filer is
ordered to file 7 copies of the
brief
in
paper
format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted
electronically.
Cover color: blue. The paper
copies shall be printed from
the PDF version of the brief
created from the word
processing application, not
from PACER or Appellate
CM/ECF. The Court has
reviewed the excerpts of
record [17] submitted by
Xavier Becerra. Within 7
days of this order, filer is
ordered to file 4 copies of the
excerpts in paper format,
with a white cover. The paper
copies must be in the format
described in 9th Circuit Rule
30-1.6. [10504275] [16-56855,
16-56902] (SML) [Entered:
07/11/201711 :49 AM]

64
Date Filed

#

Docket Text
*****

07/13/2017

22

ENTRY UPDATED: Filed 4
paper copies of excerpts of
record [17] in 6 volume(s)
filed by Appellant/CrossAppellee Xavier Becerra.
(sent to panel) [10507479]
[16-56855,
16-56902]-[Edited 07/14/2017 by SML to
indicate the materials were
sent to the panel] (SML)
[Entered: 07/13/2017 12:37
PM]

07/13/2017

23

Received 7 paper copies of
First Brief on Cross-Appeal
[16] filed by Xavier Becerra in
16-56855,
16-56902.
[10507711] [16-56855, 1656902] (Sent to Panel) (RG)
[Entered: 07/13/2017 02:04
PM]
*****

09/06/2017

27

Filed
order
(STEPHEN
REINHARDT, RAYMOND C.
FISHER and JACQUELINE
H. NGUYEN): Oral argument
in the above-captioned cases
will be heard on the same

65
Date Filed

#

Docket Text
day. The court will issue an
order respecting the date,
time and location of oral
argument once briefing in
Nos. 16-56855 and 16-56902
is completed. [10571474] [1655727, 16-55786, 16-56855,
16-56902] (AF) [Entered:
09/06/2017 03:31 PM]

10/20/2017

28

Submitted (ECF) Second
Brief on Cross-Appeal for
review.
Submitted
by
Appellee Thomas More Law
Center
in
16-56855,
Appellant Thomas More Law
Center in 16-56902. Date of
service:
10/20/2017.
[10626674] [16-56855, 1656902]
(Castoria,
Louis)
[Entered: 10/20/2017 08:05
PM]

10/20/2017

29

Submitted (ECF) supplemental excerpts of record.
Submitted
by
Appellee
Thomas More Law Center in
16-56855, Appellant Thomas
More Law Center in 1656902. Date of service:
10/20/2017. [10626677] [1656855, 16-56902] (Castoria,

66
Date Filed

#

Docket Text
Louis) [Entered: 10/20/2017
08:10 PM]

10/23/2017

30

Filed clerk order: The second
brief on cross-appeal [28]
submitted by Thomas More
Law Center is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies
of the brief in paper format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted
electronically.
Cover color: red. The paper
copies shall be printed from
the PDF version of the brief
created from the word
processing application, not
from PACER or Appellate
CM/ECF. The Court has
reviewed the supplemental
excerpts of record [29]
submitted by Thomas More
Law Center. Within 7 days of
this order, filer is ordered to
file 4 copies of the excerpts in
paper format, with a white
cover. The paper copies must
be in the format described in
9th Circuit Rule 30-1.6.

67
Date Filed

#

Docket Text
[10627075] [16-56855, 1656902]
(SML)
[Entered:
10/23/2017 09:29 AM]

10/23/2017

31

Filed (ECF) Errata to Second
Brief on Cross-Appeal ([28]
Brief Submitted for Review
(ECF Filing)). Filed by
Appellee Thomas More Law
Center in 16-56855, Appellant Thomas More Law
Center in 16-56902. Date of
service:
10/23/2017.
[10628356] [16-56855, 1656902]
(Castoria,
Louis)
[Entered: 10/23/2017 03:59
PM]

10/25/2017

32

Received 7 paper copies of
Second Brief on Cross-Appeal
[28] filed by Thomas More
Law Center in 16-56855, 1656902. [10631947] [16-56855,
16-56902] (Sent to Panel)
(RG) [Entered: 10/26/2017
08:21 AM]

10/25/2017

33

ENTRY UPDATED: Filed 4
paper copies of supplemental
excerpts of record [29] in 3
volume(s) filed by Appellee/
Cross-Appellant
Thomas
More Law Center. (sent to

68
Date Filed

#

Docket Text
panel) [10632663] [16-56855,
16-56902]--[Edited
10/27/2017 by SML to reflect
the paper copies were sent to
the panel] (SML) [Entered:
10/26/2017 11:57 AM]

10/27/2017

34

Submitted (ECF) Amicus
brief for review (by government or with consent per
FRAP 29(a)). Submitted by
Center for Constitutional
Jurisprudence.
Date
of
service:
10/27/2017
[10634169] [16-56855, 1656902]
(Eastman,
John)
[Entered: 10/27/2017 11:22
AM]
*****

10/27/2017

36

Filed clerk order: The amicus
brief [34] submitted by
Center For Constitutional
Jurisprudence is filed. Within
7 days of the filing of this
order, filer is ordered to file 7
copies of the brief in paper
format,
accompanied
by
certification, attached to the
end of each copy of the brief,
that the brief is identical to
the
version
submitted

69
Date Filed

#

Docket Text
electronically. Cover color:
green. The paper copies shall
be printed from the PDF
version of the brief created
from the word processing
application, not from PACER
or
Appellate
CM/ECF.
[10634199] [16-56855, 1656902]
(SML)
[Entered:
10/27/2017 11 :28 AM]

11/03/2017

37

Received 7 paper copies of
Amicus Brief [34] filed by
Center For Constitutional
Jurisprudence in 16-56855,
16-56902. [10642810] [1656855, 16-56902] (Sent to
Panel)
(RG)
[Entered:
11/03/2017 11 :51 AM]

11/13/2017

38

Filed (ECF) Appellant Xavier
Becerra in 16-56855, Appellee
Xavier Becerra in 16-56902
Unopposed Motion to extend
time to file Third Brief on
Cross-Appeal
brief
until
01/19/2018. Date of service:
11/13/2017. [10652113] [1656855, 16-56902] (Gordon,
Alexandra)
[Entered:
11/13/2017 04:36 PM]

70
Date Filed

#

Docket Text

01/19/2018

39

Submitted (ECF) Third Brief
on Cross-Appeal for review.
Submitted
by
Appellant
Xavier Becerra in 16-56855,
Appellee Xavier Becerra in
16-56902. Date of service:
01/19/2018. [10731293] [1656855, 16-56902] (Gordon,
Alexandra)
[Entered:
01/19/2018 02:59 PM]

01/19/2018

40

Filed (ECF) Appellee Xavier
Becerra
in
16-56902,
Appellant Xavier Becerra in
16-56855
Correspondence:
Letter accompanying Third
Brief on Cross-Appeal. Date
of
service:
01/19/2018
[10731755] [16-56902, 1656855] (Gordon, Alexandra)
[Entered: 01/19/2018 05:18
PM]

01/29/2018

41

Filed clerk order (Deputy
Clerk:
OC):
DefendantAppellant-Cross-Appellee
Xavier Becerra’s unopposed
motion for extension of time
to file third brief, filed
November 13, 2017 (Dkt.
[38]), is GRANTED. The
Clerk shall file the brief.

71
Date Filed

#

Docket Text
[10742272] [16-56855, 1656902]
(OC)
[Entered:
01/29/2018 02:12 PM]

01/29/2018

42

Filed clerk order: The third
brief on cross-appeal [39]
submitted by Xavier Becerra
is filed. Within 7 days of the
filing of this order, filer is
ordered to file 7 copies of the
brief
in
paper
format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted
electronically.
Cover color: yellow. The paper
copies shall be printed from
the PDF version of the brief
created from the word
processing application, not
from PACER or Appellate
CM/ECF. [10742925] [1656855,
16-56902]
(SML)
[Entered: 01/29/2018 04:15
PM]

01/31/2018

43

Received 7 paper copies of
Third Brief on Cross-Appeal
[39] filed by Xavier Becerra in
16-56855,
16-56902.
[10747128] [16-56855, 1656902] (Sent to Panel) (RG)

72
Date Filed

#

Docket Text
[Entered: 02/01/2018 08:14
AM]

02/09/2018

44

Submitted
(ECF)
CrossAppeal Reply Brief for review.
Submitted
by
Appellee
Thomas More Law Center in
16-56855, Appellant Thomas
More Law Center in 1656902. Date of service:
02/09/2018. [10758964] [1656855, 16-56902]--[COURT
UPDATE: Removed motion
and exhibits (filed correctly in
entry[45]). Updated docket
text to reflect correct brief
type. 02/12/2018 by SLM]
(Cruz, Marion) [Entered:
02/09/2018 05:55 PM]

02/12/2018

45

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
Motion to take judicial notice
of.
Date
of
service:
02/12/2018. [10759426] [1656855,
16-56902]
(Cruz,
Marion) [Entered: 02/12/2018
09:51 AM]

02/12/2018

46

Filed clerk order: The crossappeal reply brief [44]

73
Date Filed

#

Docket Text
submitted by Thomas More
Law Center is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies
of the brief in paper format,
accompanied by certification,
attached to the end of each
copy of the brief, that the brief
is identical to the version
submitted
electronically.
Cover color: gray. The paper
copies shall be printed from
the PDF version of the brief
created from the word
processing application, not
from PACER or Appellate
CM/ECF. [10760189] [1656855,
16-56902]
(SML)
[Entered: 02/12/2018 01:06
PM]

02/13/2018

47

Filed (ECF) Appellant Xavier
Becerra in 16-56855, Appellee
Xavier Becerra in 16-56902
Motion to strike portion of
Thomas More Law Center’s
Reply Brief. Date of service:
02/13/2018. [10763136] [1656855, 16-56902] (Gordon,
Alexandra)
[Entered:
02/13/2018 05:25 PM]

74
Date Filed

#

Docket Text

02/14/2018

48

Received 7 paper copies of
Cross-Appeal Reply Brief [44]
filed by Thomas More Law
Center (sent to panel).
[10763739] [16-56855, 1656902]
(DB)
[Entered:
02/14/2018 10:49 AM]

02/22/2018

49

Filed (ECF) Appellee Xavier
Becerra
in
16-56902,
Appellant Xavier Becerra in
16-56855 response opposing
motion ([45] Motion (ECF
Filing), [45] Motion (ECF
Filing) motion to take judicial
notice). Date of service:
02/22/2018. [10773264] [1656902, 16-56855] (Gordon,
Alexandra)
[Entered:
02/22/2018 11:30 AM]

02/23/2018

50

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
Motion to strike portion of
THOMAS
MORE
LAW
CENTER OPPOSITION TO
ATTORNEY
GENERALS
MOTION
TO
STRIKE
PORTIONS OF THOMAS
MORE
LAW
CENTERS

75
Date Filed

#

Docket Text
REPLY BRIEF. Date of
service:
02/23/2018.
[10775144] [16-56855, 1656902]
(Cruz,
Marion)
[Entered: 02/23/2018 11:12
AM]

02/28/2018

51

Filed (ECF) Appellant Xavier
Becerra in 16-56855, Appellee
Xavier Becerra in 16-56902
citation
of
supplemental
authorities. Date of service:
02/28/2018. [10781628] [1656855, 16-56902] (Gordon,
Alexandra)
[Entered:
02/28/2018 03:24 PM]

03/01/2018

52

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
reply to response(). Date of
service:
03/01/2018.
[10783520] [16-56855, 1656902]
(Cruz,
Marion)
[Entered: 03/01/2018 04:59
PM]
*****

04/09/2018

54

Filed clerk order (Deputy
Clerk: AF): Pursuant to G.O.
§ 3.2.h, Judge Paez has been

76
Date Filed

#

Docket Text
drawn as the replacement for
Judge Reinhardt. The panel
for these cases will now
consist of: FISHER, PAEZ
and
NGUYEN,
Circuit
Judges.
[10829034]
[1655727, 16-55786, 16-56855,
16-56902] (AF) [Entered:
04/09/2018 11:39 AM]
*****

06/15/2018

59

Filed order (RAYMOND C.
FISHER, RICHARD A. PAEZ
and
JACQUELINE
H.
NGUYEN): The time of oral
argument has been changed
from 12:30 p.m. to 10:30 a.m.
Oral argument will now be
held at 10:30 a.m. on Monday,
June 25, 2018, at the Richard
H. Chambers U.S. Courthouse, 125 South Grand
Avenue,
Pasadena,
CA
91105-1643. The parties will
be afforded 15 minutes per
side in each case, for a total
argument time of one hour.
[10910620] [16-55727, 1655786, 16-56855, 16-56902]
(AF) [Entered: 06/15/2018
11:43 AM]

77
Date Filed

#

Docket Text
*****

06/20/2018

62

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
citation
of
supplemental
authorities. Date of service:
06/20/2018. [10916602] [1656855, 16-56902]--[COURT
UPDATE: Attached searchable version of citation.
6/20/2018 by TYL] (Castoria,
Louis) [Entered: 06/20/2018
05:08 PM]

06/20/2018

63

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
citation
of
supplemental
authorities. Date of service:
06/20/2018. [10916621] [1656855, 16-56902]--[COURT
UPDATE:
Attached
searchable version of citation.
6/20/2018 by TYL] (Castoria,
Louis) [Entered: 06/20/2018
05:32 PM]

06/25/2018

64

ARGUED AND SUBMITTED
TO RAYMOND C. FISHER,

78
Date Filed

#

Docket Text
RICHARD A. PAEZ and
JACQUELINE H. NGUYEN.
[10920722] [16-56855, 1656902]
(Witt,
Dusty)
[Entered: 06/25/2018 12:35
PM]

06/26/2018

65

Filed Audio recording of oral
argument.
Note:
Video
recordings of public argument
calendars are available on the
Court’s
website,
at
http://www.ca9.uscourts.gov/media/

[10922135] [16-56855, 1656902]
(Witt,
Dusty)
[Entered: 06/26/2018 10:18
AM]
09/11/2018

66

FILED
OPINION
(RAYMOND C. FISHER,
RICHARD A. PAEZ and
JACQUELINE H. NGUYEN)
INJUNCTIONS VACATED;
JUDGMENTS REVERSED;
CASES REMANDED. The
Law Center’s motion for
judicial notice, filed February
12, 2018 (Dkt. 45, No. 1656855) is DENIED. The
Attorney General’s motion to
strike, filed February 13,
2018 (Dkt. 47, No. 16-56855),
is DENIED. Judge: RCF

79
Date Filed

#

Docket Text
Authoring.
FILED
AND
ENTERED
JUDGMENT.
[11006860] [16-55727, 1655786, 16-56855, 16-56902]
(RMM) [Entered: 09/11/2018
07:28 AM]

09/25/2018

67

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
petition for rehearing en banc
(from 09/11/2018 opinion).
Date of service: 09/25/2018.
[11025443] [16-56855, 1656902]
(Castoria,
Louis)
[Entered: 09/25/2018 04:59
PM]

03/29/2019

68

Filed Order for PUBLICATION
(RAYMOND
C.
FISHER, RICHARD A. PAEZ
and
JACQUELINE
H.
NGUYEN) (Dissent by Judge
Ikuta; Reply to Dissent by
Judges Fisher, Paez, and
Nguyen) Denying Petition for
Rehearing En Banc (ECF
Filing) filed by Appellant
Americans for Prosperity
Foundation in 16-55727, 1655786, Denying Petition for
Rehearing En Banc (ECF

80
Date Filed

#

Docket Text
Filing) Judge Paez and Judge
Nguyen have voted to deny
the petitions for rehearing en
banc and Judge Fisher has so
recommended. The full court
was advised of the petitions
for rehearing en banc. A judge
requested a vote on whether
to rehear the matter en banc.
The matter failed to receive a
majority of the votes of the
nonrecused active judges in
favor of en banc consideration. Fed. R. App. P. 35. The
petitions for rehearing en
banc (Nos. 16-55727 and 1655786, filed September 25,
2018 - Dkt.[11025269-2]; and
Nos. 16-56855 and 16-56902,
filed September 26, 2018 Dkt. [67] are DENIED.
[11246084] [16-55727, 1655786, 16-56855, 16-56902]
(RMM) [Entered: 03/29/2019
07:49 AM]

04/08/2019

69

MANDATE ISSUED.(RCF,
RAP and JHN) [11255343)
[16-56855, 16-56902] (CW)
[Entered: 04/08/2019 07:14
AM]

81
Date Filed

#

Docket Text

05/28/2019

70

Filed (ECF) Appellee Thomas
More Law Center in 1656855, Appellant Thomas
More Law Center in 16-56902
Motion to recall the mandate,
Motion to stay the mandate.
Date of service: 05/28/2019.
[11310740] [16-56855, 1656902]
(Castoria,
Louis)
[Entered: 05/28/2019 03:15
PM]

06/10/2019

71

Received letter from the
Supreme
Court
dated
06/05/2019. The application
for an extension of time
within which to file a petition
for a writ of certiorari in the
above-entitled case has been
presented to Justice Kagan,
who on June 5, 2019,
extended the time to and
including August 26, 2019.
[11326370] [16-56855, 1656902]
(RR)
[Entered:
06/11/2019 10:11 AM]

08/02/2019

72

Filed order (RAYMOND C.
FISHER, RICHARD A. PAEZ
and
JACQUELINE
H.
NGUYEN) The motion of
Thomas More Law Center to

82
Date Filed

#

Docket Text
recall and stay the mandate,
filed May 28, 2019 (Dkt. [70]),
is GRANTED. The mandate
is recalled. The mandate is
stayed for a period not to
exceed 90 days pending the
filing of the petition for writ of
certiorari in the Supreme
Court. If, within that period,
the Clerk of the Supreme
Court advises the Clerk of
this Court that a petition for
certiorari has been filed, then
the mandate shall be further
stayed until final disposition
of the matter by the Supreme
Court. [11385587] [16-56855,
16-56902] (OC) [Entered:
08/02/2019 02:02 PM]

08/27/2019

73

Supreme Court Case Info
Case
number:
19-255
Filed
on:
08/26/2019
Cert Petition Action 1:
Pending
[11412007] [16-56855, 1656902]
(RR)
[Entered:
08/27/2019 12:53 PM)

01/11/2021

74

Supreme Court Case Info
Case
number:
19-255
Filed
on:
08/26/2019
Cert Petition Action 1:

83
Date Filed

#

Docket Text
Granted,
01/08/2021
[11959678] [16-56855, 1656902]
(RR)
[Entered:
01/11/2021 04:19 PM]

84
Excerpts from Trial Transcript,
Day 1, Vol. 1
UNITED STATES OF AMERICA
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
–––
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
THOMAS MORE LAW
CENTER,

)
)
)
PLAINTIFF,
) CERTIFIED COPY
)
VS.
) CV 14-09448 R
)
KAMALA HARRIS,
)
)
DEFENDANT.
)
---------------------------------------------)
TRIAL DAY ONE, MORNING SESSION
REPORTER’S TRANSCRIPT OF PROCEEDINGS
TUESDAY, SEPTEMBER 13, 2016
A.M. SESSION
LOS ANGELES, CALIFORNIA
*****

85
[18] 365, 369, 372, 373, 377, 385, 389, 391, 392, 395,
400, 406, 407, 411, 412, 413, 414, 418, 419, 420, 433,
862 will be received.)
MR. CASTORIA: Thank you, Your Honor.
As its first witness, pardon me, the Law Center
calls Mr. Richard Thompson to the stand, please.
(WITNESS SWORN.)
MR. CASTORIA: Your Honor, to expedite the
witness, the Law Center’s prepared a separate
witness binder. As the Court may have observed, the
numbers of binders of exhibits in this case are
voluminous. And -- so both of the witnesses and the
Court’s sake, we have compiled this witness binder for
Richard Thompson so that he can follow and we can
expedite testimony.
The witness has been sworn, I see.
THE CLERK: Yes.
MR. CASTORIA: Thank you very much.
THE COURT: He has been sworn.
DIRECT EXAMINATION
BY MR. CASTORIA:
Q. Mr. Thompson, please state your name for the
record and spell your last name.
A. Richard Thompson, T-h-o-m-p-s-o-n.
Q. Mr. Thompson,
employment and title?

what

is

your

current

[19] A. I’m employed with the Thomas More Law
Center. The title is president and chief counsel.

86
Q. When did you begin that employment?
A. 1998.
Q. And obviously you’re an attorney. Where did
you go to law school?
A. Wayne State University in Detroit.
Q. What year did you graduate?
A. Pardon me?
Q. What year did you graduate law school?
A. 1964.
Q. Thank you.
Now prior to joining Thomas More Law Center,
what was your longest position employed as a lawyer?
A. I was in law enforcement 16 years with -- as
chief assistant prosecutor for the Oakland County
prosecutor’s office, and eight years as the elected
prosecuting attorney of Oakland County. So a total of
24 years.
Q. And Oakland County’s in Michigan obviously?
A. Yes. It’s a county in Michigan north of Wayne
County, which the city of Detroit is located. It has a
population of 1.2 million.
Q. Thank you. And briefly if you would, please,
describe what your role was in your position with the
[20] prosecutor’s office.
A. Initially as a chief assistant prosecutor I was
second in command, ran a day-to-day operation of the
office. Handled some cases as well as assigned cases.

87
Also as the elected prosecuting attorney, I was
involved in setting policies for the office. Also a
member of the narcotics enforcement team, which
was a multi-jurisdictional organization that
investigated and prosecuted major drug dealers. I was
a member of the Oakland County Chiefs of Police
Association, which consisted of 46 different
departments of chiefs of police. And also was involved
in the -- Governor Engler’s criminal justice
organization.
Q. Could you spell the governor’s last name for the
court reporter.
A. E-n-g-l-e-r.
Q. Thank you.
Did you do any teaching while you were prosecutor
in the area of criminal justice?
A. Yes. I also taught at the Oakland County Police
Academy on issues of search and seizure, as well as
Miranda warnings.
Q. Tell me how you first came to learn of the Law
Center.
MR. CASTORIA: Is it all right with you if I [21]
refer to Thomas More Law Center as the Law Center?
THE COURT: Certainly.
THE WITNESS: Would you repeat that question
again? When I first learned about the Law Center?
BY MR. CASTORIA:
Q. Yes, sir.
A. The Law Center was established in cooperation
with Mr. Thomas Monaghan who wanted to change

88
the culture. He was a deeply religious man and he was
concerned about the direction that the culture was
going, especially in the pro-life areas.
And he asked what could be done after I had
worked for him for a couple of months in the pro-life
cause. And I said, the two things you should be able
to do to try to change the culture is establish a law
school based on Catholic principles and also a public
interest loss -- law firm to advocate in court, litigate
as the ACLU is doing for the principles that they
believed in.
And it was a case of where the courts now were
taking the lead in establishing the direction of the
culture on many of the various issues that people were
concerned about.
Q. Did Mr. Monaghan ultimately do both things,
the law firm and the law school?
[22] A. At first, yes. But quickly, we had an
individual who had a lot more experience in that. And
that was Dean Bernard Dobranski who was the dean
of the law school at Catholic University in
Washington, D.C.
And he wanted to be the founding dean of the Ave
Maria School of Law. And we welcomed that.
And so I focused my attention on the public
interest litigation aspect of the Thomas More Law
Center.
Q. I’d asked you how the Law Center came to your
attention, did Mr. Monaghan tell you how you came
to his attention?
A. Well, actually the Law Center -- let me back up.

89
I came to the attention of Mr. Monaghan as a
result of my involvement in physician assisted
suicide. As a prosecuting attorney, I was a prosecutor
that challenged what Dr. Jack Kevorkian was doing
with his idea of physician assisted suicide.
And we prosecuted several cases. The -- the
opinion in Oakland County was 83 percent against
prosecution. But I continued to prosecute. I felt that
was my job.
And as a result, lost my job in a primary. And
ultimately I believe that’s where Mr. Monaghan
recognized me as an individual.
[23] And then we moved ahead with the
relationship, first working with him on a pro-life
issue; and then ultimately the -- as a cofounder of the
Thomas More Law Center Public Interest Law Firm.
Q. And with respect to your prosecution of Dr.
Kevorkian, was that based on your analysis of
Michigan law at that time or solely on your religious
beliefs?
A. It was basically on the law. I mean, I don’t -- I
don’t try to impose my religious beliefs as a
prosecuting attorney. And in Michigan at the time the
law was -- the common law, there was no specific law
on physician assisted suicide. But back in 1920 there
was a common law case where a judge determined
that where an individual handed poison to his wife so
she could kill herself, but that was first degree
murder. That was the law that we depended upon
when we filed the first case against Dr. Kevorkian.

90
And at the same time asking the legislature to
develop a piece of legislation that would deal with
that.
Q. So let’s turn our attention back to the Law
Center. You were you said one of the founders
together with Mr. Monaghan.
What type of business entity is Thomas More Law
[24] Center?
A. The Thomas More Law Center is a 5012(c)(3)
public interest law firm, that represents individuals
dealing with the mission that we have, which is the
restoration, protection, promotion of Christian
heritage and moral values, including the sanctity of
human life, family values, religious freedom and a
strong and sovereign United States of America.
Q. Has the Law Center been a 501(c)(3) -- that’s
under the Internal Revenue code; is that right?
A. Yes.
Q. Has that been the case since the inception of the
Law Center?
A. Yes.
Q. How many full-time employees does the Law
Center currently have?
A. Approximately -- I’m not sure, approximately
nine or ten.
Q. Are any of them based in the State of
California?
A. No.

91
Q. I would like you to please describe in general
terms but briefly what your duties at the Law Center
are as president and as chief counsel?
A. Well, it involves running the day-to-day
operations of the Law Center; assigning cases to the
[25] lawyers; keeping tabs on how our financial
situation is, because the Law Center is a small
organization. It is more of a team effort.
Where I may be the quarterback, but I’m relying
upon all the people in the office to help me out. And
they are all committed to the mission of the Law
Center.
Q. In connection with your duties at the Law
Center, do you communicate from time to time with
donors to the Law Center about the Law Center’s
mission?
A. Yes.
Q. How do you do that? What medium do you use
to communicate?
A. Well, sometimes I have -- make public speeches
to organizations. I also send out letters to individuals
who we think may be interested in donating to the
Thomas More Law Center.
Of course we issue press releases. We have a
website that discusses and produces documents and
articles on the various cases that we are handling.
And we ask for donations from that particular
medium.
So we basically use many of the same tools that
any organization would want to use to get their
message out and to get people to support them.

92
Q. Are your newsletters that you mentioned
physical [26] letters sent by U.S. mail or are they
electronic?
A. Both. We do have -- to describe the way we
operate, we do have what we call acquisition packages
that we send out to people who have never donated to
us before. But because of their membership in
organizations that we feel reflect our views, and
maybe they’ve also donated to organizations that are
similar to us, we get those lists from a -- what we call
a list broker, and we send mailers out about a
particular issue and inviting them to join the Thomas
More Law Center.
That’s the method by which we bring in new people
into the Thomas More Law Center.
Now once they are members, we then write what
we call in-house files, direct mail, where we may be
talking about a particular case that we are interested
in, that we are involved with. And if they agree with
us on that case, we ask for donations. And that’s the
way that comes in.
As I indicated on our website we have a donate
button, if they want to donate that way as well.
Sometimes we do ads in various magazines and
newspapers that might be featuring some case that
we’re involved with, especially in magazines and
events that are going to take place that we feel would
be consistent with the views that we espouse.
[27] Q. In terms of the cases that the Law Center
chooses to become involved in, are you the person who
makes that ultimate choice?
A. Yes.

93
Q. What are the criteria that you use in selecting
cases that the Thomas More Law Center will accept?
A. The number one criteria I believe is will it make
a difference in what I call the cultural -- or is this
going to make a difference in the environment that we
find ourselves. Although we take on individual
litigants to do that, we base it on the fact that the
Supreme Court has itself said that public interest law
firm representing individuals are a fundamental way
to make sure the constitution is followed.
Obviously, the -- you know, the ACLU is an
example of changing the culture through litigation.
And so that’s what we do with every kind of medium
that we look at.
Q. Does the Law Center charge its clients for its
services?
A. Pardon me?
Q. Does the Law Center charge its clients for its
services?
A. No. All of our representation is without charge.
Q. And in some cases does the Law Center receive
[28] fees under provision, such as the Civil Rights Act
Section 1983 and 1988?
A. Yes. There are a few provisions where the
prevailing party may recover reasonable attorney
fees. We do do that. We do get that every once in a
while. But our main source of income is the donation.
Q. How does the Law Center based in Ann Arbor,
Michigan litigate cases all the across the country?
A. We have a list of pro bono attorneys who have
signed on voluntarily. They commit to follow the

94
mission of the Thomas More Law Center. And these
pro bono attorneys when we have a case in a
particular state normally come in and file
applications for pro hac vice representation so that we
can come in and practice in the court that we may not
be admitted to.
And if they have the time and they want to, they
can also help. And most of them do help us with
motions areas and litigation that they feel they have
the time to do that. They are basically in private
practice and they are donating their services.
Q. How easy or hard is it for the Law Center to find
attorneys around the country whose law firms will
agree to that pro bono commitment?
A. Well, it is difficult in the sense that the Law
Center takes on controversial issues. Many of the [29]
larger firms have pro bono committees, but they don’t
want to get involved in the larger issues. For instance,
traditional marriage versus same sex marriage that
is an issue that many large firms will not allow their
attorneys to engage in pro bono practice.
So again, it’s a -- we are involved in these
controversial issues and many commercial law firms
do not want to have their employees involved in it.
Q. I see.
I think you used the word members earlier. What
is a member of the Law Center?
A. Anyone who contributes $25 or more becomes
an automatic member. They get a card that they
basically -- that allows them to get our updates
whenever we have a press release or some article that
we are involved with on a case of controversy.

95
So they are kept up to date on what we are doing.
Q. Is it fair to say that a donor is a member and a
member is a donor?
A. Most often, yes.
Q. How many total donors or
approximately has the Law Center had?

members

A. Anywhere between 60,000 and 100,000 that are
on our list. Once you’re -- once you donate you’re on
our list.
[30] Now, that doesn’t mean we send out mail
asking for money to 60,000 or 100,000. Because a lot
of people, although they have been involved, their
interest drops off. And if they haven't donated in three
or four or five years, we don’t send them routine
packages. But every once in a while we will send them
a package to see if they are still interested in
supporting the Thomas More Law Center.
Q. And while we are on that subject, can you
estimate for me what percentage of the Law Center’s
revenues come to it in recent years through the
mailing campaigns you’ve described as opposed to the
others, the website, et cetera?
A. I don’t have a percentage. But I would say that
the majority of our money comes from donors who are
responding to a mail campaign.
Q. Can you give an example of a mailer that the
Law Center sent out on a subject that was
controversial this year, for example?
A. Well, in acquisition pieces that we’ve send out
that we talk about the internal threat of radical
Islam, which is a very controversial issue right now.

96
And we have people that support us on that issue.
And there are people that don’t want to support us on
that issue.
We have a piece that’s already in the works [31]
that’s going to come out shortly on pro-life issues
where we’ve been representing some sidewalk
counsellors in the State of Maine. And there has been
a great effort by Planned Parenthood to sweep them
off the sidewalks. First they tried with a 39-foot buffer
zone. And we held that -- we got the Court to hold that
unconstitutional. Then the attorney general came in
and is attempting to use the main civil rights law
saying that the sidewalk counsellors are too loud, and
if anyone in the abortion clinic hears them, then they
are interfering with a medical process and they can be
fined for up to $5,000 for each instance.
We challenged that. We won that case in the
Federal District Court. And the attorney general now
has appealed it to the Court of Appeals.
Q. You called it acquisition piece. That’s the mailer
that goes to people who are not yet donors, correct?
A. Correct.
Q. So the acquisition piece on radical Islam that
went out this year, roughly when did that one go out?
A. They go out periodically. I think there was one
that went out in February, and then there was one
that went out in April of this year.
Q. Do people who respond to the mailers and send
[32] donations via the mailers -- I should go back a
step. Pardon me.

97
Does the acquisition piece mailer have a business
reply envelope or something like that in it?
A. Yes. They have a reply -- it’s normally an urgent
reply form. And they fill it out for membership. That
is the acquisition piece, asking them to be a member.
And then the reply form that goes out with the
house file is an urgent reply form. They’re already a
member so we’re not asking them to be a member
again.
But we are asking them to donate if they agree
with that particular lawsuit that we are involved
with.
Q. Can you estimate for me how most of the people
who respond to an acquisition piece and make a
donation, how they make it? Is it a check; is it a credit
card number? How does it go?
A. Most often they’re sending it via check. And
then there is a form for credit cards if they want to fill
out a credit card. And then sometimes people decide
they want to call and send a donation by the mail. And
we’ll have someone in the office fill out the donation
form on our computer, and put it into the system that
way.
Q. Are you familiar with communications that
other [33] people at the Law Center have with
potential donors who have questions about whether
they should donate or not?
A. Yes, I’m familiar with that.
Q. And do you receive any regular reports in your
capacity as president of the Law Center from the

98
employees about records they of those kinds of
contacts?
A. Yes. Recently, you know, I’ve asked them to do
that as a result of this lawsuit. But in the past, you
know, we’ve had e-mails that our office kept. And
because it’s a small office, many times it’s just word of
mouth.
Q. You have regular staff meetings?
A. Yes, we have staff meetings. We have -- our
days always start with morning prayer. And then
shortly after the morning prayer we have maybe a 15minute meeting of the staff of anything that they
want to discuss, anything that is of interest.
Q. You also receive regular reports from anyone on
the staff regarding reports in the media that refer to
the Law Center.
A. Right. Well, there are several reports I receive
in my capacity as the president. One is of course every
-- every employee sends me a daily report. And that is
a written document sent to me via e-mail. And it is of
the previous day’s activity they were involved [34]
with. And in that, if there is something that is
important, they want to bring to my attention, they
can put it in the daily report. But I also ask them to
see me personally about that if it’s a matter that is
that important.
And then we have a media report that goes out
that comes to me from Catherine McMillan, who
keeps track of the media that is talking about the
Thomas More Law Center, very -- doesn’t make any
difference whether it is negative or positive she sends
me the media reports.

99
We have a donation report that goes out to me
every week that tells me how much money we brought
in the previous week, and compare it to the previous
year, so I have an idea on how we are doing
financially.
We have a strength report that comes to me every
day telling me who’s in the office and who isn’t, and
where are they.
Q. And in addition to that, do you kind of wander
around and chat with people about what they are
doing day-to-day?
A. I believe in management, supervision by
walking around, I think a lot of times you learn things
by just walking and chatting with people, find out
what they’re doing, find out what’s bothering them. I
do that quite [35] soften.
Q. Through these various methods that you’ve
described, the reports, the walking around, the
chatting, the meetings, do you try to stay on top of the
levels of donations coming into the Law Center and
the kinds of communications the Law Center is
receiving?
A. Yes.
Q. You mentioned having a relatively small staff,
maybe nine or so people.
Is it difficult for you to recruit new employees to
the Law Center? I’m talking about the actual
employees, not the pro bono office?
A. Yes. The same problem exists, because when we
put an ad -- advertise for new employees, we basically

100
tell them what our mission is, what is -- you know,
what particular areas we are involved with.
We always mention, you know, traditional family
values versus same sex marriage. We mention our
involvement with stealth jihad.
And we also -- if there is a resume that comes in
that we are interested in, we then send them out a
questionnaire and we get more detailed about, you
know, these are the things that we believe in. Do you
have any problem with that? And if so, what problems
do you have?
[36] So we kind of -- by our mission, we’ve
narrowed it down. And then by the particular issues
that we are involved with, we narrow it down even
more, so that there is only a select group of people that
we would -- that we would be interested in, and who
would be interested in us, and then of course we get
involved into the legal experience they have, basically
federal court experience is something that we
emphasize. We also emphasize experience as JAG
officer, if they’ve been in the military, we always
recruit them.
Q. Do you tell people who are being considered for
employment at the Law Center if they accept the job
they may face some criticism?
A. I alert them to that aspect. Because invariably
it happens, someone will call, and one of our staff will
answer the phone call, and they will be subjected to,
you know, some kind of vehement criticism. And I
basically forewarn them that is going to happen; and
don’t worry about it, treat them politely; if they get
too abusive, just hang up.

101
Q. What do you mean by vehement criticism? I
believe that was your phrase.
A. They’re using vulgar words. Most of our staff -I should say all of our staff is pretty religious. And I
don’t want them to have to face that. I won’t repeat
*****
[40] The Thomas More Law Center filed 12 of
those lawsuits in federal court representing 36
individuals. And those cases were making themselves
-- making their way to the federal court system. It got
to the various courts of appeals. We won several of
them at the lower court level. And of course they were
appealed by the government.
Then ultimately when the Supreme Court decided
the Sister of the Poor -- Little Sisters of the Poor case,
then the federal government basically backed down
and resolved almost all of those cases in favor of the
religious private organizations that had filed
lawsuits.
There’s still some controversy arising. But most of
that has been resolved.
Q. All right. And traditional definition of marriage
you discussed. You also mentioned support for the
military.
And don’t let me put the words in your mouth.
What was your description that you gave of that cause
that the Law Center advocates for?
A. Well, there are a couple of issues that were
involved in that. One, we represented Lieutenant
*****

102
[43] Q. In that instance, was lieutenant colonel’s
action because the two women were women or
because they were in uniform and having a public
display of affection?
A. It was a public display of affection. Whether
you’re heterosexual or lesbian or whatever, the Army
has a rule that you do not engage in public displays of
affection.
And in that case, we had a situation where a
female sergeant married to an enlisted person,
because there was going to be the dance, went home,
changed from her uniform to civilian clothes so she
could come back and dance with her husband. That’s
how important that is to the military.
Q. Does the Law Center support political
candidates?
A. Say that again.
Q. Does the Law Center support political
candidates?
A. No, it does not. It cannot. It is a 5012(c)(3). You
cannot take any kind of position on partisan politics.
Q. Does the Law Center organize any public
demonstrations?
A. No.
Q. Does the Law Center advocate violence against
those who disagree with its causes?
A. No.
[44] Q. Based on everything you’ve seen and heard,
does it appear to you that the causes the Law Center

103
has been advocating about that you've described are
highly controversial in today’s society?
A. Yes. I think I’ve used the phrase before,
“Cultural War.” There is all of these things occurring
in our society right now that’s very unsettling. And
it’s important that we litigate those issues in the court
system rather than in some other venue, which would
be disastrous for our nation.
Q. Mr. Thompson, I’d like you to pull out the
exhibit binder that is in front of you. I hope you have
it in front of you. And if you’d turn, please, to Exhibit
No. 258.
THE CLERK: Exhibit 258 is placed before the
witness.
MR. CASTORIA: Okay. And Your Honor, I’m just
confirming this, but I believe -- no. 258 is not on the
list of stipulated exhibits.
BY MR. CASTORIA:
Q. So could you please identify Exhibit 258 for the
record, Mr. Thompson.
A. That is a list of various cases that we’ve
handled. It’s obviously not the entire list, but it’s
several cases that we’ve handled.
*****
[48] It was a great opinion. But we got it up to the
Ninth Circuit Court of Appeals. The Ninth Circuit
overruled Judge Benitez. We tried to get it up into the
Supreme Court. They would not take it.
Q. And last -- I’m not going to go through all these.
But the last one I’d like you to comment on is

104
Hollingsworth versus Perry case. Probably most of us
in the room are familiar with.
What was the Law Center’s involvement in that
case?
A. We filed an amicus brief on behalf of a clerk in
California, Chuck Storey, I think of Imperial County,
who tried to intervene in the case at an earlier stage
but was not. And so we filed an amicus brief in
support of Proposition 8, saying that it was a rational
government decision, and that there were reasons
that the people could vote in favor of traditional
marriage that had nothing to do with animus towards
the other, you know, homosexuals or lesbians.
Q. Okay. I’m going to ask you to turn to Exhibit 38
in your binder.
THE CLERK: Exhibit 38 is identified and placed
before the witness.
MR. CASTORIA: And before I forget, Your Honor,
I would like to move the prior exhibit into
*****
[52] MR. CASTORIA: Your Honor, we would move
Number 38 into evidence.
MR. CALIA: Object. It lacks foundation. The
witness who compiled it should testify.
THE COURT: 38 in evidence.
(Exhibit 38 is received.)
BY MR. CASTORIA:
Q. To your knowledge, sir, has any lawyer
employed by the Law Center been reported to any

105
state bars authorities for disciplinary action because
of retaliation for her work?
A. Yes.
Q. I should say “in retaliation.” Pardon me.
A. Yes.
Q. Can you briefly describe that situation?
A. Lawyer Erin Mersino was cited to the Bar
Association because she was representing a student
by the name of Glowacki; his mother, Sandra
Glowacki. The student at an economics class was
being taught about homosexuality. This was a day
that the school had decided they were going to talk
about bullying. And at one point during the class the
teacher asked Daniel Glowacki, “Do you believe in
homosexuality?” He said, “No, it’s against my Catholic
religion.”
And the teacher yells at him, pulls him out of [53]
class, calls a security guard to take him to the
principal’s office.
A great furor existed at that time. We filed a
lawsuit on behalf of Sandra Glowacki, his mother,
who was accused of -- by the homosexual advocacy
group, says “raising a bigoted and intolerant son”
totally destroyed her emotionally for many months.
We filed a lawsuit in Federal District Court. The
federal district judge there ruled in our favor saying
that if the -- if the teacher asked the student what his
thought is and the student gives an honest answer,
the teacher does not have the right then to do what he
did.

106
And that particular case was published
throughout the United States in the education
magazines because of the really horrendous thing
that a teacher would do to a young man who was
asked a question who answered honestly.
THE COURT: How is the name spelled?
THE WITNESS: Pardon me?
THE COURT: How is the name spelled?
THE WITNESS: Glowacki?
THE COURT: Yes.
THE WITNESS: G-l-o-w-a-c-k-i.
THE COURT: All right. Thank you.
[54] MR. CASTORIA: Could you also spell Ms.
Mersino’s last name?
THE WITNESS: M-e-r-s-i-n-o.
BY MR. CASTORIA:
Q. While Ms. Mersino was working on this
Glowacki case you described, were you her immediate
supervisor?
A. Was I her immediate supervisor.
Q. Yes, sir.
A. Yes.
Q. In that capacity, did you follow the complaint
that was made against her to the Michigan State Bar?
A. It was thrown out without any kind of hearing.
Q. What was her response? What did she tell you
her reaction was to having a complaint made to the
state bar?

107
MR. CALIA: Objection. Calls for hearsay.
THE COURT: The objection is overruled.
THE WITNESS: She was very upset, as any
attorney would be, about something like that
happening to their -- her bar license -- affecting her
bar license.
BY MR. CASTORIA:
Q. Let’s switch gears for a moment.
Tell us, please, what is Legatus? L-e-g-a-t-u-s.
A. Legatus is an international organization of
*****
[57] THE CLERK: Exhibit 33 is placed before the
witness.
MR. CASTORIA: And cross-referencing, Your
Honor, Exhibit 33 has already been stipulated into
evidence.
THE COURT: 33 in evidence.
BY MR. CASTORIA:
Q. Do you recognize Exhibit 33, Mr. Thompson?
A. Yes.
Q. In the center of -- what is it?
A. It’s a document that’s on our web page. It talks
about financial statements that they can get if they
want. Talks about our privacy policy; that the Thomas
More Law Center will not sell, share or trade our
donor’s names or personal information with any other
entity nor send mailings to our donors on behalf of
other organizations.

108
And it goes on: “This policy applies to all donor’s
names or personal information received by the
Thomas More Law Center both on line and off line on
any platform.” And it goes on.
And then the other part of it is it talks about
compensation of myself and the lack of, you know, a
conflict of interest in my compensation is not
determined by me but by the board.
[58] Q. Just focusing, if I may, I’m sorry to
interrupt you.
Had you completed your answer?
A. Yes.
Q. The privacy policy’s in the center of the page.
And you summarized a portion of it.
Has this been the privacy policy of the Law Center
for some time? Or is this brand new?
A. It’s been the policy of the office since the
beginning. Now this particular articulation of the
policy is more recent. And it was developed when we
developed our web page. And through -- I think
Catherine McMillan developed that to make sure that
we were complying with the provisions of Charity
Navigator that wanted, you know, transparency on
what we do and how we do it.
Q. Did you say Charity Navigator?
A. Yes.
Q. What is that?
A. That’s an organization that keeps track of none
profits.

109
Q. Have you received any complaints from Charity
Navigator after posting this privacy policy, that it’s
not adequate?
A. No. In fact, we were doing it in conjunction
*****
[60] And she was laying out the instructions how
990’s should be handled; Schedule B of the 990’s
should be handled.
Q. Would you mind just reading the concluding
sentence of this document for the record.
A. “It cannot be stressed enough that no copy of
Schedule B is to distributed to the public.” Period.
Q. Thank you.
Could you also please turn to the next Exhibit
number 9 in your binder.
THE CLERK: Exhibit 9 is placed before the
witness.
MR. CASTORIA: Thank you. Again, Your Honor, I
would note that Exhibit 9 is on the -THE COURT: 9 in evidence.
MR. CASTORIA: There you go.
(Exhibit 9 is received.)
BY MR. CASTORIA:
Q. Can you identify Exhibit 9 for the record,
please?
A. This is a confidentiality agreement that we
have our employees sign. And it is also an agreement
that we have any vendors sign who are going to be

110
looking at our computer system or our information
that would deal -- [61] that would deal with donors.
Basically all of our employees would sign this
confidentiality agreement. And then anyone who is
going to work on our computers would have to sign
the confidentiality agreement as well.
Q. All right.
MR. CASTORIA: I just want to check the time,
Your Honor. I don’t see a clock.
Oh, I do.
BY MR. CASTORIA:
Q. Would you please turn to Exhibit number 20,
which should be in your binder.
THE CLERK: Exhibit 20 is placed before the
witness.
MR. CASTORIA: Thank you.
And, Your Honor, I would note that Exhibit 20 is
on the list of stipulated exhibits.
THE COURT: 20 in evidence.
(Exhibit 20 is received.)
MR. CASTORIA: Thank you.
BY MR. CASTORIA:
Q. Mr. Thompson, what is Exhibit 20?
A. Exhibit 20 is a membership enrollment form.
This would have been a form that would have been
included in our acquisition piece. And it’s -- it’s
someone who [62] strongly objects to what we were
doing in that acquisition -- or what we were saying in
that acquisition piece.

111
Q. I’m not sure we’re looking at the same
document. Do you have a handwritten note as Exhibit
20, sir?
A. No. I’m sorry. I’m looking at the wrong one.
Q. Quite all right.
Let me ask the question: Now that you have
Exhibit 20 in front of you, sir, can you identify this
document?
A. Yes.
Q. What is it?
A. It’s a document we received through the mails.
It’s dated 3/28/16. And it is an individual who is
indicating that he does not want to give any of his
personal information because he is afraid that ISIS is
going to find out and that they are going to be hunted
down. So he contributed anonymously thinking -- I
mean saying that he thinks we are doing good work.
But he does not want any of his fingerprints on the
donation.
Q. Understood. And this came in with cash or
check or what?
A. This was cash.
Q. And how did this document get reported to you
at
*****
[64] MR. CASTORIA: Your Honor, Exhibit 166 has
not been stipulated into evidence as yet. I want to ask
a few foundational questions.
BY MR. CASTORIA:

112
Q. Do you recognize 166, Mr. Thompson?
A. I recognize it, yes.
Q. What do you understand this to be?
A. I understand it to be an attack on Pam Geller.
Q. And I imagine you can’t translate the top part
of this document.
But has this been identified to you by anyone other
than your own counsel as the fatwa that Ms. Geller
received?
A. No. I’ve seen this in the media, but I didn’t
really pay that much attention to it.
Q. Okay. What do you under a fatwa to be?
A. A fatwa is a pronouncement by a religious
leader of a particular -- a matter that they want their
followers to take -- a particular position they want
their followers to take. It is in the way of a religious
dictate. For instance, Osama bin Laden issued a
fatwa against the United States of America; meaning
that all faithful Muslims had to attack the United
States of America. And various religious leaders issue
various fatwas. It doesn’t come from a central [65]
authority.
Q. Understood.
Now, the Law Center represented Ms. Geller at
some point; is that right?
A. Yes.
Q. What capacity? As what -- on what?
A. We represented her in at least two cases in
which she was challenging public transit authorities

113
for not putting on ads that she wanted to put on to
counter the ads that Muslim public interest firms had
already put on the public transit system.
Q. And you said there was more than one of those
lawsuits?
A. There was -- yes. There were at least two,
maybe three lawsuits where we represented both her
and Robert Spencer under the -- they had an
organization. I forgot what the exact name was. But
the organization was paying for these ads that would
go on -- one of them in the Detroit area where they
said “Thinking about leaving Islam?” And then you
give a phone number or contact information that they
could contact to get more information how they would
leave Islam.
That case we were successful in the Federal
District Court in Detroit. It went up to the Sixth
Circuit Court of Appeals. They sent it back down for
*****
[67] Q. How did it come to your attention?
A. I’m not sure how it first came to my attention.
Q. Okay. And I’m not going to ask you to read it
out loud for the record, obviously.
But did the threat of a number of thousands of
New Yorkers being named publicly as targets for
Islam cause you any concern in light of the work that
you had been doing for Mr. Spencer and Ms. Geller?
A. Cause me concern?
Q. Yes, sir.
A. No.

114
Q. You didn’t think you were going to be one of the
people on the list?
A. A lot of that I think is bravado.
Q. Okay. I would ask you to look at Exhibit 262 in
your binder.
THE CLERK: Exhibit 262 is identified and placed
before the witness.
BY MR. CASTORIA:
Q. Do you recognize number 262, Mr. Thompson?
A. Yes.
Q. What is this?
A. That is an article in the newspaper talking
about ISIS threatening Pamela Geller in boasting
they have 71 trained soldiers in 15 different states.
And basically [68] indicating they want to kill her.
Q. In your capacity as representative of Ms. Geller
in a couple of court cases, were you concerned for Ms.
Geller when this article came to your attention?
A. Yes. With reference to Pamela Geller, I was
concerned, because she is such an outspoken
individual against radical Islam. And I would take
that threat a little more seriously than just general
boasting.
MR. CASTORIA: Your Honor, we are at a
reasonable break point in my questioning. I don’t
know when the Court would like to start a lunch
break.
THE COURT: All right.
Cross-examination?

115
MR. CASTORIA: Oh, I’m not finished with the
witness.
THE COURT: I’m sorry.
MR. CASTORIA: I just meant I was going to have
a break in subject, and I don’t know what the Court’s
preference was for schedule.
THE COURT: All right. No. We’ll go -- all right.
We’ll take our noon recess. All right.
THE LAW CLERK: All rise.
(LUNCH RECESS TAKEN.)
*****

116
Excerpts from Trial Transcript
Day 1, Vol. 2
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
–––
THE HONORABLE MANUEL L. REAL, U.S.
DISTRICT JUDGE
PRESIDING
THOMAS MORE LAW
CENTER,

)
)
)
Plaintiff,
)
)
vs.
) No. CV 15-3048-R
)
KAMALA HARRIS
)
)
Defendant.
)
---------------------------------------------)
REPORTER’S TRANSCRIPT OF DAILY TRIAL
PROCEEDINGS
LOS ANGELES, CALIFORNIA
TUESDAY, SEPTEMBER 13, 2016
VOLUME II
PAGES 1 - 116
*****

117
[9] Q. Okay.
Does the law center file the complete, unredacted
copy of its form 990, including all these schedules
without redactions with the IRS annually?
A. Yes.
Q. Does the law center file the same form 990 with all
the schedules, other than Schedule B, with the
California Regulatory of Trusts annually?
A. Yes.
Q. Does the law center also file with the -- an annual
report with the California Registry on an annual
basis?
A. Yes.
Q. That is a separate document from the form 990; is
that correct?
A. Correct.
Q. Does the law center file with its annual report a
financial audit form?
A. Yes.
Q. Okay.
And that is also filed annually with the California
Attorney General, correct?
A. Yes.
Q. Thank you.
Why does the law center not file its Schedule B
along with the rest of its form 990 with the California
Registry?
[10]

118
A. There’s a few reasons. Number one, we think
demanding that is unconstitutional as it relates to
people who are expressing political and religious
views want to contribute; and the case law starting
back in the 1950s that says government can't enforce
that. Secondly, there’s a privacy issue. We promise
our donors we will not reveal that information to the
public because of concerns they may have about
repercussions.
Q. Right.
Do you have any reason as you sit here today to
believe that the current California Attorney General
has taken any actions against people who disagree
with her positions?
A. Based on my personal experience with reference to
this particular lawsuit, yes.
Q. Okay.
And are you aware of anyone else who has had any
form of search of personal property by the current
California Attorney General who advocates for a
similar position to the law center?
MR. CALIA:
foundation.

Objection,

relevance,

lacks

MR. CASTORIA: Your Honor, the intent of the
question is that if such an action has been taken
against a California resident, it shows the potential
animus on the part of the Attorney General.
I didn’t understand -[11] THE COURT: Yes.
MR. CASTORIA: Okay.

119
Is that your ruling, Your Honor?
THE COURT: Yes.
BY MR. CASTORIA:
Q. Please answer.
A. Yes, I’m aware of it. It’s been in the national press,
and a person by the name of Daldiden, who was a pro
life reporter who taped Planned Parenthood,
allegedly taped Planned Parenthood about selling
baby parts. The Attorney General of the State of
California obtained a search warrant and had her
investigators go into that person’s apartment and
confiscate all of his personal belongs relating to his
activity as a reporter, including his computers.
MR. CALIA: I move to strike that testimony. It
lacks foundation. He's telling us what he read in the
news.
THE COURT: Motion is denied.
BY MR. CASTORIA:
Q. Please turn to Exhibit 303 -- tab 303 -- I should say
-- in your binder, Mr. Thompson.
A. 303?
Q. 303, sir.
A. Okay.
Q. Please tell me when you have it in front of you.
THE CLERK: 303 is identified and placed before
the [12] witness.
THE WITNESS: I found it.
BY MR. CASTORIA:

120
Q. This is a news story that you’ve read Mr. Daldiden.
n.

For the court reporter, I’ll spell that: D-a-l-d-i-d-e-

A. Yes.
Q. This is the an article about the search that you
were just describing, correct?
A. Correct.
Q. Would you also -I would like to move 306 into evidence, please.
MR. CALIA: We object. The article is hearsay and
can’t be used for its truth.
THE COURT: The objection is overruled.
(Plaintiff’s Exhibit 306 received in evidence.)
BY MR. CASTORIA:
Q. Please turn to 306, which is the last tab in your
witness binder, sir, 306.
A. Is it entitled “Add your name to defend Planned
Parenthood”?
Q. That’s the one.
A. Yes.
Q. I’ll represent to you that is a page my firm obtained
from the Attorney General’s website for her current
campaign.
[13] Have you looked at this page on the website
itself?
A. Yes.

121
Q. And you found this Planned Parenthood page that
I’m referencing?
A. Yes.
MR. CASTORIA: Move 306 into evidence, please.
MR. CALIA: We also object. This is also hearsay,
and a campaign is separate from the attorney general
in her official capacity, who is the defendant in this
case.
THE COURT: The objection is overruled.
(Plaintiff’s Exhibit 306 received in evidence.)
BY MR. CASTORIA:
Q. As someone who was a former prosecutor yourself,
do you find it at all odd that current California
Attorney General is, in her capacity as a candidate for
office, giving people an opportunity to add their name
to a mailing list for an organization that she
regulates?
A. I think it would be an apparent conflict of interest.
Q. Let’s -- in how many states does the law center file
annual reports like form 990?
A. I think about 40 states. It’s listed in one of the
documents that we filed with the IRS and attorney
general.
Q. Has the law center, to your knowledge, ever filed
an unredacted Schedule B with any Regulatory
agency other than the IRS?
[14] A. No.
Q. Has any state regulatory agency threatened to
revoke the law center’s license to solicit donations in

122
that state because it had omitted Schedule B from its
annual form 990 filings with that agency?
A. No.
Q. I should have said other than California.
A. Correct.
Q. Is that right?
Okay. Where does the law center keep your own
copies of your form 990?
A. My executive assistant keeps the copies in her
office under lock and key.
Q. Who has access to them to open up the thing that's
locked?
A. She would.
Q. Anyone else?
A. I would ask her if I wanted to see it. If members of
the board want to see it, they would make an
appointment to come in, and she would show them a
Schedule B, unredacted.
Q. Is the completed form 990 that the law center files
each year, is that the document that the law center
creates?
A. Yes.
Q. I made a reference earlier that some charity trusts
sell their donor list.
Does the law center sell it’s donor lists -[15] A. No.
Q. Why not?

123
A. For several -- couple of reasons: Number one, we
promise we will not sale or in any way divulge the
information to donors. It’s -- you know, it protects
their privacy. Secondly, the donor list is crucial to our
survival. If people get the donor list, number one, they
will -- the individuals that have it could cause
disruption in our relationship with donors and could
utilize our donor list to send out fundraising mail.
Q. To your knowledge has the law center ever been
approached by any one seeking to purchase your
donor list?
A. Yes.
Q. More than one occasion?
A. Yes.
Q. Have you ever agreed to do that?
A. No.
Q. At some point in time, the law center began to
receive letters from the State of California, Office of
Registry of Charitable Trusts, stating it’s annual
filings were incomplete because was there no
Schedule B.
Do you remember when that started, more or less?
A. Yes.
Q. About when?
A. Approximately -- I think 2012 is the first indication
that [16] we have of that letter. Apparently there was
another letter that we never could find, but we were
aware of the 2012 letter, and from that point on, we
kept on getting these requests from the AG’s office to
send them the same 990 form that we send the IRS.

124
Q. All right.
So during the first decades of your work with the
law center, is it a fair summary to say that the law
center did not receive from the State of California that
type of letter saying you were delinquent?
A. Correct. First ten years, we never, as I indicated
before, never filed a Schedule B with our 990 form.
State of California accepted it without any kind of
response until the letter that they sent us either in
2011 or 2012.
Q. Okay.
Would you please turn to Exhibit 3 in your binder.
A. Exhibit what?
Q. No. 3. Should be the first one. Yes, the first one.
I note, Your Honor, that Exhibit 3 and some of the
following exhibits, which I’ll deal with individually,
are stipulated into evidence already.
THE COURT: Three’s in evidence.
(Plaintiff’s Exhibit 3 received in evidence.)
THE CLERK: Exhibit 3 is placed before the
witness.
MR. CASTORIA: Thank you.
[17] Q. Would you identify Exhibit 3, please.
A. It’s a letter that we received from the AG’s office
dated February 28, 2011. “Subject matter: IRS form
990, Schedule B, schedule of contributors.”
Q. All right.
This is a letter the law center received?

125
A. Well, this is a letter that purportedly the law
center received. I think the first one we got that I can
find is 2012. I’m not sure of that.
Q. All right. Let’s see if we can help on that.
Could you please turn to Exhibit No. 4, the next
one, which is actually a compilation of several letters.
THE CLERK: Exhibit 4 is placed before the
witness.
BY MR. CASTORIA:
Q. Is the first page of Exhibit 4 the March 6, 2012,
letter, the letter you refer to as the first one you’re
aware of?
A. Yes.
Q. The two letters we’ve looked at thus far don’t
threaten any action against the law center in terms of
the revocation of licensing or action against directors
or officers, do they?
A. Correct.
Q. If you turn through the next letter in Exhibit 4, the
April 19 letter, that’s letter that the Thomas More
Law Center received?
A. April 19, 2013?
[18] Q. Yes.
A. Correct. Yes, it is.
Q. Very good.
And the following one, October 22, 2013, is that a
letter that the law center received?
A. Yes.

126
Q. When we get to the next page, April 23, 2014,
there’s a reference that this is a second notice.
Is this letter the law center received?
A. Yes.
Q. Okay. Almost there.
And the following one, October 31, 2014, is another
letter that the law center received regarding its
failure to file a Schedule B?
A. Yes.
Q. Okay.
Then there is a page erroneously copied into my
version of this document. It says "Exhibit B." Please
ignore that.
There follows a letter from the law firm of Buetzel,
Long, April 11, 2012. It’s signed by a Paul Fransway.
Who is Mr. Fransway?
A. Mr. Fransway was our corporate lawyer. He
handled the matters that dealt with charitable issues
that we may have.
Q. All right.
[19] And did Mr. Fransway reply to the Registry of
Charitable Trust via this letter at your request?
A. Could you repeat that question.
Q. Yes.
Did Mr. Fransway reply to the Registry of
Charitable Trusts in California at your request?
A. Yes.
Q. Why did you bring outside counsel into this?

127
A. Because my executive assistant kept on asking
them, in response to these letters we were getting,
what is their authority for requesting our Schedule B,
and they would not respond. We thought maybe if a
lawyer responded from a private law firm, that they
would be more willing to respond to the question.
Q. All right.
The next page is a letter from a Sherry Doran at
the law center.
Do you recognize this?
A. Yes.
Q. March 14, 2012.
And is that the executive assistant you were
referring to?
A. Yes.
Q. The following letter in the next year, April 2013,
from Ms. Doran to the Registry of Charitable Trusts,
that’s a letter [20] you requested Ms. Doran to send?
A. Yes.
Q. The next letter, October 28, 2013 -- Sherry Doran
-- that’s the letter that you requested that she send?
A. Yes.
Q. Did the law center receive any response from any
of -- to any of these letters that we’ve just identified
from Ms. Doran or Mr. Fransway?
A. No, except Mr. Fransway did get, to the last letter,
after the threatening letter was sent, and he
responded in a more detailed fashion, someone from

128
the Attorney General’s office acknowledged receipt of
the letter, and that was it, but no action was taken.
Q. I’m going to ask you to move forward to Exhibit 236
in the binder.
THE CLERK: Exhibit 256 is identified and placed
before the witness.
MR. CASTORIA: Thank you.
Q. My notes indicate 236 was among the stipulated
exhibits.
Mr. Thompson, is Exhibit 236 the threatening
letter you just referred to?
A. Yes.
Q. And I’m not going to read it into the record
obviously, but this is the letter that threatened
revocation of the law center’s license and action
against its directors, officers and [21] tax preparers;
is that right?
A. Yes.
Q. And you said that this warning letter was after Mr.
Fransway’s last letter on behalf of the law center?
A. Yes.
Q. Okay.
Mr. Fransway wrote one more letter. If you turn to
Exhibit 106. I’m sorry you have go backwards in the
binder; that’s how the numbers worked out.
A. Which exhibit is that?
Q. 106, sir.
A. 106.

129
Yes.
Q. This is letter from Mr. Fransway that you asked
him to send in reply to the California Attorney
General?
A. Yes.
Q. And you said earlier testimony sent a more
detailed response. Is this that letter?
A. Yes.
Q. Mr. Fransway’s letter, there’s a suggestion in the
second full paragraph -- I’m not going to read it out
loud -- that the Attorney General’s office forgo further
action pending resolution of cases, Center for
Competitive Politics and Americans for Prosperity
Foundation.
Do you see that, sir.
[22] A. Yes.
Q. To your knowledge did either the law center or Mr.
Fransway receive any further response from the
Attorney General to this letter to the suggestion the
current dispute be stayed?
A. No.
Q. As a former law enforcement official, how did you
take it when the AG’s office did not respond to the
series of letters we’ve been looking at?
A. Well as a lawyer, I thought it was a violation of
professional courtesy. When -- a constitutional issue
is raised where there’s a threat of taking Draconian
action against a public interest law firm, that there is
no response to that from the attorney representing us,
leaving us no option but to take other action.

130
Q. All right.
I’m going to turn again to clients for a moment.
Does the law center -- has the law center
represented the family of Kevin Wood?
A. Yes.
Q. Are you personally familiar with that case?
A. Yes.
Q. Briefly, what were the circumstances that led the
law center to represent the Wood family?
A. Kevin Woods was a former marine who was
propelled into the [23] limelight when he refused to
allow his daughter to complete a lesson plan on Islam.
Kevin Woods was a former -- was in the Persian Gulf
War. He also responded as a first responder to the
Pentagon 9/11 attack, and he felt that what they were
teaching his daughter, who was in the 11th grade at
that time, was contrary to what Islam was all about
and was basically propaganda. He was a Christian,
and he felt since they don’t allow the teachings of the
10 Commandments and other Christian doctrine, that
they should not be teaching his daughter about Islam.
Because of his actions, they, the school, the principal
of the school, because he was so vociferous about his
complaint, without any hearing, barred him from
stepping onto school property. We found out about it.
We offered to represent him, and we ultimately did
and filed a lawsuit on his behalf.
Q. Did Mr. Woods or his wife provide you with any
negative comments that they received on social media
about the incident you were describing?

131
A. Yes, there was a lot of controversy over it, both
positive and negative, and there were very disturbing
comments made about his daughter on social media.
Q. Would you please turn to Exhibit 120.
THE CLERK: Exhibit 120 is identified and placed
before the witness.
///
[24] BY MR. CASTORIA:
Q. Is Exhibit 120 a copy of a posting on social media
that the Woods provided to you at the law center?
A. Yes.
Q. And that -- is that the one you’re referring to a
moment ago about horrible things being said about
his daughter?
A. Yes.
MR. CASTORIA: Move Exhibit 120 into evidence.
MR. CALIA: Object. It’s hearsay.
THE COURT: 120 in evidence.
(Plaintiff’s Exhibit 120 received in evidence.)
BY MR. CASTORIA:
Q. We talked about several others. I don’t believe we
talked about representative Sally Kern. Correct me if
I’m wrong.
Has the law center represented Oklahoma state
representative Sally Kern?
A. Yes.
Q. What was that representation about?

132
A. Sally Kern was making statements about what the
homosexual advocacy groups were doing to the state
and to the country. It became public news. Then she
was put in a limelight. Threats were made on her life.
She was inundated with vulgar emails. Her husband,
who is a Baptist preacher, his assembly was visited
by homosexual advocates who would sit in the back of
the room and take notes about his sermons. The state
police [25] had to come in and protect her, and there
was a state police officer that guarded her for a while;
and there was a threat of a lawsuit; there was a threat
of taking away all of her donor money, putting
pressure on her donors, and there was a threat that
they would place somewhere in opposition to her in
the next election, which any did, but that person lost.
We offered to represent her when a lawyer, who was
a part of our pro bono network in Oklahoma, asked us
to get involved.
Q. Okay. Few other quickies.
Are you aware of the fact -- I mentioned in the open
statement that the Attorney General opted not to
defend Proposition 8 in court.
Were you familiar with that fact at the time it
happened?
A. Yes.
Q. And were you also aware that the Attorney
General filed an amicus brief against Proposition 8 in
the U.S. Supreme Court?
A. Yes.
Q. The law center filed an amicus brief in support
Proposition 8 in the U.S. Supreme Court?

133
A. Yes.
Q. In the HHS Mandate case -- which I have trouble
saying -- but the contraception mandate case that
went up on appeal, do you know whether the AG’s
office filed an amicus brief in support of the mandate?
[26] A. I’m not positive. I wasn’t aware of that. I didn’t
see the amicus brief.
Q. Okay.
Would you turn to Exhibit 302, please.
A. Which number?
Q. 302. Sorry.
A. 302.
THE CLERK: Exhibit 302 is identified and placed
before the witness.
THE WITNESS: Yes.
BY MR. CASTORIA:
Q. Do you recognize Exhibit 302, sir?
A. It’s a statement from the Attorney General of
California indicating she’s filed amicus brief
regarding the contraception issue.
Q. Okay.
Your Honor, this is a public statement by the
Attorney General in her official capacity.
We move it into evidence.
MR. CALIA: No objection.
BY MR. CASTORIA:

134
Q. And are you -- were you aware that the Attorney
General filed an amicus brief in the Hobby Lobby case
which was also a contraception HHS mandate
matter?
A. Yes.
[27] Q. In light of the Attorney General’s advocacy for
some causes that are contrary to the law center’s and
its donors religious beliefs, what would your comfort
level be in delivering to the Attorney General’s
Registry, the law center’s unredacted Schedule Bs?
A. Zero.
MR. CASTORIA: I have no further questions at
this time, Your Honor.
THE COURT: All right.
Cross-examination.
MR. CALIA: Yes, Your Honor.
CROSS-EXAMINATION
BY MR. CALIA:
Q. Good afternoon, Mr. Thompson.
A. Good afternoon.
Q. We met before at your deposition; is that correct?
A. Yes.
Q. You testified earlier this morning that you often
draft and send on behalf of the law center something
you called acquisition pieces.
Do you recall that?
A. Yes.

135
Q. And you sometimes send those out to a large
number of male recipients, correct?
A. Yes.
*****
[36] Q. And take a moment to review the list and
confirm for me that you’re not aware of any
harassment to any foundation listed on that list
because of their donations to the law center -THE COURT: Counsel, that is not crossexamination of this witness.
MR. CALIA: The last question in this line, Your
Honor.
THE WITNESS: Correct.
BY MR. CALIA:
Q. You testified earlier that you are not required to
disclose contributions to the IRS on Schedule B if they
are below $5,000, correct?
A. Correct.
Q. Have you now learned that the Thomas More Law
Center More Law Center was eligible to use an even
higher threshold?
A. Yes.
Q. And that threshold is two percent of total
contributions, correct?
[37] A. Correct.
Q. When you learned that the law enforcement had
disclosed to the IRS a greater number of donors than
was required, did that cause you any concern?

136
A. That was an alternative way to do it. It didn’t cause
me concern, but was there an alternative way to do it
that would reduce the number of donors that we
would have to report to the IRS.
Q. Didn’t cause you concern that the law center had
not done it that way in the past?
A. No.
*****
[40] Q. You mentioned a state bar complaint against
Erin Mersino earlier in your testimony today.
Do you recall that?
A. Yes.
Q. And that investigation has how been closed,
correct?
A. Yes.
Q. And without any negative finding of fault on the
part of Ms. Mersino, correct?
A. Correct.
Q. The fact that complaint was made did not hurt Ms.
Mercino’s standing at the law center, did it?
A. Correct.
Q. And you’re not aware of any other affect it had on
Ms. Mercino’s employment opportunities, correct?
A. Correct.
Q. You mentioned Mr. Daldiden or Daliden -- however
you say his name -- earlier in your testimony.
Do you recall that?
A. Yes.

137
Q. And you’re aware that Mr. Daliden was indicted by
a grand jury in Texas because of his activities,
correct?
A. Yes.
Q. And that happened before the California Attorney
General obtained a search warrant for some of his
property, correct?
A. Correct.
*****
[41] Q. You’ve never had a conversation with a
potential donor who, unlike the donor in Exhibit 20
that you testified about earlier, said, “I would love to
give money, I support your cause, but I’m not going to
do it because of my fear”?
Is that right?
A. I’ve never had that kind of a conversation.
*****
[42] MR. CASTORIA: The law center calls
Catherine McMillan as our next witness, Your Honor.
THE CLERK: Please raise your right hand.
(Witness sworn.)
THE WITNESS: I do.
THE CLERK: Thank you. Please take a seat.
State your full name and spell it for the record.
THE WITNESS: I’m Catherine Nicole McMillan.
My last names is spelled M-c-M-i-l-l-a-n, C-a-t-h-e-ri-n-e.

138
MR. CASTORIA: Your Honor, we have again
prepared for this witness an exhibit binder of the
exhibits we are likely to be using, and they are -- and
have provided a copy to opposing counsel.
THE COURT: All right.
CATHERINE
McMILLAN,
PLAINTIFF’S
WITNESS; SWORN, TESTIFIED:
DIRECT EXAMINATION
BY MR. CASTORIA:
Q. Good afternoon, Ms. McMillan.
A. Hello.
Q. Hi.
Tell us what you do for a living.
A. I’m the director of public affairs at the Thomas
More Law Center More Law Center.
Q. How long have you been at the Thomas More Law
Center More Law Center?
*****
[44] Q. Had your experience in the Peace Corps and
in later at the McAllen Pregnancy Center inform your
views on right-to-life issues?
A. It certainly did. I was brought up pro life. I
remember being outside of abortion clinics with my
father as a young child. It definitely solidified my own
views and through my own experiences in education.
Q. While you worked at McAllen Center in Texas, did
you observe any public protests regarding right-to-life
issues?
A. I did.

139
Q. How often?
A. At least weekly, sometimes more often. Depended
on, you know, what was going on and how people felt.
If it was a particular month related to pro life or pro
abortion, maybe once or twice a week on average.
Q. Did you yourself do anything publicly to express
your beliefs on the subject while you were working at
McAllen?
A. I did. I participated in prayer gatherings outside of
the the local abortion clinic, which was down the
street -- or across the street about twice a week.
Q. Were those events, prayer meetings, ones that
blocked -- what’s the word -- blocked people from
entering the abortion clinic?
[45] A. No, absolutely not.
Q. Did anyone make negative comments to you while
you were expressing your believe or harass you in any
way?
A. Oh, yes. I was yelled at; I was physically
approached with large people looming over me in a
very threatening manner; I was pushed, shoved, spit
upon; the usual stuff.
Q. Did you observe others receiving threats or any
physical violence during the prayer events?
A. Yes, I did. I saw people have things thrown at them
from car windows; I saw them get pushed and shoved
and approached and yelled at.
Q. Did you ever have to call the police in response to
what was going there?

140
A. We had a vehicle throw something out of a window
at us and continue to circle around and eventually
park their car and get out and approach us, and we
had to file a police report.
Q. And were you and the other protesters who were
with you at the time during the prayer meetings doing
anything more violent than praying?
A. No, just standing on the sidewalk with our rosaries
and occasionally stopping by and offering them a free
ultra sound or alternative, to talk.
Q. Let’s move ahead quickly to the law center.
So how did you first learn about Thomas More Law
Center?
*****
[48] Q. Was Kevin Woods one such person?
A. I spoke with Missy Wood. But, yes, I did speak with
them about their case.
Q. Missy is Mr. Wood’s wife?
A. His wife, yes.
Q. Melissa?
A. Her real name is Melissa. She goes by Missy.
Excuse me.
Q. That’s fine.
How did you come to be in contact with Melissa
Woods?
A. We had read about what had happened to her
husband, John Kevin, I think on the news. I’m not
quite sure who passed my desk. After conferring with
Mr. Thompson, he asked that I reach out to them. I

141
found a phone number and contact information for
them using a large network of techniques and super
sleuthing, and then I called her and she called me
back, and I dropped what I was doing and spoke with
her.
Q. And did the Woods eventually become clients of the
law center?
A. Yes, they are clients of the law center.
Q. Now, there’s been discussion with Mr. Thompson
about some of the issues and causes the law center
advocates.
Have you been involved in communicating to the
public through social media about -- give you one at a
time -- the right-to-life issue?
A. Yes, I have.
[49] Q. How about the Health and Social Services or
HSS mandate?
A. The HHS mandate, yes.
Q. Did I say it wrong again?
A. You’re fine.
Q. Trying to turn it into a ship. HHS mandate.
A. Yes, I have.
Q. The communications opposing the imposition of
Sharia law and jihad in America?
A. Yes, I have.
Q. And traditional definition of marriage?
A. Yes, I have.
Q. How about support for American military?

142
A. Yes, I have.
Q. And in doing that, does the law center -- putting
out to the public communications about those issues,
does the law center receive responses from the public?
A. Yes, we do.
Q. Some come in from email?
A. We receive some of the responses via email; we
receive some at our website; we get some through
social media; we occasionally get a phone call.
Q. Okay.
And then the last couple of years when any sort of
communication has come in with the public that
seems particularly threatening or abusive, does the
law center have a
*****
[52] to – I’m a faithful Catholic. As somebody who was
brought up religious, I don’t -- I don’t like to think that
what I’m is wrong or hurtful. I consider myself a good
person. Nobody wants to have it inferred that they’re
not.
Q. There’s a series of other emails in Exhibit 38, and
not just emails but also printed form letters,
responses to acquisition pieces and such.
My question for you is did you assemble the
documents that are in Exhibit 38?
A. I did.
Q. And have you had a chance to look through them
prior to coming to testify today?
A. Yes, I have.

143
Q. Are these true and correct copies of the exhibits -I’m sorry, not exhibits -- the documents that you
assembled?
A. Yes, they are.
Q. And are these taken from the business records of
Thomas More Law Center?
A. They are.
MR. CASTORIA: Your Honor, we’d move Exhibit
38 into evidence, please.
MS. NGUYEN: I believe 38 has already been
moved into evidence.
THE COURT: Thirty-eight in evidence.
(Plaintiff’s Exhibit 38 received in evidence.)
[53] MR. CASTORIA: Thank you.
Q. Turn, please, to the last exhibit in the binder. It
should be Exhibit 200.
Do you see that?
A. Yes, sir.
Q. Okay.
Can you describe what Exhibit 200 is.
A. This is a printout of an email that was received by
the tmlc.org or TMLC.com account. It is a copy -- it
was -- it’s generated by a web form on our website
called “Contact,” and then it’s sent to that email.
Q. This is a printout of the document you just
described?
A. Yes, it is.

144
Q. It appears that the comment is at the very bottom
of -- it’s a sideways document, but the bottom
document, the first page of it where it says “comments
or questions.”
Do you see that?
A. I do see that.
Q. And, again, I’m not going to read it for the record
because it’s there, but what was your reaction on
receiving this particular response?
A. I was confused and disgusted. It was part of a
series. We received several of them.
Q. Disgusted in what way?
A. Just the types of things that they came up with to
say. [54] They were shocking; they weren’t the usual
“F-U” type of stuff. This was a bit more in depth and
detailed.
Q. I misplaced one exhibit. I apologize. I'll find it later.
To your knowledge is the law center -- has it been
described as a hate group by any outside
organization?
A. We’ve been listed on Hate Watch and people have
called us a hate group in the past.
Q. Are there any other organizations -- who manages,
if you know, the Hate Watch site?
A. The Southern Poverty Law Center does.
Q. Do you think you’re working for a hate group?
A. No.
Q. Are there any other groups out there, other than
Southern Poverty Law Center, that portrayed the law

145
-- portrayed the law center in negative ways on their
websites?
A. The Counsel for American Islamic Relations has
referred to us as being Islamaphobic, and they’ve
tried to keep speeches from people that are associated
with us from occurring. I’m sure there’s others, but I
don’t recall at this time.
Q. Would you please turn to Exhibit 29.
A. I don’t have Exhibit 29.
Q. You don’t?
A. No.
Q. Neither do I.
[55] THE CLERK: Neither do I.
MR. CASTORIA: Ask that it be shown to the
witness, please.
THE CLERK: We don’t have exhibit 29 in here
either.
MR. CASTORIA: The paralegal was reminding me
that 29 was withdrawn. Come back to this. I
apologize.
Q. Let’s switch gears then.
You have a 39 in your binder?
A. I do.
Q. Okay.
THE CLERK: Exhibit 39 is identified and placed
before the witness.
BY MR. CASTORIA:
Q. Ms. McMillan, do you have 39 in front you now?

146
A. I do.
Q. Do you recognize this exhibit?
A. I do recognize this exhibit.
Q. And this is evidently some photographs that were
sent to the law center in a business reply mail
envelope; is that right?
A. This is a series of several photographs that were
sent to the law center in several different business
reply envelopes.
Q. How did these come to your attention?
A. When mail comes into the law center in a business
reply envelope it is stored in a locked drawer until it
can be [56] processed through our donation system. At
the time it is processed, these envelopes are opened
and any sort of communications within them are
reviewed. When we receive things that are out of the
ordinary, threatening, harassing, or vulgar, they are
forwarded to me, and I become the keeper of them.
Q. And you produced what is now No. 39 from among
those documents, correct?
A. I did.
Q. Is this part of the business records of the Thomas
More Law Center?
A. It is.
MR. CASTORIA: Your Honor, we’d move Exhibit
39 into evidence.
THE COURT: Thirty-nine in evidence.
(Plaintiff’s Exhibit 39 received in evidence.)
MS. NGUYEN: No objection.

147
MR. CASTORIA: Okay. Thank you.
Q. Do you have Exhibit 30 in your binder?
A. I do.
Q. Good. So do I.
THE CLERK: Exhibit 30 is identified and placed
before the witness.
BY MR. CASTORIA:
Q. Is Exhibit 30 another of the gmail account
responses that [57] Thomas More Law Center
received?
A. Yes. This is a -- the email that Nile came in through
that account, it was generated by the web form on our
website.
Q. Again, the -- I’ll say rude comment on Exhibit
30 appears at the bottom of the form.
Is this Exhibit 30 produced from the business
records of the law center?
A. Yes, it is.
MR. CASTORIA: We would move Exhibit 30 into
evidence, please.
MS. NGUYEN: No objection.
THE COURT: Thirty in evidence.
(Plaintiff’s Exhibit 30 received in evidence.)
MR. CASTORIA: Also Exhibit 37, please.
THE WITNESS: I do not have 37.
BY MR. CASTORIA:
Q. Thirty-eight?

148
A. I do have 38.
Q. We talked about that one. So we’re done with that.
Did you have communications with the members
of the Woods family about their case after they
became clients?
A. I did.
Q. In the course of that, did they provide to you the
document we’ve already seen, the Facebook comment,
from a young man threatening horrible actions
against their daughter?
[58] A. I believe it was a Facebook message, and I did
see it, and I was asked to look into it.
Q. What did you do?
A. I just looked at the account, you know, to establish
if it was a legitimate account or a fake one. I just
looked at little clues about -- to see if there was
something that would give us any information about
who this person was so that we could assist them. I
understand that it was -- that message was forwarded
to the FBI.
Q. You yourself have any concerns for your safety
because you worked for the Thomas More Law
Center?
A. I -- I don’t know. I guess sometimes I worry about
it in that off way we worry about, you know, any
horrible thing that could happen. I think it’s a more
real threat for someone like me where my name, my
phone number, my email address are all on the
website, but at the same time my face isn’t; so that’s
good.

149
MR. CASTORIA: I have no further questions, Your
Honor.
THE COURT: Cross-examination.
MS. NGUYEN: Yes, Your Honor.
CROSS-EXAMINATION
BY MS. NGUYEN:
Q. Good afternoon, Ms. McMillan.
A. Hello again.
*****
[62] THE WITNESS: My name is Sally Kern. Last
name is spelled K-e-r-n.
MS. CRUZ: Your Honor, may I proceed?
THE COURT: Yes.
MS. CRUZ: Thank you, Your Honor.
SALLY KERN; PLAINTIFF’S WITNESS,
SWORN, TESTIFIED:
DIRECT EXAMINATION
BY MS. CRUZ:
Q. Good afternoon, Ms. Kern.
A. Good afternoon.
Q. Please state your title.
A. State Representative for Oklahoma, House District
84.
Q. How long have you held that position?
A. I was first elected in 2004, and my first term was
2005.

150
Q. When will your term end?
A. It will end this November, November the 16th,
when the newly elected legislature is sworn in.
Q. I want to talk
Representative Kern.

about

your

background,

Where did you receive your college degree?
A. I got a B.A. degree in Sociology at the University of
Texas in Arlington.
Q. What year did you receive that degree?
A. I think it was 1971.
Q. And other than the B.A. in sociology, do you hold
any
*****
[64] More Law Center?
A. I am.
Q. And can you tell us how you were familiar with the
Thomas More Law Center.
A. They contacted me back in 2008 after a situation
had arisen. I believe someone suggested that they
should contact me, and they did.
Q. And can you tell us about the situation that led to
the contact with -- I’m going to call it for short -- the
law center?
A. Yes. There was, in our state we were having a
state-wide elections for Corporation Commissioner,
and one of the candidates was a gay man, and I had
been to a conference where I had learned about a
small group of wealthy gay activists who were funding
races across the country trying to get gays and pro gay

151
people in to office, and so I found out that they were
supporting this candidate for the statewide office, and
I was asked about five times, I think it was, to speak
across the state and just share the information I had
learned about what these gay activists were doing.
Q. In terms of the presentations that you made, were
any of those recorded?
A. Evidently one was.
Q. Did you know at the time that you made the
presentation that it was being recorded?
[65] A. No, ma’am.
Q. When is it that you learned that one of those
presentations had in fact been recorded?
A. On Friday, March the 8th, 2008.
Q. And what did you learn on Friday, March 8, 2008?
A. Well, we don’t have session on Fridays, and I was
out running errands and had just pulled into a
Walmart parking lot, and I get a phone call from my
L.A., legislative assistant, and she told me we were
getting thousands -- her exact words were thousands
of emails and phone calls, and of course I asked who
from, and she told me from people who were
responding to a video clip that they had seen and -- on
YouTube, and so I immediately went home -- and it’s
the first time I’d ever been on YouTube -- and listened
to it. So that’s how I found out.
Q. Do you know approximately when in time or in
relation to when you learned of the video being leaked
when you made the presentation itself?
A. Well, the conference that I attended -- I attended a
conference in November of 2017 where I learned a lot

152
of information about this small group of gay activists
who were wealthy gay activists who were funding
campaigns, and so it was after November of 2007; and
the video, when I first learned of it, was March 2016.
So just a few months.
Q. As a result of the video recording of the
presentation that you speak of, did you in fact receive
negative feedback [66] from the public?
A. Emails and phone calls, yes.
Q. Before you there is a binder, Representative Kern,
and I think it’s been flipped to tab 89.
Do you see that?
A. Yes, I do.
Q. Okay.
And showing you what’s been marked as Exhibit
89, could you please flip through -- I believe there’s
about ten pages there, and let me know when you’re
done.
THE CLERK: Exhibit 89 is identified and placed
before the witness.
MS. CRUZ: Thank you.
THE WITNESS: Yes, these are emails I received.
BY MS. CRUZ:
Q. You answered my next question.
How is it that you recognize these to be emails that
you received?
A. Well, they have my name on them; they were sent
to me.

153
Q. What are the various dates on the emails? If you
could please tell us.
A. March the 8th, 2008; March the 9th; another one is
March the 9th; March the 9th; the 9th of March; this
one is the 8th; the 8th; March 8; March 9; March 9.
Q. And all of those March dates refer to 2008?
[67] A. Yes, ma’am. Sorry.
Q. No problem.
Are these true and correct copies of emails you
received in March of 2008?
A. Yes.
MS. CRUZ: Your Honor, we move to admit Exhibit
89 into evidence.
MR. ZEPEDA: No objection, Your Honor.
THE COURT: Eighty-nine in evidence.
(Plaintiff’s Exhibit 89 received in evidence.)
MS. CRUZ: Thank you.
Q. Representative Kern, are these the total of the
negative emails and communications that you
received after the leak of the presentation that you
made?
A. No.
Q. Do you know approximately how many negative
communications you received in that week following
the time you learned that the video had been leaked
on the Internet?

154
A. According to the I.T. department at the state
capitol, it was approximately 30,000 emails and
phone calls.
Q. And those -- that total number, was that in the
range of one week or a month or do you know?
A. It was pretty much one week.
Q. Is that more than a typical number of emails you
get in one week?
[68] A. Oh, yes.
Q. How would you compare it to the number of emails
you receive in the, let’s say, one legislative session?
A. Oh. In one legislative session, probably receive, oh,
a thousand. We receive probably 30, 40 a day, if that
many.
Q. Okay.
And did you turn any of these emails over to law
enforcement?
A. Yes.
Q. Now, if you could turn to the first page of 89. On
the bottom it says -- there’s a stamp. It says TMLC
TROD 000219.
Can you read that to yourself and let me know
when you’re done.
A. I’m done.
Q. Okay.
Is that -- can you just tell us: Is this a positive or a
negative email?
A. Negative.

155
Q. And does it contain any reference to any
statements that you made?
A. It says I heard what you said.
Q. Does it wish you good will or does it wish you harm?
A. Harm.
Q. Can you explain without saying the vulgarities in
the email what it actually wishes you?
[69] A. Well, it says that I should be killed, and that
Christianity should be eliminated.
Q. Representative Kern, are you a religious person?
A. I am.
Q. Turning to the next page of Exhibit 89, just want
to ask you if the subject title includes an insult or
whether it’s a positive subject title.
A. It includes an insult.
Q. And does this email wish you harm or wish you ill
will?
A. Ill will.
Q. And does it -- can you please tell us the very last
line. Could you please tell us what it says before this
“sincerely” line.
A. “I sure do hope and pray that you rot in hell.”
Q. Thank you.
If you can turn to the next email, just one question
on this.
Does this the subject matter -- does it contain
basically foul language?
A. Yes.

156
Q. And does it refer to you as a moronic homophobic
idiot?
A. It does.
Q. I won’t go through all of these, but have you seen
these emails before today?
A. Yes.
[70] Q. And Exhibit 89, does it contain any positive
email?
A. No.
Q. Would it be fair to say that these emails contained
in Exhibit 89 are hostile, negative and insulting?
A. Very.
Q. And do they wish you at any point -- I’m sorry. Let’s
look at TMLC PROD 222.
And is this an example of an email that has a
directive that is that harmful to you?
A. Yes.
Q. Could you please read that first line, please.
A. “Why don't you do the world a favor and kill ourself
you failed abortion.”
Q. Now, prior to the incident where the videotaping of
the presentation you referred to earlier had been
released, had you ever received communications from
the general public that contained this type of hostile
and negative sentiment?
A. Never.
Q. And still looking at the same exhibit and page, does
this email refer at all to your religion or your beliefs?

157
A. Yes, it does.
Q. Can you refer us to the line and read it to us,
please.
A. Yes, next to the last line, it says, “Crawl back under
your rock with your bible and wait for the rapture.”
Q. Do these emails offend you?
[71] A. Well, yes, they contain words I’d never seen
before, to be honest with you.
Q. And you mentioned that you also received some
phone calls; is that correct?
A. Yes.
Q. Were those to your office or to your home or where
were they to?
A. To both my office and home.
Q. And were they words of congratulations, or were
there hostile and negative as well?
A. Hostile and negative.
Q. And this is all still within the week of March 2008?
A. Yes, in that weekend afterwards for some time.
Q. And -- just one moment.
These emails we’ve gone through, you’ve stated
that some of them wish you harm.
Did you ever receive an actual threat to your life
during that week of March 2008 following the release
of the video that we’ve spoken about?
A. According to the Oklahoma State Bureau of
Investigation, who -- they came and got my computer,
capitol computer, and kept it for several days and

158
went through all the emails, according to them there
was only one that they felt was a credible threat, and
thankfully it was from someone out of the country,
and, you know, not within their jurisdiction and [72]
so ...
Q. When you received knowledge of this threat, what,
if anything, did the law enforcement -- or the state
legislature do?
A. Well, the Oklahoma state troopers, because of all
of these emails, they assigned a trooper to me to set
in plain clothes on the capitol floor close to my desk.
Anytime -- before I left my home in the morning, I had
to call them, and they would -- a trooper would be
there to follow me to the capitol, and they would not
let me leave the capitol until I notified them that I
was leaving, and a trooper would follow me home.
Q. Is that standard protocol for your position?
A. No, ma’am.
Q. Had you of received that type of security detail
prior to this March 2008 incident?
A. Never.
Q. How long were you provided a security escort to
and from your place of employment?
A. At least two weeks.
Q. Prior to the incident that I’ll refer to as the March
2008 video leak incident, had you ever received a
death threat in your role as a state representative?
A. No, ma’am.
Q. And have you ever received a death threat at all
prior to this instance?

159
[73] A. No.
Q. Have you ever required the type of security that
the OSBI, or Oklahoma State Bureau of
Investigation, provided you that you just spoke of
prior to this time?
A. No.
Q. We spoke a little bit about the communications you
received, including the emails; you mentioned some
phone calls to your home.
Can you describe the nature again of those -- not
again, but can you describe in more detail the nature
of those phone calls.
A. They were very similar to the emails, very foul
language, calling me names, wishing me harm, and
they occurred 24 hours, around the clock. It
eventually got where we only -- we never answered
our phone except maybe once -- once a day. We’d come
home and check our voicemails and only call back
legitimate calls, delete the others.
Q. So you had to modify your every-day life as a result
harassment you received?
A. Yes, we eventually got rid of our landline.
Q. Did your -- has your family been affected by the
harassment that followed the March 2008 incident?
A. Yes.
Q. Can you provide us with any examples.
A. Yes. My youngest son that has two -- my two
grandchildren [74] was fearful for a time to let the
boys be with me in case somebody would say
something or maybe try to do something when they

160
were with me. The other thing was the attacks, the
verbal attacks, made on my eldest son.
Q. And what about your husband?
A. Yes. He was accused of being a member of the KKK.
Q. Is that accusation true?
A. No, ma’am.
Q. Is the accusation about your son true?
A. No. They -- the accusations about my son were for
a young man -- he was 31, Jesse Jacob Kern, and what
happened to him was in 2000 -- I mean, 1989 -- and
my son was 12 years old in 1989, and we had never
lived in Shawnie, Oklahoma.
Q. And when did these accusations, the one about
your husband and your son, when did they occur?
A. Oh, just a few days after all of the -- March 8th.
Q. Now, I want to talk a little bit about your views.
Are you familiar with the Thomas More Law
Center’s position on gay marriage?
A. I am now.
Q. And how are you familiar with it?
A. Well, I had never heard of the Thomas More Law
Center prior to all of this happening, and when had
they contacted me and expressed that they felt like I
might need some help in case I was sued, they shared
with me the type of organization [75] they were; and
so I saw that they held the same views, that they
opposed same-sex marriages, as I do.
Q. And is it your belief that your family has become a
target for hateful communications and/or unwanted

161
harassment as a result of your expression of your
religious convictions?
A. Yes.
Q. What is the basis for your belief?
A. Well, the basis for my belief is my relationship with
the Lord Jesus Christ and the Bible, which I believe
to be God’s word us to.
Q. I’m sorry. That was an inartful way of asking.
What was basis for your belief that you’ve become
a target because of your conviction on gay marriage or
natural marriage?
A. The Bible.
Q. In terms of the -- your background, step back a bit
and talk about your background as a politician.
Have you had occasion to fundraise?
A. Yes.
Q. And have you yourself or your campaign received
donations from contributors supporting your running
for office or for political aspirations?
A. Yes.
Q. Are you familiar at all with the state regulation of
charitable organizations?
[76] A. I’m familiar, not in depth, but we have some
legislation that has dealt with it from time to time,
and then the church my husband pastors now, oh,
about 17 years ago, we started a 501(c)(3) charitable
organization to care for homeless mothers with
children; so I’m familiar through that.

162
Q. Have you had a chance to speak to donors that
contributed to your campaign or any of the causes you
just listed?
A. Oh, yes. You speak to your donors all the time.
Q. And do you have an understanding that the donors
to your campaign or to you as to whether or not they
are aligned with your view on, for example, gay
marriage?
A. Yes. They would not be contributing to me if they
were not aligned with my views.
Q. And do you have an understanding of, in this case,
what the Thomas More Law Center is being asked to
do by the California Attorney General?
A. Well, it’s my understanding that they are being
asked to turn over their contributor records to the
state.
Q. And does that at all concern you?
A. Yes.
Q. Can you tell us why.
A. Well, it does because from what I experienced, I
know that many of my donors were contacted, and I
know so because they told me they had been, and they
didn’t particularly like being hassled like that, and so
some of them quit -- not many [77] thankfully -- but
some quit contributing, and I think that most people
who donate would just like to be able to contribute to
causes they support, believe in, and not really have
any great deal of backlash because they contribute.
MS. CRUZ: Thank you so much. I have no further
questions at this time.

163
THE COURT: Cross-examination.
CROSS-EXAMINATION
BY MR. ZEPEDA:
Q. Good afternoon, Representative Kern. We met
before at your deposition.
How are you?
A. I’m fine. Thank you.
Q. You mentioned that you have been a member of the
Oklahoma legislature for about 12 years; is that
correct?
A. Yes. I just finished my 12th term -- year.
Q. And is it your experience that as a politician, you
often receive negative emails for your views on certain
issues?
A. Every elected official receives some negative
comments.
Q. And you agree that that’s sort of part of the job.
A. I think so. I don’t believe that most of them receive
or appreciate receiving hateful, insulting and
threatening emails. That does not happen very of
often.
Q. You discussed with Ms. Cruz that you received
national attention in 2008 for certain remarks that
you made.
*****
[83] Q. It didn’t cause you to modify your views in any
way?
A. No.

164
Q. Okay.
No further questions, Your Honor.
THE COURT: Redirect?
MS. CRUZ: Yes, Your Honor.
REDIRECT EXAMINATION
BY MS. CRUZ:
Q. Representative Kern, you were asked about your
positions and somewhat controversial, I guess,
statements.
And I guess my question to you is as a fundraiser
and a politician, is it your understanding that donors
who contribute to individual organizations with
whom they agree on political and socioeconomic
positions, it is your understanding that they donate to
those with whom they agree?
A. Yes -MR. ZEPEDA: Objection, Your Honor, calls for
speculation, overbroad -[84] THE COURT: Overruled.
BY MS. CRUZ:
Q. And is there any reason for you to believe that this
thought or this principle would be any different with
respect to the Thomas More Law Center and its
donors?
MR. ZEPEDA: Objection, Your Honor, calls for
speculation, lacks foundation.
THE COURT: Objection is overruled.

165
THE WITNESS: No. I believe that the -- it would
be a very real -- oh -- very real possibility that donors
would be -- their willingness to give would be -- oh,
what would be the word? -- they would be reluctant to
give if they felt like they we’re going to receive
harassment for giving.
BY MS. CRUZ:
Q. And the -- you were asked by counsel about the one
credible threat.
And that was the one credible threat to your life,
correct?
A. Yes.
Q. But having gone through Exhibit 89 together,
there were several emails and communications that
certainly -- correct me if I’m wrong -- wished you
physically harm, correct?
A. Yes.
Q. And in your mind, do you needs more than one
credible death threat to feel threatened or harassed?
A. No.
Q. And you mentioned that thank goodness you
weren’t physically hurt.
Did you have a fear of being physically hurt in the
week of March 2008 following the leak of the YouTube
video of the presentation that you made?
A. Yes, I did have some fear.
*****
[89] MR. CASTORIA: I may.
MR. CALIA: By stipulation, yes.

166
MR. CASTORIA: I understand that 303, which is
the news report regarding David Daliden, was
admitted over objection.
THE COURT: Yes.
MR. CASTORIA: I may have misstated that 303
was by stipulation; it was not.
THE COURT: All right.
MR. CASTORIA: The law center would next call
Mr. Paul Schervish to the stand, Dr. Paul Schervish
to the stand.
(Witness sworn.)
THE WITNESS: I do.
THE CLERK: Thank you, Mr. Schervish.
Please take a seat.
State your full name and spell it for the record.
THE WITNESS: Paul Schervish, S-c-h-e-r-v-i-s-h.
(Brief interruption)
MR. CASTORIA: Mr. Schervish, do you have any
electronic equipment on you?
THE WITNESS: No, I don’t have any metal either.
PAUL SCHERVISH; PLAINTIFF’S WITNESS,
SWORN, TESTIFIED:
DIRECT EXAMINATION
///
[90] BY MR. CASTORIA:
Q. Doctor Schervish, would you please introduce
yourself to the court.

167
A. I am currently professor emeritus at Boston
College, formerly in the Department of Sociology and
former director of the Center on Wealth and
Philanthropy at Boston College and the founder.
Q. And what does it mean to be a professor emeritus?
A. It is the special designation for retired faculty by
the president of the university for having had a
distinguished research career at the university.
Q. Before you retired, what did you do at Boston
College?
A. I was the professor of sociology, and as I said,
director and founder of the Center on Wealth and
Philanthropy there.
Q. What is the Center for Wealth and Philanthropy?
A. The center is essentially a research-, speaking- and
application-oriented institute in which the issues
surrounding the meaning and practice of
philanthropy among wealth holders is the central
focus. The money, the meaning, the motivations and
the methods of their philanthropy.
Q. Okay.
Have you testified as an expert prior to today?
A. Yes, I have.
Q. How many times?
A. Two times before.
[91] Q. If you can please name the cases in which
you’ve testified as an expert witness.
A. The Franchise Tax Board of California versus
Hyatt, and the FT -- the previous case, the --

168
Q. Americans for Prosperity -A. AFPF versus the Attorney General of California.
Q. On what -- sorry.
On what subject did you testify in the California
Franchise Tax Board case?
A. Whether a donor and a wealth holder could live
frugally and thereby not being deceptive in having
moved to another jurisdiction and having lived in an
inexpensive apartment, inexpensive home, driving
inexpensive car and shopping at inexpensive outlets,
that that was a continuation of his previous activities,
and that was not unusual for a good number of wealth
holders.
Q. And what was the basic testimony topic you gave
in the Americans for Prosperity Foundation case?
A. That the donors to the AFPF would like to retain
their anonymity when they so request it, would
indeed respect it to be respected and protected by the
organization, that when that anonymity is violated,
that they would undergo a chilling effect for their
continued participation, donations, and this chilling
affect would tend to potential future donors as well.
Q. And just to be clear, there's no other cases than
those [92] two in which you’ve testified as an expert,
correct?
A. That is correct.
Q. Do you maintain a curriculum vitae or biography?
A. Yes, I do.
Q. Would you kindly turn to Exhibit No. -- tab No. 381
in the binder, and I'll mention, again, Your Honor,

169
that we’ve prepared a separate binder for this
witness, a copy of which has been provided to
opposing counsel.
THE WITNESS: I have it, sir.
MR. CASTORIA: Okay.
Q. Do you have 318 in front of you?
A. Yes, I do.
THE CLERK: 318 is identified and placed before
the witness.
BY MR. CASTORIA:
Q. What is Exhibit 381?
A. It is my C.V.
Q. Is this the one you currently use?
A. Yes. It needs to be amended slightly for a few more
talks and a couple of articles.
MR. CASTORIA: Your Honor, we would move No.
381 into evidence.
MR. CALIA: No objection.
THE COURT: 381 in evidence.
(Plaintiff’s Exhibit 381 received in evidence.)
[93] BY MR. CASTORIA:
Q. Have any of the talks or articles that you have
spoken at or published since this version of your
curriculum vitae had a direct bearing on the case
we’re here to talk about today?
A. No -- oh, yes, the talks do.
Q. What are those talks and how do they affect this?

170
A. The talks that I have given involve two instances,
one to a group of high school students in an afternoon
seminar of about three-and-a-half hours -- I don’t
know how they lasted that long -- and then one to a
group fundraisers and development officers about the
spirituel foundations of charitable giving.
Q. In what way does that relate to your work in this
case?
A. That’s why I said -- took a second look at my
answer. It’s because it was a spiritual foundations of
the intensely personal and intimate way in which
religious and spirituel motivations affect people’s
engagements.
Q. What was the name of the article that you've
authored this year that you referred to?
A. “Breaking Down the Giving Pledge Barrier,” and
that was in a wealth management journal.
Q. Okay.
Did the article that you just mentioned change or
affect your opinions that you've reached in this case?
A. No, sir.
[94] Q. Okay.
And was there also an article about pledges made
to the Bill and Melinda Gates Foundation?
A. That is the one.
Q. That’s the -- solving the pledge bottleneck; is that
the same one?
A. Yes, that's correct.
Q. Understood.

171
Do you have any additional lectures planned
through the rest of this year that have a bearing on
the subjects of this lawsuit?
A. Yes. I will be speaking in Colorado Springs in
October, and that is a request to repeat a seminar that
many people were not able to get into that I presented
last year at Philanthropy Southwest on the spirituel
foundations of charitable giving.
I am, in October of this year, also giving the key
note address to the Association of Museum
Development Officers in Charlotte, North Carolina;
and then next September, I am presenting an
honorific lecture to the Friday Forum in Boston. This
is their 25th anniversary, and they asked for the nine
months of their seminars this coming year to have the
nine most regarded speakers of the last 25 years to
repeat a presentation.
Q. And tell us, please, how these presentations, both
recent and upcoming, relate to your opinions in the
case we have [95] today.
A. They essentially demonstrate, to myself especially,
my continued interest in this topic of religion,
spirituality and philanthropy; my continued
development of my thinking; the interaction with
wealth holders at some of these forums and those that
work with wealth holders; and the modification of my
thinking in modest ways, largely to apply more and
more of what I learned about wealth holders to the
regular donors that all of us are, rather than major
donors with exceptional wealth.
Q. I see.

172
Have you created any slides to assist with your
testimony here today?
A. Yes, I have, and if we could use them, it would help
me.
MR. CASTORIA: Your Honor, with your
permission, we’d like to put the slides up. Thank you.
Is that appearing at the AG’s table? Okay. Thank
you.
Q. The first slide is about educational background.
Dr. Schervish -- by the way, do you have the slide
in front of you as well?
A. Yes, I do.
Q. Should have asked you.
Where did you receive your degrees?
A. I received my undergraduate agree at the
University of Detroit in classical and comparative
literature in 1968, and I [96] received a summa cum
laude degree in arts bachelor. I studied then -- which
isn’t on here -- a year and a half of philosophy and
theology studies at the Jesuit School of Theology in
North Aurora, Illinois; then I did a masters degree in
sociology at Northwestern; finished that in 1970;
taught for two years at John Carroll University; and
then in 1975, received my master’s of divinity degree
from the Jesuit School of Theology at Berkeley. My
doctorate degree, my doctor of philosophy degree, was
from the University of Wisconsin at Madison in 1980.
Q. Thank you.
You mentioned you've done work with respect to
donors; is that right?

173
A. That is correct.
Q. Have you prepared a slide that summarizes your
work on donor behavior?
A. Yes.
MR. CASTORIA: May we turn to that, please.
Q. Dr. Schervish, the studies of donor behavior listed
here begins with the Wealth and Philanthropy Center
at Boston College; you’ve already testified at to that,
but some of these others you’ve not.
Could you explain your involvement in these
matters to us.
A. Yes.
This list includes some of the organizational [97]
activity and not just our research active. The Center
on Wealth and Philanthropy is one; the other one is
the Wealth and Giving Forum, which I help found;
and that was a seminar that was over a weekend for
wealth holders and their associates, sometimes their
attorneys and financial planners that we held over a
period of about five years, three times a year, and we
would have surveys for wealth holders, conferences
with them, private meetings with them if they
desired, and group discussions where people were
given the privilege of complete confidentiality to talk
about what they were finding as happinesses and
concerns of their wealth and philanthropy.
Q. At these various meetings at the Wealth and
Giving Forum, did you talk one on one with donors?
A. Yes, I did there, and over a period of my career, I
have counseled five, six, seven families over extended
periods of time about the meaning of philanthropy,

174
the distribution of wealth to their children, the
engagement of their children in philanthropy and so
forth.
Q. In the same context of the Wealth and Giving
Forum -A. That's correct.
Q. -- did you speak with donors in groups?
A. Yes, very often I would present to boards of
trustees, to donor groups, to those that were meeting
in private homes, groups of ten to 20, that were trying
to figure out what is the best relative distribution of
their wealth to children and to [98] philanthropy and
the best strategies for doing so. Those were some of
our activities.
Q. The Center on Wealth and Philanthropy, does that
sponsor any surveys?
A. We have sponsored several surveys ourselves. We
did the first major study of -- in contemporary times
of the philanthropy among wealth holders, which was
the study on wealth and giving, the study on wealth
and philanthropy, which we completed in 1988. And
then we did the survey with Deutsche Bank, Banker’s
Trust. We did a survey with the high-tech donor study
of high-tech donors and their motivations, and we also
interviewed a number of expert informants, people
that weren’t themselves major donors but were
working with them in a comprehensive way and had
accumulated a number of insights and, of course,
experience with that group of people.
We also recently did the Joys and Dilemmas of
Wealth sponsored by the Gates Foundation, and that
included 100 -- interviews with 160 -- survey of 160

175
people. So we have done a mixture of survey research
and intensive interviews, as well as direct work with
families and finally the experience with groups of
donors and wealth holders in various settings.
Q. Can you please describe in a little more detail the
study on wealth and philanthropy in terms of how
long the study took and the methods used in
conducting this study.
A. The length of the study was about two-and-a-half
years [99] because we did -- it’s extensive interviews
around the country, and, of course, we had to carefully
analyze each interview, transcribe it and analyze.
In regard to what we’re talking about here, one of
the things that researchers are very careful about is
protecting the confidentiality both when they do
intensive interviews and actually speak to people face
to face. You have them sign something that allows you
to be able to discuss their transcript, even with your
colleagues; and in all of the surveys that you do, you
have confidentiality agreements, and you have double
blinds about what they’re coded as and their names.
So that one group may have the code numbers, one
group may have the names, but nobody has -- we
never had both of them.
Q. You’ve used the phrase “intensive interview.”
What exactly does that mean?
A. That can mean a number of different of
methodologies revolving around this central idea. It
means that you are talking to people personally and
instead of asking them, like you would in a survey a
set of rote questions and writing down the same
answer to the very same question for each person,

176
what you do is you follow the logic of their emotion, of
where they take you to new areas, and you pursue a
continued line of development of questioning; but you
always are aware of digging more deeply into the
story that is being told to you, [100] especially if it is
a new story that you haven't heard at all before.
Q. Is this idea of intensive interview considered a
standard practice in sociological studies?
A. Yes, it is.
Q. Not just at Boston College?
A. That’s right.
Q. Have you conducted any -- you’ve already
answered about the large survey of donors for the
Joys and Dilemmas of Wealth.
A. One thing I haven’t mentioned which is here, and
maybe you’re getting that, we also analyze the major
national surveys that we don’t do but are done by
other universities, the panel study of income
dynamics and their module on philanthropy; and then
the federal reserve survey consumer finances, which
comes out ever three years, which is the gold standard
of analyzing the wealth, income and philanthropy of
households in the United States, and it's where we get
the statistics that everybody hears about distribution
of income and distribution of wealth.
Q. These other surveys that you’ve reviewed and
analyzed, do you know from reading them whether
those surveys employed the same sort of steps to
preserve anonymity you described for your own work?
A. Especially that. They all do, but especially the
federal reserve study. It goes to the IRS, and at the

177
IRS to write to high net-worth individuals, because
what they do, in order to [101] get a national
representative random sample of high net-worth
people, you have to get a permission from people to
talk with them because if you do a national
representative sample, you’re not going to find them
very easily. So the IRS writes to people, asks
permission whether the federal reserve can send
people not just to interview them, but with a high
ends, they go to their records, they go to their
accounts, they go to their financial advisers, they go
to their philanthropic advisers so that these numbers
are as accurate as possible.
Q. Can you estimate for me, roughly, how many
charitable donors you have spoken with personally
about their charitable giving incurred?
A. Probably a thousand and have heard even more,
you know, at other conferences where I have listened
but not spoken to them.
Q. You’ve described some of your education with
respect to the Jesuit School of Theology and such, but
have you had any experience particularly with
religiously motivated donors?
A. Yes, I have. The person that founded our center
with financing, he was our -- the person who initiated
the question and asked Boston College if he could
meet with some people, some professors, to pursue a
research idea that he had, and he was a highly
motivated religious man, Catholic, and -- name is
public: Thomas Murphy from Detroit. And he
supported our work and asked the leading question
that has remained with us ever since: As people
become wealthy and have redundant or [102]

178
excessive wealth other than what they need for their
daily standard of living and what they desire for their
heirs, do they turn to deeper purposes with their
wealth and with their income.
Q. Have you prepared a slide that summarizes your
work specifically with religiously motivated
donations?
A. Yes, and it includes some other research as well
that is related that I can explain.
Q. Could we turn to that, please.
Can you read that all right?
A. Yes, I can.
Q. This is a slide you were just referring to?
A. Yes.
Q. You mentioned earlier Master of Divinity of Jesuit
School of Theology. You were ordained a Roman
Catholic priest in the Jesuit order. Let’s take it from
there.
What’s the next item that has to do with your
special focus on religious donations?
A. My most recent book is cited there, The Will of God
and Wealth -- it’s actually Wealth and the Will of God
-- no. This is the correct one. They kept changing the
title -- discerning of use of riches and the service of
ultimate purpose, and in that book, we looked at the
meaning of wealth, the meaning of charity and giving,
the meaning of identification with the fate of others
in Aristotle, Ignacius Loyola, Thomas Aquinas, [103]
Calvin, Luther, Jonathan Edwards, in order to cover
the reformation, as well as the Catholic tradition, and

179
then Aristotle, the foundation for so much in Western
thought.
Q. And were specific research projects conducted in
connection with these?
A. Yes, these are only some that had such a title of
spirituality and religiosity. One that is not mentioned
there is a recent survey that we did and made a report
to the Templeton Foundation about happiness,
spiritualty, religion and philanthropy as part of our
study on the joys and dilemmas of wealth. But these
various research projects all were concerned with the
way in which -- what we considered to be one of the
key questions of the 21st Century got to be answered,
as I said, not just by wealth holders but increasingly
by all of us, how can you use your wealth for deeper
purposes. When acquiring more wealth or a more
elaborate standard of interest of -- standard of living
isn’t of highest importance you to.
Q. Items listed on this slide are not all inclusive of the
religiously motivated studies that you’ve -A. That’s correct. I would say that even our nationally
known wealth transfer model, which became renown
for its famous quote of $41 million transfer of wealth
from the World War II and previous generation to the
baby boomers, became an important study for the
expansion of banking’s financial industry and for
universities and so on to expand their [104]
development offices. And the reason why I say even
that was spiritual, because it was answering the
question about the growing abundance that would
unleash greater care and greater ability to carry out
your spirituel ideals.
Q. Okay.

180
Based on your studies you’ve read and conducted,
how would you characterize the principal motivation
that donors have in making charitable -- doing
charitable -MR. ZEPEDA: Objection, Your Honor, calls for
speculation.
THE COURT: The objection is overruled.
THE WITNESS: This is our research. We
developed what was called the identification model,
and this showed up in many of our papers and is cited
by other people; and the identification model
essentially says that the reason why people give, it’s
not because of selflessness, and it’s not because they
are, on the other hand, selfish and want to be selfaggrandizing. It is neither. It’s because of the
connection that people feel to the beneficiaries of their
help, whether it be through formal philanthropy or
taking care of a parent or a neighbor or the son and
daughter of a deceased brother or sister. So whether
it’s formal or informal, the chief motivation is that we
identify with the fate of others as if they were
ourselves, our parents, and our loved ones. And this,
again, is a very a important theme in Aquinas,
Thomas [105] Aquinas, when he asks what was more
important: The love of God, love of neighbor, or love of
self, and it says that that’s a three-legged stool, and if
you were to abandon love of self, and that would be
the identification with helping others, it advances
your own fulfillment. If you abandon love of self, you
have also abandoned love of God and love of neighbor;
that’s the identification model.
Q. How does the identification model, as you’ve
described it, inform your work in this case, if at all?

181
MR. ZEPEDA: Objection, Your Honor, exceeds the
scope of the expert report. This is not a part of his
expert and was not disclosed to the defendant.
THE COURT: Objection is overruled.
THE WITNESS: May I hear the question again,
please.
MR. CASTORIA: Sure.
Q. I was asking how the identification model informs
your opinions in this case.
A. This is, along with the motivation of gratitude, the
key of why donors are contributing to the causes that
the organization that the -- that we’ve discussed, the
organizations that we talked about, the work of the
Thomas More Law Center, all of these are connected
to the way in which people are carrying out a
assistance of others as a way of self-fulfillment for
themselves and for their families.
///
[106] Q. Can you give us example of what that -A. It means very simple that if my child -- or my little
grandchild, that was now two years old, fell into a
river, I would jump in after her. Now, whom am I
saving? I am saving her, and I’m saving myself at the
same time. So it’s not altruistic in the classical,
traditional sense or in a modern sense, and it’s not
selfish in a kind of modern sense. It’s connection. It’s
indication. Our fates are tied together. So when
somebody says that I’m contributing to a pro life
group, they are seeing that they are attending to a
baby that could be, is in deed, in their own religious
and spiritual experience, their own unborn baby. That

182
would be an example. If somebody were to be
concerned about violence toward or coming from
terrorism, they would be supporting anti-terrorist
activities because it was part of their identification
with the victims of terrorism and with the effort to
counteract the terrible harm and suffering that only
comes from it. So it’s that kind of application.
Q. We just commemorated the 15th anniversary of
9/11. From that event, do you draw any analogies no
this identification principle?
A. Absolutely. I would take the hurricanes, the earth
quakes, 9/11, the bombings at the Boston marathon.
You ask people: Whom did you contribute to, and they
would say the Jewish Federation, or they say the
Jesuit Relief Services or [107] they say the American
Red Cross. Then I would say in these interactive
seminars, to whom did you really contribute? And
then they would say, Oh, yeah I get it, to the families,
to people like me. And it helps them appreciate and
draw out of them what they already know at a deepseated level. They’re not giving to the Red Cross,
they’re giving to the families of 9/11, to the orphans of
9/11, to the broken hearts of 9/11.
Q. Does this motivation that you’ve described, the
identification model, apply only to the very wealthy
donors who can make a huge difference by an
individual donation or the donors at all levels?
A. When I received an award, one of the things I
talked about in that particular instance, which was
for my work on wealth and philanthropy, was how
much what I had learned has increasingly, step by
step, idea by idea, been virtually completely
applicable to the rest of us who are not financially

183
wealthy. Now that may seem obvious, but there are
distinctive aspects that wealth holders have that the
rest of us don’t have, which means that they can be
creating new organizations, new institutions and so
on, and most us have to live with an existing
institution. And can -- what I say is that a wealth
holder can do relatively individually what it would
take a social movement, a philanthropic movement,
or a political movement to do otherwise.
And so in this particular case, what would take
large [108] donors to repeatedly support a large
number of smaller donors can make happen in
concert.
Q. Even 25 to $100?
A. Well, they had a great affect on a political
campaign this year.
Q. Have you received awards and recognitions for the
work you've described?
A. Several. I don’t know if we have anything on them.
I don’t remember them.
Q. I believe we had a slide.
A. Did we have a slide?
Q. I believe we have a slide. If we can go to that. Is
this the one?
A. Yes.
The paper that was the foundation for a lot of my
work for understanding the desire and rationale for
anonymous giving was this paper, The Sound of One
Hand Clapping. That won the Virginia Hodgkinson
Prize in 1994 for the best paper or report in the field
for that year --

184
Q. Go ahead. I'm sorry.
A. Well, I just -- we go down -- recognized by the
NonProfit Times -- five times in the top -- Power and
Influence, top 50, and that included some well-known
people. It was rare for somebody that was a
researcher to be on that list. The winner of the the
Scott Fithian Award, International Association of
[109] Advisers and Philanthropy. More recently the
winner of the American Sociological Association’s
distinguished career award from the section on
altruism, morality and social solidarity. This wasn’t
an award, it was a burden -- not a burden, but it was
a service. I was on the donor advise fund board for
Smith Barney Morgan Stanley, what they called the
Global Impact Funding Trust, and I was on the board
of directors of that donor advisory fund from 2001 to
2013.
Q. Would you please turn to Exhibit 382 in the binder.
A. Yes. I have it.
Q. Can you identify Exhibit 382, please.
A. That is the article of which I spoke a moment ago,
The Sound of One Hand Clapping.
Q. If you just put it – don’t read it -- but is this the
complete version of the article?
A. Yes.
Q. Okay.
Your Honor, we’d move Exhibit 382 into evidence.
MR. ZEPEDA: No objection, Your Honor?
THE COURT: 382 in evidence.
(Plaintiff’s Exhibit 382 received in evidence.)

185
MR. CASTORIA: Okay.
Q. For the sake of those of us who are not sociologists,
can you describe what this article is about.
A. The article turned out to be something that we
literally [110] discovered as we read and reread the
transcripts. In intensive interviews, if you do 100, 130
intensive interviews, every time you reread them,
you’re essentially seeing another interview because
there’s things you hadn’t seen as patterns that you
now see because you’ve seen all 130.
And one of those areas was this concern about
anonymous giving, and there was a conference that I
was asked if I had anything to contribute to because
of my work with wealth holders and studying them,
and it was at the Center on Philanthropy at Indiana
University in 1991, and I developed a paper for that
conference, and there were just three of us -- or four
of us that presented papers, and subsequent to that,
it was published in a refereed journal; but the basis
for this article was discussing the different rationales,
the moral rationale, the functional or instrumental
rationale, for giving anonymously, the range of from
spiritual to functional, meaning that you -- spiritual,
not letting your left hand know what your right hand
is doing, all the way to the very functional one of not
wanting your children to know how wealthy you are,
not wanting your colleagues to know that you’re
making a major gift because they don’t know that you
have such wealth, to letting the organization even
know that you have so much more wealth because
they would tap you for even more, and then not to be
harassed by people coming to your door or writing you

186
letters or calling you up and saying can you please
support us.
[111] So it was why they would approach and take
on anonymous giving, and in some cases, why they
wouldn’t; and sometimes some people -- and this is
true -- what we found in the article from the research
was that some people would sometimes contribute
anonymously, for a moral reason or a religious reason,
and other times people would contribute purposely
non-anonymously for a religious reason. For instance,
to help the fundraising for their church’s youth group
or new hall or new church and so on.
Q. To your knowledge, have there been other -- is the
phrase “peer-reviewed studies”? Do I have that right?
A. Yes.
Q. Have there been other peer-reviewed studies done
on anonymous giving after your Sound of One Hand
Clapping?
A. Neither before nor after except I did finally find a
couple of highly mathematical and technical economic
articles using game theory. Now, there are -- which
are not directly using the information from donors.
There have been magazine reports and reports that
come out of study centers and so on that are that are
two, three pages long, but are accumulating and
writing down what they have learned over a period of
time from talking with donors rather than having
something that is peer reviewed and written with the
length and consistency of a peer-reviewed article.
Q. All right.

187
[112] Your Honor, based on the testimony thus far, we
would offer Dr. Schervish as an expert witness on
charitable giving and donor behavior.
THE COURT: All right.
MR. ZEPEDA: Your Honor, subject to the
objections and our motion we made regarding Dr.
Schervish, we’ll reserve our questions for crossexamination.
MR. CASTORIA: Ask the court’s guidance at this
point whether to proceed into Dr. Schervish’s analysis
in the case or reserve in the morning.
THE COURT: Go.
MR. CASTORIA: Go. Okay.
Q. Dr. Schervish, as an overview, what were you
asked to do in this case?
A. We have a slide on that, I think, but let me just
start out by -- before we come to that, let me start out
by saying I was asked to provide an expert opinion
about what is the reasonable, legitimate interest of
donors to the Thomas More Law Center to have their
anonymity preserved if they should so desire and
expect it, how this is based in their desire for freedom
of association, privacy and freedom from harassment
and a positive note, freedom of expression of religion,
and as I said, freedom of association, if that were to
be violated and that their identities were to become
known in a way contrary to their expectations and
desires, they themselves would become [113] chilled
in reducing or eliminating their participation and
donations to the Thomas More Law Center, and
additional donors, potential donor, future donors,

188
would be chilled as well in their participation and in
their donations.
Q. With that summary, shall we turn to the slide you
prepared regarding your summary of opinions in the
case.
A. Thank you.
MR. CASTORIA: Next.
Q. I believe there's actually two slides because they
don’t all fit on one.
Dr. Schervish, lead us through, if you would, your
opinions of the case in the order we have them on the
slide.
Ask you to read the slide but follow the slide in
terms of the -A. Yes.
The donors, as I said, have a legitimate and
reasonable desire, and indeed expectation, when they
so express it, especially, or when promised it, to have
their names, addresses, contact information held
confidentially by the organization, not to be made
known to third parties unless they so desire.
Q. That's the first one.
A. Yes.
Q. Okay.
A. And they, in certain circumstances, all the way
from [114] simply being inundated with requests, to
having their life threatened, they reasonably fear that
disclosure of their names and addresses and so on can
lead to harassment; and as we have heard more and
more today, catastrophic consequences when highly

189
controversial issues become part of the attention of
militant groups, partisan groups, and mentally ill
individuals, and so there is this desire for this
anonymity to be so much more protected in today’s
atmosphere of intensity of opinion and reaction that
-- across our country, and especially when that has a
religious valiance to it.
Q. Would you explain that, please.
A. Yes. Religion is like fire -- it’s like electricity. It can
be a great fortifying and deepening and heeling and
supportive experience and motivation. It can also lead
to intense hatred and justification and even obligation
to commit physical bodily harm to others. So like fire,
they can warm your house or burn it down, or
electricity can make your life so much better, or it can
destroy you through a lightning bolt.
This ability of donors to make contributions and
today’s religious environment is of such high -- I said
valiance -- as such high emotion and high intensity to
it across the board. The third point is that in today’s
technology, it is hard -- once somebody is identified to
be wealthy or to have made a gift -- let’s not even talk
about harassment or death threats or mean emails -it opens you up [115] to be searched out by many of
these companies that make their living on just
discovering who is this last person to go public with a
firm; where did she or he go to high school and college;
and they let these organizations know all about this
person; and then when there is this electronic ability
built today to discover so much about a person, it is
not able to discover it, it is able to broadcast it, and it
can broadcast it widely to people who are both your
friends and those that might wish you harm and, of

190
course, those that wish to get something from you like
a donation.
Finally, I have, as part of one of my major
opinions, that the law center’s disclosure of Schedule
B to the registry would chill contributions. If there
was one thing that we have learned is that donors do
not want to be harassed when they step out of their
private life in the charitable realm. It is like stepping
out of your private life and caring for a neighbor. You
don't want to be bothered and suffer negative
consequences for doing what you feel and know and
appreciate to be within your constitutional rights of
freedom of association.
And then you said there’s a fifth one, but I’m going
to go back to No. 1 for a second, if you don’t mind.
Q. Actually, let’s get the six of them out first.
A. Okay.
Q. The next slide has numbers five and six, and I will
wander back to one if we need to?
[116] A. The registry’s failure that I have learned
about from depositions and declarations in this case
and in the AFPF case. To keep Schedule B’s private
increases the chilling factor, the chilling of donors’
contributions and of potential donors and
contributors; and as I said, the religious nature of all
of this heightens the need for First Amendment
protection. The point I wanted to make in regard to
the first point –
Q. Let ask you the question.
A. Excuse me.

191
Q. Was there something about your first point that
you neglected to mention?
A. Just what I’ve already mentioned in regard to our
research, that this applies not just to major wealth
holders and their donations, this expectation applies
to when so desired, more modest donors, even what
might be considered smaller donors, and it is not just
true for major wealth holders.
Q. You’ve used several times the world “chill” or
“chilling.” I think most of these in the room are
lawyers. It has a certain meaning for us.
Tell us your meaning when you use the word
“chill” or “chilling.”
A. I’m trying to use it in the way I read it in various
documents, early documents in this case, and in the
previous case that I was an expert witness for and
then in the way the [117] American Civil Liberties
Union used it explicitly in a report on a Muslim
mosque in New York City where they studied and
wrote explicitly about the chilling effect that the
surveillance of police from the New York Police
Department was having -- their surveillance, their
attendance at mosques undercover, at that particular
mosque, undercover, and attending services and
meetings, that that was having a chilling affect on
people’s attendance at the mosque, on their
donations, and on their family’s participation. And so
I used it, and I’m trying to use it in the way the ACLU
used it in that particular study they did.
Q. Okay.
THE COURT: We’ll continue with Dr. Schevish at
10 o’clock tomorrow morning.

192
MR. CASTORIA: Thank you, Your Honor.
THE COURT: I mean, nine o’clock tomorrow
morning, not 10:00, 9:00.
(Proceedings concluded at 4:15 p.m.)
----*****

193
Excerpts from Trial Transcript
Day 2, Vol. 1
UNITED STATES OF AMERICA
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
–––
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
THOMAS MORE Law
Center,

)
)
)
PLAINTIFF,
) CERTIFIED COPY
)
VS.
) CV 14-09448 R
)
KAMALA HARRIS,
)
)
DEFENDANT.
)
___________________ )
TRIAL DAY TWO, MORNING SESSION
REPORTER’S TRANSCRIPT OF PROCEEDINGS
TUESDAY, SEPTEMBER 14, 2016
A.M. SESSION
LOS ANGELES, CALIFORNIA
*****

194
[5]
MR. CASTORIA: Thank you, Your Honor. And
good morning.
Last evening opposing counsel and I conferred
about some of the exhibits that were stipulated into
evidence yesterday and have a few corrections to
make which we’ve notified the clerk of, but I wish to
put on the record if I may.
Several exhibits were actually withdrawn after
that list was compiled. And those are: 259, 343, 372,
389, 395, 414, and 80.
Also, we realized that there is an additional
exhibit that was stipulated to to be put into evidence,
and that is No. 386. As I mentioned, we’ve advised the
clerk before court began, but we wish to put it on the
record.
THE COURT: All right.
MR. CASTORIA: May I proceed?
THE COURT: Yes.
MR. CASTORIA: Thank you.
CONTINUED DIRECT EXAMINATION
BY MR. CASTORIA:
Q. Good morning, Dr. Schervish. When we left off
we were about to summarize the sources of
information you [6] used at arriving at your opinion.
Did you create a slide on that subject?
A. Yes, sir.
Q. Just a moment, please.

195
And Dr. Schervish, could you describe for us the
types of sources that you relied upon in reaching your
decisions.
A. To start at the bottom because it is the
foundational work, the academic and pure reviewed
research on anonymous giving. The related print and
electronic media coverage of issues involved in this
case. And finally, the depositions, interrogatories,
declarations and exhibits that have been provided me
in conjunction with this case.
Q. All right. And did you also rely upon your own
work in donor giving?
A. Yes. My own academic research, not only that
which was shown up in books and articles, but that
which showed up in reports and was part of my basic
learning about this topic. My years of exposure to
wealth holders, their opinions, attitudes and
motivations.
Q. Was there a particular work -- academic work
that you referred to in the course of your study?
A. Yes. It was “The Sound of One Hand Clapping,”
which was the peer-reviewed article that we
discussed [7] yesterday. And it was subtitled “The
Case for and Against Anonymous Giving.”
Q. Were there also any particular sources -academic sources that you were not the author of that
you relied of?
A. Yes. Cicerchi and Weskerna provided a report
from over 2,000 development officers that they
interviewed to talk about what they had picked up in
the course of their work about the meanings and

196
motivations surrounding anonymous giving by the
donors with whom they had associated.
Q. Do you have your exhibit binder in front of you?
A. Yes, I do.
Q. Would you please turn to exhibit tab 383 in the
binder.
A. Yes.
Q. Can you identify tab 383, please.
A. That is that survey on anonymous giving that I
just spoke about.
Q. And that was by Cicerchi and Weskerna, if I’m
pronouncing those right, correct?
A. Yes.
Q. What was the importance to you of that
particular survey in your work on this case?
A. It reinforced it. Because at the conference, my
[8] paper had also been completed before I had seen
this. But it confirmed the broader framework, the
historical context of what I had found directly from
donors themselves.
MR. CASTORIA: Your Honor, I would move 383 in
evidence, please.
MR. CALIA: No objection, Your Honor.
THE COURT: 383 in evidence.
(Exhibit 383 is received.)
BY MR. CASTORIA:
Q. Dr. Schervish, are you familiar with something
called the Donor’s Bills of Rights?

197
A. Yes.
Q. And what is that?
A. It was initiated by a number of the
organizations that are umbrella for donors and
charities. And various charities themselves tailor it to
add their own words and so on. But basically it is a
list of seven, eight, nine propositions that talk about
what the donors should be able to expect from the
charities to which they contribute money.
Q. And was the Donor’s Bill of Rights, as it’s called,
influential in any way in forming your opinions in this
case?
A. It is something that I knew about for a long [9]
time. It is something that confirms the notion that the
charities themselves recognize that donors have what
they would call a moral right to confidentiality when
they so request it.
Q. Were there certain concerns about
confidentiality that Cicerchi and Weskerna study
highlighted that were relevant to your work in this
case?
A. The work that they did was in 1990, and it was
a different era. When I looked at the reports of donors
and looked at their reports, there was a consistent
theme, which was not to be inconvenienced, not to be
harassed -- and so if you were to look at the various
rationale that they had come up with for
understanding why donors wish to remain
anonymous, you would find them all under the rubric
of wanting to be liberated from unwanted intrusions
and harassment.

198
Q. Do you have any opinion as to whether donor
concerns in that regard have changed from 1990 to
2016?
A. They have changed in the United States
dramatically.
Q. How so?
A. In other countries, and in Europe, there’s much
more fear about major donors, about kidnapping of
children, death threats, and so on. That has now
become something much more familiar in the United
States.
[10] And donors are increasingly, when involved
with controversial or what are deemed to be
controversial cases, that they are protected in their
own family, in their own person. And this has
accelerated dramatically among the donors that I
speak to and have spoken to over the course of the
years, from 1990 coming to the present.
Q. When you use the word “controversial,” what do
you mean?
A. I mean that is a topic of public private morality,
public policy that has an opposition that is intensely
opposed to it, as there is on the other side a supporting
group that is intensely adhered to it.
Q. Have you heard examples used at this trial
during your attendance of causes that you under that
definition would consider controversial?
A. Yes.
Q. Can you give any examples, please.

199
A. The issue of abortion, choice, for one; the
relative safety that Americans, people, citizens and
residents of the United States of America have in
regard to Islamic terrorism; the issues of freedom of
religious expression in schools and so on. The ability
to enunciate your own political view points publicly,
and not to be charged as representative, occurring
[11] yesterday, was with death threats and so on. And
in that particular incident, it was about gay and
lesbian issues.
Q. Yesterday you listed a number of opinions. The
second of your opinions had to do with donors
reasonably fearing disclosure of their identities due to
harassment that can arise especially in today’s
environment.
What kind of harassment were you referring to in
that opinion?
A. It can all -- it can be all the way from simply
disagreements that are repeated often enough to
become bothersome to the content of those
communications that are demeaning, vulgar,
insulting, all the way to communications both in word
and in behavior that are life-threatening and indeed
in some cases we’ve heard about actual carrying out
of murders and terrorism on behalf of some of causes
we have discussed already.
Q. Did you give a similar opinion in the AFPF
case? And for the record yesterday we used AFPF as
an acronym for Americans for Prosperity Foundation.
A. I did give a similar opinion.
Q. Does your opinion in this case on that subject
differ in any way from your opinion in AFPF?

200
A. It differs in that I have become aware because
of the work of the Thomas More Law Center, its
mission and [12] purpose, and some of the clients that
it has supported, that there is a much more explicit
religious dimension to the notion of freedom of
association and freedom of expression.
Q. Turning back to your opinions, you third
opinion had to do with technology -- today’s state of
technology increasing the need to protect donor
information. I’m paraphrasing slightly.
Could you state with a little more particularity
what it is about technology that forms your opinions
in this case.
A. Technology today has reached new heights. And
we only can expect greater abilities from it in regard
to three areas: One is the discovery of information,
either by searching databases that are publicly
available or hacking. There is the -- second, the
distribution of that information. And third, the use of
that information to either support or hurt an
individual or a cause.
Q. And once confidentiality has been breached,
have you reached any conclusions about whether the
state of technology today makes it possible to put the
genie back in the bottle?
MR. CALIA: Objection. Lacks foundation, Your
Honor.
[13] THE COURT: The objection is overruled.
THE WITNESS: Technology enables something to
be distributed so broadly and so quickly, that even
when information is recalled, removed from Twitter,
removed from Facebook, removed from other -- from

201
e-mails even, there is a widespread dissemination of
it even when things have been withdrawn, and you
cannot withdraw or take back what has gotten out
there.
BY MR. CASTORIA:
Q. In the course of your work on this case, have
you learned about any groups or organizations who
have tried to track down donor lists to charitable
organizations and expose the donors publicly?
A. Not only in the course of this trial and the
previous trial to which we referred, but in the course
of my own work with donors and their discussion
about it, and my own study of philanthropy, there are
hundreds of organizations seeking databases,
developing lists of donors to be able to contact these
donors on behalf of new causes or causes that are
simply trying to raise money, and also on behalf of
groups that will buy those lists, and will try to use
them for fundraising. And finally, there is the inhouse development efforts, prospect research they call
it, and it occurs out in the field and is sold by
companies but also takes place in [14] major
charitable organizations themselves.
Q. Thank you. Would you please turn to tab 396,
396 in your exhibit binder.
A. I found it. Excuse me. Maybe not. Yes, I do.
Q. You do. Is that a document that starts with the
words “David Coke” at the top?
A. Yes.
Q. All right. Same thing?
A. Yes. Thank you.

202
Q. Is this a document that you reviewed in the
course of your work on this case?
A. Yes.
Q. And also on the prior case?
A. Yes.
Q. And is this -- is 396 a document that informed
in any way your opinion about outsiders to groups
trying to obtain donor lists for other than fundraising
purposes?
A. They are sought out and obtained in the
previous case, in this case, and here in this particular
example, whatever information is left unsecured is
made available because of the high political valency
of it is made available to the press and disseminated.
And as you indicated cannot be -- have the genie be
put back into the bottle. But the instance here is with
the information from a Coke brothers meeting in
which there [15] was a list of donors made available,
and it was -- appeared not only publicly but I think
this refers -- and I haven’t read this for a while -refers to the Massachusetts Attorney General having
this on a Website eventually, if I’m correct about that.
MR. CASTORIA: Your Honor, we’d move 396 into
evidence, please.
MR. CALIA: Your Honor, objection to the extent
it’s submitted for the truth of the matter.
THE COURT: 396 in evidence.
(Exhibit 396 is received.)
BY MR. CASTORIA:

203
Q. Dr. Schervish, you’ve done some research,
obviously in both cases, and came up with some
examples to support your opinion of individuals and
organizations that have been targeted. And have you
prepared a slide on that subject?
A. Yes, sir.
Q. Can we advance to that slide, please.
A. I think we have -Q. It’s actually two slides. I stand corrected.
Briefly could you describe each of the incidents
mentioned on this slide it starts with the “Purge the
Bigots.”
A. I think this is -- these two slides indicate in [16]
general what I was talking about, about the
intensification of the harassment and threats that are
made to people in regard to taking positions on
controversial topics.
The first one refers to the founder of Mozilla, who
six years later after Proposition 8 had been proposed,
was discovered by his workers to have made a
contribution of a thousand dollars, and was forced to
resign.
The California Proposition 8 received strong
resistance from the Mormon community. And there
were e-mails and white powder sent to Mormons both
in the local area and in Salt Lake City.
The -- I have to look at one of these, it’s not quite
-- the example that I gave yesterday, it’s documented
by the American American Civil Liberties Union
about Muslims being killed in their own mosque -Q. What about the one at the bottom?

204
A. -- in New York City.
Q. Oh, sorry.
A. And then the -- this is one again in California. I
can’t -- this is not clear enough for me to read.
Q. Which one are you referring to, Doctor?
A. The New York Times.
Q. Okay. “Marriage Ban Donors Feel Exposed by
[17] List”; is that the headline you are referring to?
A. Yes.
Q. All right. Let’s turn to the next slide, please.
Are these -A. Chick-fil-A was part of the -- a gay marriage
flack. The owner of the company resisted the gay
marriage initiatives and same sex marriage, and he
was -- his company was boycotted.
It isn’t just on the one side of the political spectrum
where all of this takes place. We find that McDonald’s
-- the American Family Association had a five-month
boycott of McDonald’s after they found that a
company executive had a gay and lesbian business
association.
The National Association of -- National Abortion
Rights Action League had a threat from -- of violence.
And it turns out in that particular instance that the
person that threatened them eventually was arrested
and convicted for plotting to bomb a abortion clinic,
which shows that threats turn into actual actions.
And then the Planned Parenthood had many of its
corporate sponsors seek to not be publicly known on

205
its Website and asked to have their logos removed in
the middle of the Planned Parenthood flack.
And Hobby Lobby was very much with the HHS
[18] mandate and, again, was a boycott of the
company in regard to its request to have an exemption
to Secretary Sebelius’s regulations.
Q. Dr. Schervish, in your experience what is the
effect of incidents like these that you described on
donor behavior?
A. Well, they are the public face of what is taking
place privately. These are examples that are known
publicly. And when confirmed personally and
privately in some of the instances that we have talked
about and heard from witnesses in this particular
case, and in other cases, they confirm and deepen and
make real the threats that people have been exposed
to.
Q. I’m going to turn to -- you had mentioned the
sources you looked at. I’m going to turn to lists of them
by type, in the interest of time.
I’m going to read a list of declarations in this case
that I understand you have reviewed and then ask
you if you did in fact review all of them.
Richard Thompson deposition -- I’m sorry.
Declarations. Richard Thompson’s two declarations in
this case. Francia Morello, F-r-a-n-c-i-a, M-o-r-e-l-l-o.
Catherine McMillan. Pamela Geller. Robert Spencer.
Melissa, also known as Missy Wood. And Sally Kern.
Are those all declarations that you [19] reviewed in
your work on this case?
A. Yes.

206
Q. And then depositions:
A list is Richard Thompson. Francia Morello.
Catherine McMillan. Pamela Geller. Robert Spencer.
Sally Kern. Thomas Monaghan. And Ray Madoff.
Are those deposition transcripts which you
reviewed in your work on this case?
A. Yes.
Q. And there were other materials that you
reviewed in the work on this case. I would like you to
turn to Exhibit 62, please, in your binder.
THE CLERK: Exhibit 62 is placed before the
witness.
THE WITNESS: I have it.
BY MR. CASTORIA:
Q. Do you recognize Exhibit 62, sir?
A. Yes.
Q. Does Exhibit 62 list, in addition to some of the
things I mentioned, other sources that you specifically
reviewed in your work on this case?
A. Yes.
MR. CASTORIA: Your Honor, we move Exhibit 62
into evidence, please.
MR. CALIA: No objection, Your Honor.
[20] THE COURT: 62 in evidence.
(Exhibit 62 is received.)
BY MR. CASTORIA:
Q. We’ve already marked and discussed Exhibit
20. I’m not asking you to turn to it or refer to it, but

207
that was the anonymous letter, handwritten letter,
with a $25 donation.
Is that a document that you reviewed in your work
on this case?
A. Yes, it is.
Q. How does Exhibit 20, the letter, inform or affect
your conclusions that you’ve reached in this case?
A. That is very simply a summary of the logic of
the case. That one short letter, its rationale for
wanting to be contributing, its rationale for wanting
not to be known, and its best wishes to the
organization. But never to have any fingerprints on
the gift is exactly the -- in a small way here the logic
that permeates the whole case.
Q. You’ve also been here through what we’ve had
of the trial so far; is that correct?
A. Yes.
Q. You heard the testimony from the Law Centers
two witnesses, Mr. Thompson and Ms. McMillan,
correct?
A. Yes.
[21] MR. CALIA: Objection your Honor exceeds the
scope of the expert report.
THE COURT: The objection is overruled.
BY MR. CASTORIA:
Q. My question is simply: Did the testimony of
those witnesses alter or confirm any of your opinions
as stated?

208
A. They confirmed the intensity of the issue. When
you read, it’s hard to have missed the intensity in
these particular cases, but -- and looking at the
exhibits and declaration and depositions. But when
you hear them fresh again from a person who has
suffered through them, it makes it more poignant and
more dramatic and perhaps communicates the feel of
the danger of which we are speaking.
Q. You also were here for Representative Sally
Kern’s testimony, correct?
A. Yes.
Q. And Representative Kern’s testimony confirm
or alter in any way the opinions that you’ve stated in
this case?
A. I would say they confirmed them in the same
way I just mentioned.
Q. Okay. Would you please turn -- I believe it
should be in your binder -- to Exhibit 258. 258.
[22] THE CLERK: Exhibit 258 is identified and
placed before the witness.
THE WITNESS: Yes.
THE CLERK: Do you have it?
THE WITNESS: Yes. Thank you.
BY MR. CASTORIA:
Q. This was introduced earlier in evidence, and is
actually in evidence as an exhibit now. List of
California cases in which Thomas More Law Center
appeared as counsel.
Do you remember seeing this, sir?

209
A. Yes.
Q. My question is simply: Looking at this list, how
does this conform to your deposition you gave us
earlier about controversial causes?
A. Well, the topics that are listed here certainly fit
that topic. I give a sociological definition of
controversial; meaning there is an intense support
and an intense opposition. And that this leads to
intense communications either physically or verbally.
Q. In your work on this case, did you interview any
of the Law Center’s donors?
A. No.
Q. Did you believe it was necessary for you to
interview any of the Law Center’s donors to reach the
[23] conclusions you have in this case?
A. No.
Q. Excuse me just a moment.
You read Mr. Monaghan’s deposition?
A. Yes.
Q. How, if at all, did Mr. Monaghan’s deposition
testimony relate to your opinions in the case?
A. His testimony is indeed -- while I did not
interview him for the case, I did read his deposition
which expresses his rationale for supporting the
Thomas More -- and founding the Thomas More Law
Center.
We heard from Mr. Thompson yesterday the two
purposes that he suggested to Mr. Monaghan which
he carried out; the Thomas More Law Center and the
Ave Maria Law School.

210
These -- the deposition indicates that Mr.
Monaghan is very much aware of a purpose that is
sincerely religiously held over a long period of time,
and understands even what comes back to him not so
much through a political lens but has as a religious
experience and a religious commitment.
Q. Have you reached an opinion in this case as to
whether the Law Center’s donors reasonably fear
disclosure of the donor list of the Law Center to the
California registry?
[24] A. I have.
Q. What was the opinion?
A. I think that they have -- my opinion is that they
do have a legitimate and reasonable fear that they
will be harassed, intruded upon, if their names are
revealed on Schedule B to the Attorney General of
California.
Q. Would you turn to Exhibit 292 of the binder,
please.
THE CLERK: Exhibit 292 is identified and placed
before the witness.
THE WITNESS: I have it, sir.
BY MR. CASTORIA:
Q. Can you identify this document, please.
A. This is a news report, looks like it is from some
social media site, in which the Attorney General says
that she will not defend Proposition 8 even after it had
been passed.
Q. Is this a document that you reviewed in your
work on this case?

211
A. Yes.
Q. And if you’d also would turn to 293, the next
exhibit, please.
THE CLERK: Exhibit 293 is identified and placed
before the witness.
THE WITNESS: I have it.
[25] BY MR. CASTORIA:
Q. Is 293 also a document that you reviewed in
your work on this case?
A. Yes.
Q. And what is Exhibit 293, please.
A. It is a statement from the Attorney General’s
office in which the Attorney General explains why she
is not enforcing Proposition 8.
MR. CASTORIA: Your Honor, we’d move Exhibits
292 and 293 into evidence.
THE COURT: 292 and 293 in evidence.
(Exhibits 292 and 293 are received.)
BY MR. CASTORIA:
Q. And while we’re there, would you please turn to
296.
THE CLERK: Exhibit 296 is identified and placed
before the witness.
BY MR. CASTORIA:
Q. Please identify document 296.
A. Again, it is from the office of the Attorney
General. And talks about how the Attorney General
filed an amicus brief in the United States Supreme

212
Court on behalf of the supporting that the HHS
mandate be applied to all organizations.
Q. And did you review and rely upon this
document in [26] forming your opinions in this case?
A. Yes.
MR. CASTORIA: Your Honor, we’d move No. 296
into evidence.
THE COURT: 296 in evidence.
(Exhibit 296 is received.)
BY MR. CASTORIA:
Q. Dr. Schervish, looking at the last three
documents that you have, do these inform your
opinion in any way about the nature of the chilling
effect on the Law Center’s donors specifically as to the
California Attorney General receiving their
identities?
A. Yes, it does have an affect on my opinion.
Q. Would you describe that, please.
A. The Attorney General is a -- and currently is in
a highly politicized position, enunciating views that
are controversial -- deemed controversial. Taking
positions that are controversial or deemed
controversial, which is the phrase I prefer.
And in this particular case, it is important to note
that while people refer to this as the contraceptive
mandate, I had previous to being involved with either
one of these cases, read Secretary Sebelius’s mandate.
And contraceptive means all the forms of
contraception, not just birth control pills, [27] that are
allowed under the healthcare act, the Obama Care

213
Act. And it includes abortion, it includes abortive
birth control methods. It even -- not just the normal
notion of birth control that we deem it to be when we
talk about contraception. And as such this term
contraception does not cover the intensity that is felt
by the people that are opposing this and would see
this as highly political. It is not just, quote,
contraception, that they deem the Attorney General
to be opposed to stopping or limiting for certain
organizations, but all forms of contraception listed by
her.
MR. CALIA: Objection, your Honor. Move to
strike. There has been no evidence that Dr. Schervish
is qualified to provide a legal opinion in any way.
THE COURT: That motion is denied.
BY MR. CASTORIA:
Q. I’m going to run through a few exhibits -THE COURT: It is his opinion, Counsel.
MR. CASTORIA: Sorry.
BY MR. CASTORIA:
Q. I’d like to run through a few additional exhibits
and then we’ll be wrapped up.
Would you please turn to 288, 288 in your exhibit
binder.
[28] THE CLERK: 288 is identified and placed
before the witness.
THE WITNESS: Yes.
BY MR. CASTORIA:

214
Q. Is 288 a document that you’ve reviewed in the
course of your work, the Declaration of Melissa Wood?
A. Yes.
Q. And did you rely on that document in forming
your opinions?
A. Yes, sir.
Q. And you’ve heard the story of the Wood family
as depicted in the courtroom during the trial?
A. Yes.
MR. CASTORIA: Your Honor, we’d move Exhibit
288 into evidence, please.
MR. CALIA: Objection to the extent it’s submitted
for the truth of the matter, Your Honor.
THE COURT: 288 in evidence.
(Exhibit 288 is received.)
BY MR. CASTORIA:
Q. Would you please turn to Exhibit 120. I hope
you have 120.
THE CLERK: 120 is identified and placed before
the witness.
THE WITNESS: If you can help me, please.
[29] THE CLERK: Okay. There we go.
THE WITNESS: Thank you.
Yes, sir.
BY MR. CASTORIA:
Q. Is Exhibit 120 a document that -- I should first
say Exhibit 28 is an Facebook post, correct?

215
A. Yes.
Q. Is Exhibit 120 a document that you reviewed in
the course of your work on this case?
A. Yes.
Q. And this is a document that refers to a situation
with the Wood family, correct?
A. That is correct.
MR. CASTORIA: Your Honor, we move Exhibit
120 into evidence.
THE COURT: All right. 120 into evidence.
(Exhibit 120 is received.)
BY MR. CASTORIA:
Q. Did you, in the course of your work, read the
deposition testimony and declaration of Pamela
Geller?
A. Yes.
Q. There’s some exhibits I’d like you to look at
briefly and tell me if you reviewed and relied on them.
The first of them is 153, a series of -- rather, an email to Ms. Geller.
[30] Do you have that in front of you?
A. Yes. I reviewed this.
Q. You did? Okay. And did it assist in informing
your opinion in this case?
A. Yes, it did.
MR. CASTORIA: Your Honor, we’d move Exhibit
153 into evidence.

216
THE COURT: 153 in evidence.
(Exhibit 153 is received.)
BY MR. CASTORIA:
Q. Please turn to 166.
A. I have it.
Q. Okay. Can you identify what 166 is.
A. This is the fatwa against Ms. Geller.
Q. And is this a document that you reviewed and
relied on in reaching your opinions in this case?
A. Yes. It indicates that there is an army of a
certain number of individuals in several states, 15
states I see here, in which she -- they have been
ordered to attack and kill.
MR. CASTORIA: Your Honor, we’d move Exhibit
166 into evidence.
MR. CALIA: Objection, Your Honor, to the extent
that it is submitted for the truth of the matter. It is
hearsay.
[31] THE COURT: 166 in evidence.
(Exhibit 166 is received.)
BY MR. CASTORIA:
Q. Please turn to -- I cannot read. 262, please. 262.
A. I have it.
Q. Is this article one that you reviewed in the
course of your work on this case?
A. Yes.

217
Q. And did it inform or assist you in reaching your
conclusions?
A. Yes.
Q. And just for the record, please tell us the
headline of -- that appears on this document.
A. “ISIS threatens controversial blogger Pamela
Geller in message boasting of,” quote, “‘71 trained
solders in 15 different states,’” unquote.
MR. CASTORIA: Your Honor, we’d move Exhibit
262 into evidence.
MR. CALIA: Objection. Hearsay.
THE COURT: 262 in evidence.
(Exhibit 262 is received.)
THE COURT: Hearsay is not what he uses in his
opinion, Counsel. It has nothing to do with that. And
that’s the purpose of its admission -[32] BY MR. CASTORIA:
Q. Could you please turn -THE COURT: -- his opinion.
MR. CASTORIA: Sorry, Your Honor.
BY MR. CASTORIA:
Q. Dr. Schervish, could you please turn to 165 and
167. We’ll take them together.
A. I have 165 and 167.
Q. Did you review Exhibit 165 in the course of your
work on this case?
A. Yes.

218
Q. And could you please also turn to 167 and tell
me, is this a document that you also reviewed and
relied upon in your work in this case?
A. Yes.
Q. Both of these, and I’m treating them together,
deal with the indictment of defendants Rovinski and
Wright for conspiring to assassinate Pamela Geller,
among others.
Did you rely on these in your work?
A. Yes.
MR. CASTORIA: Your Honor, we would move 165
and 167 into evidence.
THE COURT: 165 and 167 in evidence.
(Exhibit 165 and 167 are received.)
[33] BY MR. CASTORIA:
Q. Your fifth opinion in your slides had to do with
the registry’s failure to keep in practice Schedule B’s
private and the effect that might have on chilling
donor contributions.
Do you recall that?
A. Yes.
Q. In forming that opinion, was the basis for that
the same as it was in the Americans for Prosperity
case?
A. Yes.
Q. And with the exception of Tom Monaghan and
that $25 cash donor who was anonymous, the sources
you’ve relied upon in reaching your conclusions are
not donors to the Law Center but clients, correct?

219
A. There was one donor that was on -- a witness at
the previous case, the Americans for Prosperity
Foundation case, Mr. Pope.
Q. I stand corrected. I was referring just to the
Law Center’s donors.
A. Excuse me, sir. Yes. I answer yes to you.
Q. Did Mr. Pope’s testimony also influence your
conclusions?
A. Yes.
Q. Does it make a difference to you that these
other sources that we’ve been speaking of are clients
as [34] opposed to donors?
A. I look at the clients in -- ensconced in -- just
overcome in a whirlwind of turmoil. The clients as
well as the members of the Law Center staff.
And we have heard about harassment and threats
and carrying out of threats. And FBI confirming the
threats and so on as being legitimate and reasonable.
If the people that were known, that the donors who
made all of this possible were revealed, it is my
opinion that they would be attended to with the same
kinds, if not greater, harassment and threats as the
client and the members of the Thomas More Law
Center staff, so that those who generate the
possibility of this activity to go on would be deemed
even more controversial than the people that have
been the clients and the staff. And we have seen what
has happened to them.
So 84CRI (phonetic), it would apply to the donors.
Q. Dr. Schervish, one last quick topic. You were
deposed in this case, correct?

220
A. Yes.
Q. You were asked your opinions regarding donor
advised funds, weren’t you?
A. Yes.
[35] Q. And those questions were posed by the
Attorney General’s counsel?
A. Yes.
Q. You’ve prepared a slide about donor advised
funds in this case?
A. Yes.
Q. Could we turn to that, please. There it is.
Can you see that slide in front of you, sir?
A. Yes.
Q. I don’t know what the orange markings are on
the one I’m looking at.
Are you able to read it?
A. Yes. The slides are bleeding.
Q. I’m going to ask you to quickly summarize for
me your conclusions regarding how the use of donor
advised funds would or would not be appropriate for
the majority of the donors to the Thomas More Law
Center?
A. It is clear from being a board member for 12 and
a half years of a donor-advised fund myself, that there
is often a gap between the intention of a check
representing a heartfelt gift and the actual reception
of it by a charity. It has happened to my gifts. It has
happened to the donor of my -- who has supported my
research when his check gets lost in Boston College,

221
because it has to be sent to the trustees of Boston [36]
College, and he doesn’t know where the check is.
Nobody knows where it is. I can’t thank him. And the
personal relationship gets to such a point he says, Did
you get the check? And he shouldn’t have to say that.
And so not only that, it just puts another step in
between you and the organization which, in my
opinion, need not be there unless thoroughly desired
to be done.
It doesn’t shield the donor entirely from scrutiny
because there are dedicated donor-advised funds.
And people will know if you contributed to this
donor-advised fund that the gift that you then make
to a particular charity from your account would be
associated with the purposes of that dedicated donoradvised fund.
There’s management fees. You might be able to, in
your own foundation, keep money under
management, and larger amounts receive lower rates.
And so if you could concentrate your management
fees, you wouldn’t be paying additional management
fees by a donor-advised fund. And you can’t legally
fulfill all of your charitable intent. You cannot fulfill
a formal pledge. And you cannot contribute to people
internationally -- to organizations internationally,
and you cannot, like a foundation can, make a gift to
an individual person in need, which you [37] can do
through a foundation or directly -- you can’t do it
directly from your own. You can always contribute,
but you don’t get a tax deduction. But you can through
your foundation.
MR. CASTORIA: Thank you. I have no further
questions for the witness.

222
THE COURT: All right.
Cross-examination?
CROSS-EXAMINATION
BY MR. ZEPEDA:
Q. Good morning, Dr. Schervish. My name is Jose
Zepeda. We met before, haven’t we?
A. Yes. Good morning, Mr. Zepeda.
Q. I wanted to talk to you a little bit about your
background that you discussed at some length with
Mr. Castoria.
You do not have training on First Amendment
issues, do you?
A. I’m sorry. What issues?
Q. You do not have any training on First
Amendment issues?
A. No.
Q. No educational expertise regarding legal
concepts?
MR. CASTORIA: Overbroad, Your Honor.
*****
[42] Q. But you didn’t meet with any of the Law
Center’s donors to prepare your expert opinions in
this case?
A. No.
Q. Or any potential donors to the Law Center?
A. No.
*****

223
[43] Q. You have no surveys about donors to the Law
Center?
A. Did I survey donors at the Law Center.
Q. Okay.
A. Is that what you’re asking?
Q. Yes.
[44] A. No, I haven’t.
Q. You did not survey them, and you did not have any
surveys -A. Oh, excuse me. Yes. No, I don’t have any surveys
about them either.
Q. So you didn’t perform any statistical analyses
regarding the Law Center’s donors?
A. No, sir.
Q. You did not perform any statistical analyses of the
donors to the Law Center’s purported concerns
regarding safety?
A. No.
Q. You did not conduct any random sampling of the
Law Center’s donors?
A. No.
Q. You also mentioned a study that’s called -- that
involved 28 intensive interviews with wealth holders.
Does that found familiar?
A. No. That was the high tech donor study.
Q. And intensive interviews you talked about with
Mr. Castoria is a standard practice in sociology,
correct?

224
A. Yes.
Q. You conducted no interviews -- intensive
interviews with any of the Law Center’s donors?
[45] A. No.
*****
[50] Q. In your review of materials in this case, you
did [51] not see any materials indicating that any
donor to the Law Center has stopped his or her
donations due to the fear of being disclosed?
A. I did not see that.
Q. And you did not see any evidence that any donor to
the Law Center has reduced his or her donations for
this reason?
A. No.
*****
[54] THE COURT: Objection is sustained.
MR. ZEPEDA: I have no further questions, Your
Honor.
THE COURT: Redirect?
MR. CASTORIA: Briefly, Your Honor.
REDIRECT EXAMINATION
BY MR. CASTORIA:
Q. Dr. Schervish, you were asked on crossexamination whether you were aware of any donor
who had expressed a concern about his or her safety,
words to that effect; is that right?
A. Yes.

225
Q. You, in fact, had reviewed Exhibit 20, had you
not, the handwritten letter from the anonymous
donor of the $25?
A. Yes. That would be an example.
Q. Did that donor express a concern for his or her
safety?
A. Yes.
Q. And in terms of your not interviewing Law
Center donors as part of your work, was one of your
reasons for that concern about invading the privacy of
the donors?
MR. CALIA: Objection; leading, your Honor.
THE COURT: The objection is sustained in that
form.
[55] BY MR. CASTORIA:
Q. Okay. Let me ask you this: What were your
reasons for not conducting interviews of the Law
Center’s donors?
A. If I were to interview the Law Center’s donors,
the names would be known to me, and then I would
presume -- I would have to testify to whom I had
interviewed. And this is what the case is about.
Q. Did you have any concern on the subject of
interviewing of the donors as to whether simply the
fact of the interview on this subject might create the
same type of chill that you’ve described from the loss
of anonymity of the donor?
A. I think for the Thomas More Law Center donors
that very well could be the case. Because these are not
the usual protected multimillionaire donors that

226
would have levels of security and acts -- you know,
protection
from
access,
protection
around
communications and media.
So this particular group might become even more
aware of the kinds of threats and problems than they
are already aware. And it would help create, I’m
afraid, a chilling effect on them, which could have
been a possibility.
MR. CASTORIA: No further redirect, Your Honor.
*****
[57] Q. In terms of your concerns about maintaining
donor anonymity in preparing your expert opinion,
isn’t it the case that in sociological research there are
ways to maintain donor anonymity when conducting
surveys?
A. Not only are there ways, they are obligated by
university regulations and federal regulations.
Q. And they’re fairly commonly used; is that correct?
A. Yes.
[58] Q. You mentioned the double-blind procedure, I
believe, yesterday?
A. That is one.
Q. But you did not utilize that in this case?
A. To interview donors?
Q. Yes.
A. I didn’t interview donors at all, so...
Q. Okay.
A. So there was no basis for using that.

227
*****
[61] Louie Castoria speaking.
A. Good afternoon.
Q. Thank you again for testifying from a remote
location for us.
Have you received a package of exhibits and have
that in front of you in this case?
A. Yes, I have. It is in front of me.
Q. Just as a check, is the first item in that package
marked Exhibit 65?
A. Yes, it is.
Q. Well, let’s begin with a little identification.
Please tell the Court who you are and what you do.
A. I am Robert Spencer. I am a writer and speaker.
Q. What is your current employment?
A. The David Horowitz Freedom Center. American
Freedom Defense Initiatives. And Center for Security
Policy.
Q. Could you briefly describe the functions of those
three organizations?
A. They are all human rights and advocacy
organizations designed to raise public awareness
about certain key issues.
Q. Can you identify some of those issues?
A. Well, my particular preoccupation is regarding
jihad terrorism.
[62] Q. And what is your position at the Horowitz
Center?

228
A. I am the director of their Jihad Watch program.
Q. What is Jihad Watch?
A. Jihad Watch is a news and commentary
Website designed to illuminate certain aspects of the
terrorism threats that are not sufficiently covered in
the mainstream media.
Q. Is the threat you are referring to only
international or also domestic?
A. Domestic and international.
Q. And how long have you been affiliated with The
Horowitz Center?
A. About ten years.
Q. And the next organization you mentioned was
American Freedom Defense Initiatives, if I got the
name correct?
A. Yes.
Q. By the way, there is about a second delay
between seeing you speak and hearing you speak. So
I will try to allow you that second, and please do the
same for me as you have been doing. Thank you.
What is your current position with American
Freedom Defense Initiative.
A. Vice president.
Q. Who is the president?
[63] A. Pamela Geller.
Q. When was American -- is it all right if I just use
AFDI for short?
A. Yes.

229
Q. When was AFDI founded?
A. 2010.
Q. Who were the founders?
A. Pamela Geller and I.
Q. What is the function of American Freedom
Defense Initiative?
A. The American Freedom Defense Initiative is
dedicated to defending the freedom of speech, the
freedom of conscience, equality of rights of all people
before the law and individual rights.
Q. And what is your -- you said you are vice
president currently; is that right?
A. Yes.
Q. Has that been your position throughout the
time?
A. Yes, it has.
Q. What was
mentioned, sir?

the

third

organization

you

A. Center for Security Policy.
Q. And what is that, please?
A. That is another organization designed to defend
constitutional freedoms and raise awareness about
[64] certain threats to those freedoms.
Q. And do these three organizations that you are
affiliated with publish materials on the Internet to
educate people on these subjects?
A. Yes, they do.
Q. Is that something you personally do?

230
A. Yes.
Q. What other means do those organizations -- or
I should say any of those organizations use to get their
message out to the public?
A. Advertising. Public rallies. Conferences.
Individual lectures by various affiliates of the
organization.
Q. All right. You mentioned advertising. Was
there an instance in which the Thomas More Law
Center represented you and Ms. Geller with respect
to advertising on public properties?
A. I believe so. I believe there was.
Q. Was there a bus case or cases? Does that ring a
bell?
A. Yes. We had been denied the right to run our
ads in several municipalities and contested those
bans on free speech grounds.
Q. And that occurred in court, correct?
A. Yes, it did.
*****
[69] A. Oh, going back many years. I couldn’t even
pinpoint the first. This has been a backdrop of my
professional work for 15 years and more.
Q. Is it fair to say you’ve had more frequent
contacts with the FBI than most people have?
A. Yes. In terms of threats to me, yes. I also used
to train FBI agents about the ideology of the
terrorists.
Q. Where was that done?

231
A. That was done all over at various Joint
Terrorism Task Force offices and also at the FBI
headquarters.
Q. Have you been in communication with the Joint
Terrorism Task Force regarding your activities
during the last few years?
A. No, not since 2010.
Q. What happened in 2010?
A. Actually it officially happened in 2011, but it
was already de facto in place that the current
administration decided that they were not going to
have any discussion of Islam in counter-terror
analysis in connection with terrorism. And so any
instructor such as myself who spoke about the Islamic
beliefs of the terrorists was no longer welcome.
Q. I would like to move to an event that happened
in Garland, Texas. Did you attend an event in
Garland, [70] Texas with Ms. Geller?
A. I not only attended, but I was co-organizer of
the event.
Q. And was it that prompted you and Ms. Geller to
organize the event in Garland, Texas?
A. The event in Garland, Texas was designed to
defend the freedom of speech in the face of violent
intimidation and threats.
The Charlie Hebdo magazine in France had had
its offices attacked, and I believe it was twelve of its
employees murdered by Islamic jihades in January
2015, because they drew Muhammad, the prophet of
Islam.

232
We reasoned that in the face of people who are
going to kill for drawing Muhammad, you either have
to draw Mohammed or you have to surrender your
freedom and speech and allow yourself to be bullied
and intimidated into silence, and so we thought it was
important to take a stand in defense of the freedom of
speech and held a Mohammed art exhibit and cartoon
contest in Garland on May 3, 2015.
Q. How did you come to choose Garland, Texas as
a location?
A. Because right after the massacre in France a
Muslim organization held a conference in Garland,
Texas “Stand With the Prophet,” which we thought
was [71] specularly inappropriate and ill advised and
especially ill timed coming so soon after the massacre
of the cartoonists. It looked like an affirmation of
approval for the murder of those cartoonists. And so
we thought it would be a good location, therefore, to
have it stand for the freedom of speech.
Q. Approximately, if you know, how many
attendees were there at your event in Garland?
A. I believe about 250.
Q. And was in fact drawing done by people there
of the Prophet Muhammad?
A. No. All the drawing had been done previously.
And then we judged the entries and chose a winner,
and the winner was presented with the -- the -- the
winning check, the check with the prize money at the
event.
Q. Were there other art -- was there other art on
display during the event?

233
A. Yes. I had chosen a series of historical
representations of Muhammad, many of which had
been done by Muslims themselves throughout
history, as well as non-Muslims, including a fresco in
a church in Florence, Italy, and some Shiite
representations of Muhammad from Persia in the
16th century. And those were on display. We had
them blown up and attached with explanations, as in
any art exhibit, and they were also -- they were [72]
displayed alongside some of the entries that we had
considered in the final stages of choosing the winner.
And so some of the better of the cartoon entries that
we had received were displayed along with the
classical artwork.
Q. What was your point in displaying the classical
artwork?
A. We were trying to show that drawing
Mohammed was only a flash point and considered to
be a death penalty offense as far as Islamic jihades
are concerned only in the current age in order to
intimidate the West into discarding the freedom of
speech, but that there had been representations of
Muhammad that had never offended Muslims or led
to mass murder even done by Muslims in the past.
Q. I’d like you to turn your attention, if I may, to
Exhibit 65, which would be the first one that’s in front
of you. And I believe we have delivered exhibit binders
for this witness to counsel and to the Court.
Do you have Exhibit 65, sir?
A. Yes, sir.
Q. What is it?

234
A. It is Declaration of Robert Spencer -- oh, it’s my
statement, I suppose, in support of the plaintiff in this
case.
*****
[74] Q. The fatwa. Okay. And that’s the page that
has to me the unreadable part in black at the top and
then says -- it has “The New Era” in the middle of the
page.
Do you see that?
A. Yeah, that says ilaha ila-llah, muhammadurrasulu-llah (phonetic). There’s no God but Allah and
Muhammad is his prophet.
Q. Thank you.
How did this document first get to your attention?
A. I saw this when it was originally published on
the Internet in early May 2015.
Q. And the text is unfortunately very small on this
document.
A. I can read it.
Q. Would you mind reading it for the record,
please?
A. “To our brothers and sisters fighting for the
sake of Allah, we make duaa” -- that’s prayers -- “for
you and ask Allah to guide your bullets, terrify your
enemies and establish you in the land. As our noble
brother in the Philippines said in his bayah, This is
the Golden Era. Everyone who believes is running for
shahid” -- that’s martyrdom.

235
“The attack by the Islamic State in America is only
the beginning of our efforts to establish a wilayah [75]
in the heart of our enemy.”
That’s an Islamic’s enclave.
“Our aim was the khanzir” -- that’s pig -- “Pamela
Geller and to show her that we don’t care what land
she hides in or what sky shields her. We will sent all
our alliance to achieve her slaughter. This will heal
the hearts of our brothers and disperse the ones
behind her. To those who protect her, this will only be
your only warning of housing this woman and her
circus show. Everyone who houses her events, gives
her a platform to spill her filth, are legitimate targets.
We have been watching closely who was present at
that -- at this event and the shooter of our brothers.
We know that the target was protected. Our intention
was to show how easy we give our lives for the sake of
Allah.
“We have” -- now I can’t make out the number, but
it’s I think 71 trained solders in 15 different states
ready at our word to attack any target we desire. Out
of the 71, yes, trained soldiers 23 have signed up for
missions like Sunday. We are increasing in number,
bismillah -- I -- I think that says bismillah. But in any
case -- or I don’t -- that’s in the name Allah.
“Of the 15 states five we will name. Virginia,
Maryland, Illinois, California and Michigan. [76] The
disbelievers who shot our brothers think that you” -something I can’t make out -- “someone untrained.
Nay, they gave you their bodies in plain view because
we were watching. The next six months will be
interesting. To our emir hamoonami, make duaa.”
That’s the leader of the believers.

236
“Make duaa prayers for us and continue your
reign. May Allah ennoble your face. May Allah send
his peace and blessings upon our Prophet Muhammad
and all those who follow until the last day.
(Phonetically) al-haqqah iibraham al’amrikia.”
Q. That last part is the person’s name, correct?
A. Yes, it is.
Q. Can you identify who that person is?
A. Well, the name means son of Abraham the
American. But I do not know who that is. I -- I -- I’m
-- happy to say I have not met him.
Q. Who do you understand that person to be? Not
his other name he uses, but what position he holds in
the organization?
A. I don’t know his position in ISIS. But he is
clearly someone who -- he’s an American, and he is
interested in carrying out jihad attacks in the United
States and is claiming that he has the personnel [77]
to do so.
MS. GORDON: Objection, Your Honor. There is no
foundation. This is speculation.
THE COURT: The objection is overruled.
BY MR. CASTORIA:
Q. Mr. Spencer, the part that you have read refers
to an event occurring. Do you have any understanding
as to whether this is your event in Garland, Texas?
A. Yes, that is absolutely certain.
Q. Why do you say --

237
A. This was issued right after the event. And when
he says the khanzir Pamela Geller, and we were
watching closely who was present at this event. There
is no doubt whatsoever that he meant our event May
3rd in Garland, Texas.
Q. So now let’s get to what happened in Garland,
Texas. We’ve talked about the art exhibit. What
happened in terms of violence occurring?
A. The event had just concluded, and we were
beginning actually a television interview, and one of
our security men came in and told us that there had
been a shooting outside and that they had to get us to
a safe room, so they took Ms. Geller and I to a safe
room. They took the crowd to another -- a -- a hall
within the building and guarded them there until
they were able to [78] determine that there were no
further threats and that people could exit safely.
Q. Do you know if anyone was killed at the event
in Garland, Texas?
A. The shooters, the jihades were killed. Abraham
Simpson and Nadir Soofi from Phoenix.
Q. Did police or other authorities report to you
whether shots were fired by the jihades at the event?
A. No, I don’t believe that they were -- oh, they did,
yes, because they wounded a police officer in the ankle
I believe it was.
Q. So after the event in Garland, Texas, this
document that you’ve read that includes these Islamic
words was posted on the Internet, did you say?
A. Yes, it was.

238
Q. And before these events were you familiar with
Ms. Geller’s frequency of being a public speaker on
anti-jihad subjects?
A. Yes.
Q. Well, how would you characterize her? As a
frequent speaker or an infrequent?
A. Frequent.
Q. Would you say it would be fair to say she was in
great demand?
A. Yes.
[79] Q. How did that change after the events in
Garland, Texas and the issuance of the fatwa?
A. All her speaking engagements dried up. And, as
a matter of fact, I told you earlier that I spoke in Los
Angeles at a conference several weeks ago, and Ms.
Geller also spoke there and announced to the crowd
that this was her first speaking engagement since
Garland, because everyone was afraid now to host
her.
Q. There are e-mails attached to your declaration.
Would you leaf through them. I’m not going to ask you
to read them for the record, but leaf through them.
And my question will be whether you provided these.
A. Yes, I did.
Q. And do you recall that I asked you to provide
examples of some of the e-mail threats you had
received?
A. Yes.
Q. Did you produce these e-mails without the
redacting from your --

239
A. Yes, I did.
Q. I wasn’t quite finished.
-- from your own records?
A. Yes.
Q. Have you received threats upon your life?
A. Yes.
Q. And what was the most recent?
[80] A. The FBI call several days ago.
Q. If you are able to, please tell me what they
communicated to you.
A. They communicated to me that there was -- they
had received information about a man in New York
City who had mentioned me and Ms. Geller, both by
name, intending to kill us. And I asked is this man in
custody? And he said, I cannot tell you that. And I
asked, do you know where this man is now? And he
said, I cannot tell you that.
Ms. Geller subsequently spoke to the same special
agent in New York and related to me that they had
told her that she -- that he had told her that the man
was not in custody and so he could be anywhere.
Q. Did that cause you some concern in terms of
your travel for your speaking engagement yesterday?
A. Yes. I notified the organizers of the event last
night that there was no telling what could happen and
where this man was and that consequently if they
wanted to cancel, I would understand. But they
increased the police presence and went ahead with
the event.

240
Q. When you travel for speaking engagements do
you bring your own security with you?
A. Generally, yes.
Q. And is it also your practice to contact local law
[81] enforcement agencies?
A. I don’t do that directly. But usually my security
man does that when we arrive -- well, actually before
we arrive at a city he contacts them and meets with
them once we get there.
Q. Would you please turn to Exhibit 66 in the
exhibit binder.
A. Got it.
Q. Got it?
A. Yes, sir.
Q. This is a one-page e-mail taken from what you
provided. Let me ask you first, is this an e-mail you
received?
A. Yes, it is.
Q. And this subject of this, would you just read
that for the record, please.
THE COURT: No, I can read.
MR. CASTORIA: Okay. Sorry.
THE COURT: I have the right to read.
MR. CASTORIA: Understood.
Q. Did you consider this e-mail to be a threat to
your family members as well as yourself?
A. Yes, sir.

241
MR. CASTORIA: Your Honor, we would move
Exhibit 66 into evidence.
*****
[103] “ANSWER: Yes.”
“THE ATTORNEY: Same objections as before.
“ANSWER: Yeah. Yes, it is.”
MR. CASTORIA: Any objections now?
MS. GORDON: No.
MR. CASTORIA: Next please.
(The video is played.)
“QUESTION: Let’s look at your declaration. And I
think it’s paragraphs 12, 13, and then continues 14,
15. We’re just going to talk about the cartoon drawing
conference in Garland.
“So that was -- paragraph 12 -- May 3, 2015?
“ANSWER: Yes.
“QUESTION: It says it was partially sponsored by
AFDI. Who -- were there other sponsors?
“ANSWER: Jihad Watch sponsored.
Jihad Watch.
“QUESTION: Okay. And it says -- I’m probably not
counting right, but I think it’s the third sentence: The
event in. Garland was intended to support free [104]
speech, right?
“ANSWER: Yes.
“QUESTION: Through an art exhibit of depiction
of the Prophet throughout the centuries, including
ones by devout mainstream Muslin artists. And then

242
attendees were also invited to exercise their own First
Amendment rights by drawing picture of the Prophet.
“ANSWER: Uh-huh.
“QUESTION: So how -- so first of all, what -- what
was the -- how did the idea for this event come about.
Do you remember?
“ANSWER: Yes. In the wake of the Charlie Hebdo
slaughter. Now, three days after that bloodshed
Muslim leaders in Texas gathered at the Culwell
Center and organized a stand with the Prophet
conference in support of the Sharia, in support of the
ideology behind the killings in France, which shocked
me.
“I mean, if there was ever a time to make a
statement then for American Muslim leaders in
support of the [105] First Amendment, I would have
thought it would have been then. Instead they had an
event against Islamophobia, which really in
translation was against the freedom of speech. And so
we decided to hold an event in the same place in
support of freedom of speech.
“We had pieces of artwork, depictions of
Muhammad through history the past 1400 years
showing that they weren’t always killing people in
order to enforce this law.
“That now it is being used as a violent.
intimidation to submit to and impose the blasphemy
laws under the Sharia. So it was a stand for freedom
of speech.
“QUESTION: Okay. I see. So if I’m understanding
this, it’s the link that because there were depictions
of Muhammad throughout the ages and they didn’t

243
incite any reaction, you were showing that that’s
possible?
“ANSWER: Yes.
“QUESTION: Okay. And how about those drawing
pictures of Muhammad, what was [106] the idea
behind that?
“ANSWER: It was an art contest.
“QUESTION: Was it just meant to be fun?
Or was there -“ANSWER: It wasn’t meant to be fun. It was
meant to be serious. We’re afraid and we’re not -- we
won’t be cowed by these brutal and extreme laws that
we do not adhere to.”
MR. CASTORIA: Any objections?
MS. GORDON: No, none.
MR. CASTORIA: Next please.
(Video is played.)
“QUESTION: So just for the record, you keep
pointing. I believe -- so is this gentleman over here the
head of your security team?
“ANSWER: He is.
“QUESTION: He’s in the room with us.
“ANSWER: He is.
is.

“QUESTION: Okay. And may I ask what his name
“ANSWER: Floyd Resnick.
R-E-S-N-I-C-K.

244
“QUESTION: Okay. And just for the [107] record,
Mr. Resnick is in the room with us and that is who
Ms. Geller is pointing to when she references the head
of her security team. Okay. So as it turned out,
unfortunately, the threat was attempted to be carried
out that day; is that correct? You want to tell me what
happened?
“ANSWER: We held our event, and two jihades
traveled a thousand miles and attempted to kill
everybody.
“QUESTION: Attempted to kill everybody who
was at the event?
“ANSWER: They stormed the doors at 7 o’clock
when people were leaving, and they were stopped by
law enforcement and by a very able and brave human
being they were stopped. It had the best of outcomes,
unlike let’s say San Bernardino.
“QUESTION: Right.
“ANSWER: Or Chattanooga.
“QUESTION: Because no one was actually -“ANSWER: Right.
[108] “QUESTION: -- injured.
“ANSWER: And then we found out later they were
instructed by ISIS. They were in touch with ISIS, and,
you know, we smoked out the cell.
“QUESTION: Sorry. You had smoked out the cell?
“ANSWER: The event had smoked out the cell.
“QUESTION: So how did you find out that they
were instructed by.

245
ISIS?
“ANSWER: That came out in the trial.
“QUESTION: Okay. Do you know what the
outcome of trial was?
“ANSWER: I -- we’re waiting for sentencing, if I’m
not mistaken.
“QUESTION: And they were convicted.
But now they’re awaiting -“ANSWER: Right. Well, two were dead. The
mastermind who, by the way, had been training with
them for well over a year before we even announced
our event, they were shooting in the desert and so
forth, um, had -- had a plot to blow up [109] the Super
Bowl. The point is, had it not been our event, which
was very well protected, it would have been a soft -- it
would have been a soft target, and the results would
have been unimaginable.”
MR. CASTORIA: Any objections?
MS. GORDON: None.
MR. CASTORIA: Next please.
(The video is played.)
“QUESTION: And so the -- the Boston, what you
called the Boston beheading, is that what you said?
“ANSWER: It was a beheading plot.
“QUESTION: Okay. Why don’t we talk about that
briefly just -- I mean, we could read the declaration,
but why don’t you just tell me in your own words what
that plot entailed and what happened.

246
“ANSWER: A group of jihades had plotted to
behead me. Usaamah Abdullah Rahim had planed to
behead me with two others.
“Now, apparently when one of the Jihadists was
making his way to New York, [110] he changed his
mind and instead attacked a policeman and he was
killed.
“The other two jihadists are currently on trial. And
according to the latest testimony -- because it’s
ongoing as we speak -- they had been trying to
organize beheadings from jail.”
MR. CASTORIA: Next please.
There are about five more, Your Honor.
(The video is played.)
“QUESTION: Okay. Now, we are on page 6, and
we are on subparagraph E. Actually, I’d like to go
back, I’m sorry, to subparagraph D. So this is still on
the previous page, page 5.
You say as the result of the threats against me
because of my anti-jihadist advocacy.
So can you explain to me what that means?
“ANSWER: As a result of my work in defense of
the freedom of speech and my opposition to jihad, I
am no longer free to live freely.
“QUESTION: So am I reading this correctly, are
the threats that you [111] received because of your
work?
“ANSWER: Yes.

247
“QUESTION: Because of your work? Okay. Is
there any other reason why you received threats
besides your work?
“ANSWER: No.
“QUESTION: Okay. Now we can go on to the next
page, subparagraph E. We are on page 6. And I think
that we’ve -- we’ve talked about this.
“ANSWER: Uh-huh.
“QUESTION: You say you have not been able to
speak at public assemblies.
“ANSWER: No.
“QUESTION: And it says you’ve had four or five
appearances scheduled, all of which were canceled.
“ANSWER: Yes.
“QUESTION: And did the organizations who
canceled tell you why they.
were canceling?
“ANSWER: The one that was canceled in July in
Texas, they had met with the police, and what the
policemen [112] were -- were requiring of them in
terms of security they couldn’t afford. And the Boston
June 18th was also security concerns.”
MR. CASTORIA: Next please.
(The video is played.)
“QUESTION: So can you please read for the record
paragraph 8.
“ANSWER: I am submitting this declaration in
support of the Thomas More Law Center summary
judgement motion in this case. The Thomas More Law

248
Center provided my organization with legal counsel
in a case in Detroit arising from that city’s transit
authority’s refusal to allow print advertisements on
its buses that were critical of radical Islamic threats,
though they allowed advertisements by other
religious and not-for-profit organizations.
“QUESTION: Okay. And is that accurate?
“ANSWER: Yes, it was the case I was.
referring to before with Robert Muise.
“QUESTION: I see. And is that -- was [113] Robert
Muise working at Thomas More Law Center when
this case was brought?
“ANSWER: Yes. Yes, he was?
MR. CASTORIA: Okay. Next please.
(The video is played.)
“QUESTION: Have you ever received an email or
a threat even outside of the ones that you’ve compiled
that references the Thomas More Law Center?
“ANSWER: They’re directed at me, the threats.
“QUESTION: Have you ever received at all -- so
let’s talk about the universe of, you know, threats that
references IRS Form 990 Schedule B?
“ANSWER: I don’t know what that is.
No.
“QUESTION: Okay.
“ANSWER: But the ISIS fatwa specifically states
that anyone that works with me, supports me is
targeted for death. So is that indirectly Thomas More
Law Center? One could make the case, I guess.”

249
MS. GORDON: No objection.
(The video is played.)
[114] “QUESTION: So in paragraph 18 of your
declaration for page 6, and that references an Exhibit
G, you talk about ISIS’s Caliphate United recently
posted a list online of over three thousand names and
addresses of the most important citizens in New York
and other cities. And you said this posting demands
of its followers, we want them dead. Shut them down.
“ANSWER: Uh-huh.
“QUESTION: And we can look at Exhibit G, which
is on page 54 -- 54.
“ANSWER: Yeah.
“QUESTION: Am I correct that Exhibit G doesn’t
actually contain a list?
“ANSWER: No, it doesn’t. And law.
enforcement did not release that list.
“QUESTION: So you haven’t seen that list?
“ANSWER: I have not seen that list.
“QUESTION: So you don’t know who’s on it?
“ANSWER: No.
“QUESTION: Do you have any reason to [115]
think you’re on it?
it.”

“ANSWERS: I have many reasons to think I’m on
MR. CASTORIA: Okay. Next please.
(The video is played.)
“QUESTION: Let’s go to paragraph 19.

250
“ANSWER: Yeah.
“QUESTION: So could you please read paragraph
19 into the record.
“ANSWER: ‘I am aware that this lawsuit involves
a demand by the California Attorney General to take
action against the Thomas More Law Center unless it
delivers to the Attorney General the list of its donors
that it files in confidence with the IRS.
In my view, that is exactly the kind of list that the
jihadists would like to get their hands on directly or
through hacking of government electronic records.
The chilling effect upon donors to advocacy -advocacy groups by Thomas More Law Center would
be devastating, in my opinion, because formerly
anonymous donors would face the [116] threat of
reprisals, and potential donors would less likely to
take that risk.’
“QUESTION: Did you write this paragraph?
THE ATTORNEY: No, no.
THE ATTORNEY: I’m not asking who wrote it. I’m
simply asking if you wrote it.
THE ATTORNEY: Okay.
“ANSWER: I said it. I didn’t physically.
write it down.
“QUESTION: So this is an accurate reflection of
your -- of your -“ANSWER: Of my thoughts, yes.
“QUESTION: Okay. And what’s your basis for
saying that this is exactly the kind of list that
jihadists would like to get their hands on?

251
“ANSWER: Because it’s in black and white in the
ISIS fatwa that anyone that supports our work will be
targeted for death. Giving them a list of donors of who
supports the work would be an absolute declaration of
support for this kind of work. It would absolutely
make them targets.”
MR. CASTORIA: Your Honor, we’ll stop at [117]
this point.
MS. GORDON: And actually we object to that as
lacking in foundation, no personal knowledge, and
improper lay opinion.
THE COURT: The objection is overruled.
MR. CASTORIA: Thank you, Your Honor, for
allowing us to show the video clips.
With that, I have one exhibit I believe we
identified but did not yet move into evidence, which
was Exhibit 252. That was a Form 990 filed by
Thomas More Law Center for the year 2012, with a
Schedule B redacted.
THE COURT: 252 in evidence.
(Exhibit 262 in evidence.)
MR. CASTORIA: Okay. And with that, and subject
to closing argument at the end, plaintiff rests.
THE COURT: All right.
MS. GORDON: Actually, Your Honor, in response
we -THE COURT: I beg your pardon?
MS. GORDON: Right. In response to those video
clips, we have just three very short clips from her
deposition, since we can’t cross-examine her.

252
THE COURT: No, not in response. That’s your
case.
*****

253
Excerpts from Trial Transcript
Day 2, Vol. 2
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
–––
THE HONORABLE MANUEL L. REAL, U.S.
DISTRICT JUDGE
PRESIDING
THOMAS MORE LAW
CENTER,

)
)
)
Plaintiff,
)
)
vs.
) No. CV 15-3048-R
)
KAMALA HARRIS,
)
)
Defendant.
)
______________________________)
REPORTER’S TRANSCRIPT OF DAILY TRIAL
PROCEEDINGS
LOS ANGELES, CALIFORNIA
WEDNESDAY, SEPTEMBER 14, 2016
VOLUME II
PAGES 1 - 83
*****

254
[16] TANIA IBANEZ, DEFENSE WITNESS,
SWORN, TESTIFIED:
DIRECT EXAMINATION
BY MS. GORDON:
Q. Good afternoon, Ms. Ibanez.
Ms. Ibanez, could you tell us what you do for a
living, please.
[17] A. Yes. I’m an attorney with the state attorny
general’s office, charitable trust section.
Q. Do you have a title?
A. Yes, my title is senior assistant attorney general.
Q. And how long have you held that position?
A. Little over two years.
Q. How long have you been in the charitable trust
section?
A. I started in 2002 as a deputy attorney general.
Q. And in between being a deputy attorney general
and senior assistant attorney general, did you have
any other roles?
A. Yes. I was also a supervising deputy attorney
general.
Q. When did you become a supervising deputy
attorney general?
A. I was promoted in February of 2012.
Q. When did you become the senior assistant attorney
general?
A. I was promoted January of 2014.

255
Q. Could you give us, Ms. Ibanez, a very brief
overview of what the charitable trust section does,
please.
A. The charitable trust section is mandated by the
legislature to protect charitable assets, to investigate
charitable abuses. The charitable trust section also
responsible for the registry of charitable trusts in
which charities and trustees and commercial
fundraisers and other people that are involved in the
whole charity business are required to register and
report.
Q. Thank you.
*****
[22] Q. Do people use that open-door policy?
A. Yes, they do.
Q. How many people currently work for the charitable
trust section?
A. In the legal and audit unit there’s 23, plus me -that includes me, and then in the registry of
charitable trust section, about 40 employees.
Q. Okay.
Could you just give -- for the legal and audit unit,
could you give us a breakdown by function, please.
A. Yes.
I have 11 deputy attorney generals; two
supervising deputy attorney generals; seven auditors;
one supervising auditor; and two paralegals and me.
Q. Ms. Ibanez, how many charities are there in
California?

256
A. There’s probably over 300,000 charities or
charitable trustees.
Q. Do you have a breakdown of those charities -strike that.
Are all of those charities registered with the
Registry of Charitable Trusts?
A. The last number that we received was 122,000
charities or charitable trustees were registered with
us.
Q. I should have probably asked this first, but what is
briefly the registry of charitable trusts?
[23] A. The registry of charitable trusts, which is
under me, is basically is in charge of registering
charities, registering trustees, registering commercial
fundraisers and fundraising counsel. Anything that
has to do with the registry -- with charity -- of a
charity, whether it be local charity or foreign charity,
if they want to solicit donations, they have to register
first with the charity -- the registry of charitable trust,
and they also have to provide annual reporting.
Q. I think you started to get at this.
What does registration entail?
A. Okay.
I was going to -- I wasn’t done yet.
Q. I’m sorry. Please finish.
A. It not only collects the information from the
charities and the trustees and the fundraisers, but it
also makes that information available to the public at
large and with the legal and audit unit.
Q. Okay.

257
So briefly, can you explain the relationship
between the charitable trust section and the registry.
A. The registry collects the information and makes it
available to the public, and it also collects the
information and makes it available to the legal and
the audit unit.
So if we have an investigation or a complaint, the
first thing I would do, either as a supervisor or a DAG
or a
*****
[25] Q. What happens if a charity doesn’t fulfill all of
its registration requirements?
A. They will get several notifications by the registry,
they will be listed as delinquent at some point, and if
they fail to comply, they may be suspended. Perhaps
-Q. How -A. -- registration would be suspended.
Q. I see.
How many notifications would they receive?
A. For the suspension?
Q. Before suspension.
A. Usually -- typically it’s two delinquency notices and
then a suspension notice.
Q. How long does that process take?
A. It takes months.
Q. Who decides what charities the charity trust
section is going to investigate?

258
A. It’s a decision that’s made by the supervising
deputy attorney general and me.
Q. And what is the process for making that decision?
A. Well, we get the complaints, usually from the
registry, and then, as a supervising deputy attorney
general, they would review the complaint, they would
also search the registry’s
*****
[27] Ms. Ibanez, you testified that you would look
at the 990 when you get a complaint, including all
schedules.
Does that include Schedule B?
A. Yes.
Q. So based on your over 14 years in charitable trusts,
could you please explain how -- first of all, what
information is provided on Schedule B?
A. Schedule B contains a list of donors that made
donations of $5,000 or two percent grows revenue. It
lists the donor; it lists information on the donation
type, whether it be cash or gift in kind is donated
goods.
Q. And how do you use that information in your work?
MR. CASTORIA:
cumulative of the --

Objection,

Your

Honor,

THE COURT: Objection is overruled.
THE WITNESS: Okay.
As a deputy attorney general, I use the Schedule
B for -- to evaluate whether or not there was diversion
of charitable assets, fiscal abuse; to evaluate whether

259
the charity was being used as a bypass; to evaluate
whether or not the charity was engaging in
solicitation fraud; to evaluate whether or not there
was reporting violations and the charity [28] was
improperly listing gift in kind donations.
As a supervisor, I looked at Schedule Bs routinely
in order to evaluate of whether or not we were going
to conduct an investigation, and if we we’re going to
assign the matter for investigation, what areas were
we going to pursue; and that role has remained as a
senior assistant. I still look at Schedule Bs to evaluate
of how we’re going to do the investigation, what areas
should being explored; and sometimes a Schedule B is
also used for a supervisor, as a SAG, to evaluate
whether or not a complaint has merit.
*****
[29] Could you please give, Ms. Ibanez, some
specific examples of investigations where you have
used Schedule B.
MR. CASTORIA: Your Honor, I do object to this on
the basis that it is cumulative of the documents that
have been stipulated into evidence through the prior
testimony and the evidence -THE COURT: I don’t have that. The objection is
overruled.
THE WITNESS: When I was a deputy attorney
general, one of the cases that I was assigned that led
to litigation was the Cancer Fund Charity litigation
that we were involved in, and I used Schedule B in
that matter.
BY MS. GORDON:

260
Q. Can you tell me a little bit just about the cancer
case, what was involved in it.
A. We started the investigation in 2010; we filed the
lawsuit in 2015 against four charities.
[30] Q. Who is “we”?
A. “We” involved the State of California, plus all 50
states, plus the FT -- FTC, Federal Trade
Commission.
Q. Okay.
What was the case about?
A. The case was about a lot of different abuse of
practices, from nepotism, to self-dealing transactions,
to misuse and diversion of charitable assets, to not
even having, really, a charitable program. I think of
every dollar that came in, only two percent was used
to assist cancer patients and their families; but gift in
kind was also a very significant portion of the
lieutenant, and basically the charities were all run by
the same family, and they were abusing gift in kind
to artificially inflate their revenues and expenses.
Q. Ms. Ibanez, can you explain what gift in kind
means.
A. Gift in kind is basically -- is a noncash donation. So
it could be food; it can be pharmaceuticals; it can be
building equipment; it can be closing. That’s
considered a gift in kind donation. So it’s not cash.
Q. What was the gift in kind element of the Cancer
Fund case?
A. The problem with the Cancer Fund cases -- and
there were four charities: One was the Cancer Fund
of America; Breast Cancer Society; Children’s Cancer

261
Fund of America; and Cancer Support Services; and
all of these charities were basically reporting that
they had received millions and millions and [31]
millions of donations in gift in kind when they were
not allowed to report those gifts. It was a reporting
violation; they were filing false 990s.
Q. Why weren’t they allowed to report those gifts?
A. Well, as part of part of our investigation, when we
looked at Schedule Bs of the donating charities -because that’s happens here. You’ll have one charity
donating gift in kind to another charity. So you have
“A” charity donating gift in kind to “B” charity and
then “B” charity donating gift in kind -- the same gift
in kind to “C” charity, “D” charity and down the line.
And in order to do that, in order to accurately
report the gift in kind, the charity that receives it has
to have what is known as variance power, and they
also have to have the risk and reward power; and the
Cancer Fund charities didn’t have that. So they never
should have booked those donations as donations, and
because they falsely reported revenue, they look like
they were much more successful in their business
endeavors. They looked like they were bringing in
millions of dollars in donations, and then the minute
they would give those donations to another charity,
they looked on paper like they were giving millions of
dollars’ worth of services. So it’s a big scam.
*****
[36] bodies, and I don’t have enough room. I only have
23 people in the legal and audit division, and just this
year, we received 523 complaints.
Q. Okay.

262
Ms. Ibanez, have you ever issued a subpoena?
A. Yes.
Q. How many times?
A. I’m assuming you mean investigation subpoena,
not trial or -Q. I do. Yes. Thank you.
A. Three times.
Q. Why not just subpoena information when you need
it?
A. Because it is -- has to go through multiple layers of
review. It takes longer, and if the issue is addressing
fiscal abuse, you’re wasting time while you’re trying
to get authority to serve the subpoena, the charity
could be doing all kinds of things that they shouldn’t
be doing.
Q. Ms. Ibanez, is the form 990 a public or private
document?
A. It’s a public document.
Q. How about Schedule B?
A. Depends if you’re a private foundation or a public
charity.
Q. What if you’re a public charity?
A. If you’re a public charity, it’s a confidential
document.
Q. When you say “confidential,” what does mean?
*****
[39] A. This was approved on July 8 by the Office of
Administrative Law.

263
Q. Okay.
So we’ve been talking about confidentiality, but I
think you’re aware that there have been times when
Schedule Bs have not been kept confidential by the
registry, correct?
A. Yes.
Q. And when did you become aware of Schedule Bs
being incorrectly housed on the registry website?
MR. CASTORIA: Your Honor, I again object on the
basis of this is cumulative of the prior testimony that’s
already in the record now, and it’s essentially
relitigating the AFPF case.
MS. GORDON: Your Honor, I have very few
questions.
THE COURT: No. Few that are violations, the
answer is no. All right.
MS. GORDON: I’m sorry. So?
THE COURT: Sustained.
MS. GORDON: Sustained. Okay.
Q. Ms. Ibanez, since the time of the Americans for
Prosperity trial, has your office done anything to
address inadvertent disclosures?
A. Yes.
Q. What have you done?
A. We’ve beefed up the review process by the registry
staff.
[40] Q. How have you done that?

264
A. They are conducting inspections of soft-filed
documents to make sure that the proper face sheets
are put on Schedule Bs to ensure that they are kept
as confidential and scanned as confidential, and so
that’s basically a manual process, and then they’re
also doing daily searches through the computer to
ensure that no Schedule Bs are improperly uploaded.
Q. What do those searches entail?
MR. CASTORIA: Your Honor, I will object to the
remedial measures in that none of them have been
disclosed to us in discovery prior to trial.
THE COURT: The objection is sustained.
BY MS. GORDON:
Q. Just one last question, Ms. Ibanez: Are you aware
of any inadvertent disclosures to the registry website
occurring in 2016?
A. No.
MS. GORDON: Thank you.
I have nothing further.
THE COURT: Cross-examination.
CROSS-EXAMINATION
BY MR. CASTORIA:
Q. Ms. Ibanez, you’re -- I should say the attorney
general’s investigation of the Cancer Fund of
America’s cases was the subject that came up during
the prior case, American’s for
*****

265
[44] assistant, we have to go into the registry. Its
computer -- my license, in order to actually read the
complaint.
Q. You mentioned a couple of sources that could be
bringing complaints to the registry attention.
Did I hear you correctly they could be exemployees or directors and officers?
A. Yes.
Q. You recall any of the Cancer Fund of America cases
where the source of the original complaint was found
in a Schedule B of any organization?
A. I believe that most of the complaints that we had
for the cancer funds came from their solicitation
practices.
Q. And those don’t appear on Schedule B, do they?
A. No. That would not be a schedule B-related issue.
Q. Okay.
Do you recall testifying -- and it might have been
Ms. Berndt. Strike that.
Do you recall whether the use of Schedule B in the
Cancer Fund of America cases commenced five years
after the investigation started?
A. I remember looking at Schedule B when I was the
DAG assigned to Cancer Fund, and I remember
looking at gift in kind schemes where we figured out
who was donating what to where.
Q. Ms. Ibanez, you may recall during your deposition
I asked questions about any incidents you had in
which you would have [45] been -- your status as a

266
donor to a charity had been made public against your
will.
Do you recall that?
A. Yes.
MS. GORDON: Objection, exceeds the scope of
direct, irrelevant.
THE COURT: The objection is overruled.
BY MR. CASTORIA:
Q. And what did you, without divulging the donation
you made or whom it was to, what happened to you in
that instance?
A. Well, one of the things that we investigate is
coercive solicitation practices, and that is basically
when someone, such as me, donates to a charity and
oftentimes their name, their donation amount, the
frequency in which they donate and who they donate
to, is sold by the charity to other charities; and before
you know it, you’re inundated with solicitation
materials. So our office investigates these practices,
but I’ve also been the victim of these practices. My
name, my donation amount, was sold by a few
charities, and to this day I get solicitation materials
in the mail.
Q. And you’re upset by that, aren’t you?
A. I don’t like it.
Q. Couple of questions. To your knowledge is there
any current investigation by the attorney general,
including its different sections, against Thomas More
Law Center?
[46] A. There is not.

267
Q. Has anyone to your knowledge made a complaint
-- as you’ve used that term -- of any type against the
Thomas More Law Center?
A. No complaints have been received by the Registry
of Charitable Trust.
Q. Apart from the fact that the law center has not filed
its Schedule Bs together with its form 990s, to the
registry, to your knowledge, does the attorney
general’s office have any issues with the Thomas
More Law Center about its compliance with
California law?
A. No, I don’t have any evidence that the Thomas
More Law Center is violating any California statutes
other than the Schedule B reporting requirement.
Q. When you do look at a form 990 in your decisionmaking process about a complaint that has come in,
do you look only at Schedule B or at the entire form?
A. I look at the 990 and all of the schedules.
Q. That would include Schedule L about interestedparty transactions, correct?
A. If they filed one, yes, I would look at it.
Q. And the financial statements that are enclosed as
well, correct?
A. Yes. I would look at all of the schedules,
everything.
Q. Is it also your practice to look at the annual filing
that [47] the charity makes its annual report, which
is accompanied by an audit?
A. You mean the audited financial statements?
Q. Yes, ma’am.

268
A. Yes. If they’re required to file audited financial
statements, I would look at them.
Q. Has review of the audited financial statements
ever provided to you information about potential
misuse of money or gift in kind or any of the other
financial irregularities that you’ve been discussing?
A. Yes. Sometimes there’s interesting notes in the
audited financial statements. Not all charities are
required to file audit and financial statements, only
charities that receive over $2 million in revenue every
year. So it’s not a resource that I can use with most
charities.
Q. Do you recall whether in your review of the Thomas
More Law Center’s 990 and attached filings in this
case, whether the relationship with the law center to
Tom Monaghan was disclosed?
A. It’s all a blur. I know that I reviewed the 990s for
two years; I reviewed the audited financial
statements and the deposition, and I don’t know if the
-- I don’t know if Tom Monaghan was reported in the
audited financial statements or if that was something
I obtained through reviewing the depo.
Q. Ms. Ibanez, is there a document in front of you?
A. No.
*****
[49] THE COURT: The objection is sustained on
that question.
MR. CASTORIA: Nothing further, Your Honor.
THE COURT: Redirect?

269
MS. GORDON: I have noting further, Your Honor.
Thank you Ms. Ibanez.
THE COURT: Ms. Ibanez, was there a complaint
which was being investigated when the attorney
general demanded the Schedule B from the Thomas
More Law Center?
THE WITNESS: No, Your Honor.
THE COURT: Any complaint against the Thomas
More Law Center?
THE WITNESS: No. The Schedule B requirement
-THE COURT: What was the reason for the
demands of the Schedule B in the matter of Thomas
More Law Center?
THE WITNESS: We demand Schedule B of all
charities, not just Thomas More Law Center, Your
Honor.
THE COURT: You told me that you looked at
Schedule B for complaints from the registry. Was
there a complaint in the registry against Thomas
More Law Center that required the Thomas More
Law Center to provide a Schedule B?
THE WITNESS: The Schedule B has to be filed by
all charities, and it doesn’t -THE COURT: No -[50] THE WITNESS: -- it’s not complaint driven,
Your Honor.
THE COURT: Would you read the question to the
witness.
(Question read.)

270
THE WITNESS: No.
THE COURT: That’s what this lawsuit is all
about. You may step down.
THE WITNESS: Thank you.
*****
[63]JOSEPH ZIMRING; DEFENSE WITNESS,
SWORN, TESTIFIED:
DIRECT EXAMINATION
BY MS. NGUYEN:
Q. Good afternoon, Mr. Zimring.
A. Good afternoon.
Q. Are you currently employed?
A. I am.
Q. What do you do for work?
A. I am currently employed as a deputy attorney
general in the charity and trust section of the
California Attorney General’s office.
Q. How long have you worked as a deputy attorney
general for the charitable trust section?
A. Approximately nine years.
Q. Briefly, can you please tell us your job duties.
A. My primary duties are conducting investigations
related to misuse, misappropriation, and diversion of
charitable assets and protection of prospective donors
from false and misleading [64] charitable solicitations
and improper activities by charities soliciting
charitable donations.

271
Q. How much of your time approximately is spent on
investigations?
A. It can vary, but the bulk of my time is spent on
investigations. I would estimate typically about 75
percent.
Q. And when you conduct your investigations, are
there documents that you typically review?
A. Yes. Typically we will review the IRS form 990, its
attached schedules, including Schedule B filed by the
organization; the annual registration renewal
reports; any other documents or filings filed with the
attorney general’s office; and any supplemental
information that may have been provided with a
complaint.
*****
[67] Q. Moving on, Mr. Zimring.
Can you please give us another specific example -I beg your pardon.
Are there other specific examples that you can
share with the worth in which you have used
Schedule B in an investigation you have personally
conducted?
A. Yes. I was involved in an investigation of an animal
rescue organization, an animal sanctuary, that
operated in connection with a for-profit entity
performing similar functions that was owned by the
person who was running the charity.
The allegations were that the charity was
misusing assets to subsidize the related for-profit
entity.

272
Q. How did Schedule B assist you with your
investigation?
[68] A. In conducting the investigation, we saw
payments from the charity to the for-profit entity. The
charity claimed that the for-profit entity was
subsidizing the charity, and if that was the case, we
would have expected to see the nature and amounts
of the subsidies being reported by the for-profit
foundation listed on the charity’s Schedule B reports.
There was nothing from the for-profit business
that was disclosed in the Schedule B. So that was
inconsistent with the charity’s claims that it was
being subsidized by the for-profit entity and was more
consistent with the information we were seeing that
the charitable assets were being misused for the
benefit of the related for-profit entity.
Q. Are there other specific examples you could tell us
where you used Schedule B for your investigations?
A. Yes. I have an investigation pending of another
animal rescue, animal sanctuary organization,
related to allegations that the people running the
charity were misusing charitable assets, including
using charitable assets for their own personal
purposes, like first-class trips to Hawaii and travel to
Las Vegas and a number of other things.
In response to our investigation, the founders -the people operating the charity were claiming that
any use of the charitable assets were really
repayment for funds that had been loaned or
advanced to the charity by them, that they were owed.
We were not able to find any information that
corroborated the [69] amounts that they were saying
they were entitled to. We did see in the Schedule B

273
that members of the family of the people who were
running the charity were making donations to the
charity, and so that clearly would not have been
money that they were entitled to repayment on.
*****
[73] MR. CASTORIA: Objection, overbroad.
THE COURT: Sustained.
BY MS. NGUYEN:
Q. Do you have an understanding how Schedule B is
specifically useful to you in conducting your
investigation?
MR. CASTORIA: Same objection, Your Honor.
THE COURT: The objection is sustained.
MS. NGUYEN: Yes, Your Honor.
Q. Going back to specific uses of Schedule B, is there
an example without -- keeping in mine the court’s
admonition that we discuss examples already
disclosed to the plaintiff -THE COURT: Ask him how many times he’s used
it in the last year.
MS. NGUYEN: Yes, Your Honor.
THE COURT: Schedule B.
BY MS. NGUYEN:
Q. How many times have you used Schedule B in the
last year?
A. I don’t know that I could quantify it in the last year.
My time has been primary spent litigating a matter
in which there were no 990 issues. I know I have some

274
open investigations in which the Schedule B has been
useful, but I can’t quantify how many times I’ve
looked at it in the past year specifically.
Q. You just testified that you’ve -- that you have
found Schedule B useful.
*****
[77] but I don’t have a specific recollection sitting
here.
Q. Thank you.
In your review of -- let me ask a foundational
question.
You sometimes review documents that are filed
with the registry by a charity in the course of your
work, correct?
A. Typically that will be one of the first things we do
in evaluating a case to determine whether we’re going
to conduct an investigation.
Q. Do you also review other forms that a charity files
with the attorney general’s office, such as its annual
registration and audit report?
A. Yes.
Q. Do you review those documents at the same time
as the form 990 or separately?
A. Well, the audit reports typically are not filed with
our office; so that’s something we would have to
affirmatively seek out in most cases.
The registration renewal forms are something that
we would routinely review.
Q. Where would you go to get the audits reports?

275
A. The charities are required to maintain them. Some
maintain them on-site; some will direct us to their
accountants or attorneys.
Q. Do some charities file their annual audit reports
together [78] with their annual registration renewals?
A. It’s possible.
Q. Do you know whether the Thomas More Law
Center has done so?
A. That, I don’t know.
Q. So as you sit here today, do you know any fact that
is missing from what the attorney general needs to
conduct an investigation of the Thomas More Law
Center if it looked at both its redacted form 990
without the donor list and also looked at its annual
registration and audit report?
A. Well, it would completely depend on the nature of
the investigation, and the type of information can
vary from investigation to investigation. The
information in the form 990, including the Schedule
B, is very useful to us in many investigations. There
are investigations where it’s not sufficient or
additional information is needed.
Q. As you sit here today, do you know whether
reviewing the information available about Thomas
More Law Center in the registry would be sufficient
to determine that Tom Monaghan was the founder
and initially the funder of the Thomas More Law
Center?
MS. NGUYEN: Objection, exceeds the scope of
direct.
THE COURT: Objection is overruled.

276
THE WITNESS: I don’t know the answer to that.
MR. CASTORIA: Okay.
[79] Q. You mentioned a couple of specific cases, and
I understand you’re not -- for matters in investigation,
we’re not using proper names.
There was one that counsel helped identify as No.
4 in a series of interrogatory responses. That was the
one about use of restricted funds and loans listed as
contributions.
Do you have that one in mind?
A. I believe so.
Q. And you were at the deputy attorney general on
that case?
A. That’s an open matter; so I’m still the assigned
attorney.
Q. And who is the auditor assigned?
A. Currently I believe it's Martha Gallardo.
Q. How did that investigation -- strike that.
Was that investigation initiated by receipt of a
complaint?
A. Yes.
Q. Who was the complainter? Not by name but by
description.
A. An insider with the organization.
Q. Is it fair to say that there was nothing about the
Schedule B filing of that organization that gave rise
to the investigation?

277
A. The Schedule B, along with the 990, would have
been part of the information we used to evaluate the
complaint to make the determine to go forward with
an investigation.
Q. Understood.
[80] But the complaint came first; is that right, the
insider’s complaint?
A. Yes.
Q. Did the complainant give the identity of the donor
who was involved? I’m not asking for the name, just
did they identify the donor?
A. I believe that the complainant did not have the full
information of the donor. There was an individual
affiliated with the donor, but the donor was identified
as a foundation based in the Virgin Islands.
Q. What did the trust section do to determine the
identity of the donor?
A. Well, the Schedule B, in part, helped us determine
the identity of the significant donor.
Q. Okay.
In part, you said? Did the trust section also ask the
complainant who the identity was?
A. Yes.
Q. Did the attorney general’s office already have the
unredacted Schedule B of the charity at the time it
started the investigation?
A. I believe we had unredacted Schedule Bs for a
number of years; I don’t know if we had them for every
year. I think ...

278
Q. Had you finished your answer?
A. My recollection is we had the unredacted Schedule
B for a [81] number of years.
Q. Okay.
And in the rest of the form 990 filings, there’s also
a Schedule L; is that right?
A. There may be. I don’t know. I don’t recall if the
organization had a Schedule L with every filing.
Q. Okay.
But that’s a standard part of a form 990 filing, isn’t
it?
A. To be honest with you, as I sit here, I don’t recall
which Schedule L is.
Q. If I say loans to and from interested persons, would
that ring a bell?
A. Yes.
Q. And for financial improprieties of the type you’re
suggesting, isn’t it possible Schedule L would reveal
the information you were looking for?
A. It’s possible Schedule L will provide information
related to the loans. There were issues whether or not
the organization was providing accurate information,
and so there were inconsistencies with Schedule L
and other information we had; and that’s one of the
reasons Schedule B was relevant.
Q. There was one other investigation you mentioned.
It was -- turned out it was No. 5 on that list.

279
The for-profit business that was not on the
charity’s [82] Schedule B and the relationship with
the for-profit business.
Do you remember that one?
A. Yes.
Q. Okay.
You were the deputy attorney general on that?
A. I still am.
Q. Still am.
That’s still pending obviously?
A. That is still pending.
Q. Okay. Who initialed -- who initially made the
complaint that started that file?
A. My recollection is it was an independent contractor
who had been hired by the organization and became
aware of some of the information.
Q. Once again, was a Schedule B the source of
information that the attorney general or the registry
used in even knowing there was there something to
investigate, or was it the complaint?
A. My recollection is the complaint would have started
us looking at the organization, and then the IRS form
990, including the Schedule B, would have been
information we used to evaluate the complaint and
make a determination as to whether or not to pursue
an investigation.
Q. Have you of personally successfully audited a
charity without having its Schedule B?

280
[83] A. There are organizations who properly are not
required to file Schedule Bs depending on the nature
of the activities and the nature of the donations, and
so my expectation is it’s very likely that I would have
successfully completed an audit or an investigation of
an organization without having a Schedule B,
assuming the organization was not required to file
one.
Q. Thank you, Mr. Zimring.
I have no further questions for you.
THE COURT: Redirect?
MS. NGUYEN: No redirect, Your Honor. Thank
you.
THE COURT: All right. You may step down.
THE WITNESS: Thank you, Your Honor.
THE COURT: Call your next witness.
MR. CALIA: Your Honor, things have proceeded a
little more quickly this afternoon than we expected.
We’re trying to reach our next witness, but I’m not
sure how quickly he can be in court. He could be
available first thing tomorrow morning, and we will
not take too much time with him.
Is that acceptable to the court?
THE COURT: Ten o’clock tomorrow morning.
(Proceedings concluded at 3:33 p.m.)
*****

281
Excerpts from Trial Transcript,
Day 3
UNITED STATES OF AMERICA
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
–––
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
THOMAS MORE LAW
CENTER,

)
)
)
PLAINTIFF,
) CERTIFIED COPY
)
VS.
) CV 14-09448 R
)
KAMALA HARRIS,
)
)
DEFENDANT.
)
---------------------------------------------)
TRIAL DAY THREE, MORNING SESSION
REPORTER’S TRANSCRIPT OF PROCEEDINGS
THURSDAY, SEPTEMBER 15, 2016
A.M. SESSION
LOS ANGELES, CALIFORNIA
*****

282
[5] THE WITNESS: David Edward Eller, E-l-l-e-r.
THE COURT: All right.
DIRECT EXAMINATION
BY MR. CALIA:
Q. Good morning, Mr. Eller. Are you presently
employed?
A. Yes, I am.
Q. And what is your position?
A. I am the registrar for the charitable trust
registry, State of California.
Q. When did you start in that position?
A. August 17th last year, 2015.
Q. And what do you do as the registrar?
A. I manage the department that receives and
takes forms and fees for register ed charities that
actively fundraise in the State of California.
Q. What is the purpose of the registry?
A. The purpose is to collect the forms and fees for
[6] the organizations, the charitable organizations
that are actively fundraising in the State of
California.
Q. How many staff does the registry have to
complete that function?
A. Approximately 41.
Q. How is that staff organized?
A. They are allocated by the processes of the
registry; starting with registration, renewal,

283
delinquency, raffle, commercial fundraising and
complaints.
Q. What does the registration group do?
A. They intake the initial registration materials,
which would include the registration form, and then
the supplemental documents, such as founding
documents, financials, and other materials associated
with the organization.
Q. And what does the renewal group do?
A. They process documents as well. The principal
document is the renewal form. And then all of the
other associated documents, which again could be
financials and other materials.
Q. Are there any other documents that are
included with the renewal forms?
A. Yes. Federal tax forms 990s, and other
associated schedules, all the schedules associated
with
*****
[9] A. We have unit meetings. As I mentioned, the
processes are broken down into programs so each
program [10] has their own meetings which are
approximately every two weeks. We go over things
that are relevant to that program, so any changes to
procedures. We review results. And just make sure
that everyone is on the same page as far as the work
in progress, the status of our volumes and anything
trend-wise that we need to be aware of and improve
upon.
Q. When you say you review results, what does
that mean?

284
A. We monitor outcomes as far as quality
outcomes go. So we are looking at the timeliness of
our work. We are looking at the quality of the output
of our work as well. And so we’re talking about and
reviewing the status of our work as far as the volume
and then also the quality result as well.
Q. How many charities are registered with the
Registry of Charitable Trusts?
A. An approximation of about 118,000.
Q. Are there other charities who are not registered
that the registry has any involvement with?
A. There are exempt charities that are not
required to be registered. And then there are also
charities that should be registered that are not
actively registered.
Q. How many documents does the registry have in
its [11] database?
A. Approximately 2 million.
Q. And how many of those documents are
confidential?
A. Approximately about 370,000.
Q. Do you play any role in the investigation of
charities?
A. No, we do not.
Q. Did there come a time when you learned that
Schedule B forms that are supposed to be non-public
had been available on the public website?
A. Yes.
Q. And when did that happen?

285
A. Approximately November of last year.
Q. Did you do anything in response?
A. Yes. Once provided -MR. CASTORIA: Objection. Pardon me.
Objection, Your Honor, to the extent the witness is
testifying regarding events taking place after his
testimony in the Americans for Prosperity case, we
have not been provided with any documents
evidencing these procedures.
THE COURT: Counsel?
MR. CALIA: We don’t intend to rely on any
documents. I have just a few questions.
THE COURT: We don’t go into it then.
*****
[22] Q. As you sit here today, sir, are you aware of
any requirement that the registry notify
organizations or their donors after a confidential
Schedule B has been uploaded to the public-facing
website or otherwise disclosed by the registry?
A. I’m aware of our responsibility to notify -- make
certain notifications based on the definitions of the
data breach.
Q. Okay. And is there a document that requires
you to do so?
A. I believe so, yes.
Are you talking about our procedures or are you
talking about -Q. I’m talking about a document.

286
A. We do have procedures on data breaches, yes.
Q. And is one of those procedures that the registry
will notify organizations or donors after a confidential
Schedule B has been uploaded or disclosed?
A. It is not specific to Schedule B. It is specific to
the definition of a data breach.
Q. Are you aware of any document that requires
the imposition of fines or penalties, civil or criminal,
against any registry employee who discloses a
confidential Schedule B to anyone outside the office of
the Attorney General?
[23] A. No, I am not.
Q. Are you aware of any written requirement that
sets forth how a data breach of the registry’s database
is to be remediated?
A. I want to make sure I understand your
question. Can you repeat that, please. I just want to
make sure I understand it properly.
MR. CASTORIA: Understood.
I’d like to ask for the court reporter to read it back,
please, your Honor.
THE COURT: Yes.
(The question was read by the court reporter as
requested.)
THE WITNESS: No.
BY MR. CASTORIA:
Q. And likewise, are you aware of any written
document that requires that if someone in the registry
learns that a confidential Schedule B has been

287
uploaded or disclosed, that that person make a
written report to anyone that the breach has
occurred?
A. No.
Q. You mentioned that you review -- correct me if
I’m wrong. You review the complaints that come into
the registry; is that right?
A. The registry intakes complaints.
*****
[25] A. No. There’s people tasked and assigned to
the responsibility.
Q. Pardon me. Has anyone tasked or assigned to
that responsibility ever communicated to you that a
complaint has been made against the Thomas More
Law Center?
A. Not since I have been -- I have no knowledge of
any complaint against the Thomas More Law Center.
Q. Have you asked anyone at any time who
handles complaints in the manner you’ve described
whether they have become aware of any complaints
against the Thomas More Law Center?
A. No, I have not.
Q. You mentioned that some financials are filed
with the registry by charities, public charities. Could
you describe what those are, please.
A. Sure. It could be taxed 990’s, 990 forms.
Depending on what the nature of the submission is. It
could be through the initial registration or through
the dissolution. So, for instance, with the dissolution
we’re looking at the status of funds that remain

288
within the organization. So these are active
reflections of what funds are within the organization,
based on the action requested.
Q. Are you aware of any document that requires
the registry to undergo a cyber audit at any interval
of [26] time?
A. No, I am not.
Q. Has the registry undergone a cyber audit at any
time this year?
A. Well, first of all, I’m not sure what the definition
of cyber audit is. But I’m not -- I’m not familiar with
the term.
Q. You’re not.
Let me ask it this way: Has the registry retained
any outside expert or organization to conduct an
evaluation of the efficacy of the registry’s cyber
defenses?
A. Not to my knowledge.
Q. Is it a good idea to do that?
A. I don’t have a qualified response for that.
Q. Do you think that over 1700 confidential
Schedule B’s having been unloaded to the publicfacing website might be a prompt to have that cyber
audit conducted?
MR. CALIA: Objection; argumentative.
THE COURT: The objection is over overruled.
THE WITNESS: I think that having good
sound practices is very important. And certainly

289
we’ve looked to implement stronger controls to ensure
proper results.
BY MR. CASTORIA:
Q. And those have not included what I described
as a
*****
[30] A. Yes.
Q. And when that has occurred what is your role
in response?
A. We have a process defined which requires us to
report them for them to be logged, we have a strict
response time line that we have to adhere to.
They are then provided to my manager, again
Tanya Banyez, who will then assign them out to an
attorney for response. They coordinate the response.
Q. Thank you.
Have you been advised of a California Public
Records Act request for documents regarding the data
breaches that were the subject of the Americans for
Prosperity Act case?
A. Once these records -- or once these requests are
logged and assigned, our responsibility is to assist
with any delivery and coordination of information.
Q. Gotcha. My question though is: Are you
personally aware of a Public Records Act request that
sought the registry’s documents about the data
breaches that were the subject of the Americans for
Prosperity case?
A. No, I’m not.

290
Q. As you sit here today, sir, can you guarantee
that no confidential Schedule B will ever again be [31]
uploaded or otherwise disclosed by the registry?
A. No, I cannot.
MR. CASTORIA: No other questions, Your
Honor. Thank you.
THE COURT: Redirect?
REDIRECT EXAMINATION
BY MR. CALIA:
Q. You testified a few moments ago, Mr. Eller, that
three individuals received a notification letter. Do you
recall that?
A. Yes, I do.
Q. Why did those three individuals receive
notification and no others?
A. They met the criteria that's established with
our procedure that defines a data breach.
Q. And what were the criteria that they met?
A. Normally it’s a combination of a name in
conjunction with personal information, which could
be medical information, Social Security number,
driver’s license, bank or credit card information. So
something that has a high degree of intrusive threat
to an individual’s identity.
Q. Do you know what the source of that list of
criteria is?
A. I’m sorry. Can you repeat that?
*****

291
Excerpts from Trial Transcript,
Day 4
UNITED STATES OF AMERICA
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
–––
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
THOMAS MORE LAW
CENTER,

)
)
)
PLAINTIFF,
) CERTIFIED COPY
)
VS.
) CV 14-09448 R
)
KAMALA HARRIS,
)
)
DEFENDANT.
)
---------------------------------------------)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
MONDAY, OCTOBER 31, 2016
A.M. SESSION
LOS ANGELES, CALIFORNIA
*****

292
[19] The Court has samples of similar abuse and
threats from others, including the multiple death
threats received and collected by Robert Spencer,
Exhibits 65, 66 and 170, another law center client, for
his advocacy against radical jihad and the imposition
of sharia law in the United States.
The Court heard directly from Mr. Spencer during
the trial by remote video.
Mr. Spencer received these negative and
harassing communications for his views on an almost
daily basis, and has received death threats, including
one he learned about from the FBI only a few days
before he testified in this trial.
The fatwa of death, Exhibit B to Exhibit 65 in the
record, which Mr. Spencer translated and read into
the record for our convenience, includes this chilling
passage, quote:
To those who protect her -- referring to Pamela
Geller -- this will be your only warning of housing this
woman and her circus show. Everyone who houses her
events gives her a platform to spill her filth are
legitimate targets. We have 71 trained solders in 15
different states ready at our word to attack any target
we desire. Close quote.
Ms. Geller, another law center client [20] against
whom ISIS issued the fatwa of death, has twice been
targeted with assassination attempts by U.S.-based
ISIS operatives. As a result, conferences have
cancelled Ms. Geller’s speaking engagements or
stopped asking her to speak, for fear of what would
happen if she appeared. Ms. Geller requires her own
private security team for her safety, even at her
deposition in this case.

293
Examples of the hate emails that Ms. Geller has
received are in evidence as Exhibit D to Exhibit 76
and as Exhibits 145 to 164.
Ms. Geller testified regarding the law center’s
Schedule B donor list that it is, and I quote, exactly
the kind of list that the jihadist would like to get their
hands on directly or through the hacking of
government electronic records.
The chilling effect upon donors to advocacy groups
like Thomas More Law Center would be devastating,
in my opinion, because formerly anonymous donors
would face the threat of reprisals, and potential
donors would be less likely to take that risk. End of
quote.
When asked by the Attorney General’s counsel to
state the basis for her opinion, Ms. Geller testified,
quote, because it’s in black and white in the ISIS
fatwa anyone who supports our work will be targeted
*****
[27] The designated record abundantly shows the
failures of the registry to protect confidential
Schedule Bs. I will not burden the record here with all
of the evidence Dr. James McClave provided in that
case, and through testimony in deposition in this case,
of more than 1,700 confidential Schedule Bs
mistakenly uploaded through the registry’s publicly
accessible site.
At trial in this case, Mr. Eller admitted that he
learned about that volume of confidential Schedule Bs
being exposed through this lawsuit and Americans
For Prosperity’s lawsuit, although in fairness that
was not during his watch.

294
I would like to briefly address the Fourth
Amendment, Your Honor.
There is no justification for the Attorney General’s
demand that the law center hand its property over to
her. Property it could sell to others but does not.
Property that she wants but for which she has no need
or use.
Her demand for our property, even upon threat of
terminating our license, is unwarranted in both
meanings of the word attempt to seize the law center’s
property.
We established through Ms. Ibanez’s
*****
[43] As Mr. Castoria mentioned, there was also
[44] testimony of the investigations where Mr.
Bauman used Schedule B, and there is testimony
submitted in the record about the investigations
where his team of auditors used Schedule B as well.
Now, these examples are not an exhaustive list,
and that’s because, as Mr. Castoria said, there is no
mechanism for tracking exactly which information is
used in evaluating each complaint that comes in.
The testimony is that when a complaint comes in,
the first thing the lawyers do is look at the entire file,
the Form 990 and all the schedules to determine
whether the investigation should go forward, and
then depending on the issues to determine what issue
should be investigated and how the investigation
should proceed.
Now, there’s been a suggestion that there are
other ways to get this information. That the Attorney

295
General could issue subpoenas or audit letters. And
that is true. There are other ways to get the
information. But those ways are not as efficient as
having the information in advance. And there’s been
testimony from Mr. Zimring and others about the cost
of getting the information that way. That it can result
in delay. That it can cause costs to be incurred on
charities who are innocent and not engaging in any
*****
[46] these issues. So that testimony cannot be a good
test for determining whether any additional
documents are getting through the improved systems
later on.
Now, Mr. Castoria said that Mr. Eller testified
that he can’t guarantee perfection. And we concede
that. We admit that there’s a possibility for human
error to occur. But we submit that the standard is not
to obtain perfection, but whether there is a reasonable
probability that the law center’s Schedule B would be
publicly disclosed and that harm would flow from
that. From the evidence one cannot draw that
conclusion. The evidence, although the number is
higher than we would like, is a very small percentage
of the total confidential documents stored by the
registry, which number in the hundreds of thousands.
So it’s less than one-tenth of one percent.
And there’s testimony from Mr. Eller that he
analyzed the pattern of when those documents were
uploaded. That the bulk of them happened in 2012
when documents were first being loaded to a
computerized system and that rates have gone down
since that time.

296
There’s also no evidence that anyone has suffered
any harm as a result of those disclosures. And there
is evidence that as soon as the registry learned of
those disclosures, they were taken down immediately
*****

297

Schedule B
Schedule B of the 990 contains a list of our major
donors (those who donated $5,000 or more). This list
is not open to public inspection, and must be
removed from any copy distributed.
We maintain strict donor confidentiality, and do not
share our donor information. The schedule is filed
with the IRS, but with no one else. We are involved in
a lawsuit in California regarding Schedule B
disclosure, so it is even more imperative that our
Schedule B remain confidential.
When you receive a copy of the IRS 990 from Len, it
will include Schedule B. If it is emailed to you, save it
to the tax folder on your drive, and include NOT FOR
PUBLIC INSPECTION or CONFIDENTIAL
before the file name. Do not print a copy that includes
Schedule B, except for the one you give to Mr.
Thompson to sign. You will be mailing copies of the
990 to states for solicitation licenses, so it’s best not to
have a copy laying around that you could accidently
mail.
If you receive a hard copy from Len place it in a file
folder marked Confidential and Not for Public
Inspection, as well as the tax year, and close with a
binder clip.

298
Only you and Mr. Thompson, and Jamie with Mr.
Thompson’s permission, should be able to view
Schedule B. Do not include it in the version given to
Fran for review. Redact it from the version emailed to
board members, but make them aware that it has
been removed to maintain donor confidentiality. If
board members wish to view schedule B, they are able
to come to our offices to do so.
It cannot be stressed enough that no copy of Schedule
B is to be distributed to the public.

299

Thomas More Law Center Confidentiality
Agreement
I, ________________________, hereby agree, as a
condition of my employment and access to Thomas
More Law Center (“TMLC”) offices, files, information
technology systems, equipment, TMLC client and
donor databases, and software, to observe the
following rules concerning the confidentiality of
TMLC information:
1. I understand and agree that I shall keep
confidential and not divulge to any third party
unless authorized by the TMLC President, the
following information:
TMLC
documents
containing
client
information, internal procedures, methods,
programs, case files, donor/client lists, budgets,
marketing strategies, pending projects and
investigations, research and development
strategies,
litigation
strategies,
case
evaluations, potential new cases, technological
data, policies, procedures, names of clients,
communications between TMLC employees, as
well as communications between TMLC
employees and third parties, websites visited,
potential news releases, news media contacted,

300
news stories accessed, and financial records
and/or reports.
2. I understand and agree that I shall not permit
any third party to access TMLC information or
TMLC information technology systems without
express permission from the President of TMLC.
3. I understand and agree that I shall not access
any file or retrieve any stored communications
other than those necessary to the performance of
my job duties as assigned by the President of the
TMLC, and that such work-related access can take
place only after I have received prior and express
authorization to do so for the sole purpose of
fulfilling my job responsibilities.
4. I understand and agree that I shall not use for
my personal benefit or for the benefit of others any
information that I become aware of as a result of
my access to TMLC offices, files, information
technology systems, equipment, and software.
5. I understand and agree that I shall not divulge
any TMLC passwords or access codes to any
person.
Proprietary and Client Information, Donor
Information, and Forms
6. I understand and agree that all originals and
copies of the TMLC client lists, donor lists, client
addresses, client files, other client matters and
information, TMLC financial and business records
and reports, contracts, correspondence, personnel
records, information from TMLC client and donor
databases, and TMLC office forms shall be, and
remain, the property of the TMLC and shall not be

301
removed by the employee from the TMLC offices
nor be used by the employee, before or after his or
her termination of employment, without the
written consent of the TMLC President.

302

Fran Morello
From:
Sent:
To:
Subject:

Fran Morello
Wednesday, May 06, 2015 10:27 AM
Richard Thompson
Abusive E-mails Deletion

During my employment of 15 years here, I have
routinely
deleted
e-mails
sent
to
info@thomasmore.org that used foul language, such
as the F word and other similar vulgarities or
demeaning language, such as morons, idiots,
assholes.

303

304

M Gmail
Thomas More <tmlc.org@gmail.com>
_________________________________________________
Fwd: Form submission from: Contact
_________________________________________________
Thomas More <tmlc.org@gmail.com>
To: cmcmillan@thomasmore.org
-------Forwarded message -------From: Thomas More Law Center
<info@thomasmore.org>
Date: Sun, Apr 7, 2013 at 12:33 PM
Subject: Form submission from: Contact
To: tmlc.org@gmail.com
Submitted on Sunday, April 7, 2013 – 12:33
Submitted values are:
First Name

███

Last Name

███

Address
City

305
State
Zip
Work Phone
Home Phone
Fax
Email

█████████

Comments or
Questions

thomas more was an asshole , so
we know where you all come from

The results of this submission may be viewed at:
http://www.thomasmore.org/contact/submission/881

306

Catherine McMillan
From: WordPress [wordpress@thomasmore.org]
Sent: Thursday, February 18, 2016 10:48 PM
To: tmlc.org@gmail.com
Subject: Form Submission From: Contact
█████████
First Name: █████
Last Nam███████
Address: ████████
City: ██████
State: ██
Zip: 01022
Work Phone:
Home Phone:
Fax:
Email: ██████
Comments or Questions: DO NOT EVER mail your
disgusting junk mail to my home EVER AGAIN! I was
revolted and disgusted by your vile and hateful
remarks and LIES about our President. You are UNAMERICAN, disgusting, and hateful. You ought to be
ashamed of yourselves for promoting the greed,
selfishness and hate that conservatism is about. I

307
believe that conservatism is VERY EVIL and VERY
much against God. You broke at least one of the Ten
Commandments with your LIES in your disgusting
mail piece to me. I will pray for you that you will one
day be like Jimmy Carter nad our Pope, who are
REAL Christians who follow Jesus’ LIBERAL
Teachings. I pray daily for the conversion of
conservatives away from the evil that has sucked
their souls dry, including yours. In the meantime DO
NOT mail your filth to me ever again. I Hope that one
day you will finally see that Jesus was a liberal and
cease to be the evil hate group that you have become.
Prayers going up for the conversion of conservatives
across America and the world. We will not have peace
on earth until conservatism and its evil forces are
conquered. Hail Mary, full of grace, the Lord is with
thee, blessed art thou amongst women, and blessed is
the fruit of thy womb, Jesus. Holy Mary Mother of
God pray for us sinners (especially sinners like you)
now and at the hour of our death. May Jesus’ liberal
Christian Teachings allow you to realize that
Muslims are human beings too. Christianity has the
same roots as Judaism and Islam-Abraham. So
PLEASE do not contact me again, and may God heal
you of your sad status as a hypocrite and
conservative. I know that Christ would throw you out
like He did the money changers. YOU ARE
NOTHING BUT SELFISH HATEFUL MONEY
CHANGERS and that’s why I DO NOT want MY
name to be associated with your selfish filth. I am
disgusted that you would even send me anything. I
am a Christian AND a Democrat and I Hope that you
will also one day become a true Christian AND A
DEMOCRAT. Conservatism is only going to send you
straight to HELL unless you ask God to repent and

308
ask for forgiveness. GOOD LUCK YOU WILL NEED
IT
This mail is from contact form at https://www.thomas
more.org/contact/ by ███████████
*****
From: WordPress [wordpress@thomasmore.org]
Sent: Saturday, June 27, 2015 7:55 AM
To: tmlc.org@gmail.com
Subject: Form Submission From: Contact
The AMERICAN PEOPLE
First Name: The
Last Name: AMERICAN PEOPLE
Address:
City:
State:
Zip:
Work Phone:
Home Phone:
Fax:
Email: ██████
Comments or Questions: The Taliban, ISSIS,
SHARIA LAW believers, all hold the same principles
as your law firm and the GOP. RESPECT your
religious rights and FUCK everyone else! Then you’ll
go have sex with your sister or get your mistress
pregnant and ask her to get a secret abortion, and still
have the NERVE to dictact to the rest of us, The
American People, how to live. GO FUCK
YOURSELVES!

309
This mail is from contact form at https://www.thomas
more.org/contact/ by The AMERICAN PEOPLE
*****

310
*****

311
*****

312
*****

313
*****

314
*****

315
*****

316
*****

317
*****

318
*****

319
*****

320

KAUFMAN DOLOWICH & VOLUCK, LLP
LOUIS H. CASTORIA (California Bar No. 95768)
MARION V. CRUZ (California Bar No. 244223)
IAN A. JOHNSTON (California Bar No. 287229)
425 California Street, Suite 2100
San Francisco, CA 94104
Telephone: (415) 926-7600
Facsimile: (415) 926-7601
Attorneys for Plaintiff,
THOMAS MORE LAW CENTER
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THOMAS MORE LAW
CENTER,
Plaintiff,
vs.
KAMALA HARRIS, in
her Official Capacity as
Attorney General of
California,

Case No. 2:15-cv-03048R-FFM
DECLARATION OF
ROBERT SPENCER IN
SUPPORT OF
PLAINTIFF’S MOTION
FOR SUMMARY
JUDGMENT
Date: June 6, 2016
Time: 10:00 a.m.
Courtroom: 8

321
Defendant. ·

Judge: Hon. Manuel L.
Real
Action filed: April 23,
2015
Trial Date: June 28,
2016

I, Robert Spencer, declare as follows:
1. I am an adult citizen of the United States.
2. I make this declaration based upon my personal
knowledge and upon verifiable public information and
belief, where noted herein.
3. I, along, with Pamela Geller, co-founded the
American Freedom Defense Initiative (“AFDI”). I am
currently Vice President and Ms. Geller is President.
4. AFDI is a non-profit organization incorporated
under the laws of the State of New Hampshire. AFDI
is dedicated to freedom of speech, freedom of
conscience, freedom of religion, and individual rights.
AFDI achieves its objectives through a variety of
lawful means, including through the exercise of its
right to freedom of speech under the United States
Constitution.
5. AFDI exercises its right to freedom of speech
and promotes its objectives by, inter alia, purchasing
advertising space on transit authority property in
major cities throughout the United States, including
New York City. AFDI purchases this advertising to
express its message on current events and public
issues.

322
6. Ms. Geller and I engage in free speech activity
through various projects of AFDI.
7. AFDI acts through its website and the existing
Atlas Shrugs and Jihad Watch websites.
8.·I am submitting this Declaration in support of
the Thomas More Law Center’s summary judgment
motion in this case. The Thomas More Law Center
provided my organization with legal counsel in a case
in Detroit, arising from that city’s transit authority’s
refusal to allow print advertisements on its buses that
were critical of radical Islamic threats, though they
allowed advertisements by other religious and notfor-profit organizations. Rather than allow our bus
ads to run, the Detroit transit authority enacted a
rule, nicknamed “Geller’s Law,” that prohibits all
political advertisements on transit vehicles.
9. In my view, the general media underreport and
underestimate the threat that jihadist terror groups,
such as ISIS, pose to Americans here at home. I aim
to fill this gap in my coverage, through my web site,
www.jihadwatch.org. I have also been a frequent
public speaker at conferences on anti-terrorism
subjects, and through AFDI I have advocated in other
ways, such as the public bus advertisements that
were the subject of the lawsuit in which the Thomas
More Law Center represented AFD1.
10. On May 3, 2015 an event and art exhibit
partially sponsored by AFDI was held at the Curtis
Culwell Center in Garland, Texas, in protest of the
terrorist killings in Paris earlier that year that
occurred after the satiric magazine, Charlie Hebdo,
published a cartoon of Muhammad, the central figure
of Islam. The event in Garland was intended to

323
support free speech rights through an art contest and
exhibit of depictions of Muhammad throughout
history, including ones by devout, mainstream
Muslim artists. Attendees were also invited to
exercise their own First Amendment rights by
drawing pictures of Muhammad. As President of
AFDI, Pamela Geller’s name had been used in
promotional materials for the Garland, Texas event.
11. On the day of the Garland event, two ISIS
operatives drew their weapons in the parking lot of
the event site. I was standing inside beside Ms. Geller
when this occurred. Neither she nor I were shot, and
the gunmen were killed by police officers on the scene.
However, shortly after the event, an American ISIS
leader, Abu Ibrahim Al Ameriki, issued a Fatwah—a
legal pronouncement binding on his followers—
calling for Ms. Geller’s assassination. A true, correct,
and complete copy of the Fatwah is attached to this
Declaration as Exhibit A, and made a part hereof.
12. The Fatwah states, “Our aim was the khanzeer
[pig] Pamela Geller and to show her that that we don’t
care what land she hides in or what sky shields her;
we will send our Lions to achieve her
slaughter. . . . Everyone who houses her events, gives
her a platform to spill her filth are legitimate targets.”
13. The Fatwah continues, “We have 71 trained
soldiers in 15 different states ready at our word to
attack any target we desire. Of the 25 states, 5 we will
name: Virginia, Maryland, Illinois, California, and
Michigan.”
14. The assassination attempt on Ms. Geller in
May 2015 and the issuance of the Fatwah threatening
harm to anyone who gives her a platform to speak has

324
had a chilling effect on AFDI. Organizations, event
sites and/or venues have canceled speaking
engagements since the assassination attempt.
15. Ms. Geller routinely appeared for public
speaking engagements at least once a month but has
not had one since the attempt on her life in May 2015.
It is obvious to me that Ms. Geller’s speaking
engagements would have continued if it were not for
the assassination attempt: I believe organizers are
afraid to have Ms. Geller speak due to the Fatwah and
the cost of the heightened security required is also a
deterrent.
16. As Vice President of AFDI and the founder of
jihadwatch.org, I routinely receive threats of violence
and death. While I was attending an event in
Stuttgart, Germany, I was told by a stranger in the
crowd who had somehow infiltrated the site, that “if
there weren’t so many police here, you’d be dead by
now.”
17. As a result of the aforementioned threats, I
have had to hire my own highly trained and
specialized security guards to accompany me when I
travel and attend speaking engagements, which is
very costly.
18. Based on my experience, anyone who engages
in the type of work that I do, such as Pamela Geller
and others affiliated with AFDI, receives these kinds
of threats. One example is an individual who, on his
own volition, made and sold t-shirts for my website.
When I met this individual randomly, I learned that
the individual abruptly stopped making the shirts
because the individual’s spouse was worried about the

325
individual being targeted for jihad. Because of this
concern, I will not disclose this person’s identity.
19. I have received many hateful and threatening
emails sent to me via my website to the email address
director@jihadwatch.org. I have also received death
threats sent via Twitter and through my website. A
sample of these hateful communications are attached
hereto as Exhibit B. These include communications
that threaten my life and/or the life of Pamela Geller;
messages that include hateful and/or obscene
comments and insults towards me and/or Ms. Geller,
including statements calling Ms. Geller my “whore”;
and emails that evidence someone claims to be or is
actually stalking me. Some examples include:
a. An email sent on February 8, 2011, with
subject line “Bringing Spencer and GELLER to
Justice” that states “You will be brought to
Justice The question is only WHEN.”
b. An email sent on February 9, 2011, stating
“Killing Spencer and his WHORE would be a
priceful action,” “His head must be put in a
rubbish dustbin,” and “SPENCER MUST be
killed.”
c. Emails sent on February 9 and 10, 2011,
stating “Specner (sic) is still at large after
tracing him from NEW-YORK yesterday. Can
someone tell me where he lives then I will show
him his ability;” “Can you tell me where your
location is: in New York. I ve (sic) just arrived
from Nevada. I need to tell me (sic) your
address;” and “Mr (sic) Spencer Why dont (sic)
you still not telling me a location to meet you
right away. I would treat you like a GOAT. No

326
matter what will the FBI say but I am sure that
I would give you what you deserve. Where is
your WHORE as well. NEW York ... New
YORK ... Tell me the location. Washington
Park, or near manhattan (sic). I will try to trace
you.”
d. An email sent on February 13, 2011 with the
subject “Does Spencer have Loved friends or
Families,” stating “Spencer must pay heavy
price for the Deeds he handles. Does He have
Kids and beloved Family.”
e. An email sent on February 14, 2011 stating
“Wether (sic) you call the FBI or law
enforcement They will not.be able to stop me.
1) they know that you are a Bigot and
hatemonger and 2) They cant (sic) do that to me
. . . I am the one who will end your operations.
I will Slaughter you like a HEN ....I am not
joking .............. and No body Only GOD can
prevent that. I am on my way to you Just it is
a matter of time and tacing you (sic). If I meet
you I am sure If (sic) I will spend next 200 years
in Prison I will not Miss you and I know how
coward you are.”
f. An email sent on April 7, 2011 stating “I was
thinking to CUT your head with AXE...” and an
email sent on May 16, 2011, stating
“Occupation will END, Geller and Spencer
WILL DIE.”
g. A twitter notification on September 23, 2011
that states “your death @DieEarlyNow is now
following you (@jihadwatchRS).”

327
h. An email sent on December 24, 2012, stating
“your (sic) the biggest prick I have had the
misfortunes to read on and watch, you are the
problem not the Muslims it’s people like you,
may the curse of god be on you and you die a
slow and painful death. Ameen (sic).”
i. An email sent on December 25, 2012, stating “3
HOURS .......... I WILL KILL YOU FUCKER,”
j. Some of the death threats are very specific,
including a recent comment on my website
posted on February 25, 2016, stating “Robert
spencer (sic) will be DEAD before August 2016
it will be brutal.”
20. I am aware that this lawsuit involves a
demand by the California Attorney General to take
actions against the Thomas More Law Center unless
it delivers to the Attorney General the list of its
donors that it files in confidence with the IRS. In my
view, that is exactly the kind of list that the jihadists
would like to have access to, directly or through
hacking of government electronic records. It is my
opinion that the chilling effect upon donors to
advocacy groups like Thomas More Law Center would
be devastating, because formerly anonymous donors
would face the threat of reprisals and potential donors
would be less likely to take that risk.

328
I declare under penalty of perjury under the laws
of the United States that the foregoing is true and
correct to the best of my information, knowledge and
belief, and that this declaration was executed in New
York, New York, on May 4, 2016.

EXHIBIT A

Bismillah Ar Rahman Ar Raheem

329
“The New Era”
To our brothers and sisters fighting for the sake of
Allah, we make duaa for you and ask Allah to guide
your bullets, terrify your enemies and establish you
in the Land. As our noble brother in the Philippines
said in his bayah, This is the Golden Era, everyone
who believes. . . is running for shahid”
The attack by the Islamic State in America is only the
beginning of our efforts to establish a wilayah in the
heart of our enemy. Our aim was the khanzeer
Pamela Geller and to show her that we don’t care
what land she hides in or what sky shields her, we
will send all our Lions to achieve her slaughter. This
will heal the hearts of our brothers and disperse the
ones behind her. To those who protect her this will be
your only warning of housing this woman and her
circus show. Everyone who houses her events, gives
her a platform to spill her filth are legitimate targets.
We have been watching closely who was present at
this event and the shooter of our brothers. We knew
that the target was protected. Our intention was to
show how easy we give our lives for the sake of Allah.
We have 71 trained soldiers in 15 different states
ready at our word to attack any target we desire. Out
of the 71 trained soldiers 23 have signed up for
missions like Sunday. We are increasing in number
bismillah. Of the 15 states, 5 we will name . . .
Virginia, Maryland, Illinois, California, and
Michigan. The disbelievers who shot our brothers
think that you killed someone untrained, nay, they
gave you their bodies in plain view because we were
watching.

330
The next six months will be interesting. To our emir
hamoonami, make duaa prayers for us and continue
your reign. May Allah enable your face.
May Allah send His peace and blessings upon our
Prophet Muhammad and all those who follow until
the last Day.
Abu Ibrahim Al Ameriki

331

Sally Kern
From:
Sent:

Saturday, March 08, 2008 6:27
PM

To:

Sally Kern

Subject:

so

Follow Up Flag:

Follow up

Flag Status:

Red

I heard what you said and you should be killed you
stupid cunt bitch! along with George W. Bush!
Christianity is the cancer in our society and should be
eliminated!

Sally Kern
From:
Sent:
To:
Subject:

Sunday, March 09, 2008 8:55 PM
Sally Kern
SALLY KERN, YOU ARE A
DUMB CUNT

332
Follow Up Flat:
Flag Status:

Follow up
Purple

open this website you dumb whore:
http://www.crooksandliars.com/2008/03/09/oklahoma
-state-rep-goes-on-anti-gay-tirade/
then read the comments below. How are such redneck
whores like you ever elected? God damn, I was never
aware that there were such dumb cunts in this world.
I sure do hope and pray that you rot in hell,
sincerely,
███████████

Sally Kern
From:
Sent:

Sunday, March 09, 2008 11:25 PM

To:

Sally Kern

Subject:

FUCK YOU BITCH!

Follow Up Flag:

Follow up

Flag Status:

Purple

Sally, you’re a shithead from hell and NOW everyone
knows what a moronic, homophobic idiot you are.
BUSTED YOU LOOSE TWAT WHORE!

333
Sally Kern
From:
To:
Sent:
Subject:

███████████
███████████
Sunday, March 09, 2008 2:00 PM
You ignorant, bigotted cunt

Why don’t you do the world a favor and kill yourself,
you failed abortion.
The reason this country is so incredibly f*cked up is
because of knuckledragging, mouthbreathers like
you.
Crawl back under your rock with your ‘bible’ and wait
for the rapture.
Stupid cunt.
Sally Kern
From:
Sent:
To:
Subject:

Sunday, March 09, 2008 6:45 PM
Sally Kern
Dear Sally Kern

I sincerely hope you die a slow, horrible death due to
breast cancer. That is the only thing befitting such a
pathetic human being such as yourself.
Sincerely,
███████████
Toronto (land of gay rights and gay marriage)
Canada. Oh yeah and we’re not in 3 trillion dollars
debt, either, unlike some countries . . .

334
Sally Kern
From:
Sent:
To:
Subject:
Follow Up Flag:
Flag Status:

Saturday, March 08, 2008 5:37
PM
Sally Kern
Dear Sally
Follow up
Red

I was disgusted in your hate speech. You should be
ashamed of your self. Do the world a favor and jump
off a cliff with all your other hate mongering friends
you fat ugly bitch.

Sally Kern
From:
Sent:
To:
Subject:

Saturday, March 08, 2008 4:44
PM
Sally Kern
Hey

Dear Ignorant homophobe. . . I pray to Baby Jeebus
that you find nothing but misery and pain in your life.
Do everyone a favor and just drop dead, you ugly hag.

335
Sally Kern
From:
Sent:
To:
Subject:
Follow Up Flag:
Flag Status:

Saturday, March 08, 2008 4:59
AM
Sally Kern
You are a vile, subhuman excuse
for a person
Follow up
Red

I hope you get hit by a truck. There’s a special place
in hell reserved you. I have great faith in that!

Sally Kern
From:
To:
Sent:
Subject:

███████████
Sunday, March 09, 2008 2:30 PM
People like you disgust me

Dear Ms. Kern,
Please clean the sand out of your vagina.
Dearest Regards,
█████

336
Sally Kern
From:
To:
Sent:
Subject:

███████████
Sunday, March 09, 2008 2:01 PM
Concerning your speech.

You’re honestly comparing gays to cancer? You
honestly think that homosexuality is a greater threat
than terrorism? How someone as petulant and vile as
yourself got elected to office, I will never understand.
You arguments are unfounded and puerile. You think
there’s some cadre of gay banditos, running around
the country and magically turning innocent christian
boys and girls into sinful homosexuals? Please. If your
god would condemn these people just because of their
sexual affiliation, then guess what.
Your god is a fucking asshole.
Just like you.

337

BUTZEL LONG
ATTORNEYS AND COUNSELORS
a professional corporation
Paul R. Fransway
734 213 3268
fransway@butzel.com
Stoneridge West Bldg.
41000 Woodward Ave.
Bloomfield Hills, MI 48304
T: 246 258 1616 F: 248 258 1439
Butzel.com
April 11, 2012
Via First Class Mail
Kim Lewin
Office Technician
Registry of Charitable Trusts
1300 I Street
P.O. Box 903477
Sacramento, CA 94203-4470
Re:

Thomas More Law Center
CT File Number 118144

Dear Ms. Lewin;

338
We have been retained by the Thomas More Law
Center of Ann Arbor, Michigan with regard to your
request for Schedule B of Form 990. Please
communicate with this office exclusively in the future
regarding this request and issue.
Please provide the legal authority you rely upon in
order to demand release of this schedule. As you
know,
this
schedule
contains
confidential
information. As I am sure you are also aware, this
schedule has not been routinely demanded from
either the Thomas More Law Center or many of the
tax exempt organizations filing Form 990 with your
office.

PRF/ms
cc:

Thomas More Law Center

339

340

341

“Well-known
ISIS
operative
instructed
Americans to kill organizer of Muhammad
cartoon contest, prosecutors reveal,” By Adam
Goldman, Washington Post, April 21, 2016:
The Justice Department on Thursday revealed
that a well-known Islamic State operative
instructed a Boston-area man to kill Pamela
Geller, the organizer of a controversial
Muhammad cartoon contest in Texas last year.
In court documents, prosecutors said that Junaid
Hussain, a British militant, had been
communicating
with
Usaamah
Abdullah
Rahim, 26, who along with two friends
discussed beheading Geller.
Rahim, however, changed his mind and instead
decided to target a police officer. He was shot and
killed in June 2015 in Roslindale, Mass., after he
attacked members of an FBI-led surveillance team
while wielding a large knife, officials said.
[Boston terrorism suspect had planned to attack police
officers, FBI says]
Hussain, 21, was killed in Raqqa, Syria, in August
2015 in a drone strike. He was a well-known militant
involved in not only spreading Islamic State
propaganda but also recruiting and planning attacks,
officials said.

342
FBI Director James B. Comey has said
previously that a Phoenix man who tried to
attack the Muhammad cartoon contest in Texas
was trading encrypted messages with an
Islamic State operative. A senior U.S law
enforcement official, speaking on the condition of
anonymity to discuss the case, declined to identify
that operative but said it was not Hussain. Another
official described the person as a member of the
group’s unit that runs external operations.

Prosecutors said Rahim, along with two associates,
Nicholas Alexander Rovinski, 25, of Warwick, R.I.,
and his nephew, David Wright, 26, of Everett, Mass.,
began plotting a terror operation in the United
States in early 2015.
According to the Justice Department, Wright in
March 2015 drafted organizational documents for a
“Martyrdom Operations Cell” and conducted
Internet searches about firearms, tranquilizers and
the establishment of secret militias in the United
States. Rovinski conducted research on weapons

343
that could be used to behead people, the
authorities said.
[Two men in Boston charged with planning to aid
Islamic State]
Prosecutors said Hussain communicated directly
with
Rahim,
who
then
communicated
instructions to the other conspirators to kill
Geller in New York, where she lives. They
planned to kill her around the July 4 holiday,
court documents show.
The FBI was closely monitoring the men, officials
said, and would have arrested them had they tried to
travel to New York.
After Rahim’s death, prosecutors charged Rovinski
and Wright with conspiracy to provide material
support to a terrorist organization. Prosecutors also
revealed that Rovinski has written letters to Wright
from prison “discussing ways to take down the
U.S. government and decapitate non-believers.”
Rovinski also pledged his allegiance to the
leader of the Islamic State, according to court
documents.
On Thursday, Rovinski and Wright were also charged
in a superseding indictment with conspiracy to
commit acts of terrorism transcending national
boundaries.
Yours in liberty,
Pamela Geller
President, American Freedom Defense Initiative
Editor, Publisher, AtlasShrugs.com
Pamela Geller on Facebook
@PamelaGeller on Twitter

344
American Freedom Defense Initiative is dedicated to
freedom of speech, freedom of conscience, individual
rights and equality for all before the law.

345

“New England ISIS suspect ‘tried to organize
beheadings of non-believers from behind bars’
while awaiting terror charges,” By Darren Boyle
for MailOnline, April, 22, 2016:
Nicholas Rovinski and David Wright are both facing
several terror charges Prosecutors claim Rovinski
continued his terror plotting from inside jail The pair
allegedly targeted prominent conservative blogger
Pamela Geller Rovinski and Wright have both
pleaded not guilty to multiple charges
A New England ISIS suspect tried to organise
the beheadings of ‘non-believers’ from inside
jail while awaiting trial on terror charges,
prosecutors claim.
Nicholas Rovinski of Warwick, Rhode Island and his
co-accused David Wright of Everett, Massachusetts
were arrested and charged in June 2015 with
providing material support to ISIS.
However, following a hearing at US District
Court in Boston on Thursday, the pair were also
charged with plotting to kill conservative
blogger Pamela Geller.

346

Nicholas Rovinski, right, and David Wright, second
left, are both facing terror charges in Boston having
been accused of plotting to decapitate ‘non-believers’
including conservative blogger Pamela Geller
Pamela Geller, pictured, was allegedly targeted
because she organised a ‘Draw Mohammad’
competition

347
Pamela Geller, pictured, was allegedly targeted
because she organised a ‘Draw Mohammad’
competition
Prosecutors allege Rovinski and Wright received
instructions from a foreign-based ISIS recruiter.
Rovinski and Wright both pleaded not guilty to the
terrorism charges.
The court heard the pair allegedly plotted
with Wright’s uncle Usaamah Rahim to
behead blogger Pamela Geller, who is known
for provoking Muslims. The plot was not carried
out.
Thursday’s indictment says ISIS recruiter and
hacker Junaid Hussain communicated instructions
about the plot directly to Rahim from overseas in
May 2015. It says Rahim then told his nephew.
Hussain was killed in a US drone strike in Syria in
August. The US military has said Hussain had been
recruiting sympathizers in the West to carry out lonewolf terrorist attacks.
Rahim was killed June 2 by investigators who say he
lunged at them with a knife when they approached
him in Boston.

348

Prosecutors allege that Wright, left, and Rovinski
plotted with Wright’s uncle Usaamah Rahim, right, to
decapitate Geller. Rahim has shot dead by the FBI on
June 2 after he threatened to stab agents with a knife
According to the indictment, even from jail, Rovinski
has tried to recruit people to help carry out plans for
violent attacks in the United States, including to
decapitate non-believers.
Geller last year organized a Prophet Muhammad
cartoon contest that ended in gunfire in Garland,
Texas, with two Muslim gunmen shot to death by
police. She has spearheaded scores of events across
the nation to decry Islamic extremism.
According to the new indictment, Rovinski has
continued to support Islamic State while in jail
by trying to recruit others to ‘decapitate nonbelievers’ and take down the U.S. government
and by writing a new pledge of support to the
group’s leader, Abu Bakr al-Baghdadi, on the
back of his own criminal complaint.

349
Rovinski and Wright pleaded not guilty to the original
charge of conspiring to provide material support to a
designated terrorist organization after they were
arrested in June, and they were due to face trial in
February 2017.

Rovinski and Wright are believed to have been
in contact with British jihadi Junaid Hussain
who was killed in a US drone strike in Syria in
August. Hussain was believed to be the leader of the
CyberCaliphate
According to the new indictment, Rovinski and
Wright plotted their attacks with Wright’s uncle,
Usaamah Abdullah Rahim, who was shot dead by law
enforcement officers last June when Boston police and
agents for the Federal Bureau of Investigation
approached him and he threatened them with a knife.

350
The indictment accused Rahim of beginning
communication one month before he was shot with a
British member of Islamic State, Junaid Hussain.
Hussain was believed by government sources to be the
leader of CyberCaliphate, a hacking group that last
year attacked a Twitter account belonging to the
Pentagon.
The indictment said Hussain gave Rahim
instructions that Rahim passed on to Wright
about targeting individuals such as Pamela
Geller, organizer of a ‘Draw Mohammad’
cartoon competition in Garland, Texas, that
was attacked by two gunmen last May.
Hussain was killed in a US drone strike in Syria last
August.
Wright has pleaded not guilty to charges he alone
faced of obstructing justice and conspiring to obstruct
justice after he was accused of instructing Rahim to
delete his phone and laptop data.
Wright and Rovinski now face maximum sentences of
life in prison as a result of the new charges announced
on Thursday. They are scheduled to be arraigned on
April 28, according to the docket report in their case.
Yours in liberty,
Pamela Geller
President, American Freedom Defense Initiative
Editor, Publisher, AtlasShrugs.com
Pamela Geller on Facebook
@PamelaGeller on Twitter

351
American Freedom Defense Initiative is dedicated to
freedom of speech, freedom of conscience, individual
rights and equality for all before the law.

352

In reply refer to:
0248564841
Mar. 26, 2009 LTR
4168C EO
38-3448297
000000 00 000
00013012
BODC: TE
THOMAS MORE LAW CENTER
P.O. BOX 393
c/o RICHARD THOMPSON
ANN ARBOR MI 48106
Employer Identification Number: 38-3448297
Person to Contact: MS. B. HALL
Toll Free Telephone Number: 1-877-829-5500
Dear TAXPAYER:
This is in response to your request of Mar. 17, 2009,
regarding your tax-exempt status.
Our records indicate that a determination letter was
issued in JUNE 1999, that recognized you as exempt
from Federal income tax, and discloses that you are
currently exempt under section 501(c)(03) of the
Internal Revenue Code.

353
Our records also indicate you are not a private
foundation within the meaning of section 509(a) of the
Code because you are described in section(s) 509(a)(1)
and 170(b)(1)(A)(vi).
Donors may deduct contributions to you as provided
in section 170 of the Code. Bequests, legacies, devises,
transfers, or gifts to you or for your use are deductible
for Federal estate and gift tax purposes if they meet
the applicable provisions of sections 2055, 2106, and
2522 of the Code.
If you have any questions, please call us at the
telephone number shown in the heading of this letter.
Sincerely yours,

Michele M. Sullivan, Oper. Mgr.
Accounts Management Operations I

354

KAUFMAN DOLOWICH & VOLUCK LLP
LOUIS H. CASTORIA (California Bar No. 95768)
MARION V. CRUZ (California Bar No. 244223)
IAN A. JOHNSTON (California Bar No. 287229)
425 California Street, Suite 2100
San Francisco, CA 94104
Telephone: (415) 926-7600
Facsimile: (415) 926-7601
Attorneys for Plaintiff,
THOMAS MORE LAW CENTER
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

THOMAS MORE LAW
CENTER,
Plaintiff,
vs.
KAMALA HARRIS, in
her Official Capacity as

Case No. 2:15-cv-03048R-FFM
DECLARATION OF
MELISSA WOOD IN
SUPPORT OF
PLAINTIFF’S
MOTION FOR

355
Attorney General of
California,
Defendant.

SUMMARY
JUDGMENT
Date: June 6, 2016
Time: 10:00 a.m.
Courtroom: 8
Judge: Hon. Manuel L.
Real
Action filed: April 23,
2015

I, Melissa Wood, declare as follows:
x

I am an adult citizen of the United States.

x I make this declaration based upon my
personal knowledge and upon verifiable public
information and belief, where noted herein.
x I am the wife of John Kevin Wood (hereinafter
“John”), a veteran of the United States Armed Forces,
who served in the U.S. Marine Corps for eight years.
His service includes active duty in the Persian Gulf to
fight on behalf of the United States in Operation
Desert Shield/Desert Storm. John and I have a
teenage daughter (hereinafter “C.W.”) who attends La
Plata High School in La Plata, Maryland.
x On or about October 2014, John discovered that
C.W. was being forced by her World History teacher
to complete assignments that promoted Islam. We
voiced our objections to C.W.’s school, and John
requested an alternative assignment for C.W. Our
request was denied. John was banned from La Plata
High School after the principal issued a “no trespass”
notice against John, denying him access to the school
grounds. C.W. received a zero or failing grade on the

356
assignment, and was not allowed to complete an
alternative assignment.
x The “no trespass” notice against John lasted
from October 2014 through approximately March
2016. As a result, John missed many of C.W.’s
important events during her senior year of high
school, Board of Education meetings and Parent
Teacher Organization (PTO) meetings. We were also
forced to ask friends and family to assist with picking
up and dropping off C.W. for school while the ban was
in place.
x In addition to receiving a zero or failing grade
on the assignment that C.W. refused to complete due
her religious beliefs, some of C.W.’s other grades have
suffered.
x In January 2016, with the help of the Thomas
More Law Center (“the Law Center”), John and I filed
a civil rights action for the deprivation of our rights to
religious freedom under the First and Fourteenth
Amendments of the United States Constitution. We
brought the lawsuit on our own behalf and on the
behalf of C.W. against Defendants Charles County
Public Schools, the Board of Education of Charles
County, and the Principal and Vice Principal of La
Plata High School in the United States District Court
for the District of Maryland. The Law Center
represents John, C.W. and me in the lawsuit. A true
and accurate copy of the Complaint that was filed in
the matter (hereinafter “the lawsuit”') is attached
hereto as Exhibit A.
x There have been numerous news articles, news
stories, blogs, and other

357
media reports about our challenge to C.W.’s school
assignment and the lawsuit the Law Center filed· on
my family’s behalf. As a result, my privacy and that
of my family are gone. We are no longer anonymous
citizens.
x Some of the stories published online about our
challenge to C.W.’s assignment and the lawsuit
include hateful, derogatory and profane comments
from the public directed at John, C.W. and/or me.
x As a result of my family’s challenge to C.W.’s
school assignment and the lawsuit that the Law
Center filed on our behalf, my family and I have
experienced an extreme amount of stress, have lost
friends, and have received death threats and threats
of physical violence. These threats and hateful
comments affect me personally. There are some
nights that I cannot sleep due to the threats made
against me and my family. One of my biggest fears is
that someone who does not know that C.W.’s school’s
ban against John being on campus has been lifted,
which may escalate things if John happens to be on
the school’s grounds.
x As a result of our challenge and the lawsuit, we
have received letters and communications in the mail,
emails and Facebook messages that relate to the
lawsuit, my family’s Christian beliefs, and statements
that my family is “anti-Islam.” We received the bulk
of these communications in October 2014 when we
first objected to C.W.’s assignment and then again in
January 2016, after we filed the lawsuit.
x

From October 2014 through present, my family
has received at least twenty

358
(20) negative, hateful and/or; threatening messages
on John’s Facebook profile. I personally viewed these
messages. These messages refer to John and my
family as bigots or racists and in some instances
include derogatory and profane insults and namecalling such as “cunt.” I have access to John’s
Facebook account and have since blocked the senders
of deleted these messages due to their hateful and
vulgar content.
x Our family has also received physical threats
via Facebook messages from
someone we do not know. The first message was sent
to John on May 28, 2015, from a person that claims to
go to C.W.’s high school. It states: “You racist I go to
la plata. I DARE you to come here and make that
threat again. I see your daughter Melissa before. Ill
stab her stomach to leave a hole and then hang a hook
inside her and hang her from a tree. The brown skin
man has killed your friends, racist americunt. I’ll find
you in la plata and stab your body open and piss in it
in front of your pathetic racist kids! Long live Asians,
kill racist whites. Kill the marines. Jokes on you
racist.” The same person sent another message to
John on June 1, 2015, which states, “Your blonde wife
comes to my house.” A true and accurate screenshot
of these Facebook messages is attached hereto as
Exhibit B.
x I am informed and believe
approximately November or December

that

in

2014, the Federal Bureau of Investigation (FBI)
visited me at my home, saying that they had heard
“chatter” about my husband, which prompted the FBI
to caution me of the “chatter.” The FBI agents who

359
visited my home instructed me to put their phone
numbers on speed dial and warned John to pay
attention to his surroundings at all times.
///
///
///
///
///
x As a result of our challenge to C.W.’s school
assignment and the lawsuit,
some people have come forward commending me,
John and C.W. for our bravery in standing up for our
religious beliefs. Some of these individuals have said
they do not have the courage we have to speak up
publicly, to challenge C.W.’s school assignment, and
to file a lawsuit such as the one the Law Center filed
on our behalf.
I declare under penalty of perjury under the laws
of the United States that the foregoing is true and
correct, and that this declaration was executed on
May 4, 2016, in Newburg, Maryland.

360

‘We Will Not Defend Prop 8,’ Says Kamala Harris
by Brock Keeling in News on Dec 1, 2010 8:55 am

Harris speaking at the Delancey Street
Foundation, Tuesday, Nov. 30, 2020
During Kamala Harris’ victory party last night at the
Delancey Streey Foundation in South Beach, where
she celebrated a narrow win against Los Angeles
County District Attorney Steve Cooley in the
Attorney General’s race, she promised some sort of
surprise. That apparent surprise, at least for

361
Californians outside the Bay Area, was the
announcement that she will not defend Proposition 8,
the same-sex marriage ban.
When the San Francisco District Attorney joins her
entourage of democrats to Sacramento next year, she
said she “will not defend Proposition 8.”
The hearing on whether Prop 8 should be struck down
will be televised on Dec. 6 on C-SPAN.
Watch part of Tuesday night’s speech below.

Video: arirhodes // YouTube
Contact the author of this article or email
tips@sfist.com with further questions, comments or
tips.

362

Attorney General Kamala D. Harris Files Amicus
Brief in U.S. Supreme Court Supporting Access to
Comprehensive Healthcare for Women
Tuesday, January 28, 2014
Contact: (415) 703-5837, agpressoffice@doj.ca.gov
SAN FRANCISCO — Attorney General Kamala D.
Harris today filed a friend-of-the-court brief in the
U.S. Supreme Court asking the court to strike down a
lower court’s ruling that would allow for-profit
companies to deny essential healthcare to female
employees based on the religious beliefs of the
company’s owners.
“Every American deserves access to quality,
comprehensive healthcare,” Attorney General Harris
said. A woman’s access to essential services, including
contraception, should not be restricted because of the
religious views of her employer—particularly when
the right to these services is protected under federal
law.”
Attorney General Harris’ brief, co-authored by
Massachusetts Attorney General Martha Coakley,
urges the U.S. Supreme Court to overturn a ruling

363
from the U.S. Court of Appeals for the Tenth Circuit
in Kathleen Sebelius v. Hobby Lobby Stores, Inc. that
held that for-profit businesses may exercise religion
and therefore are covered by the Religious Freedom
Restoration Act of 1993. The ruling would deny
women coverage for contraception, which is protected
under the Affordable Care Act (ACA) as a critical
preventive service.
The brief further asks the Court to affirm the U.S.
Court of Appeals for the Third Circuit’s ruling in a
companion case (Conestoga Wood Specialties Corp. v.
Kathleen Sebelius) that came to the opposite
conclusion and held that for-profit companies could
not claim religious exemptions from the ACA
coverage requirement.
Thirteen states and the District of Columbia joined
Attorney General Harris and Attorney General
Coakley’s brief, including Connecticut, Delaware,
Hawaii, Illinois, Iowa, Maine, Maryland, New Mexico,
New York, Rhode Island, Oregon, Vermont, and
Washington.
“Measures adopted by States, and now the federal
government, to expand affordable access to contraceptives through health plan coverage provisions are
narrowly tailored to further compelling public
interests in promoting gender equity and achieving
significant health, social, and economic benefits,” the
brief states.
A copy of the brief is attached to the electronic version
of this release at oag.ca.gov/news.
Attachment
Brief

###

364

ADD YOUR NAME TO
PLANNED PARENTHOOD

DEFEND

For many, the new year is a chance for a fresh start
— but not for some in Washington. It is Congress’s
first week back, and apparently, they haven’t
reshuffled their priorities.
They voted to defund Planned Parenthood.
We can all agree on one thing. Washington is broken.
Voting to strip federal funding from an organization
that provides vital health services to 2.7 million
Americans is the epitome of dysfunction.
Once again, we need you to take a stand and join
Kamala in defending Planned Parenthood.
Sign our petition to protect this organization
and the important work it does.
First Name*
Last Name*
Email Address*
Zip*

365

Elizabeth Kim
From:
Bill Hou <******>
Sent:
Wednesday, April 09, 2014 12:39 PM
To:
Bill Hou; Elizabeth Kim
Cc:
RCT
Subject:
Re: Schedule B
Attachments:
CA.ScheduleBsecondnoticeletter4.4.14.pdf
Dear Ms. Kim:
I have not heard back from you regarding my October
9, 2013 e-mail. My client has just received a Second
Request for Schedule B dated April 4, 2013 (copy
attached for your convenience).
I would appreciate a reply to the concerns I have
raised. Thank you for your attention to this matter.
Please note that I have also copied the RCT general email address.
Sincerely,
William Hou
Attorney for AAJC

366
On Wednesday, October 9, 2013 10:16 AM, Bill Hou
<williamhou@******> wrote:
On Wednesday, October 9, 2013 10:14 AM, Bill Hou
<williamhou@******> wrote:
Dear Ms. Kim:
Thank you for your letter of October 2, 2013 regarding
the confidential version of Schedule B (copy attached
for your convenience).
Some years ago, your office did post the confidential
version of my client’s Schedule B on your public
website, where it remained available for anyone to
access to see the names and addresses of my client’s
funding sources. What assurances does my client
have that this will not happen again? And what
redress does my client have for the disclosure?
Thank you for your attention to this matter.
Sincerely,
William Hou

367

October 2, 2013
William Hou, Esq.
Law Offices of William C. Hou
1140 Connecticut Avenue, N.W., Suite 1200
Washington, DC 20036
Re:

Asian Americans Advancing Justice – AAJC,
Inc. (formerly Asian American Justice Center,
Inc.) (CT No. 091492)

Dear Mr. Hou:
This will respond to your September 25, 2013
letter regarding the version of Schedule B of IRS
Form 990 that is required to be filed with the
California Attorney General’s Registry of Charitable
Trusts (“the Registry”). Your client, Asian Americans
Advancing Justice, should file with the Registry the
same version of Schedule B that is filed with the IRS.
The California Attorney General has a statutory
duty to monitor the activities of all charitable trustees
incorporated, or conducting business in California,
and to protect charitable assets for their intended use.

368
To that end, Government Code section 125861
provides the Attorney General with the authority to
require the filing of periodic written reports deemed
necessary to carry out that mandate.
The “public disclosure” copy of Schedule B is
intended to satisfy an entity’s disclosure
requirements to the general public pursuant to IRS
regulations. Regulatory agencies, on the other hand,
may require to be filed documents deemed necessary
to fulfill their statutory duties, so long as they
maintain the confidentiality of documents that are
specifically exempt from public disclosure. The
Registry has, from its inception, understood and
maintained as confidential such documents.
Under Government Code section 12586(b), the
Attorney General has the power to make rules and
regulations as to the content of reports filed with the
Registry. IRS Form 990 was adopted by the California
Attorney General’s Office as the primary reporting
document for charitable entities required to file
annual reports with the Registry to reduce the burden
on filers. Section 301 of the regulations states that the
“periodic written reports” referenced in Government
Code section 12586 include:
“. . . the Annual Registration Renewal Fee Report
(“RRF-1”). . . .which must be filed with the Registry of
Charitable Trusts annually, as well as the Internal
Revenue Service Form 990, which must be filed on an

Unless otherwise noted, all statutory citations are to California
law.

1

369
annual basis with the Registry of Charitable Trusts,
as well as with the Internal Revenue Service. . . .”
The Registry has, since its inception, maintained
the Schedule B filed by public charities as a
confidential document. All confidential documents are
routinely maintained in separate files that are not
available for public viewing. Those “files” are now
electronic records, as Registry staff scans all filings,
with the exception of confidential documents, into the
public interface of the Registry’s automated database.
Registry staff goes through each filing prior to
scanning to assure that all confidential information
and documents have been removed; they are then
scanned in to the backend Registry database. The
Registry also receives, pursuant to the Fed/State
Retrieval System, all Schedule B’s electronically filed
with IRS. They are transmitted separately and
uploaded into our backend system as confidential
documents.
We understand organizations’ concerns regarding
the inadvertent disclosure of the identity of donors.
Please be aware, however, that if a Public Records Act
request is made for an organization’s filings, only the
“public file” is made available for review. We do not
produce confidential information and documents and
routinely raise statutory exemptions and privileges,
such as Government Code section 6254, subdivision
(k) and the Official Information Privilege (Evid. Code,
§ 1040), to protect all confidential documents in our
possession.
Your client may submit Schedule B as a separate
mailing to the Registry, or mark Schedule B with a
confidential cover sheet. Your client can also view its

370
filings on our website for the purpose of assuring itself
that no confidential information has been uploaded to
the public website.
I hope this adequately addresses your concerns.

371

April 4, 2014
ASIAN AMERICAN JUSTICE CENTER, INC.
1140 CONNECTICUT AVE NW STE 1200
WASHINGTON DC 20036
CT FILE NUMBER: 091492
RE: SECOND NOTICE: IRS Form 990, Schedule B,
Schedule of Contributions
We have received the IRS Form 990, 990-EZ or
990-PF submitted by the above-named organization
for filing with the Registry of Charitable Trusts
(Registry) for the fiscal year ending 12/31/2011. The
filing is incomplete because the copy of Schedule B,
Schedule of Contributors, does not include the names
and addresses of contributors.
The copy of the IRS Form 990, 990-EZ or 990-PF,
including all attachments, filed with the Registry
must be identical to the document filed by the
organization with the Internal Revenue Service. The
Registry retains Schedule B as a confidential record
for IRS Form 990 and 990-EZ filers.
Within 30 days of the date of this letter, please submit
a complete copy of Schedule B, Schedule of

372
Contributors, for the fiscal year noted above, as filed
with the Internal Revenue Service. Please address all
correspondence to the undersigned.

373
Elizabeth Kim
From:
Sent:
To:
Subject:

Elizabeth Kim
Thursday, April 10, 2014 11:52 AM
Bill Hou
RE: Schedule B

Mr. Hou – We acknowledge your request for
assurances, and we hope that our explanation of the
Registry’s process for handling Schedule B filings
would give your client assurances that its Schedule B
filings will be kept confidential, and not subject to
public viewing.
This Office makes efforts to maintain the
confidentiality of Schedule B information. Our
process is that all confidential documents submitted
to the Registry of Charitable Trusts are kept in
separate electronic “files” that are not available for
public viewing. The Registry staff scans all filings into
the Registry’s automated database, and before
scanning, Registry staff goes through each filing and
removes all confidential data which is then scanned
separately as a “confidential” document. Regrettably,
mistakes can take place, though it has been a rare
occurrence.
Also, as an extra precaution, as my letter of October
2, 2013 suggests, your client may submit Schedule B
as a separate mailing to the Registry, or mark
Schedule B with a confidential cover sheet. Your
client is also encouraged to view its filings on our
Attorney General’s website to ensure that no
confidential information has been uploaded to the
public website following its submission of Schedule B.

374
I hope the safeguards the Registry has in place, and
the extra precautionary steps your client can choose
to take, will alleviate your client’s concerns. We
apologize for any inconvenience that your client may
have experienced.
Thank you for your attention to this matter.
_________________________________________________
From: Bill Hou [mailto:*******]
Sent: Wednesday, April 09, 2014 12:39 PM
To: Bill Hou; Elizabeth Kim
Cc: RCT
Subject: Re: Schedule B
Dear Ms. Kim:
I have not heard back from you regarding my October
9, 2013 e-mail. My client has just received a Second
Request for Schedule B dated April 4, 2013 (copy
attached for your convenience).
I would appreciate a reply to the concerns I have
raised. Thank you for your attention to this matter.
Please note that I have also copied the RCT general email address.
Sincerely,
William Hou
Attorney for AAJC
On Wednesday, October 9, 2013 10:16 AM, Bill Hou
<*******> wrote:
On Wednesday, October 9, 2013 10:14 AM, Bill Hou
<*******> wrote:

375
Dear Ms. Kim:
Thank you for your letter of October 2, 2013 regarding
the confidential version of Schedule B (copy attached
for your convenience).
Some years ago, your office did post the confidential
version of my client’s Schedule B on your public
website, where it remained available for anyone to
access to see the names and addresses of my client’s
funding sources. What assurances does my client
have that this will not happen again? And what
redress does my client have for the disclosure?
Thank you for your attention to this matter.
Sincerely,
William Hou

Elizabeth Kim
From:
Sent:
To:
Subject:

Bill Hou <*******>
Friday, April 11, 2014 10:58 AM
Elizabeth Kim
Re: Schedule B

My number is (***) ***-****.
On Friday, April 11, 2014 1:51 PM, Elizabeth Kim
<*******> wrote:
Could you give me your telephone number so I could
call you? Thanks.

376
_________________________________________________
From: Bill Hou [mailto:*******]
Sent: Thursday, April 10, 2014 12:19 PM
To:
Elizabeth Kim
Subject: Re: Schedule B
Dear Ms. Kim.
Thank you for your prompt response. Unfortunately,
several years ago a mistake did occur with my client’s
Schedule B and it was posted on your public website
for some time before it was removed following my
alerting your office. However, the damage was
already done by revealing the names/address of
donors. It was more than just an inconvenience.
I will discuss your response with my client. In the
meantime, may I ask what would be the consequences
if my client does not provide Schedule B?
Thank you for your assistance in this matter.
Sincerely,
William Hou
On Thursday, April 10, 2014 2:52 PM, Elizabeth Kim
<*******> wrote:
Mr. Hou – We acknowledge your request for
assurances, and we hope that our explanation of the
Registry’s process for handling Schedule B filings
would give your client assurances that its Schedule B
filings will be kept confidential, and not subject to
public viewing.
This Office makes efforts to maintain the
confidentiality of Schedule B information. Our
process is that all confidential documents submitted
to the Registry of Charitable Trusts are kept in

377
separate electronic “files” that are not available for
public viewing. The Registry staff scans all filings into
the Registry’s automated database, and before
scanning, Registry staff goes through each filing and
removes all confidential data which is then scanned
separately as a “confidential” document. Regrettably,
mistakes can take place, though it has been a rare
occurrence.
Also, as an extra precaution, as my letter of October
2, 2013 suggests, your client may submit Schedule B
as a separate mailing to the Registry, or mark
Schedule B with a confidential cover sheet. Your
client is also encouraged to view its filings on our
Attorney General’s website to ensure that no
confidential information has been uploaded to the
public website following its submission of Schedule B.
I hope the safeguards the Registry has in place, and
the extra precautionary steps your client can choose
to take, will alleviate your client’s concerns. We
apologize for any inconvenience that your client may
have experienced.
Thank you for your attention to this matter.
_________________________________________________
From: Bill Hou [mailto:*******]
Sent: Wednesday, April 09, 2014 12:39 PM
To: Bill Hou; Elizabeth Kim
Cc: RCT
Subject: Re: Schedule B
Dear Ms. Kim:
I have not heard back from you regarding my October
9, 2013 e-mail. My client has just received a Second

378
Request for Schedule B dated April 4, 2013 (copy
attached for your convenience).
I would appreciate a reply to the concerns I have
raised. Thank you for your attention to this matter.
Please note that I have also copied the RCT general email address.
Sincerely,
William Hou
Attorney for AAJC
On Wednesday, October 9, 2013 10:16 AM, Bill Hou
<*******> wrote:
On Wednesday, October 9, 2013 10:14 AM, Bill Hou
<*******> wrote:
Dear Ms. Kim:
Thank you for your letter of October 2, 2013 regarding
the confidential version of Schedule B (copy attached
for your convenience).
Some years ago, your office did post the confidential
version of my client’s Schedule B on your public
website, where it remained available for anyone to
access to see the names and addresses of my client’s
funding sources. What assurances does my client
have that this will not happen again? And what
redress does my client have for the disclosure?
Thank you for your attention to this matter.
Sincerely,
William Hou

379
Elizabeth Kim
From:
Bill Hou <*******>
Sent:
Friday, April 11, 2014 12:02 PM
To:
Elizabeth Kim
Subject:
Re: Schedule B
Attachments: CA.ScheduleB.coverletter4.11.14.pdf
Hello Elizabeth.
I enjoyed speaking with you today. My client has
agreed to submit Schedule B pursuant to the
procedures we discussed. Attached please find the
cover letter I am sending in with Schedule B which
should be in tomorrow’s mail.
Have a good weekend.
Best regards,
Bill
On Friday, April 11, 2014 1:57 PM, Bill Hou
<*******> wrote:
My number is (***) ***-****.
On Friday, April 11, 2014 1:51 PM, Elizabeth Kim
<Elizabeth.Kim@*******> wrote:
Could you give me your telephone number so I could
call you? Thanks.
_________________________________________________
From: Bill Hou [mailto:*******]
Sent: Thursday, April 10, 2014 12:19 PM
To:
Elizabeth Kim
Subject: Re: Schedule B

380
Dear Ms. Kim.
Thank you for your prompt response. Unfortunately,
several years ago a mistake did occur with my client’s
Schedule B and it was posted on your public website
for some time before it was removed following my
alerting your office. However, the damage was
already done by revealing the names/address of
donors. It was more than just an inconvenience.
I will discuss your response with my client. In the
meantime, may I ask what would be the consequences
if my client does not provide Schedule B?
Thank you for your assistance in this matter.
Sincerely,
William Hou
On Thursday, April 10, 2014 2:52 PM, Elizabeth Kim
<*******> wrote:
Mr. Hou – We acknowledge your request for
assurances, and we hope that our explanation of the
Registry’s process for handling Schedule B filings
would give your client assurances that its Schedule B
filings will be kept confidential, and not subject to
public viewing.
This Office makes efforts to maintain the
confidentiality of Schedule B information. Our
process is that all confidential documents submitted
to the Registry of Charitable Trusts are kept in
separate electronic “files” that are not available for
public viewing. The Registry staff scans all filings into
the Registry’s automated database, and before
scanning, Registry staff goes through each filing and
removes all confidential data which is then scanned
separately as a “confidential” document. Regrettably,

381
mistakes can take place, though it has been a rare
occurrence.
Also, as an extra precaution, as my letter of October
2, 2013 suggests, your client may submit Schedule B
as a separate mailing to the Registry, or mark
Schedule B with a confidential cover sheet. Your
client is also encouraged to view its filings on our
Attorney General’s website to ensure that no
confidential information has been uploaded to the
public website following its submission of Schedule B.
I hope the safeguards the Registry has in place, and
the extra precautionary steps your client can choose
to take, will alleviate your client’s concerns. We
apologize for any inconvenience that your client may
have experienced.
Thank you for your attention to this matter.
_________________________________________________
From: Bill Hou [mailto:*******]
Sent: Wednesday, April 09, 2014 12:39 PM
To: Bill Hou; Elizabeth Kim
Cc: RCT
Subject: Re: Schedule B
Dear Ms. Kim:
I have not heard back from you regarding my October
9, 2013 e-mail. My client has just received a Second
Request for Schedule B dated April 4, 2013 (copy
attached for your convenience).
I would appreciate a reply to the concerns I have
raised. Thank you for your attention to this matter.
Please note that I have also copied the RCT general email address.

382
Sincerely,
William Hou
Attorney for AAJC
On Wednesday, October 9, 2013 10:16 AM, Bill Hou
<*******> wrote:
On Wednesday, October 9, 2013 10:14 AM, Bill Hou
<*******> wrote:
Dear Ms. Kim:
Thank you for your letter of October 2, 2013 regarding
the confidential version of Schedule B (copy attached
for your convenience).
Some years ago, your office did post the confidential
version of my client’s Schedule B on your public
website, where it remained available for anyone to
access to see the names and addresses of my client’s
funding sources. What assurances does my client
have that this will not happen again? And what
redress does my client have for the disclosure?
Thank you for your attention to this matter.
Sincerely,
William Hou

383
Law Offices of William C. Hou
1100 Connecticut Avenue,
NW, Suite 1200
Washington DC 20036
Cell phone: (***) ***-****
email: ******

115 Chisman
Circle
Seaford, VA 23696
Telephone: (***)
***-****
Facsimile: (***)
***-****

April 11, 2014
Registry of Charitable Trusts
P.O. Box 903447
Sacramento, CA 94203-4470
Re:

Registration Number 091-492
Schedule B

Dear Sirs:
Pursuant to my discussion with Supervising
Deputy Attorney General Elizabeth Kim of your
office, enclosed please find Schedule B from IRS Form
990 for the 2012 fiscal year for Asian Americans
Advancing Justice – AAJC, Inc. (formerly the Asian
American Justice Center, Inc.). This is a confidential
document and should be maintained in files that are
NOT available for access by the general public.
Please confirm that your office has maintained the
confidentiality of Schedule B by contacting me via
email at ******* or by telephone at (***) ***-****. By
way of copy of this letter, I am also informing
Supervising Deputy Attorney General Elizabeth Kim

384
that our Schedule B has been submitted in response
to her letter of October 2, 2013.
Thank you for your assistance in this matter.
Sincerely

William C. Hou
Attorney for AAJC
cc: Supervising Deputy Attorney General Elizabeth
Kim

385

Message
From: Kevis Foley [******]
Sent: 12/18/2013 5:18:03 PM
To: Susan Allen [******]
CC: Anthony Salazar [******]
Subject: RE: Schedule B visible in a 990
FYI, this form was single indexed and was not part of
the scanning process. Someone (not a Seasonal or
Student) who received the form uploaded both the
entire 990 and the Sched B separately as a
confidential doc. Looks like they failed to remove the
confidential info before uploading the 990 doc. I will
fix and reupload.
Kevis Foley, Registrar
Attorney General’s Office
Registry of Charitable Trusts
(916) 324-5498

386
From: Susan Allen
Sent: Tuesday, December 17, 2013 4:22 PM
To: Kevis Foley
Cc: Anthony Salazar
Subject: FW: Schedule B visible in a 990
Hi Kevis, please see below, Susan
From: Anthony Salazar
Sent: Tuesday, December 17, 2013 4:02 PM
To: Susan Allen
Subject: RE: Schedule B visible in a 990
I would let Kevis know so she knows who prepped the
form for scanning.
From: Susan Allen
Sent: Tuesday, December 17, 2013 3:54 PM
To: Anthony Salazar
Subject: Schedule B visible in a 990
I found a Schedule B in the 990 for 013270 Beyond
Baroque Foundation. It is the 2009 990.
There is also a 199 with that 990.
Thanks,
Susan, Office Technician
Attorney General’s Office
Registry of Charitable Trusts
Phone ******

387

Message
From:
Sent:
To:
BCC:
Subject:

Christopher Harryman [******]
8/20/2014 5:06:55 PM
Robert Ralls [******]
Christopher Harryman [******]
FW: Find Confidential Files Marked
Public – MLO Production
Attachments: FindConfidPublic.txt
Hi Bob,
We’ve just stumbled on another class of documents
that should be confidential...they are ones that look
like “Schedule B” or “Schedule of Contributors”. I ran
a query just using “schedule” (catching all lower case,
mixed and all upper, of course) based on the legacy
data in t_ document table and gave the list to Kevis
so she can review and make them private if
appropriate. So, she would like this query that you
wrote to show what it shows now plus any public docs
with the word “schedule” in the same fields that you
are looking for “confidential”. Since there will
occasionally be a red herring (e.g. “Schedule C”),
please order it by upload date descending so that the
newest docs are at the top of the report.

388
Can do?
Thanks,
Chris
From: RCTNotices@doj.ca.gov [mailto:
RCTNotices@doj.ca.gov]
Sent: Monday, August 18, 2014 5:01 AM
To: Christopher Harryman
Cc: Kevis Foley; Robert Ralls
Subject: Find Confidential Files Marked Public –
MLO Production
The latest public confidential documents listing
attached – Please do not reply

389

Schedule B
(Form 990,
990-EZ, or 990PF)
Department of
the Treasury
Internal
Revenue
Service

Schedule of
Contributors
Attach to Form 990, Form 990EZ, or Form 990-PF
Information about Schedule B
(Form 990, 990-EZ, or 990-PF)
and its instructions is at
www.irs.gov//form990.

Name of the organization

CMB No. 15450047

____________

2015

Employer
identification
number

Organization type (check one):
Filers of:
Form 990 or 990-EZ

Form 990-PF

Section:
501(c)(
) (enter number)
organization
4947(a)(1) nonexempt
charitable trust not treated
as a private foundation
527 political organization
501(c)(3) exempt private
foundation
4947(a)(1) nonexempt
charitable trust treated as a
private foundation
501(c)(3) taxable private
foundation

390
_________________________________________________
Check if your organization is covered by the General
Rule or a Special Rule.
Note. Only a section 501(c)(7), (8), or (10) organization
can check boxes for both the General Rule and a
Special Rule. See instructions.
General Rule
For an organization filing Form 990, 990-EZ, or
990-PF that received, during the year,
contributions totaling $5,000 or more (in
money or property) from any one contributor.
Complete Parts I and II. See instructions for
determining a contributor’s total contributions.
Special Rules
For an organization described in section
501(c)(3) filing Form 990 or 990-EZ that met
the 331/3 % support test of the regulations
under sections 509(a)(1) and 170(b)(1)(A)(vi),
that checked Schedule A (Form 990 or 990-EZ),
Part II, line 13, 16a, or 16b, and that received
from any one contributor, during the year, total
contributions of the greater of (1) $5,000 or (2)
2% of the amount on (i) Form 990, Part VIII,
line 1h, or (ii) Form 990-EZ, line 1. Complete
Parts I and II.
For an organization described in section
501(c)(7), (8), or (10) filing Form 990 or 990-EZ
that received from any one contributor, during
the year, total contributions of more than
$1,000 exclusively for religious, charitable,
scientific, literary, or educational purposes, or

391
for the prevention of cruelty to children or
animals. Complete Parts I, II, and III.
For an organization described in section
501(c)(7), (8), or (10) filing Form 990 or 990-EZ
that received from any one contributor, during
the year, contributions exclusively for religious,
charitable, etc., purposes, but no such contributions totaled more than $1,000. If this box is
checked, enter here the total contributions that
were received during the year for an exclusively
religious, charitable, etc., purpose. Do not complete any of the parts unless the General Rule
applies to this organization because it received
nonexclusively religious, charitable, etc.,
contributions totaling $5,000 or more during
the year. . . . . . . . . . . . .
►$______________________
Caution. An organization that is not covered by the
General Rule and/or the Special Rules does not file
Schedule B (Form 990, 990-EZ, or 990-PF), but it
must answer “No” on Part IV, line 2, of its Form 990,
or check the box on line H of its Form 990-EZ or on its
Form 990-PF, Part 1, line 2, to certify that it does not
meet the filing requirements of Schedule B (Form
990, 990-EZ, or 990-PF).
Schedule B (Form 990, 990-EZ, or
990-PF) (2015)
Name of Organization

Page 2
Employer
identification
number

392
Part I Contributors (see instructions). Use
duplicate copies of Part I if additional space is needed.
(a)
No.

--------

(a)
No.

--------

(a)
No.

--------

(a)
No.

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

----------------------------------------------------------------------

$---------------

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

----------------------------------------------------------------------

$---------------

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

----------------------------------------------------------------------

$---------------

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

(d)
Type of
contribution
Person
Payroll
Noncash
(Complete Part
II for noncash
contributions.)
(d)
Type of
contribution
Person
Payroll
Noncash
(Complete Part
II for noncash
contributions.)
(d)
Type of
contribution
Person
Payroll
Noncash
(Complete Part
II for noncash
contributions.)
(d)
Type of
contribution

393

--------

(a)
No.

--------

(a)
No.

--------

Person
Payroll
Noncash

----------------------------------------------------------------------

$---------------

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

(Complete Part
II for noncash
contributions.)

Person
Payroll
Noncash

----------------------------------------------------------------------

$---------------

(b)
Name, address,
and ZIP + 4

(c)
Total
contributions

----------------------------------------------------------------------

$---------------

Schedule B (Form 990, 990-EZ, or
990-PF) (2015)
Name of Organization

(d)
Type of
contribution

(Complete Part
II for noncash
contributions.)
(d)
Type of
contribution
Person
Payroll
Noncash
(Complete Part
II for noncash
contributions.)

Page 3
Employer
identification
number

394
Part II Noncash Property (see instructions).
Use duplicate copies of Part II if additional space
is needed.
(a) No.
from
Part I

--------

(a) No.
from
Part I

--------

(a) No.
from
Part I

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

-------------------------------------------------------------------------

$---------------

-----------

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

-------------------------------------------------------------------------

$---------------

-----------

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

395

--------

(a) No.
from
Part I

--------

(a) No.
from
Part I

--------

(a) No.
from
Part I

-------------------------------------------------------------------------

$---------------

-----------

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

-------------------------------------------------------------------------

$---------------

-----------

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

-------------------------------------------------------------------------

$---------------

-----------

(b)
Description of
noncash
property
given

(c)
FMV (or
estimate)
(see
instruction)

(d)
Date
received

396

--------

-------------------------------------------------------------------------

$---------------

Schedule B (Form 990, 990-EZ, or
990-PF) (2015)
Name of Organization

----------Page 4
Employer
identification
number

Part III Exclusively religious, charitable, etc.,
contributions to organizations described in section
501(c)(7), (8), or (10) that total more than $1,000 for
the year from any one contributor. Complete columns
(a) through (e) and the following line entry. For
organizations completing Part III, enter the total of
exclusively religious, charitable, etc., contributions of
$1,000 or less for the year. (Enter this information
one. See instructions.) ►$.......................................
Use duplicate copies of Part III if additional space is
needed.
(a) No.
from
Part 1
--------

(b) Purpose
of gift

(c) Use of
gift

(d) Description
of how gift is
held

----------------------------------------------

------------- --------------------------------- --------------------------------- ---------------------

397
(e) Transfer of gift

(a) No.
from
Part 1
--------

Transferee’s name,
address, and ZIP + 4

Relationship of
transferor to
transferee

----------------------------------------------------------------------------------

----------------------------------------------------------------------------------

(b) Purpose
of gift

(c) Use of
gift

(d) Description
of how gift is
held

----------------------------------------------

------------- --------------------------------- --------------------------------- ---------------------

(e) Transfer of gift

(a) No.
from
Part 1
--------

Transferee’s name,
address, and ZIP + 4

Relationship of
transferor to
transferee

----------------------------------------------------------------------------------

----------------------------------------------------------------------------------

(b) Purpose
of gift

(c) Use of
gift

(d) Description
of how gift is
held

----------------------------------------------

------------- --------------------------------- --------------------------------- ---------------------

398
(e) Transfer of gift

(a) No.
from
Part 1
--------

Transferee’s name,
address, and ZIP + 4

Relationship of
transferor to
transferee

----------------------------------------------------------------------------------

----------------------------------------------------------------------------------

(b) Purpose
of gift

(c) Use of
gift

(d) Description
of how gift is
held

----------------------------------------------

------------- --------------------------------- --------------------------------- ---------------------

(e) Transfer of gift
Transferee’s name,
address, and ZIP + 4

Relationship of
transferor to
transferee

----------------------------------------------------------------------------------

----------------------------------------------------------------------------------

*****

399

From: Eric K. Gorovitz [******]
Sent: 7/3/2012 10:10:25 AM
To:
Belinda Johns [******]
CC: Rosemary E. Fei [******]
Subject:
RE: Request to remove posted Form
990, Schedule B
Attachments:
sfgb-logo_color-horizontal125px.gif; IMAGE.gif; IMAGE.gif
Belinda,
That’s what we figured. We’ll let our clients know that
they deviate from the standard forms at their peril!
Thanks again,
Eric
_____________________
Any tax advice contained in this email was not
intended to be used, and cannot be used, for the
purpose of avoiding penalties that may be imposed
under federal tax law. A taxpayer may rely on our
advice to avoid penalties only if the advice is reflected
in a more formal tax opinion that conforms to IRS
standards. Please contact us if you would like to
discuss the preparation of a legal opinion that
conforms to these rules.
Eric Gorovitz

400
Adler & Colvin
235 Montgomery Street, Suite 1220
San Francisco, CA 94104
Phone: ******
Fax: ******
Email: ******
Web: www.adlercolvin.com
___________________________
The information in this e-mail message and any
attachments may be privileged, confidential, and
protected from disclosure. If you are not the intended
recipient, any use, dissemination, distribution, or
copying of this transmission is strictly prohibited. If
you think that you have received this e-mail message
in error, please e-mail the sender at ******, and delete
all copies of this message and its attachments, if any.
Thank you.
_________________________________________________
From: Belinda Johns [mailto:******]
Sent: Tuesday, July 03, 2012 9:53 AM
To:
Eric K. Gorovitz
Cc:
Rosemary E. Fei
Subject:
RE: Request to remove posted Form
990, Schedule B
The Registrar says the reason staff missed it when
preparing that 990 for scanning was that it was a
hand-written page, not on the form. Of course, it was
clearly labeled Sched B but staff is pretty focused on
just looking for the form.

401
Don’t ever hesitate to contact me when urgent issues
arise. Registry staff does their best but are
overwhelmed with the volume of paper, email and
voice mail.
Belinda
>>> “Eric K.Gorovitz” <******> 7/3/2012 9:27 AM
>>>
Many thanks for this prompt response -- we
appreciate your help!
______________________
Any tax advice contained in this email was not
intended to be used, and cannot be used, for the
purpose of avoiding penalties that may be imposed
under federal tax law. A taxpayer may rely on our
advice to avoid penalties only if the advice is reflected
in a more formal tax opinion that conforms to IRS
standards. Please contact us if you would like to
discuss the preparation of a legal opinion that
conforms to these rules.
Eric Gorovitz
Adler & Colvin
235 Montgomery Street, Suite 1220
San Francisco, CA 94104
Phone: ******
Fax: ******
Email: ******
Web: www.adlercolvin.com
___________________________
The information in this e-mail message and any
attachments may be privileged, confidential, and
protected from disclosure. If you are not the intended

402
recipient, any use, dissemination, distribution, or
copying of this transmission is strictly prohibited. If
you think that you have received this e-mail message
in error, please e-mail the sender at ******, and delete
all copies of this message and its attachments, if any.
Thank you.
_________________________________________________
From: Belinda Johns [mailto:******]
Sent: Tuesday, July 03, 2012 9:16 AM
To:
Eric K. Gorovitz
Cc:
Rosemary E. Fei
Subject:
Re: Request to remove posted Form
990, Schedule B
It will be done within the hour.
>>> “Eric K.Gorovitz” <******> 7/2/2012 5:19 PM
>>>
Ms. Johns,
I hope this finds you well. I am contacting you directly
at the suggestion of Rosemary Fei. We have a pressing
concern that requires immediate attention, and we
understand that the Registry of Charitable Trusts can
take up to three business days to respond to inquiries
made via phone or the online e-mail form.
We have discovered that the Registry has posted the
complete Form 990, Schedule B (for FYE June 30,
2009), including all of the names and addresses of
hundreds of donors, to the publicly accessible record
for our client, Planned Parenthood Affiliates of
California, Inc. (registration number 017023).

403
You have indicated that although the Registry
requires the complete, unredacted Form 990,
including Schedule B, to be submitted with Form
RRF-1, the Registry’s policy is to remove Schedule B
before posting Form 990 online for public access. That
did not happen in this case, perhaps because the
information requested on Schedule B, though clearly
labelled as such, was submitted in an atypical format.
We ask for your help in getting this information
removed immediately from the publicly accessible
database. As you might imagine, the unintended
public availability of this information is potentially
damaging to both our client and its donors, and the
longer it remains available, the greater the risk it
poses.
Please let me know if you need any more information,
and thank you for your help.
Best regards,
Eric
Any tax advice contained in this email was not
intended to be used, and cannot be used, for the
purpose of avoiding penalties that may be imposed
under federal tax law. A taxpayer may rely on our
advice to avoid penalties only if the advice is reflected
in a more formal tax opinion that conforms to IRS
standards. Please contact us if you would like to
discuss the preparation of a legal opinion that
conforms to these rules.
Eric Gorovitz
Adler & Colvin
235 Montgomery Street, Suite 1220
San Francisco, CA 94104

404
Phone: ******
Fax: ******
Email: ******
Web: www.adlercolvin.com
___________________________
The information in this e-mail message and any
attachments may be privileged, confidential, and
protected from disclosure. If you are not the intended
recipient, any use, dissemination, distribution, or
copying of this transmission is strictly prohibited. If
you think that you have received this e-mail message
in error, please e-mail the sender at ******, and delete
all copies of this message and its attachments, if any.
Thank you.
CONFIDENTIALITY NOTICE: This communication
with its contents may contain confidential and/or
legally privileged information. It is solely for the use
of
the
intended
recipient(s).
Unauthorized
interception, review, use or disclosure is prohibited
and may violate applicable laws including the
Electronic Communications Privacy Act. If you are
not the intended recipient, please contact the sender
and destroy all copies of the communication.

405

Message
From: Christopher Harryman [******]
Sent: 10/26/2015 8:15:42 AM
To:
Robert Ralls [******]; Bassam Abughazaleh
[******]; Charles Penn [******]; Kimi Ronay
[******]
CC: Tania Ibanez [******]; David Eller [******]
Subject:
non-Public docs available via
internet/Verification
Attachments:
Verification_non_public.txt
Importance: High
Folks,
I had previously thought that non-Public docs were
unavailable via Verification/internet even if someone
had the necessary data that constructs the URL (e.g.
name of file and the document ID). . . I don’t recall
how the last version of Verification did this. However,
for some reason it occurred to me this morning on the
way to work to double-check this.
It turns out that non-Public docs are available via
internet as long as someone uses the document ID
generated by our system when a doc is stored. I used
docs associated with 119220 to test . . . attached.
Bob had told me prior to this upgrade that SA told
him that this latest version of Verification would not

406
allow the harvesting of ‘public’ docs like was done en
mass recently but I noted in testing that that wasn’t
the case. However, now it also appears that if
someone creates an algorithm to generate document
IDs that fit our pattern/sequence, they could
automatically harvest non-Public documents as well.
Even if one isn’t that sophisticated, if a search engine
indexes a doc erroneously marked as Public, it will
still be available by that harvested URL even after it
is changed to non-Public within MLO.
Is there some safeguard in place that I am not aware
of (or forgetting) that prevents/helps with either of
these situations?
Thanks,
Chris

407

State of California
Office of Administrative Law
In re:
Department of Justice
Regulatory Action:

NOTICE OF
APPROVAL OF
REGULATORY
ACTION

Title 11, California Code
Government Code
of Regulations
Section 11349.3
Adopt sections:
Amend sections: 310, OAL Matter Number:
2016-0525-03
312, 999.1
Repeal sections:
OAL Matter Type:
Regular (S)
In this regulatory action, the Department amends.
sections in Title 11 of the California Code of
Regulations to provide circumstances under which
confidential donor information may be disclosed.
Further, the amendments add that the Registry of
Charitable Trusts Fund shall be used to enforce the
registration and reporting provisions.
OAL approves this regulatory action pursuant to
section 11349.3 of the Government Code. This
regulatory action becomes effective on 7/8/2016.

408

Original: Kamala D. Harris
Copy: Melan Noble

409

410
TITLE 11. LAW
DIVISION 1. ATTORNEY GENERAL
CHAPTER 4. REGULATIONS ADOPTED
PURSUANT TO THE SUPERVISION OF
TRUSTEES AND FUNDRAISERS FOR
CHARITABLE PURPOSES ACT
§ 310. Public Inspection of Charitable Trust Records.
(a) The register, copies of instruments and the reports
filed with the Attorney General, except as provided in
subdivision (b) and pursuant to Government Code
section 12590, shall be open to public inspection at the
Registry of Charitable Trusts in the office of the
Attorney General, Sacramento, California, at such.
reasonable times as the Attorney General may
determine. Such inspection shall at all times be
subject to the control and supervision of an employee
of the Office of the Attorney General.
(b) Donor information exempt from public inspection
pursuant to Internal Revenue Code section 6104
(d)(3)(A) shall be maintained as confidential by the
Attorney General and shall not be disclosed except as
follows:
(1) In a court or administrative proceeding
brought pursuant to the Attorney General’s
charitable trust enforcement responsibilities; or
(2) In response to a search warrant.
Note: Authority cited: Sections 12587 and 12590,
Government Code. Reference: Section 12590,
Government Code.
§ 312. Use of Annual Registration Fee.

411
Annual registration fees paid pursuant to
Government Code section 12587 and section 311 of
this chapter, and registration or renewal fees paid
pursuant to Government Code sections 12599,
12599.1 and 12599.2, and the Registry of Charitable
Trusts Fund established pursuant to Government
Code section 12587.1, shall be used solely to operate
and maintain the Attorney General’s Registry of
Charitable Trusts, to and provide public access via
the Internet to reports filed with the Registry of
Charitable Trusts in the office of the Attorney
General, Sacramento, California., and to enforce the
registration and reporting provisions.
Note: Authority cited: Sections 12586 and 12587,
Government Code. Reference: Sections .12585, 12586,
12587, 12599, 12599.1 and 12599.2, Government
Code.
TITLE 11. LAW
DIVISION 1. ATTORNEY GENERAL
CHAPTER 15. ATTORNEY GENERAL
REGULATIONS UNDER NONPROFIT
CORPORATION LAW
§999.1. General Provisions and Definitions.
(a) Giving Notice to and Submitting Requests to
Attorney General; When Notice or Request is Deemed
“Filed with Attorney General.”
For purposes of giving notice to the Attorney
General or submitting requests for approval or other
action to the Attorney General pursuant to any of the
subsections contained in sections 999.2 through 999.5
of these regulations, all notices and requests shall be
submitted in writing at the office listed below which
is located nearest to the principal office of the

412
corporation on whose behalf the notice or request is
submitted.
Attorney General, Charitable Trusts Section
455 Ggolden Ggate Aavenue, Ssuite 11000
San Francisco, California 94102-7004
Attorney General, Charitable Trusts Section
300 Ssouth Sspring Sstreet
Los Angeles, California 90013-1230
Attorney General, Charitable Trusts Section
1300 I Sstreet
Pp.Oo. Bbox 944255
Sacramento, California 94244-2550
Written notices or requests shall be deemed filed
with the Attorney General when the notices or
requests are received at the Office of the Attorney
General with the information required by sections
999.2(ef), 999.3(e), 999.4 and 999.5 of these
regulations.
... (Omitting subsections (b)-(d))
(e) Public Files, Notices, and Requests for
Approval by Attorney General To Be Maintained in
Public Files; Attorney General’s Responses To Be
Maintained in Public Files.
A “Public File” is the file of a nonprofit corporation
which contains public documents, including
registration and financial reporting forms filed
pursuant to Government Code sections 12585 and
12586, and which is maintained at the Registry of
Charitable Trusts, Office of the Attorney General,
P.O. Box 903447, Sacramento, California 94203-4470.
A public file excludes donor information exempt from

413
public inspection pursuant to Internal Revenue Code
section 6104 (d)(3)(A).
All notices and requests for approval submitted to the
Attorney General pursuant to the subsections of
sections 999.2 through 999.5 of these regulations
shall became a part of the Public File of the
corporation affected by the proposed action. In the
discretion of the Attorney General, exceptions shall be
made in the case of documents of a confidential or
personal nature (i.e. individual tax. returns,
legitimate trade secret information, personal
resumes, personal loan applications, etc.), where the
corporation or person submitting the confidential
documents separately designates and requests that
such documents not be maintained in the Public File.
The Attorney General’s responses to notices and
requests for approval issued pursuant to the
subsections of sections 999.2 through 999.5 of these
regulations shall become a part of the Public File of
the corporation affected by the proposed action.
... (Omitting subsections (f)-(g))
Note: Authority cited: Sections 5914(b) and 5918,
Corporations Code. Reference: 5142, 5223, 5225, 5226,
5233, 5236, 5238(c)(3), 5617, 5820, 5913, 5914(b),
5918, 6010, 6510(d), 6611(a), 6612(a), 6613(c),
6617(6), 6716(6), 6716(c), 6721(a), 6721(6), 7142,
7223, 7225, 7238, 7616, 7913, 8010;.8510, 8611, 8612,
8613, 8616, 8723, 9230, 9680, Corporations Code.

414
Excerpts from McClave Testimony in AFPF
Trial, Day 2

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA WESTERN DIVISION
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
AMERICANS FOR
)
PROSPERITY FOUNDATION, )
)
Plaintiff,
)
) CASE NO.
vs.
) CV 14-9448-R
)
KAMALA HARRIS, in her
) VOLUME 1
Official Capacity as Attorney
) (Pages 1 - 64)
General of the State of
)
California,
)
Defendant.
)
______________________________)
REPORTER’S TRANSCRIPT OF TRIAL
PROCEEDINGS
COURT TRIAL - DAY TWO

415
LOS ANGELES, CALIFORNIA
WEDNESDAY, FEBRUARY 24, 2016
9:08 A.M.
*****
[11] Q (BY MR. LYTTLE) Dr. McClave, do you
recognize Exhibit 250?
A Yes. This is a copy of my curriculum vitae.
MR. LYTTLE: Your Honor, we would offer
Exhibit 250 into evidence. I believe it’s stipulated to.
THE COURT: 250 in evidence.
(Exhibit No. 250 received into evidence.)
MS. SOICHET: No objection, Your Honor.
Q (BY MR. LYTTLE) Dr. McClave, when you’ve been
qualified as an expert in the past, what areas have
you testified in?
A Primarily statistics and a related field,
econometrics, which is the application of statistics to
business and economic issues.
Q You’ve also been qualified as an expert in data
analysis?
A Well, again, through statistics, yes. All of the cases
that I’ve testified in have involved data analysis.
MR. LYTTLE: Your Honor, we offer Dr.
McClave as an expert in statistics and data analysis.
THE COURT: All right. The examination of the
doctor is as an expert .
MS. SOICHET: We have no objection, Your
Honor.

416
THE COURT: All right.
Q (BY MR. LYTTLE) Dr. McClave, what were you
asked to analyze in this case?
A My assignment was to become familiar with the
registry for [12] charitable trusts and -- I think it’s
called “verification” -- and I was asked to focus on two
tasks in that analysis. The first was to determine
what the registry reflected as far as the Attorney
General’s policy with respect to submission of
Schedule B documents, and the second was to
determine whether there were Schedule B documents
publicly available, confidential Schedule B documents
publicly available on the site.
Q How did you begin that analysis?
A I began by becoming familiar with the site. So I just
got on the Internet, found the site and began to poke
around, began to understand how you pulled up the
site -- the documents for a particular charitable trust
-- I’m sure I started with the Foundation -- and moved
around the site to determine what types of documents
appeared to be out there. Clicked on some documents.
So just generally become -- became familiar with the
site, excuse me.
Q And after you became familiar with the site, what
was the next step you took?
A So the next step was to determine how best to
accomplish my assignment, how best to find out what
the submission policy -- for example, Schedule B -was, which was the first thing I was trying to do. So I
began to think about ways that we could efficiently
examine the documents out there.

417
Q And did you come to any views on how you could
efficiently
*****
[14] vote, the count of what happens when people go
to the polls. We sometimes had trouble in Florida with
that count, but when it’s right, it is a census.
And the other example, Counsel, that we’re all
familiar with is the decennial census conducted by the
U.S. Census Bureau, where the goal is to count the
population of the United States. And again, it’s not a
perfect count, but it’s as close -- it’s much better than
a sample, and it’s as close to perfect as we get. So we
in statistics call those a census.
Q And, Dr. McClave, for your work in this case, were
you ultimately able to obtain a census of the registry
website?
A Yes. We were able to download 99.88 percent of all
documents on the site.
Q Now, Dr. McClave, 99.88 percent is not 100 percent.
Is it still considered a census?
A Yes, it would be. Again, samples are typically just a
few percent of the population. When we get close to a
hundred, just like the U.S. census -- again, there are
undercounts due to certain populations -subpopulations that are difficult to count, like the
homeless. And so, yeah, we consider 99.9 percent a
census.
Q Dr. McClave, you said that in order to take the
census, you had to download every document from the
registry website. How did you accomplish that?

418
A We wrote a computer program that went out to the
site in a
*****
[16] these documents are readily available on the site.
Q How many documents, Dr. McClave, did you end up
downloading?
A Approximately 1.3 million.
Q And from how many individual charity pages did
those 1.3 million documents come from, if you recall?
A It was a little over 420,000 charities. I think it was
422,000 charities and 1.3 million documents.
Q Dr. McClave, when did you download these
documents?
A This work was done in the summer months of last
year, of 2015.
Q And were you able to determine through your
review of the registry when the registry first started
uploading documents?
A Yes.
Q And when was that?
A So I understood, I think from testimony, that the
site had been put up around 2008. And my search of
documents indicated that the earliest documents
were -- there were a few from before 2008, but most of
them were from 2008 forward.
Q Dr. McClave, you mentioned that you did your
initial downloads in the summer of 2015. Did you do
any subsequent downloads?

419
A Yes. We continued -- the search of the site is an
iterative process. It’s not just go out and look and
you’re done. And so we’ve continued to look at the site,
actually
*****
[21] Q Now, Dr. McClave, how do you know you just
didn’t miss any in that time period before third
quarter of 2010?
A Well, because we did exactly the same search. We
used exactly the same search terms in 2008 and 2009
and the beginning of 2010 that we did after Q3, 2010.
So it’s not like we changed methodologies. We used
exactly the same methodology. So I’m quite confident
that there’s -- there are no Schedule B letters prior to
August of 2010.
Q Dr. McClave, has anything else confirmed your
view that there are no Schedule B deficiency letters
prior to August of 2010?
A Yes.
Q What is that?
A There was a letter that I saw -- it might have been
an exhibit to a deposition, I don’t remember. But it
was a letter from the Attorney General that indicated
that there had been no letters prior to -- I think the
letter said September of 2010.
Q Dr. McClave, do you still have that binder in front
of you?
A Yes.
Q Could you turn to Trial Exhibit -- which we’ll mark
for identification Trial Exhibit Number 242.

420
THE COURTROOM DEPUTY: Exhibit 242 is
identified and placed before the witness.
[22] THE WITNESS: I’ve got it.
Q (BY MR. LYTTLE) Do you recognize Trial Exhibit
Number 242?
A Yes. This is the letter to which I just referred.
Q And what do you understand this letter to be?
A I understand this to be a letter from the defendant,
the Attorney General, to counsel for the Foundation.
MR. LYTTLE: Your Honor, we would move for
the admission into evidence of Trial Exhibit Number
242.
MS. SOICHET: Your Honor, I’m going to
object. This is hearsay. It’s also irrelevant.
MR . LYTTLE: Your Honor, it’s a -THE COURT: 242 in evidence.
(Exhibit No. 242 received into evidence.)
MR. LYTTLE: Thank you.
Q (BY MR. LYTTLE) Dr. McClave, what is it in Trial
Exhibit 242 that you were referring to that indicated
to you that your conclusions that the Attorney
General had not provided any Schedule B deficiency
letters prior to August 2010, what is it in this letter
that confirmed that for you?
A Yeah. There’s a paragraph under Roman Numeral
III on page 3, and essentially that is talking about
Schedule B search in the date range of January 1,
2010 to December 9, 2014. And it indicates that that
range -- I’m looking at the last sentence of this

421
paragraph -- predates by eight months the [23]
earliest letter from the Registry of Charitable Trusts
requesting that a charity submit its unredacted
Schedule B.
And then that refers to a footnote, Footnote 2,
which indicates that the earliest letter that the
Attorney General located was September 2, 2010,
which is in conformance -- actually a little bit later,
one month later, than the earliest we found. But it
confirmed for me that the Attorney General also
hadn’t found anything prior to Quarter 3 of 2010.
Q Now, still looking at Trial Exhibit Number 242, do
you understand the Attorney General herself
undertook efforts to identify when Schedule B
deficiency letters were first sent?
A I do have that understanding.
Q Okay. And do you understand that the Attorney
General provided you a list of what she found?
A Yes, I’ve seen that list.
Q How did that list, Dr. McClave, compare to the list
that you were able to develop of Schedule B deficiency
letters?
A In terms of timeframe covered by the list, it was
consistent. But in terms of numbers of letters found,
it was far short of how many we found.
Q Dr. McClave, did you prepare a chart comparing
your list of Schedule B deficiency letters to those that
the Attorney General was able to identify?
A Yes. Yes, this chart shows -- the orange bars are the
8,000 Schedule B letters that we found starting in Q3,
2010 and

422
*****
[25] documents in the database and determine
whether there were confidential Schedule Bs in that
set, which if there were, that meant a member of the
public could access them.
Q Before we go any further, Dr. McClave, do you have
an understanding as to whether all Schedule Bs are
confidential documents?
A I understand that not all Schedule Bs are
confidential.
Q Okay. And which Schedule Bs do you understand
are not confidential?
A I understand those that correspond to private
foundations as opposed to public foundations, the
private foundations’ Schedule Bs, I was told and I
understand, were not confidential.
Q So in your efforts to locate the number of
confidential Schedule Bs on the registry website, did
you take any steps to make sure you excluded those
Schedule Bs from private foundations that would not
be confidential?
A Yes. As part of our search, we searched for terms
that indicated that they were private Foundation
Schedule Bs, and we excluded those from our
analysis.
Q Okay. So for the remainder of your testimony today,
Dr. McClave, is it fair to say that when we’re
discussing Schedule Bs, we’re discussing only your
location of confidential Schedule Bs?
A Yes.
*****

423
[28] A I think -- well, we did a lot of searches, but I
think in terms of turning over documents for
examination by counsel, I think there were four
distinct iterations; the one we’ve already talked about
and three more.
Q Thank you. And based on those four different
results that you turned over, what is the total number
of confidential Schedule Bs that you found on the
registry website?
A 1,741.
Q And, Dr. McClave, you still have that binder in
front of you?
A I do.
Q Could you please turn to Trial Exhibit 56.
THE COURTROOM DEPUTY: Exhibit 56 is
identified and placed before the witness.
THE WITNESS: Okay.
Q (BY MR. LYTTLE) Dr. McClave, can you identify
for the record what Trial Exhibit 56 is?
A Yes. This is the list of the 1,471 Schedule B
documents that we turned over that counsel found
among the 2,200 that contained confidential
information.
MR. LYTTLE: Your Honor, we would move
Trial Exhibit 56 into evidence. I believe it’s stipulated
to.
MS. SOICHET: Yes, no objection, Your Honor.
THE COURT: 56 in evidence.
(Exhibit No. 56 received into evidence.)

424
[29] Q (BY MR. LYTTLE) Dr. McClave, I think we just
want to try to get through this as quickly as possible
with these results. Could you turn in your binder,
please, to Trial Exhibit 134.
THE COURTROOM DEPUTY: Exhibit 134 is
identified and placed before the witness.
THE WITNESS: Yes.
Q (BY MR. LYTTLE) Do you recognize Trial Exhibit
134?
A I do.
Q. Can you identify it?
A This was the set of I think 50 additional Schedule
Bs that were on the site with confidential information,
and it was a result of additional -- the iterative nature
of the search, the additional search terms that we’d
found.
MR. LYTTLE: Your Honor, we would move
Trial Exhibit 134 into evidence. I believe it’s
stipulated to.
MS. SOICHET: Again, no objection, Your
Honor.
THE COURT: 134 in evidence.
(Exhibit No. 134 received into evidence.)
Q (BY MR. LYTTLE) Dr. McClave, could you turn to
Trial Exhibit Number 187, please, in your binder.
A Yes .
THE COURTROOM DEPUTY: Exhibit 187 is
identified and placed before the witness.

425
Q (BY MR. LYTTLE) Dr. McClave, do you recognize
Trial Exhibit 187?
[30] A Yes. This is a set I think of about 100 and -- I
think it’s 185 Schedule Bs that we found subsequent
to my initial report but reported about these in my
supplemental report in January, last month. So this
was just another iteration of the documents.
MR. LYTTLE: Your Honor, we would move
Trial Exhibit 187 into evidence. Again, I believe it’s
stipulated to.
MS. SOICHET: Yes, no objection, Your Honor.
THE COURT: 187 in evidence.
(Exhibit No. 187 received into evidence.)
(BY MR. LYTTLE) Dr. McClave, could you please
turn to Trial Exhibit 188 in your binder.
THE COURTROOM DEPUTY:
identified and placed before the witness.

188

is

Q (BY MR. LYTTLE) Dr. McClave, do you recognize
Trial Exhibit 188?
A Yes. This is the fourth iteration also recorded in my
supplemental report. I think it’s about 35 additional
that we found. I believe these are from the latter part
of 2015.
Q And does the fact that they’re from the latter part
of 2015 have any significance for you?
A Yes. It indicates to me that the issue of publishing
confidential documents was ongoing.
MR. LYTTLE: Your Honor, we would move
Trial Exhibit [31] Number 188 into evidence. Again, I
believe it is stipulated to.

426
MS. SOICHET: Yes, Your Honor, no objection.
THE COURT: 188 in evidence.
(Exhibit No. 188 received into evidence.)
Q (BY MR. LYTTLE) Dr. McClave, if we look at Trial
Exhibit 56, Trial Exhibit 134, Trial Exhibit 187 and
Trial Exhibit 188, does those -- those exhibits
comprise the 1,741 confidential Schedule Bs you were
able to locate on the registry website?
A Yes.
Q Is that number still accurate today?
A No.
Q And what is inaccurate about it today?
A Well, I’ve been made aware that one of the 1,741
was actually a private Foundation document that our
search somehow missed. So it’s actually 1,740.
Q So do you understand as you testify today that the
number of confidential Schedule Bs you were able to
locate through your searches is 1,740 confidential
Schedule Bs on the registry website?
A As of the time of my supplemental report last
month, that’s right.
Q Okay. Dr. McClave, what did the Attorney General
do each time she learned about the Schedule Bs on
these lists?
[32] A In every case, within 24 hours of being made
aware of the list, the documents were gone.
Q And how did you learn that the Attorney General
had taken them down once you identified them as
confidential Schedule Bs?

427
A It was reported in the depositions, for one thing.
And for another, we did some spot-checking, and the
documents were no longer there.
Q Dr. McClave, did the Attorney General’s actions in
taking down those confidential Schedule Bs that you
identified, do those indicate to you that they were, in
fact, confidential?
A To me, it was another confirmation that our
searches were accurate.
Q I just want to be clear, because we’ve gone through
a lot. Is it your testimony that of those 1,740
confidential Schedule Bs that you found on the
registry website, any member of the public could have
accessed them?
A Absolutely. They were clickable.
Q Dr. McClave, did you ever cross-reference your
Schedule B deficiency letter analysis, what you talked
about in the first part of your testimony, with your
Schedule B confidentiality breach analysis you just
discussed?
A Yes. We did a match to see which charities had both
been sent letters and had had confidential Schedule
Bs put out on the site.
Q And what did you find?
[33] A We found 75 instances in which a letter had
been sent requesting a Schedule B, and after that,
after the letter, the Schedule B -- some Schedule B
was put up on the site. So this example that’s on the
screen now for Coachella Valley Rescue Mission, they
were sent a letter asking for the fiscal year 2009 and
2010 Schedule Bs. And later, evidently, the 2010 was

428
provided by the Rescue Mission, and it was one of the
ones we found on the site that any member of the
public could see.
Q I want to make sure I understand this and the
timeline of this. The Attorney General sends out a
letter saying -- a Schedule B deficiency letter saying,
You didn’t provide us your Schedule B; correct?
A Yes.
Q And then the charity provides the Schedule B -confidential Schedule B in response to that?
A Sometimes, yes.
Q And these cases you’re talking about, they did?
A Yes.
Q And then after receiving that confidential Schedule
B, the Attorney General went ahead and posted it to
the registry website?
A In some cases they did, yes.
Q And how many examples of that did you find?
A We found 75, which I reported in my supplemental
report.
Q Dr. McClave, could you turn in your binder to Trial
[34] Exhibit Number 255?
THE COURTROOM DEPUTY:
identified and placed before the witness.

255

is

THE WITNESS: Yes.
Q (BY MR. LYTTLE) Do you recognize Trial Exhibit
Number 255?
A I do.

429
Q What is it?
A This was Appendix J to my supplemental report,
and it is the 75 instances where a Schedule B letter
was sent on -- Schedule B deficiency letter was sent
on one date, and at a later date for the same charity,
a Schedule B was actually -- a confidential Schedule
B was found on the site.
MR. LYTTLE: Your Honor, we would move
Trial Exhibit Number 255 into evidence. Again, I
believe it is stipulated to.
MS. SOICHET: No objection, Your Honor.
THE COURT: 255 in evidence.
(Exhibit No. 255 received into evidence.)
Q (BY MR. LYTTLE) Dr. McClave, the instances that
you’ve been discussing with us this morning , those
involved Schedule Bs listed on the registry website so
that anyone who clicked on the link could download
it; is that correct?
A Yes.
Q Is clicking on links the only way you found
confidential [35] Schedule Bs on the registry website?
A No.
Q Could you elaborate on that?
A So we learned that the identification, if you will, of
documents on the website fell into a sequential
pattern such that there were gaps in the sequence.
And we learned that there were certain -- I’ll call them
unlinked documents, documents that were not
clickable. But if you changed the address slightly, the

430
web address called the URL, a document might come
up.
Q Do you have an example that you could use to
explain that more?
A I do. So in this example, if you went on the site and
you typed in Pregnancy Counseling Center of Ukiah,
up would come this, to be clicked upon, the site name.
And then this is an example of what the page looks
like after you’ve reached the site. And at the bottom
of these pages, see all these documents? Those are
clickable documents that you can click and see the
document.
But if you hover over any one of these, as is being
shown here, IRS Form 990, 2006, notice in the upper
right -- and I’ve highlighted it -- there’s a number, a
document ID. And focus on the last several digits of
-- this is Document 22. If you move down one
document, now you’re at IRS Form 990 for 2008, and
you can see that it’s got the very next number in the
[36] sequence, 23.
Now, if you come down one more and hover over
that, 24 doesn’t come up, but 26 does. So there’s a gap
in the URL numbers, which caused us to be curious
about what happened to 24 and 25. They are missing.
So what we did was we put the 4 in there, changed
the 3 to a 4 to see if there’s a document there. And lo
and behold, in this particular case, it was a Schedule
B confidential document. So just by changing one
number in the URL, we discovered still another
Schedule B.

431
Q This example, Dr. McClave, is for one charity. Did
you find the same pattern existed with other
charities?
Yes.
Q How many of them?
A Well, we did a random sample of 50 of these -- I’ll
call them gaps in the URLs. And among those 50 -- I
mean, Counsel, there were some 800,000 gaps in
total. So rather than look at them all, we just looked
-- we started by looking at a random sample of 50. And
in those 50, we found -- I think it’s the next slide down.
Yeah. This is what we found. 33 of them didn’t have
any documents; they just returned an error message.
17 returned actual documents, and four of those were
Schedule Bs.
So we verified that there were more out there like
the one we just saw for the pregnancy center. And as
this says, we [37] stopped testing when we realized
that these unlinked URLs were returning
confidential documents.
Q Okay. Dr. McClave, you’ve discussed how you
identified this by looking at patterns in the URL
numbers; correct?
A Yes.
Q Is it your view that anyone researching a charity
could have found those patterns?
A Sure, yes.
Q What do you base that on?
A Well, again, the numbers are in a sequence, and
there have been examples of this kind of thing
happening with large companies. Delta Airlines had

432
a similar problem when it was discovered by a
member of the public that if he or she changed the
URL number by one or two while looking at her
boarding pass, she found that, in fact, a boarding pass
of someone else showed up on the screen. So within 24
hours after this was reported to Delta, they fixed the
problem and you couldn’t do that anymore.
And there have been several others. CitiBank had
an issue with credit cards where if I were on the site
-- confidential site looking at my credit card
information, I could change the URL and see
somebody else’s credit card information. And like
Delta, once that was discovered, they fixed it. But
there have been a number of -- I’ll call them infamous
instances in which these URLs, these unlinked URLs
actually contained information [38] that they
shouldn’t.
Q Did you ever come to find out whether this was, in
fact, a security error on the registry website?
A Yes.
Q And how did you come to that understanding?
A Mr. Harryman’s deposition in which he was asked
about this issue and said that he had independently
discovered this URL problem and said, as this -- as is
indicated here, that -- remember I said there were
about 800,000 gaps that we didn’t -- that we thought
existed. Apparently, he found about 400,000
documents out there and testified that they’d all been
taken down, I think it was early November of 2015.
But prior to that, there had been confidential
documents out there.

433
Q Do you have an understanding as to how the
security error on the registry website happened?
A Well, my understanding is that -- that the vendor
who was contracted to set the site up simply did not
do what is now done, which was block those unlinked
URLs.
Q And did I understand you correctly that the 400,000
-- more than 400,000 confidential documents that
were affected by this URL issue, are those still
accessible today?
A No. This was fixed in -- according to Mr.
Harryman’s testimony, in November of 2015.
Q And did you test that?
A Yeah. We went back out and looked for our 50 that
-- it’s [39] the top -- that I talked about at the top of
this slide, and they were all gone.
Q Based on this information, Dr. McClave, is it your
opinion that any member of the public could have
used a web browser to access any of the Attorney
General’s more than 400,000 confidential documents?
A Yes.
Q Dr. McClave, you talked today about thousands of
confidential Schedule Bs you’ve located on the
registry website. Do you have any reason to believe
that the registry has fixed the problem?
A No.
Q Why not?
A Well, first of all, we continued to find issues right
up until my supplemental report in January. We
continued to find -- I think one of the four exhibits

434
that we just talked about, the last one. But I also have
continued to do some searches right up until last
night, and just in the last week or 10 days I found
another 40 Schedule Bs.
Q Okay.
*****
[42] Exhibit Number 185, as you just testified, it lists
a number of other different types of confidential
documents other than just Schedule Bs; correct?
A Yes.
[AG Objection: (42:5-42:21) 106; 402; 403; 901; F]
Q And did you look for any of these other confidential
documents on the registry website other than
confidential Schedule Bs?
A I did.
Q And what did you find?
A Well, I didn’t do nearly as fulsome a search as I did
for Schedule Bs. I put some of these terms in just to
see if there were any hits , any documents out there,
and I found something over 1,500 documents just
doing a quick search.
Q So doing a quick search, you found another roughly
1,500 confidential documents?
A Yes, sir.
Q And these 1,500 more confidential documents you
located, those are in addition to the 1,740 confidential
Schedule Bs you’ve already testified about?
A Yes. These were not -- I excluded Schedule Bs from
this search.

435
*****
[44] Q (BY MR . LYTTLE) Dr. McClave, as you sit
here today, do you believe you could keep searching
for more confidential documents on the registry
website?
A Oh, absolutely. Again, these last two exhibits that
we just talked about were results of pretty quick
searches, so I’m confident that the problem hasn’t
been resolved.
Q Thank you, Dr. McClave.
*****
[61] A No, absolutely not. Again, there’s the word
“document ID equals,” and those IDs are sequential.
So the fact that something before that might have
changed I think is unimportant. The important thing
is it’s easy to recognize that there’s a sequence here,
and in this case, it’s easy to recognize that there’s
missing numbers in the sequence.
Q And that sequence stays the same regardless of how
the document has changed and what the effect of that
saving has on the URL prior to that sequence?
A Right. I mean, most of the time, Counsel, if you
hover over sequential documents in the -- for most
charities, the numbers just go 22, 23, 24, 25, 26. So
this is not the usual, but there are a large number of
instances in which you find this kind of gap. And, you
know, that just becomes apparent once you start
understanding the site.
Q The sequence stays the same?
A That’s right.

436
Q And because that sequence stays the same, the
pattern you’ve identified and discussed also stays the
same?
A Yes.
Q And readily ascertainable by the public?
A Absolutely.
*****

437
Excerpts from Deposition of
Thomas Monaghan

UNITED STATES DISTRICT COURT
IN THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THOMAS MORE LAW CENTER,
Plaintiff,
Case No. 2:15-CV-03048-R-FFM
vs.
KAMALA HARRIS, in her Official
Capacity as Attorney General of
the State of California,
Defendant.
_________________________________
The Telephonic Deposition of THOMAS
MONAGHAN
Taken at 24 Frank Lloyd Wright Drive
Ann Arbor, Michigan
Commencing at 1:05 p.m.
Wednesday, May 25, 2016
Before Renee J. Ogden, CSR-3455, RPR.

438
*****
[30] 21. Let’s look at page 21 first. Do you see the part
on 21 that says grants and contributions paid during
the year?
A. Yes.
Q. Below that there’s a list that continues for several
pages, correct?
A. Yes.
Q. At the top of the page number 23, there’s an entry
that says Thomas More Law Center. Do you see
that?
A. Yes.
Q. And there’s an address there 3475 Plymouth Road
in Ann Arbor, Michigan. Do you see that?
A. Yes.
Q. Do you recognize that address?
A. That might be the location of their office in the
early stages.
Q. That’s not in Domino Farms, correct?
A. True.
Q. But you remember when the Thomas More Law
Center had an office some other place?
A. Yes.
Q. The amount there for the contribution to the
Thomas More Law Center is $1,221,513, correct?
A. It looks like $122 million.
Q. I don’t believe so. You can mark some commas on
your [31] document if it’s helpful. It looks like

439
there’s just seven digits there to the left of the
decimal point to me.
A. You are right. Minor difference.
Q. It seems like a lot to me. You can put that
document aside and look at the document that is
marked as Exhibit 55. Does that one have the
year 2002 in the top right-hand corner of the first
page?
A. Yes.
Q. This is for the Ave Maria Foundation?
A. Yes.
Q. If you turn to page 12, you will see a black box
that is covered by a signature. Can you confirm
whether or not that signature is also Mr. Paul
Roney?
A. Yes.
Q. If you can turn to the page numbered 18 at the
bottom. Do you see that this document also
provides a list of grants and contributions paid
during the year?
A. Yes.
Q. As part of that list, on page 19 in the middle of the
page there is another distribution to the Thomas
More Law Center, correct?
A. Yes.
Q. And this time it’s for $1,374,715, correct?
A. Yes.
[32] Q.
You can put that document aside and
look at Exhibit Number 56. This one is for the

440
year 2003 as reflected in the upper right-hand
corner, correct?
A. Correct. I said yes.
Q. I’m sorry. I didn’t hear you. This is for the Ave
Maria Foundation?
A. Yes.
Q. If you turn to the page that would be number 12,
there is a signature. Once you have had a chance
to look at it, could you tell us whether that is Mr.
Paul Roney’s signature?
A. Yes.
Q. Turn to the page number 19. Once again there is
a list of grants and contributions made during the
year, correct?
A. Yes.
Q. As part of that list on page 21, the fourth
organization down from the top, it’s Thomas More
Law Center again, correct?
A. Yes.
Q. And this time the contribution is for $1,003,484?
A. It’s coming down.
Q. It sounds like a lot of money to me.
[33] Q. Before today, did you know that those
contributions to the Thomas More Law Center
were publicly available?
A. I wasn’t aware of it.
Q. Have you ever experienced any trouble,
harassment, threats, harm because anyone

441
things that you have contributed money to the
Thomas More Law Center?
*****
A. One case comes to mind. It had to with -- I believe
it was Massachusetts quite a few years ago. There
was a murder of a 12-year old by a homosexual. I
was told that I would be subject to some attacks if
I -- if they took that case. I don’t know if I was, but
I did know that I wound up at the top of a list
shortly after that of the most antigay persons in
the country.
*****
Q. You said as part of your last answer you were told
you could be subject to attack. Who told you that?
A. Dick Thompson.
Q. I’m sorry. I didn’t hear your answer.
A. Dick Thompson.
*****
Q. There was a case that involved the murder of a
12-year-old boy.
A. Yes.
Q. Is it your understanding that the Thomas More
Law Center somehow became involved in that
case?
A. I think they were considering being involved in it
at that time, but I don’t remember.
Q. Do you know how it ultimately -A. Do I know that?

442
Q. I’m trying to find out if you know how it turned
out. Did they, in fact, get involved at some later
time?
A. Did they what?
MR. DANIELS: Did they get involved at some
later time.
A. Yes, there was a suit filed.
BY MR. CALIA:
Q. Do you know who the Thomas More Law Center
represented? Was it the family of the boy?
A. I would assume so.
Q. Okay. After that happened, you mentioned that
you were placed on a list of people who were
considered to [35] be antigay. Apart from that, did
anything else happen? Were there any attacks?
A. I was at the top of the list, not just on the list. I’m
not aware of any. I get a lot of -Q. That list that you talked about, do you know
where that list was published?
A. I don’t remember where it was published.
Q. But it’s your understanding that it was published
somewhere in a newspaper or magazine,
something like that?
A. Yes. I saw the list.
Q. Would this have been in the time when you would
have seen the list on the internet someplace or
more of a print publication?
A. I don’t remember. It was probably a reprint of an
article.

443
Q. I understand that you wouldn’t like to be put on
such a list, but apart from appearing on the list,
did that have other consequences for your
business or recognition that you attribute to being
on that list?
A. I got a lot of mail, but I didn’t see the mail so I
couldn’t tell you.
Q. You had someone on your staff look at the mail or
you put it off somewhere?
A. No. Every piece of mail was answered but I don’t
see
*****
[39] the organization, can you speak of any connection
between the two organizations?
A. That has to do with the complaints or the
cancellations or in general?
Q. Just more broadly. I’m trying to see whether or
not these cancellations relate to the Thomas More
Law Center. I’m not taking a position one way or
the other. I just want to understand how you
think about it.
A. I don’t think -- I’m not aware of any direct
relationship between the cancellations and the
Thomas More Law Center except the timing was,
I believe, just after that particular case that we
were talking about. So any criticism I have had by
the gay community could have been because of
that, being on that list, which I may have been
because of the Thomas More. I don’t know what
other reason I would have been on that list.

444
Q. After you were included at the tope of this list that
you just mentioned, did it change your
philanthropy?
A. Not that I’m aware of.
Q. It doesn’t change which causes you wanted to give
to, right?
A. True.
Q. It didn’t change the method you use to engage in
your philanthropy?
*****
[42] A I want to save souls and clean my own.
Q. Are you are looking for charities that you think
will help you with that goal, correct?
A. Yes.
Q. I think I saw you on video saying you ant to do the
most good you possibly can, right?
A. Yes.
Q. And you have been quoted as saying things like
you want to get to heaven and take as many
people as possible with you. Do you recall saying
things like that?
A. Yes.
Q. And your charitable giving is meant to accomplish
those purposes as best you can, right?
A. Yes.
Q. So if the critics disagree with what you are trying
to do and send you mail or put you on a list or cast

445
you in unfavorable light, is that going to change
your priorities for your philanthropic giving?
A. Well, it hasn’t yet.
Q. And you are not thinking about making a change
now, right?
A. No.
Q. You are committed to the causes that you believe
in?
A. Pardon? I’m permitted -- it was a little choppy.
[43] Q. Committed.
A. I’m committed to give what I believe in? Is that
what you are saying?
Q. Yes.
A. Yes.
Q. Apart from the things that you have told me about
so far, which is this list that you were at the top
of and some mail that your staff has received, are
there other harassing behaviors that you have
been subjected to because of your beliefs?
A. Well, I mentioned the speakers at our Legatus
convention.
Q. I didn’t mean to leave that off the list. Are there
any others that come to mind?
A. I’m not aware of it as of now.
Q. Do you know who Pam Geller is?
A. Would you repeat the name.
Q. Pamela Geller?

446
A. Pamela Geller, I don’t recognize the name
offhand.
[TMLC Objection to 43:20-22 FRE 602]
Q. Have you received any threats or harassments
that mention Pamela Geller to your knowledge?
A. Not to my knowledge.
Q. I want to perhaps refresh your memory about one
other event that happened back when you were at
Domino’s Pizza. I understand that there was a
time when the [44] National Organization of
Women called for a boycott of Domino’s Pizza.
A. You say now?
Q. Yes.
A. Yes, I remember that.
[TMLC Objection to 44:6-14 FRE 801, 802]
Q. Okay. And I read a quote attributed to you in
People Magazine where you said the boycott has
made pro-life people buy even more from us. Do
you recall saying something like that?
A. I said something like that.
Q. You also were quoted as saying, “And even if it
were hurting sales, it wouldn’t change my mind.”
Do you recall saying that?
A. No, but I’m sure I did.
Q. If there were a boycott of your business, it
wouldn’t change your mind in terms of funding
efforts to reduce or eliminate the number of
abortions in this country, correct?
A. If I understood your question, that’s correct.

447
Q. I mean that issue of reducing or eliminating
abortion is something you feel strongly about, is
that right?
A. Yes.
*****

448
Excerpts from Schervish Deposition

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THOMAS MORE LAW
CENTER

)
) Case No. 2:15-CV) 03048-R-FFM
Plaintiff,
)
)
v.
)
)
KAMALA HARRIS, in her
)
Official Capacity as Attorney
)
General of the State of
)
California,
)
Defendant.
)
______________________________)
DEPOSITION OF DR. PAUL SCHERVISH
(Taken by Defendant)
Raleigh, North Carolina
Friday, May 27, 2016
*****

449
[46] how I wanted to organize it, so that was a major
part of the work.
Q. Anything else?
A. No. I mean, that -- that covers the categories.
Q. When you say you restructured the logic of the
argument, could you explain what that means?
A. Very simply, I have four sections in the other
report. This has six. And I just built the argument
piece by piece a little differently, but the same
content. I separated out, you know, so I turned four
sections into six.
Q. Okay. Now, you said at the beginning that you
also wanted to emphasize the religious purpose of
Thomas More Law Center, is that correct?
A. That is correct.
Q. And can you explain to me what you mean by
that?
A. Yes. That in the expert testimony -- our expert
report, excuse me -- one of the Constitutional rights
that people have is freedom of expression of religion.
In the previous case that certainly was part of what
was meant by expanding and protecting liberties, but
in this particular organization they have a specific
focus on one of the key areas of Constitutional rights
and protections in my view.
And so it seemed to me important that the people
[47] that were being protected, the donors, would have
this religious orientation. And so it was a re-enforcing
and added set of principles and concerns that the
donors would have for why they gave, why they wish

450
to remain anonymous, and why they wanted to give
directly to the Thomas More Foundation.
And so it wasn’t just protecting some dimensions
of privacy and rights to privacy under the law, but
these were added and more controversial areas than
even some of the political areas that law firms and
charities participate in or have orientations around or
cultural areas.
Q. Okay. You said something like it was important
to you that in this case the donors have this religious
orientation.
A. No. Excuse me. It’s not important to me that
they have it. It’s important to my report to know that
they have this religious orientation to -- that they
want protected.
*****
So my question to you is how do you know that
donors at Thomas More Law Center have a particular
religious orientation?
[AG Objection: (47:24-48:10) F; 802]
[TMLC Response: FRE 702, 703]
A. Because the Thomas More Law Foundation in
its solicitation letters, which I saw in some of the
*****
[68] war. It was a -- an independent act.
Q. During the Salvador and civil war?
A. By the military, not by the -- any revolutionary.
Q. Now, the Jesuit killings in El Salvador
happened in the ‘80s at some point, correct?

451
A. Uh-huh.
THE COURT REPORTER: Yes?
MS. CRUZ: Yes or no?
A. Yes. Yes.
BY MR. ZELIDON-ZEPEDA:
Q. And the Guatemalan Civil War was also in the
mid ‘80s to late ‘80s, correct?
A. (Witness nods head.)
Q. Was that a yes?
A. Yes. Yes.
Q. And the struggle of the Shining Path in Peru,
that was also in the ‘80s, ‘90s, and maybe continuing?
A. Yes.
Q. And it’s your testimony that theoretically that
background informs your opinion in this case
regarding risks to religious organizations in
American society today, is that correct?
*****
A. It shows what I said before, yes. How intense
[69] religious -- how adding a religious dimension to
your position or an anti-religious position intensifies
the violence in many instances that donors would face
given the controversial nature in our culture of some
of the defending activities and the mission statement
of the Thomas More Law Center.
BY MR. ZELIDON-ZEPEDA:

452
Q. Have you conducted any research on the risks
to religious organizations in American society in the
present?
A. No.
Q. Are you aware of any such research in the field
of sociology?
A. No.
Q. Are you aware of any peer-reviewed research in
any field on the topic of the risk in today’s society to
religious organizations?
A. I know of peer-reviewed articles about the
Israeli -- Israeli Arab conflict.
Q. In American society?
A. No. In -- that spills over to invective -- especially
about potential Arab or Muslim religious activities.
And I cite the ACLU report about the chilling effect,
so it wasn’t peer-reviewed, but it was a contemporary
report by a legal organization, a
*****
[88] Q. On Section B in paragraph -- on page 11
you talk about the alleged link between negative
repercussions and donor desire for anonymity, do you
see that?
*****
A. You said B. I thought you said D. Excuse me.
Yes, I see that. And you asked me?
Q. So my question to you is according to the
research in the field isn’t the predominant reason why
donors want to remain anonymous because they don’t
want to be harassed and hit up for more donations?

453
A. Harassment can include any kind of
harassment today, so it is what becomes inconvenient
to you. If the most inconvenient part for you because
your major donation public yourself is harassment for
other donations because you’ve made your donation
public. If you don’t want to be public, then there’s a
reason for that, and especially if you’re associated
with controversial causes that harassment is not
about being asked for more contributions. That
harassment is by opponents of the causes that you are
contributing to.
Q. You’ve mentioned the term controversial causes
a [89] couple of different times. Can you define what
you mean by that?
A. Yes. Any issue in which people take action first
feel offended by and take action to counter, and that
action is -- an orientation is highly emotionally and
morally and perhaps religiously charged, so when
that opposition -- what defines controversial is
opposition that is highly charged and this is across the
political religious and cultural spectrum.
Q. Can you give me a couple of examples of what
you have in mind when you talk about controversial
causes?
A. Bathrooms for transgender people in North
Carolina, police shootings in Baltimore, and the -- and
in Chicago, and the opposition refusing to provide and
to allow conferences to occur there. A proposition aid
in California. I could -- the -- the case that went before
the Supreme Court by the little sisters of the poor
regarding having to provide from their health care.
Q. Contraceptives?

454
A. Abortion and contraception practices, and
defined by the opposition that you could read about
and see in the court case right there. Those are
examples. I mean I could go on and we all know them.
Q. On Section C on page 11 you talk about the
effective technology on repercussions for individuals
*****

455
Excerpts from AFPF Trial Transcript, Day 6

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA WESTERN DIVISION
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
AMERICANS FOR PROSPERITY
FOUNDATION,

)
)
)
Plaintiff,
) CASE NO.
) CV 14-9448
vs.
) -R
)
KAMALA HARRIS, in her
) (Pages 1 Official Capacity as Attorney
) 169)
General of the State of California,
)
)
Defendant.
)
____________________________________)
REPORTER’S TRANSCRIPT OF PROCEEDINGS
COURT TRIAL - DAY SIX
LOS ANGELES, CALIFORNIA

456
FRIDAY, MARCH 4, 2016
10:27 A.M.
*****
[7] THE COURTROOM DEPUTY: Please
raise your right hand.
STEVEN BENJAMIN BAUMAN, DEFENSE
WITNESS, WAS SWORN
THE WITNESS: Yes, I do.
THE COURTROOM DEPUTY: Thank you.
Please take a seat.
Please state your full and true name for the record,
and spell your last name.
THE WITNESS: Steven Benjamin Bauman, Ba-u-m-a-n.
DIRECT EXAMINATION
BY MR. CALIA:
Q.
Good morning, Mr. Bauman. Are you presently
employed?
A.

Yes, I am.

Q.

What do you do for work?

A.
I am a supervising investigative auditor for the
attorney general’s office, charitable trust section.
Q.

How long have you held that position?

A.
I have been the supervising investigative
auditor since 2001.
Q.

What did you do before that time?

457
A.
I worked as an auditor for the same section,
charitable trust section since 1988.
Q.
What positions did you hold during the period
1988 when you became a supervising investigative
auditor?
A.
I started as an Auditor I, became an Auditor II,
III, and
*****
[18] Q Okay. And are you testifying today that, in fact,
is incorrect?
A

That is not incorrect.

Q

That is not incorrect.

So when I asked you the question whether
Schedule B was ever a triggering document to one of
your personal investigations, you told me at
deposition under oath that you could not remember,
correct?
A
That triggered -- I’m not aware of Schedule B
being a document that triggered, that we opened up
an investigation because of the existence of Schedule
B. We have used it to help determine whether we open
up an investigation or not.
Q
Okay. On direct you said you used Schedule B
to open an investigation, right? But just to be clear,
your testimony, that’s true, Schedule B itself has
never been used as the triggering document to open
up an investigation, correct?
A
I’m not aware that Schedule B has ever been
used to -- was the triggering document that we
opened up an investigation strictly because of
Schedule B.

458
Q
Okay. Sir, on direct you discussed some of the
investigations as supervising auditor that your team
has performed over the years, correct?
A

Correct.

Q
Okay. Now, do you recall in discovery when
we asked of defendants for a list of investigations
that implicated
*****
[21] includes these reports, and you again came up
with one instance; am I right?
A.
We went back to Pro Law and took a look at the
assignments. We did not go and take a look and read
every report and memo that had been written over the
last ten years.
Q
As you sit here today, can you think of one
report that you -- or for an audit that you worked on
that specifically mentions Schedule B as an important
document, sir?
A

As I sit here today, I don’t recall.

Q
And you couldn’t at your deposition either in
late October, correct?
A

Correct.

Q
Now, you identified one investigation. You also
asked your team, your team of eight, to go back and
look as well, correct?
A

Correct.

Q
And when they went back and looked -- that
request from us asked for ten examples, right? We
asked for you guys to provide ten examples to us,
didn’t it?

459
A

Yes.

Q
And after your investigators all went back and
searched for ten years going back to 2005, they came
up with around five investigations only; is that right?
A
The request was from our section, as I
understand it, and the auditors came up with
approximately five, and I think the
*****
[TMLC Objection to 22:22-23:25; TMLC Motion
in Limine (ECF 70)]
[23] Q You told me a rough average, at least for your
team of L.A., because that’s all you keep track of,
correct?
A

Correct.

Q

So that’s the five auditors in L.A., correct?

A

Correct.

Q

Not the three in San Francisco, correct?

A

Correct.

Q
So of those five auditors, average two to three
audits per month, new investigations. You told me
that.
A

Yes.

Q

If we average that out, it’s 36 per year, fair?

A

Fair.

Q

Over a ten-year period, 360 then, correct?

A

240 to 360.

Q
240 to 360 at the high end, but that doesn’t
account for what San Francisco did, right?

460
A

Correct.

Q

And they do their own audits, too, correct?

A

Correct.

Q
There’s a couple three, maybe a little bit less,
but maybe 180 if we cut it in half, fair?
A

Fair.

Q
Total, we are probably talking 540 or more
potential investigations?
A

Potential.

[24] Q Right. And you, sir, identified one that
implicated Schedule B, right?
A

Yes.

Q
And your team came up with five in total,
correct?
A

That they recall the specific use of Schedule B.

Q
Right. And so if we do that math and take 5 and
divide it by 560, that’s less than 1 percent of the time,
isn’t it?
A

Yes.

Q
Okay. Now, I want to focus on your
investigations, sir, because we spent some time with
that at your deposition. And I don’t want to belabor
the point, but it’s true, is it not, that for the one
investigation that you identified for this case, you
could have, quote, probably completed it even without
Schedule B, true?
A
We could complete our investigations if you
took away many of the tools that we have. We just
wouldn’t be as effective or as efficient.

461
Q
Again, my question was very simple. We went
over this before. You testified that you could have
completed that one investigation that you recalled
using Schedule B even without the Schedule B, true?
A

Yes, but not as efficiently.

Q
Okay. But the answer is “yes,” correct, to my
question?
A

Correct.

*****
[25] Q Do you know whether the registry itself uses
Schedule B?
A
Well, you asked if I know anything they do. I
know they scan them. I know they upload them. I
know they collect them.
Q
Do you know where they put the information
from Schedule B to use in any way? The answer is
“no,” correct?
A

I don’t know that they do.

Q
Okay. You understand that the charitable trust
section oversees something like a hundred thousand
charities, right?
A
There are, my understanding, over 90,000
charities registered with us. That doesn’t cover the
charities that we still oversee that are not required to
register with us.
Q
Fair enough. I only want to focus on the ones
that are registered.
So your best recollection is some 90,000 plus?
A

Correct.

462
Q
Now, you also understand that every year the
charitable trust section requires those who want to
remain active to file renewal registration, right?
A

Correct.

Q
It’s your understanding that tens and tens of
thousands of those charities file those documents?
A

Correct.

[26] Q Okay. And, in fact, we heard yesterday from
Ms. Foley in her last year, 2014, it was some 60,000
plus?
A

I don’t know what that number is.

Q
Do you have any reason to dispute that number
if she said it?
A

No.

Q
Okay. So it’s also true as the investigative
branch, you guys don’t review those documents as
they come in, correct?
A
You are asking if we review all the documents
the registry gets?
Q

Right, the 60,000 that come in.

A

We do not.

Q
You do not check to see if the form 990s are
filed, correct?
A

Correct.

Q
You don’t check to see if there’s Schedule B in
there, correct?
A

Correct.

463
Q
The registry just collects that universe of
documents from every charity, the good, the bad and
the ugly, and just holds on to those documents,
correct?
A

Correct.

Q
And if ever you look at the documents, it’s only
when a complaint comes in, fair?
A

Yes.

[27] Q Mr. Bauman, you testified that you have been
with the charitable trust section from 1988 through
today?
A

Correct.

Q

So roughly 27, 28 years?

A

Yes.

Q
And you were supervising investigating
auditor from 2001 to -- or to today, about 15 years?
A

Correct.

Q
Now, sir, you’ve reviewed some form 990s along
the way; is that true?
A

Yes.

Q
And you have reviewed form 990s in connection
with audits that did not include Schedule B; isn’t that
true?
A

Yes.

Q
And you noticed, in fact, many form 990s do not
include Schedule B?
A

Correct.

464
Q
You still successfully audited those charities,
correct?
A

Yes.

Q

Found wrongdoing in some cases?

A

Yes.

Q

Without the Schedule B, correct?

A

Correct.

Q
And even when a supervising investigative
auditor, you notice Schedule Bs were missing along
the way, many of them, [28] you never told the
registry that they need to make sure they are
collecting those Schedule Bs, right?
A
For organizations that we are currently
investigating, if a Schedule B is missing, have I
contacted the registry to say, “Go get it”?
Q

Right.

A
No. At that point I would contact the
organization myself.
Q
Fair enough. But on top of that, I’m generally
asking, you’ve noticed over your tenureship that
Schedule Bs are missing from form 990s?
A

Yes.

*****
Q
You have been there a long time, and you’ve
noticed it, and you’ve been the auditor, but you never
told the registry, the attorney general or even the
deputy attorney general, “I noticed these are missing.
We need to make sure we are getting them so I can

465
successfully audit these charities,” you have [29]
never said that, right?
A
The registry’s goal is to collect the 990 and the
schedules that are required to be attached to it. I -Q
Mr. Bauman, I think that’s a yes-or-no
question.
A
I assume they’re doing their job. I have not
contacted them to say, “You need to go get Schedule
Bs on every organization.”
Q
Now, you did mention a moment ago that you
contact charities after you do an investigation to ask
for documents, and you spoke about that on direct,
correct?
A

Correct.

Q
Okay. It’s true -- well, let me ask this: Has
there ever been an instance where you asked a charity
for their form 990 and they refused to provide it?
A

Not that I recall.

*****
[30] Q My question is: Do you know of an instance
where there is a Schedule B out there, you have asked
for it, and it hasn’t come back?
A

No.

Q

You aren’t aware of that happening.

It is also true in this audit process, Mr.
Bauman, that it is the general practice of your team
to send an audit letter very early on in the process to
obtain documents; isn’t that true?
A

Yes.

466
*****
THE COURT: All right. Mr. Bauman, what
information did you get in the case where you used -where you used Schedule B?
THE WITNESS: The case that I was involved
in where we used Schedule B, we were able to
determine that the corporation who was connected to
and funding a for-profit had given funds to the
foundation but were not the sole contributor. And
funds that the foundation was using for the [31]
benefit of the for-profit corporation, it was also public
funds that were benefitting the for-profit corporation.
THE COURT: What information did you get -THE WITNESS: The -THE COURT: -- from the Schedule B?
THE WITNESS: How much
corporation was giving to the nonprofit.
THE COURT: And could the
organization give you that information?

funds

the

nonprofit

THE WITNESS: They could.
THE COURT: Couldn’t they be asked, “How
much did you get from X, Y, or Z?”
THE WITNESS: Yes, it’s more effective and
efficient -THE COURT: What happens in the ones where
Schedule B was not worked, was not used?
THE WITNESS: In cases that we have --

467
THE COURT: In the ones that you had where
Schedule B was not used, where did you get the
information that you talked about just now?
THE WITNESS: From the charity.
THE COURT: From the charity itself?
THE WITNESS: Correct.
THE COURT: All right. So you do not need a
Schedule B to get that information, do you?
--

[32] THE WITNESS: It makes it more efficient
THE COURT: No, I asked you a question. Read
the question to the witness.
(Record read.)
do.

THE WITNESS: To get it up front, I believe we
THE COURT: Counsel -- I mean, Mr. Bauman,
don’t play games with me. Now, answer the question.
THE WITNESS: Can you reread it, please?
(Record read.)
THE WITNESS: No.
*****
[68] Q In your experience the things that have
precipitated investigations are media reports and
complaints, correct?
A

Sorry. Yes.

Q

A Schedule B -- I’m sorry.

A

You didn’t let me finish. Sorry.

468
We do get complaints through media. We get
complaints from various different sources, and
sometimes we get complaints from our own staff who
are solicited at home, so yes.
Q
A Schedule B has never precipitated an
investigation of a charity in that same sense, has it?
A

Yes.

Q

Okay.

A

You’re correct.

Q

Thank you.

of a

And you don’t ever undertake an investigation
*****

469
Excerpts from Deposition of Belinda Johns

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
-----------------------------------------------------x
AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official
Capacity as Attorney General
of the State of California,
Defendant.
-----------------------------------------------------x
VIDEOTAPED DEPOSITION OF
BELINDA JOHNS
DECEMBER 11, 2015
9:26 a.m.
*****

470
[151] occurring.
Q. Is it your view that the confidentiality
measures that the charitable trust section
implemented to keep Schedule Bs confidential
were adequate to keep it confidential?
A. They were adequate if everyone was paying
attention to their role and their job duties.
Q. Do you recall anybody who was not
paying attention to their role and job duties?
A. Well, no one specifically but we certainly had
students who had to be let go because they weren’t
filing things properly or -- or at all. They were eating
candy or something. But that’s unrelated to Schedule
B. I mean, there’s always human error. And the
Registry is staffed by fairly low-level clerks. So while
I thought most of the staff was very dedicated and
very conscientious, that isn’t to say there was never
an error made. But l thought the policy was quite
clear. And -- and the process that we set up.
Q. As you say, there’s always human error?
A. Right.
Q. People are fallible?
A. Yeah.
Q. But to your mind while you were the [152]
Senior Assistant Attorney General, especially in
the automation era, the procedures that the
charitable trust section and specifically the
Registry of charitable trusts had no place to
protect the confidentiality of Schedule B, you
felt those were adequate at the time?

471
A. Based on what I knew then, yes.
Q. You felt they were -- sorry, go ahead.
A. They were devised by Kevis and I don’t know if
she consulted with anyone else, based on what the
automation processes were. And there were checks
and balances because, you know, the documents went
through more than one set of hands. But that isn’t to
say there weren’t errors.
Q. At the time you felt that they were
sufficient to compensate for the fact that there’s
always human error?
A. Yes. Kevis felt they were, and they appeared to
me and I trusted that she understood the processes
because she was the manager and that they were,
therefore, adequate.
Q. And you could have told her to change the
processes if you thought they were inadequate?
A. Yes, I could.
Q. But you never told her that they were [153]
inadequate?
A. I don’t think I ever needed to do that. I don’t
remember a time when I had to do that.
*****
[253] Q. There would not be disciplinary
proceedings and punishment?
A. No.
Q. Why not?
A. It was an inadvertent error.

472
Q. So for inadvertent disclosures of Schedule
B, no punishment is appropriate?
A. Well, I don’t know what you mean by
“punishment.” In order to discipline an employee,
there are stages of notice that have to be given and it
would be for dereliction of duty or -- or -- what’s the
word I’m looking for? Purposeful -- purposefully not
performing their job, and “punishment” is not a word
that’s used.
Q. I’ll change my terminology then.
Is “discipline” the appropriate word for
sanctioning an employee who has acted
inappropriately?
A. If it’s purposeful, yes. If it’s an intentional act.
Or if somebody is simply not doing their job for a
period of time. But again, there are stages of
discipline that have to be followed and those are
managed by another section of the office.
There are a number of different notices that [254]
have to be made and I don’t know -- and the
Charitable Trust Section does not impose discipline.
It’s imposed based on employment regs.
Q. So for -- if an employee in the Charitable
Trust Section needed to be disciplined, you
would refer that out to another section of the
office that handles employee discipline?
A. The Section would -- I can’t remember how
many notices but there -- there has to be a notice of
the wrongdoing. There has to be wrongdoing, not
inadvertent error. And it has to be not -- it could be a
single incident, if it was -- if it was serious
wrongdoing, whatever “serious” means. But there has

473
to be an opportunity to cure. And then there has to be
another notice, as I recall.
We had very few disciplinary actions. But always
managed by the employment law, I can’t remember
the name of the section now. They were the monitors
who walked us through the process. And then there is
a hearing process, the employee can -- can object.
What’s more likely is that if somebody is incapable
of performing a specific job, they’ll be moved to
another position. So if somebody can’t
*****
[AG Objection: (265: 17-280:4) Relevance, FRE
402, 403]
[275] A. That’s what safeguard said.
Q. It was forbidden to upload these paper
documents to an electronic file system?
A. Absolutely.
Q. And you say the IRS would have
permitted electronic uploading if you had the
same electronic safeguards as a revenue
agency?
A. Yes.
Q. Do you recall what those electronic
safeguards are?
A. No they’re really -- really complex and only
revenue agencies have them because they’re intended
to safeguard tax documents.
Q. What are examples of revenue agencies?
A. Franchise Tax Board.

474
Q. So the California Franchise Tax Board
can have electronic copies of these kind of
information received from the IRS?
A. And does.
Q. And does?
A. Yes.
Q. But the Charitable Trust Section doesn’t
have as advanced electronic safeguards as the
California Franchise Tax Board?
A. I don’t believe anybody in the [276] Department
of Justice has that level. They’re quite convoluted,
and apparently it would take two days or more. The
safeguards people would bring out PriceWaterhouse
to audit the data center to make sure all that stuff
was in place. We weren’t getting enough to make that
worthwhile.
Q. And you said at least once a year members
of the IRS safeguard team would come and ask
you questions and check on whether you were
following all of the safeguards?
A. Yes.
Q. For receiving the IRS information?
A. Yes.
Q. And you would also fill out a form that you
would
send
to
the
safeguards
team
documenting, detailing all the measures you
took to implement these safeguards?
A. Yes.
*****

475
Excerpts from Deposition of Tania Ibanez in
Foundation Case

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
-----------------------------------------------------x
AMERICANS FOR PROSPERITY
FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official
Capacity as Attorney General
of the State of California,
Defendant.
-----------------------------------------------------x
VIDEOTAPED DEPOSITION OF TANIA IBANEZ
Los Angeles, California
January 6, 2016
9:38 a.m.

476
*****
[170] the work, most of the research, and then James
and I were just reviewing and talking about, “Okay,
well, what can be added and what should be deleted.”
We went back and forth many times before we
submitted it to the regulations coordinator.
Q. Why did you think the regulation would be a
good idea?
A. Well, I thought that, given, you know, the
litigation that’s going on right now, that it would be a
good idea to memorialize our policy and regulations to
make it clear that we’re going to keep it confidential,
even though I thought it was clear.
Q. Am I correct in understanding from that that
the regulation is meant to memorialize preexisting
policy and practices?
A. Yes.
Q. Not to change them?
A. Not to change them.
Q. Are you able to prognosticate about whether the
regulation is likely to take effect?
A. No.
Q. Because that’s subject to a notice and comment
process that has yet to play out?
*****

477
Excerpts from Deposition of Tania Ibanez in
Law Center Case

IN THE UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THOMAS MORE LAW
CENTER,
Plaintiff,
vs.
KAMALA HARRIS, in her
Official Capacity as Attorney
General of the State of
California,
Defendant.

)
)
)
) Case No.
) 2:15-cv-03048
) R-FFM
)
)
)
)
)
)

------------------------------------------------------------------------DEPOSITION OF TANIA IBÁÑEZ
Los Angeles, California
Friday, June 3, 2016
*****

478
[101] Q. Okay. Figured as much.
Let’s put this aside.
I’ll ask a couple, and then we’ll take the lunch
break, if that’s all right.
Other than through your counsel, did you become
aware of any crash of the Registry’s website that took
place in May of 2016, last month?
A. Yes.
Q. Apart from your counsel, how did that come to
your attention?
A. Actually, it didn’t come from my attorneys. It
came from the Registry.
Q. Tell me about it. Who brought it to your
attention?
A. I received either an email or a phone call - - I
don’t remember which - - from David Eller and Chris
Harryman.
Q. Do you remember the date?
A. No. But it was in May.
Q. Were all three of you on the phone together, or
are they separate calls?
A. I don’t even know if it was a call or if was an
email.
Q. Oh, right.
[102] Well, what did Mr. Eller tell you about the
crash in May?

479
A. I believe it was by email. If I was a betting
woman, I would say it was an email.
Q. Okay.
A. And I believe the sense was that the verification
wasn’t working because somebody was using
verification at such a rate, it amounted to hacking, as
far as I’m concerned, and they wanted to know
whether or not they should shut it down.
They couldn’t -- they were trying to figure out, you
know, where it was coming from. They were trying to
address the issue, and apparently they were having
difficulties.
And so the alternative was, should we shut it
down? And so that was the question they posed to me.
Q. You say “they.”
Did both Mr. Heller and Mr. Harryman pose the
question to you separately?
A. No, I think it was one email from the both of
them.
Q. Oh, all right.
A. Yeah.
Q. I follow you.
[103] And what did you respond? Should it be shut
down or not?
A. I said, “Shut it down.”
Q. I have to ask out of ignorance, what -- when you
said the verification was not working, what does that
mean?

480
A. It means that the Registry search feature
available to the public wasn’t working -- wasn’t
functioning properly.
So we’ve had this experience in the past with
Americans for Prosperity when they hacked into our
system, using a robot to search, and the robot that
they were using to search apparently didn’t follow our
instructions, and it crashed the system.
Q. Okay.
A. And so no one could use the Registry search
function.
Q. I understand you’re not a technologist, and
neither am I.
But was the situation that Mr. Eller and Mr.
Harryman described to you in May similar to the
situation that occurred with Americans for
Prosperity?
A. I think so, but there were slight differences in
the sense that they noticed that the [104] searches
were done by more than one entity or more than one
computer.
And I’m really not the best person to testify about
this. This is way beyond my technical expertise.
Q. I can only ask you for your understanding.
A. But that was my understanding. It was similar
but not the same.
[TMLC Objection: FRE 602; TMLC counterdesignates 104:11-14 only if 104:9-10 are
admitted]
Q. Okay. Has it been resolved now?

481
A. Yes.
Q. Do you know how it was resolved?
A. No. Chris Harryman and Hawkins Data Center
staff would know much more about what happened
and how they fixed the problem.
*****
[122] the 1,400 -- I don’t even want to call it leak, but
the 1,400 charities where the Schedule B was public,
apparently there -- some Congressmen are calling for
Congressional hearings. So that came to my
attention, not through my lawyers.
Q. Okay.
A. And then there was some discussion that the
IRS is contemplating not using the Schedule B in the
future.
Q. Was that independently of the move in
Congress?
A. Yeah.
Q. As a result of those things, and I understand
they haven’t happened yet -A. Yeah.
Q. -- but as a result of those being discussed, have
any contingency plans been made in the AG’s Office
or the Registry for what to do if there is no Schedule
B attached to a Form 990 in the future?
A. No. We haven’t gotten that far.
Q. One last question about the May interruption
of service at the registries.

482
Do you have any information, other than from
your attorney, as to what the source of the [123]
interruption was?
You did describe something, that it was more than
one -A. Yes.
Q. -- computer or person.
But in terms of -- do you know who did it?
A. I think I do.
Okay. You know that it was not Thomas More Law
Center?
A. I do know that.
Q. Now you know it was not Dr. McClave, who was
the expert for Americans for Prosperity?
A. That’s what I heard, yes.
Q. Okay. Is there -- are you able to tell me who it
was you believe was responsible?
A. I think so.
Q. Who do you believe was responsible?
A. I think the Registry staff -- Chris Harryman
thought that it was Goldwater Institute. And this is
speculation on his part. And that’s because we were
able to trace the surges to the charities that were on
Mr. McClave’s list.
So because we had given that list to Goldwater in
response to the public records request, we basically
concluded or assumed that they were [124] searching
so fast to get the unredacted Schedule Bs, which were
not available, but they were trying to, that we

483
assumed they were the ones that were shutting down
our system.
But again, it’s assumption, and I could be wrong.
Q. I understand.
A. It’s just -- you know.
Q. Let’s just pursue it for a moment.
Do you have an estimate of the time -- have they
given you an estimate of the time when Goldwater
received Dr. McClave’s list pursuant to the Public
Records Act request?
A. I think it all happened in May.
Q. And apart from anything you learned from
your lawyer, do you know why Dr. McClave’s list was
provided to Goldwater?
A. I think they wanted to know all the charities
that -- whose Schedule B might have been made
public.
And we said we don’t have a list, but here.
And I know that I’m not saying it very artfully, but
that was the gist of our response. We referred the
organization to that list.
Q. Did you have any concern at the time that [125]
Goldwater might use the list to try to get the
unredacted Schedule Bs and then sell the lists of
donors to others?
A. No, because as soon as we found out from Mr.
McClave that these Schedule Bs could be searched
publicly, within less than 24 hours, we made those
Schedule Bs confidential documents. So we were not
concerned at all.

484
Q. Okay. Was there any evidence you know of that
whoever -- whether it was Goldwater or somebody
else, the person who caused the May disruption was
conducting searches beyond the McClave list?
A. I don’t know. They might have. But I think staff
told me that they thought that that’s what they were
focusing on.
*****

485
Excerpts from AFPF Trial Transcript
Day 5, Vol I

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA WESTERN DIVISION
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
–––
AMERICANS FOR PROSPERITY
FOUNDATION,

)
)
)
Plaintiff,
) CASE NO.
) CV 14-9448
vs.
) -R
)
KAMALA HARRIS, in her
)
Official Capacity as Attorney
) Volume I
General of California,
) (Pages 1-93)
)
Defendant.
)
____________________________________)
REPORTER’S TRANSCRIPT OF TRIAL
PROCEEDINGS

486
COURT TRIAL – DAY FIVE
LOS ANGELES, CALIFORNIA
THURSDAY, MARCH 3, 2016
10:04 A.M.
*****
[6] fundraisers for charitable purposes. I have
registration reporting requirements related to those
laws.
Q How is that work divided among the office?
A It’s separated up programmatically. So for instance,
we have the registration program and the renewal
program, and then we have a delinquency program
and a dissolution program. Those are all related to the
charity registration reporting requirements. And we
have a charitable raffles program, as well as a
commercial fundraiser program. And then sort of a
general front desk area, I’ll call it, for lack of a better
term, that makes sure all the mail gets processed
every day. They sort of supervise the students, set
their schedules, and then they also do all the prepping
of the documents for scanning and oversee that scan
project.
Q And what is the bulk of the work of the Registry of
Charitable Trusts?
A Processing the annual filings that come in for the
charities.
Q How many renewals do you process per year,
approximately?
A The year before I left, it was 60,000-plus.

487
Q And when you started in 2005, how many people
worked in the Registry?
A I want to say there was 17, including myself as a
registrar, and then we had another seven or eight
students.
Q And did that change during your time at the
Registry?
[7] A Yeah. The number of students fluctuates, and
then we also added additional permanent staff over
the time until I left in 2015. I believe there were 25 or
26 permanent staff plus three seasonal clerks and
another seven or eight students.
Q Did that happen -- did that happen over time, or
was there a noticeable change -A It sort of happened over time. We got -- a good
number of additional staff happened during the
budget crisis in California related to when they were
going to be laying off staff in other sections of the
Department of Justice. They moved them into our
area because we’re self-funded, and we could keep
them there and we had room in the budget for them.
Q Approximately when was that?
A I want to say it was like 2009 or ’10.
Q Did you budgets increase during the time that you
were with the Registry?
A The budget did not increase. It’s what they call
spending authority for the state. So but within that
spending authority, you can spend it on however you
want. So, for instance, in the beginning when I
started, most of those extra resources that had got in
the budget in 2005-‘6 budget year were allocated for

488
the automation of the Registry. And then after that,
it sort of got freed up, because it was just on ongoing
renewal process of the contract. And we had room to
hire contractors to help do scanning. We had room
also in the
*****
[17] peak filing times, in May and November, a lot of
the other staff would also have to assist opening the
mail because they just had so much of it. So they
would all open the -- you know, processing, stapling
checks to the forms and putting them into boxes to be
processed.
Q And where do the documents go from there?
A. In the old system or now?
Q. In the old system.
A. In the old system they would just get put into the
paper files on the shelves and manually filed.
Q. How were those paper files organized? How would
they get to the renewals program?
A. Well, once they were processed by -- the forms were
opened and checks were attached, they would go to
the program to be entered. Again, other staff would
help out in that process as well during those peak
filing times. And then once the forms were processed,
they would just get put into boxes to be filed into the
paper files.
Q. And who reviewed the forms?
A. The analysts would review the forms for
completeness.
Q And then who would get the form after that?

489
A After that -- well, it could be either analysts or the
office technicians that were entering the forms. And
then after that, it would be the students that did most
of the filing.
*****
[19] go into the record. They’re going to note the
deficiency. They’re going to generate a letter out to the
organization telling them what they’re deficient in.
And they’re also entering some information in what
we call the ARF panel to say what we did get -- you
know, the information that was there.
And the ones that are deemed to be -- there’s no
deficiencies, they also go into a box to be entered by
staff to complete that renewal process. And those are
done by office techs. They may be entered by analysts,
and they may also be entered by students, depending
on how many they have to enter.
Q And what happens to the documents, the paper
documents after all that information is entered?
A After the information’s entered, they go back into
another -(Reporter admonition.)
THE WITNESS: Sorry.
After the information is entered, the forms are put
back into boxes that go on a shelf. Then those boxes
are soft-sorted by state charity registration number
order.
Q (BY MS. SOICHET) I’m sorry, what does “soft-sort”
mean?
A Soft-sort means there’s a range of numbers on the
box, so they’re just put into the box, like 10,000 to

490
20,000 go in this box for the registration numbers.
Then once they’re soft-sorted, somebody comes and
takes that full box and puts it on the shelf, and they’ll
be ready to be prepped for scanning [20] next. And
once the boxes have been prepped for scanning by the
students or seasonal clerks, then they’re -- everything
-- all the boxes that have public documents are sent
off site to a vendor that scans them and returns a
drive, jump drive, to the Registry. And using that, the
documents are uploaded to the records themselves.
And those boxes of documents, once they’ve been
scanned, get stored off site for three years until
they’re destructed.
Q You said earlier that the documents are prepped for
scanning. What do you mean by that?
A. The documents, the filings are gone through to
remove any confidential information from them.
There are also scan sheets, that the software uses to
identify the document type, are inserted at that time
in between the documents, so that the boxes will have
documents -- usually it’s the R form with the 990
underneath it designates what years those form
filings are, and then the scanning software uses that
to identify what the record type is. They also have the
state charity registration number written on the top
of those front pages of the forms because that gets
entered by scan staff.
Q And who is the staff again?
A. The staff that was doing the prepping of the
documents is -- it’s generally the students and the
seasonal clerks in the office.
Q. Apart from mail, are there any other ways that the
RRF-1

491
*****
[62] right?
A We would not want to put them on the website, no.
Q Okay. And you would want to make sure that that
policy was fulfilled and met and -- all the
requirements met to the best of your ability; right?
A Yes.
Q And the best of your staff’s ability; right?
A Yes.
Q Now, you testified on direct that the people who
were trusted with identifying confidential Schedule
Bs were students and seasonal clerks. Do you recall
that?
A Yes.
Q Not full-time employees; right?
A Well, both. But during the scan prep process, it was
mainly the seasonals and the students that would do
that, along with -- under the direction of permanent
staff.
Q. Under the direction of permanent staff. But the
people who would get the documents to review them,
the vast majority, to see if there are confidential
information on those documents, including Schedule
Bs, were seasonable employees and students; right?
A. Again, during the scan process. But all staff
reviews the forms for completeness, would also see
that information.

492
Q. So this full-time staff would go through and look at
every one of those documents that are being scanned
to check,
*****
[81] A Yes.
Q And you mentioned this -- this -- I think it was a
weekly update that you’d get about problems with
confidential documents on the website?
A Possible -- yes, possible confidential documents that
are public.
Q And can you, sitting here today, identify anybody
else, other than Ms. Rose, who you talked to about the
mistakes that were made?
A Not specifically, no.
Q When you say “not specifically,” do you think that
there were some, you just can’t remember who? Or
you don’t know?
A I’m with staff all the time, so that would be just one
of the things they may have made inaccuracies in and
they would have been talked to about.
Q But there was no discipline brought for any
confidential -- anyone who brought -- who uploaded or
mistakenly posted confidential information; right?
A Not that was let go specifically for schedule -Schedule B, no.
Q Okay. Anybody demoted for Schedule B uploading?
A. No.
Q. Anybody had their pay docked for Schedule B
uploading?

493
A. No.
Q. Anyone get a formal letter in their file for Schedule
B [82] uploading?
A No.
Q. Anybody get an e-mail saying, you know, You
should take this as a warning to cease doing this
because it could have repercussions for you?
A No.
Q And, in fact, I think when -- you were deposed in
this case; right?
A Yes.
Q And I think you said -- and if you don’t recall -- but
that it was just part of the daily work for your staff to
find confidential documents in the public website;
right?
A Not that they -- I’m not sure what you’re asking. I
never said they found them daily, but it was part of
their work to look for -- to see if there were any
inadvertent ones. And the staff had the ability to
make the documents confidential as well. So it’s
possible they came across one themselves and
corrected it. I wouldn’t know about it necessarily.
Q Well, let -- just to -- I’ll read to you something you
said in your deposition; you can tell me if it helps you
recall.
A Okay.
Q There’s a question posed to you, that, When you
look back at your response to an interrogatory, were
you conscious of the fact that there were other
instances beyond those two where

494
*****
[86] Q Okay. So Mr. Harryman is not somebody you
consider to be capable of doing that?
A I don’t believe we thought that we had the ability to
search the documents like that, because of the way
they were uploaded; they weren’t really made
searchable. So I didn’t know you could even do that.
Q Did you ask anybody before you left whether or not
it was possible to do something like that?
A No.
Q Did you ask Mr. Harryman -- or did you confirm
with Mr. Harryman that he did not have the
capability to do that?
A. No.
Q. So this is an assumption again?
A Yes.
Q And is it fair to say that you expect the charities
themselves to check the website to make sure that
their information is not -- their confidential
information is not inadvertently posted?
A Well, I don’t expect them to, but definitely if they
have a concern about it, they would -- I would assume
they would check the website to make sure that that
hadn’t happened.
Q So if they have a concern, then you think they
should check?
A Yes.

495
Q. So if they have a concern, for example, because
they found [87] the Schedule B, they should check;
right?
A If they’re concerned about it happening, yes.
Q. Well, I’m saying -- my first -- not even a
hypothetical because we’ve got examples, is that if
they know -- if they found it, they would come and tell
you, We’re concerned about the Schedule B being up?
A Yeah, I would assume so, if they were worried about
it being posted and they saw it was, that they would
have come to us and told us it was there, yes.
Q And then the charities whose Schedule Bs were
posted -- well, let me ask you this: How would the ones
that had theirs posted inadvertently by your staff,
how would they have found out that their Schedule Bs
had, in fact, been posted?
A Well, they could have looked on our website on their
record and seen it themselves or somebody could have
told them.
Q But not your staff, because you guys didn’t do it;
right? You didn’t tell them?
A That’s correct.
Q So they could have either guessed or just maybe
checked because they just want to be double-sure?
A Yes, if they had a concern, I would assume they
would have checked.
Q And they would have had a concern, you agree with
me, if you had told them that, in fact, for X number of
years or months or weeks or days or hours, your
Schedule B was posted * * * * *

496
Excerpts from AFPF Trial Transcript
Day 5, Vol. II

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA WESTERN DIVISION
HONORABLE MANUEL L. REAL
UNITED STATES DISTRICT JUDGE PRESIDING
AMERICANS FOR PROSPERITY
FOUNDATION,

)
)
)
Plaintiff,
) CASE NO.
) CV 14-9448
vs.
) -R
)
KAMALA HARRIS, in her
)
Official Capacity as Attorney
) Volume II
General of California,
) (Pages
) 1 – 133)
Defendant.
)
____________________________________)
REPORTER’S TRANSCRIPT OF PROCEEDINGS
COURT TRIAL – DAY FIVE

497
LOS ANGELES, CALIFORNIA
THURSDAY, MARCH 3, 2016
1:09 P.M.
*****
[99] Q. Same is true for students who are employed by
the registry; they all have access to the Schedule Bs?
A That is correct.
Q. There are no physical or technical impediments
that prevent employees from downloading Schedule
Bs to a computer, are there?
A. No, there are not.
Q. There are no physical or technical impediments
that prevent employees from e-mailing Schedule Bs
however they may please externally; isn’t that true?
A. There are no -- that’s correct.
Q. There are no physical or technical impediments
that prevent registry personnel from printing
Schedule Bs, are there?
A That’s correct, other than maybe not having a
printer, but -Q. But they have printers at the registry, don’t they?
A. That’s correct.
Q And there’s nothing that prevents an employee
from sending a Schedule B to any of those printers for
printing, is there?
A That’s correct. It’s a secure work area, so -Q There are no physical or technical impediments
that prevent anyone at the registry from taking a

498
printed Schedule B outside of the secure area with
them, are there?
A There are no physical impediments, that’s correct.
[100] Q And there are no physical or technical
impediments that prevent anyone at the registry from
accessing a Schedule B and putting it on a thumb
drive that they then take out of the office, are there?
A That’s correct. There are procedural and obviously
policy impediments, but there are no physical or
systemic impediments.
Q And as to the policy impediments that you are
referring to, none of those specifically references
Schedule B; isn’t that true?
A That’s correct. It more generally talks about
confidential documents, confidential information.
*****

